<html>
<title> - HEARING ON PENDING BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 110-188]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-188

                HEARING ON PENDING BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate























                     U.S. GOVERNMENT PRINTING OFFICE

36-539 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





























                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Larry E. Craig, Idaho, Ranking 
    Virginia                             Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Richard M. Burr, North Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Kay Bailey Hutchison, Texas
Jon Tester, Montana                  John Ensign, Nevada
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



























                            C O N T E N T S

                              ----------                              

                              May 9, 2007
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Craig, Hon. Larry E., Ranking Member, U.S. Senator from Idaho....     3
    Prepared statement...........................................     4
Webb, Hon. Jim , U.S. Senator from Virginia......................     5
    Prepared statement...........................................     6
Murray, Hon. Patty, U.S. Senator from Washington.................     7
Sanders, Hon. Bernard, U.S. Senator from Vermont.................     8
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    10
Obama, Hon. Barack, U.S. Senator from Illinois...................    10
Cantwell, Hon. Maria, U.S. Senator from Washington...............    34
Tester, Hon. John, U.S. Senator from Montana.....................    46
Brown, Hon. Sherrod, U.S. Senator from Ohio......................   121

                               WITNESSES

Cooper, Hon. Daniel L., Under Secretary for Benefits, Department 
  of Veterans Affairs; accompanied by John H. Thompson, Deputy 
  General Counsel, Department of Veterans Affairs................    11
    Prepared statement...........................................    13
    Response to written questions submitted by:
      Hon. Patty Murray..........................................    25
      Hon. Barack Obama..........................................    26
      Johnny Isakson.............................................    33
Beck, Meredith, National Policy Director, Wounded Warrior Project 
  (WWP)..........................................................    49
    Prepared statement...........................................    51
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    53
Blake, Carl, National Legislative Director, Paralyzed Veterans of 
  America........................................................    53
    Prepared statement...........................................    54
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    61
Hilleman, Eric, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    62
    Prepared statement...........................................    64
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    69
Hollingsworth, Kimo S., National Legislative Director, American 
  Veterans (AMVETS)..............................................    70
    Prepared statement...........................................    71
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    74
Lawrence, Brian E., Assistant National Legislative Director, 
  Disabled American Veterans.....................................    75
    Prepared statement...........................................    76
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    86
Norton, Colonel Robert F., USA (Ret.), Deputy Director, 
  Government Relations, Military Officers Association of America.    88
    Prepared statement...........................................    90
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................    95
Petkoff, Alec S., Assistant Director, Veterans Affairs and 
  Rehabilitation Commission, The American Legion.................    95
    Prepared statement...........................................    97
      Addendum...................................................   107
    Response to written question submitted by Hon. Daniel K. 
      Akaka......................................................   117

                                APPENDIX

Ciccolella, Hon. Charles A., Assistant Secretary, Veterans' 
  Employment and Training Service, Department of Labor; prepared 
  statement......................................................   125
Sweeney, Legislative Director, National Association of State 
  Approving 
  Agencies; prepared statement...................................   126
Greene, Hon. William P., Jr., Chief Judge; letter................   130
Chisholm, Robert V. Chisholm, Past President, National 
  Organization of Veterans' Advocates; letter....................   132
Repka, Michael, X., Secretary of Federal Affairs, American 
  Academy of 
  Ophthalmology; letter..........................................   133

























 
                HEARING ON PENDING BENEFITS LEGISLATION

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:29 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Obama, Brown, Tester, 
Webb, Sanders, Craig, and Isakson.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The hearing on pending benefits legislation 
of the Committee on Veterans' Affairs will come to order.
    Good morning and Aloha. Welcome everyone to the Committee's 
hearing on pending benefits legislation. We have a 
comprehensive agenda today and I will make my opening remarks 
quite brief so that we can get started.
    The ongoing conflicts in Iraq and Afghanistan have brought 
the needs of veterans and their families to the forefront and, 
as a result, there are many bills on the agenda. Many of these 
bills focus on the needs of the highest priority veterans--
those with service-connected disabilities. Recognition of the 
special needs of these veterans is a necessary measure of 
gratitude afforded to those veterans whose lives were 
irrevocably altered by their service to this country.
    There are also a number of bills before us this morning 
that we have seen in prior Congresses and others that are new. 
These may reflect the change in leadership in the Senate. My 
belief is that the Committee should look at all items except 
for those that have had no support in previous years. Thus, we 
have a full schedule today. I am pleased that so many have 
taken an active interest in the well-being of our Nation's 
finest citizens.
    I want to speak very briefly about the items on the agenda 
that I have introduced:
    First, S. 423, Veterans' Compensation Cost-of-Living 
Adjustment Act of 2007, which I introduced with my good friend 
and Ranking Minority Member, Senator Craig, and five other 
Members of this Committee on January 29, would increase the 
rates of compensation for veterans with service-connected 
disabilities and the rates of dependency and indemnity 
compensation for the survivors of certain disabled veterans, 
among other benefits, effective December 1, 2007.
    Many of these more than three million recipients of those 
benefits depend upon these tax-free payments not only to 
provide for their own basic needs, but those of their spouses, 
children and parents as well. Without an annual COLA increase, 
these veterans and their families would see the value of their 
hard-earned benefits slowly diminish, and we, as a Congress, 
would be in dereliction of our duty to ensure that those who 
sacrificed so much for this country receive the benefits and 
services to which they are entitled.
    Disbursement of disability compensation to our Nation's 
veterans constitutes one of the core missions of the Department 
of Veterans Affairs. It is a necessary measure of gratitude 
afforded to those veterans whose lives were irrevocably altered 
by their service to this country.
    Second, S. 1163, Blinded Veterans Paired Organ Act of 2007, 
which I introduced along with three other Members of this 
Committee, would amend the eligibility requirements for two 
specific benefits provided to veterans with a service-connected 
disability due to blindness.
    I have also introduced two bills intended to address needs 
of veterans with respect to various insurance programs:
    S. 643, the Disabled Veterans Insurance Act of 2007, would 
increase the maximum amount of supplemental life insurance 
available to totally disabled veterans, under the Service 
Disabled Veterans Insurance program, from $20,000 to $40,000, 
bringing the total value of this benefit for totally disabled 
veterans up to $50,000.
    S. 1315, the Disabled Veterans Insurance Improvement Act of 
2007, would increase the maximum amount of Veterans' Mortgage 
Life Insurance that a service-connected disabled veteran may 
purchase from the current cap of $90,000 to $200,000. This 
provision would ensure that this important benefit, that helps 
secure the financial future of many veterans and their 
families, keeps pace with changes in the economy. This 
legislation would also establish a new life insurance program 
for disabled veterans that provides up to a maximum of $50,000 
in level-premium term life insurance coverage. Importantly this 
program would be based on the 2001 Commissioners Standard 
Ordinary Basic Table of Mortality rather than the 1941 
mortality table that the Service-Disabled Veterans Insurance 
program is based upon.
    Finally, S. 1215 would make a number of small but necessary 
changes in existing laws relating to education and employment. 
It would raise the funding cap for State Approving Agencies and 
update various reporting requirements for employment and 
unemployment statistics collected by the Department of Labor. 
In addition it would provide for a waiver of the residency 
requirement for State Veterans' Employment and Training 
directors and a two-year extension of a rate increase for on-
the-job and apprenticeship 
training.
    As is the case every Session, the biggest hurdle for 
implementation of these bills into law is cost. I am working to 
find appropriate offsets within the Committee's jurisdiction.
    I thank the witnesses from VA and other organizations for 
coming today to share their views. I am sympathetic to the fact 
that the number of measures before us this morning is unusually 
large and that a number of them may have been added to the 
agenda only recently. Witnesses may not have had an opportunity 
to review them and formulate positions. Therefore, the 
Committee will hold the record of this hearing open for two 
weeks so that witnesses can submit supplemental views on any 
legislative item. It is important that we have your input well 
in advance of our mark up that is tentatively scheduled for 
June.
    I look forward to hearing from each of you this morning.
    Now I will call on Senator Craig for his statement.

       STATEMENT OF HON. LARRY E. CRAIG, RANKING MEMBER, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Well, thank you very much, Mr. Chairman. 
Holding this hearing and moving these pieces of legislation, I 
think is critical to our veterans agenda here in the Senate. 
You have introduced a variety, as have I. There are six of 
these pieces of legislation that I have introduced and I will 
mention them briefly.
    S. 225 expands eligibility for retroactive benefits under 
the traumatic injury protection under Servicemembers' Group 
Life Insurance program and that is going to be extremely 
important as it relates to the type of coverage, because right 
now, that is only in theater. This allows out-of-theater. In 
fact, it is my understanding we have a young man in the 
audience today who would benefit from this, Toshiro Carrington, 
who lost a hand in an explosive event. It occurred outside the 
war zone, so he is not eligible. This would allow eligibility 
of the kind that would fit his particular injury and I think 
that is important. No matter where you serve, if you are 
serving our country and you are injured traumatically, the 
benefit should be available to you.
    S. 1265 expands eligibility for Veterans' Mortgage Life 
Insurance to include servicemembers receiving specially adapted 
housing assistance.
    S. 1266 increases aid to States in interring veterans by 
increasing the plot allowance paid to States by VA, repealing 
the time limitation within which States must apply for 
reimbursement from VA, and expanding VA's ability to provide 
grants to States to operate State cemeteries.
    S. 1289 modifies the salary terms and recall rules 
affecting the judges of the Court of Appeals for Veterans 
Claims. Let me stop there for a moment, Mr. Chairman, and say 
over my Chairmanship and now as a Ranking Member, I have spent 
a good deal of time with the Court. Thanks to all of our 
effort, we now have it at full speed, meaning all of the judges 
that are eligible for the Court have been appointed, nominated, 
or, I should say, nominated, appointed, and are actively 
serving. They have recalled judges that are in retirement to 
bring them back to bring down the caseload. I was over recently 
again to visit with the Chief Judge and other judges and it is 
very impressive, what they have accomplished and what they are 
accomplishing in bringing down the caseload, and yet the cases 
are still there and they are large in number. We have veterans 
waiting. We believe this legislation helps improve the 
character of the Court as it relates to the need to be timely 
and responsible.
    S. 1290 overhauls the law governing State Approving 
Agencies to provide VA with the flexibility in contracting with 
SAAs, require coordination with other entities that approve 
educational institutions, and require accountability.
    And lastly, my last one, S. 1293, improves and updates 
educational programs for veterans, Guard and Reserve members, 
and spouses and children of veterans, so it is an expansion of 
the overall educational benefits as a part of that.
    Thank you very much, and again, thank you for holding this 
hearing.
      Prepared Statement of Hon. Larry E. Craig, Ranking Member, 
                        U.S. Senator from Idaho
     Let me first thank our witnesses for responding to a task that I 
can only liken to the 12 labors of Hercules. Giving us your views on 26 
bills is quite an undertaking. Thank you for your work.
     Mr. Chairman, we have quite a challenge on our hands. If I had to 
venture a guess I'd say the collective cost of all 26 bills on today's 
agenda is over $100 billion. And we have yet to even consider health 
care legislation, a task we will take up in a couple of weeks.
     All of us on this Committee and in this Congress want to improve 
benefits and services for our veterans. I myself have six bills on 
today's agenda. But I am also committed to keeping our fiscal house in 
order, and I do not exempt my own legislation from that imperative.
     Let me read from a budget letter signed a decade ago by all of the 
Members, Republicans and Democrats, of the Senate Committee on 
Veterans' Affairs. There are five of us who signed that letter still 
serving on the Committee today. The sentiments expressed were 
appropriate then, and I believe they provide an excellent framework for 
debate on new legislative proposals--and how we should pay for those 
proposals--today:
     In preparing these comments, the Committee's Members have kept in 
mind the fiscal limitations within which we must operate if we are to 
get Federal spending under control and thereby reduce the Federal 
deficit and debt. We believe that the Government can be fiscally 
responsible while still fulfilling its commitments to the most 
deserving among us--including our Nation's veterans. We also are 
mindful of the fact that uncontrolled Federal spending threatens the 
long-term health of the Nation's economy and, in turn, could adversely 
affect the provision of veterans' benefits. Thus, we recognize that 
those who have worn the uniform in defense of the Nation seek, as we 
do, to protect the health of the Nation's economy.
     With that Mr. Chairman, let me take a few minutes to give a brief 
description of each of my bills. Our witnesses will provide a fuller 
description in their testimony, so in the interest of time and to avoid 
redundancy, I will be brief.
    (1) S. 225 would expand eligibility for retroactive benefits under 
the traumatic injury protection under Servicemembers' Group Life 
Insurance program.
    (2) S. 1265 would expand eligibility for veterans' mortgage life 
insurance to include servicemembers receiving adapted housing grant 
assistance from VA.
    3) S. 1266 would increase aid to states in interring veterans by 
increasing the plot allowance paid to states by VA; repealing the time 
limitation within which states must apply for reimbursements from VA; 
and expanding VA's ability to provide grants to states to operate state 
cemeteries.
    (4) S. 1289 would help ensure the long-term ability of the United 
States Court of Appeals for Veterans Claims to promptly dispense 
justice in all veterans cases.
    (5) S. 1290 would modernize outdated laws governing State approving 
agencies (SAAs) to meet the demands of today's veterans. It would do 
this by providing VA with flexibility in contracting with SAAs; 
enhancing coordination with other entities that approve educational 
institutions; and would promote greater accountability for performance.
    .  .  .  . and finally,
    (6) S. 1293 would improve and update educational programs for 
veterans, Guard and Reserve members, and spouses and children of 
veterans.
     This diverse selection of bills would, in my view, address a 
number of important issues affecting our veterans. I believe they 
provide a good starting point for improving and updating laws affecting 
veterans' benefits.
     Again, thank you all for being here today. I look forward to 
hearing your 
testimony.

    Chairman Akaka. Thank you very much, Senator Craig.
    I would like to call for statements from Senator Webb, 
Senator Murray, and Senator Sanders. Senator Webb?

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I appreciate your 
holding these hearings today and I am pleased that the 
Committee is considering so many pieces of worthwhile 
legislation. I would like to spend a few minutes discussing the 
bill that I introduced earlier this year, the Veterans 
Educational Assistance Act, S. 22.
    I am a veteran. I come from a family with a long history of 
military service. I would like to say it would be difficult for 
me to be sitting here today if it wasn't for the gracious 
assistance that I received in my educational entitlements from 
the United States Government.
    This bill that I have introduced has ten cosponsors. It has 
broad support among veterans groups, active support and also 
the testimony from a number of witnesses today, and I think we 
are seeing increased support.
    It is designed to expand educational benefits to these 
people who have served after 9/11 in the tradition that the 
benefits people coming back from World War II received, 
offering educational assistance much more broadly than exists 
today. In the 1940s, as you are aware, Mr. Chairman, the GI 
Bill helped transform entire notions of equality in our 
society. It was designed to help veterans readjust to civilian 
life, to avoid unemployment, and to give them the opportunity 
to reach the level of their talent. The post-World War II GI 
Bill paid for veterans tuition, it bought their books, it paid 
fees, and it also gave them a monthly stipend, and nearly eight 
million veterans after World War II were able to use this 
benefit.
    The bill that I have introduced is a mirror of the World 
War II GI Bill. It is designed to give the appropriate level of 
recognition and respect to people who have been serving since 
9/11 rather than having to rely on the Montgomery GI Bill, 
which is a peacetime bill, and requires a pay-in. It was not a 
bad GI Bill when the operational tempo was less and when the 
country was in a different situation.
    I am not going to go through all of the different elements 
in the bill that I introduced. I would like to have a longer 
statement submitted for the record, if I may.
    But I just want to say that when we are talking about truly 
honoring service and truly taking care of the people who have 
served in an affirmative way, I can't think of a better thing 
to do than to allow them to reach the level of their talent 
with the type of educational assistance that will allow them to 
go to any school that they can get into. We are not seeing that 
today. The Montgomery GI Bill--I can say this from years now of 
association with people who have been serving since 9/11, 
younger folks--the Montgomery GI Bill makes it very tough for 
these young men and women to get into better schools which they 
might be able to if they had this kind of assistance.
    I believe this bill will have a positive effect on military 
recruitment, despite what we have heard from some people in the 
Administration, because it will broaden the socio-economic 
make-up of the military and it will reduce the direct costs of 
recruitment.
    So I hope we can have support for this bill. I am pleased 
to receive testimony on it and I look forward to the rest of 
the hearing. Thank you.
    [The prepared statement of Senator Webb follows:]
    Prepared Statement of Hon. Jim Webb, U.S. Senator from Virginia
    I am pleased that this Committee is considering so many pieces of 
worthwhile legislation. Among those bills, I would like to discuss the 
Post-9/11 Veterans Educational Assistance Act of 2007.
    As a veteran who hails from a family with a long history of 
military service, I am proud to have offered this bill as my first 
piece of legislation in the U.S. Senate on January 4 of this year.
    This bill has ten cosponsors and is supported by the Enlisted 
Association of the National Guard of the United States (EANGUS), the 
Veterans of Foreign Wars (VFW), the Vietnam Veterans of America (VVA), 
and the Air Force Sergeants Association. Moreover, the written 
testimony of many of today's witnesses indicates further broad support 
for this bill.
    The Post-9/11 Veterans Educational Assistance Act of 2007 is 
designed to expand the educational benefits that our Nation offers to 
the brave men and women who have served us so honorably since the 
terrorist attacks of September 11, 2001.
    Most of us know that our country has a tradition--since World War 
II--of offering educational assistance to returning veterans. In the 
1940s, the first ``GI bill'' helped transform notions of equality in 
American society. The GI Bill program was designed to help veterans 
readjust to civilian life, avoid high levels of unemployment, and give 
veterans the opportunity to receive the education and training that 
they missed while bravely serving in the military.
    The post-World War II GI Bill paid for veterans' tuition, books, 
fees, and other training costs, and also gave a monthly stipend. After 
World War II, 7.8 million veterans used the benefits given under the 
original GI Bill in some form, out of a wartime veteran population of 
15 million.
    Let me briefly summarize some of the reforms that are contained in 
the bill I am introducing today.
    First, these increased educational benefits will be available to 
those members of the military who have served on active duty since 
September 11, 2001. In general, to qualify, veterans must have served 
at least 2 years of active duty, with at least some period of active 
duty time served beginning on or after September 11, 2001.
    This legislation also includes those who have served in the Reserve 
and National Guard. Those who have an aggregate total of 24 months 
active duty since 9/11 will be eligible for month for month education 
benefits. Those in the Reserve and National Guard who have been on 
active duty for 36 months or more will be eligible for the whole 
benefit.
    Next, the bill provides for educational benefits to be paid for a 
duration of time that is linked to time served in the military. 
Generally, veterans will not receive assistance for more than a total 
of 36 months, which equals four academic years.
    Third, as I mentioned a moment ago, my bill would allow veterans 
pursuing an approved program of education to receive payments covering 
the established charges of their program, room and board, and a monthly 
stipend of $1,000. Moreover, the bill would allow additional payments 
for tutorial assistance, as well as licensure and certification tests.
    Fourth, veterans would have up to fifteen years to use their 
educational assistance entitlement. But veterans would be barred from 
receiving concurrent assistance from this program and another similar 
program, such as the Montgomery GI Bill program.
    Finally, under this bill, the Secretary of Veterans Affairs would 
administer the program, promulgate rules to carry out the new law, and 
pay for the program from funds made available to the Department of 
Veterans Affairs for the payment of readjustment benefits.
    Again, I note that the benefits I have outlined today essentially 
mirror the benefits allowed under the GI Bill enacted after World War 
II. That bill helped spark economic growth and expansion for a whole 
generation of Americans. The bill I introduce today likely will have 
similar beneficial effects. As the post-World War II experience so 
clearly indicated, better educated veterans have higher income levels, 
which in the long run will increase tax revenues.
    Moreover, a strong GI Bill will have a positive effect on military 
recruitment, broadening the socio-economic makeup of the military and 
reducing the direct costs of recruitment.
    Perhaps more importantly, better-educated veterans have a more 
positive readjustment experience. This experience lowers the costs of 
treating Post Traumatic Stress Disorder and other readjustment-related 
difficulties.
    The United States has never erred when it has made sustained new 
investments in higher education and job training. Enacting the Post-9/
11 Veterans Educational Assistance Act of 2007 is not only the right 
thing to do for our men and women in uniform, but it also is a strong 
tonic for an economy plagued by growing disparities in wealth, stagnant 
wages, and the outsourcing of American jobs.
    I am a proud veteran who is honored to serve this great Nation. As 
long as I represent Virginians in the U.S. Senate, I will make it a 
priority to help protect our brave men and women in uniform.

    Chairman Akaka. Thank you very much, Senator Webb.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, thank you very much, Mr. Chairman, 
for holding this really important hearing. I also have a 
hearing at DOD with Secretary Gates, so I won't be able to stay 
for all the hearing, but I want all the witnesses to know that 
we have your testimony and we will be following it. I am 
pleased to see a number of really excellent bills coming before 
the Committee today because, for me, as you know, it is keeping 
a promise to those who served us and we are looking at a number 
of pieces of legislation today that will help us keep that 
promise.
    You know, when I talk to my veterans at home today, they 
often tell me that they are forced to wait months or even years 
to get their claims processed. We are hearing about veterans 
who are getting different ratings and different benefits across 
the country and arbitrary limits on too many of the benefits 
that slam the door in the face of a lot of our veterans. We 
have a lot of veterans who are coming home from serving us 
overseas today, and when they do, they find themselves fighting 
their own government, and to me, that is just wrong.
    There are a lot of good ideas we are considering today. I 
do have two bills before the Committee I just wanted to 
highlight real quickly, both of them having to do with benefits 
that are denied because of artificial or arbitrary deadlines. 
When our servicemembers answer the call from our country and 
they get home and are hit by an asterisk, it is very 
frustrating. Some arbitrary exclusion suddenly makes them 
ineligible for the benefits that they should receive, and I 
have often found that these exclusions aren't based on any kind 
of logic, but they are just arbitrary, artificial limits.
    I have two bills, one having to do with prisoners of war 
benefits, because today, if you are a prisoner of war for more 
than 30 days, you get benefits. If you are held in captivity 
for 29 days, then you are just told, sorry, no help available 
for you, and to me, that is extremely arbitrary.
    The second one has to do especially with our Gulf War 
veterans who are developing multiple sclerosis at extremely 
high rates and they are told, if you are diagnosed within 7 
years, you get benefits, but if you are diagnosed one day 
later, you are denied benefits. Well, MS is a disease I am 
extremely familiar with. My father, who was a World War II 
veteran, was diagnosed with multiple sclerosis, was in a 
wheelchair most of my life, and I know how difficult that 
disease is to diagnose. For veterans who don't get the right 
care or don't have the ability to get diagnosed quickly, to me, 
it is just wrong to deny them the benefits because they finally 
got diagnosed a day late.
    So I have two bills that address both of those issues and I 
am glad the Committee is considering them and hope that they 
will be approved later on.
    I would just add for all of us, we should know that a 
significantly high number of veterans who served in the Persian 
Gulf during the Gulf War do have MS and we don't know what the 
exact cause is. It could be experimental vaccines or toxins 
from the oil well fires or Sarin exposure or pesticides, combat 
stress. We don't know, but I think it is something that we all 
need to be focused on because we are now seeing the same kinds 
of effects from our veterans who are coming home from Iraq, and 
as they are there longer and come home, I think it is something 
we do need to keep track of.
    So I hope, Mr. Chairman, that we can approve both of those 
bills that I have and I commend many Members of our Committee 
who have brought forward really excellent pieces of legislation 
today.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Sanders?

              STATEMENT OF HON. BERNARD SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman, for 
holding this important hearing. I don't think that there is 
much debate that for many, many years now, we have not treated 
our veterans with the respect and the dignity to which they are 
entitled. The idea that there are waiting lines all over 
America today, the idea that in recent years the VA has thrown 
hundreds and hundreds of Category 8 veterans off of VA health 
care is to my mind not acceptable. At a time when this 
government believes that we can provide hundreds and hundreds 
of billions of dollars to the wealthiest three-tenths of 1 
percent of the American people, I think we can take care of 
veterans and give them the health care and other benefits that 
they are entitled to.
    Mr. Chairman, as you well know, over the years, we have 
seen a number of the veterans service organizations come 
together in, I think, a wonderful effort to create what we call 
the Independent Budget. These veterans service organizations, 
which include AMVETS, the Disabled American Veterans, Paralyzed 
Veterans of America, the VFW, they have spent an enormous 
amount of time with some of the leading experts in this country 
to come up with a document. It is a document called the 
Independent Budget and they have assessed what they, as 
veterans, believe the needs of veterans are.
    I want to thank many of those veterans service 
organizations for working with me and my staff in developing 
legislation that we think essentially incorporates virtually 
all of the concerns that the veterans service organizations 
have had through the Independent Budget, and we have introduced 
legislation, which is S. 1326, which does just that. We have 
worked with the veterans, and again, I want to thank them for 
their help on this. In many ways, what we have done is put into 
legislative form the Independent Budget.
    Now, what are the areas that were covered? Very briefly, 
Category 8 veterans, while all of us should be very concerned 
about taking care of the 24,000 veterans who are coming back 
from Iraq who have been wounded and the tens of thousands more 
who have PTSD and TBI, let us not forget the veterans who 
served in World War II, Korea, Vietnam, Gulf War I, and so 
forth. I think that if people put their lives on the line to 
defend this country, you don't throw them off of VA health care 
because they have incomes of over $28,000. This legislation 
addresses that, puts them back into the system. This 
legislation deals with dependency and indemnity compensation, 
survivor plan offset.
    It deals with the over 400,000 backlogged claims at the VA. 
How many times, Mr. Chairman, have we heard people coming 
before us where people are waiting month after month after 
month, year after year after year, to get their claims 
processed? This is not acceptable and we are going to have to 
spend the money to get the staff to address that problem.
    This legislation also amends other benefit programs 
important to veterans. Over time, Congress and the Department 
of Veterans Affairs have added many benefits and assistance 
programs for our Nation's veterans and their families. As with 
many other programs, the benefits did not meet all the needs of 
our veterans and others and have not been updated in many 
years, rendering many of the benefits much less useful.
    For example, the Independent Budget notes the low level of 
grants the VA gives severely disabled veterans for adapting 
their automobiles. In 1946, the $1,600 allowance represented 85 
percent of average retail cost and a sufficient amount to pay 
the full cost of automobiles in the low-priced field. By 
contrast, in 1997, the allowance was $5,500, except the need 
now is about $21,000. So we have got to update that. If we are 
going to give people grants, we want to make them relevant to 
the year 2007, et cetera, et cetera.
    Burial benefits are similar. I think right now, the 
Congress provides burial benefits of $300, Mr. Chairman. Well, 
if anyone can do a burial for $300, let me know about it. 
Obviously, that is no longer realistic in the year 2007 and 
this legislation substantially expands that.
    Bottom line, Mr. Chairman, it is time for us to address the 
real problems facing our veterans in a comprehensive way. It is 
going to be expensive, but we have the moral obligation to do 
the right thing and I think our legislation is fairly 
comprehensive in covering many of the needs that veterans have 
brought forth.
    Thank you very much.
    Chairman Akaka. Thank you very much, Senator Sanders.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I appreciate you 
calling the hearing and I will be very brief so we can get to 
Admiral Cooper to hear from him.
    I would like to compliment all my other fellow Committee 
Members in focusing on legislation to improve veterans 
benefits. My interest has been with the Gulf War, the War in 
Iraq, the War in Afghanistan and a more seamless and a better 
transition from DOD to veterans health care. I have focused in 
a number of these hearings on what General Schoomaker, who is 
now head at Walter Reed, did in Augusta with the hand-off from 
DOD to the veterans facility there, where we are doing 
tremendous work on those veterans who have prostheses and other 
types of results of the war, where the hand-off has been 
seamless. The VA is now able to take a load off the DOD and the 
veterans health care is really second to none in that facility. 
I am hoping that we can use that as a template for other 
veterans facilities around the country to have a more seamless 
hand-off from DOD to the Veterans' Administration medical 
facilities.
    So I look forward to hearing from Admiral Cooper and I 
appreciate very much your calling the hearing today, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Isakson.
    Senator Obama?

                STATEMENT OF HON. BARACK OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you, Mr. Chairman. I want to thank 
Ranking Member Craig, as well, and your staff for putting the 
legislative hearing together today.
    Before I discuss the specific legislation, I want to say a 
few words about a troubling news report from last week. 
According to AP, the VA has paid more than $3.8 million in 
bonuses to its staff, including bonuses of up to $33,000 to 
officials who crafted the Department's flawed budgeting that 
led to a billion-dollar shortfall. Bonuses were also paid to VA 
officials who managed the disability claims system despite the 
fact that there is almost a six-month wait for veterans to 
receive their decisions. According to this report, bonuses for 
senior VA officials now average $16,000, the most of any 
Federal agency. I know others on this Committee share my 
concern about these bonuses.
    I am a strong supporter of Federal services, but I want to 
press the Department to provide more detailed information about 
these bonuses. Chairman Akaka and his staff have already done 
excellent work in analyzing the apparent disparities in these 
bonus awards, but we need additional information and comment 
from the VA, including a full justification of these bonuses, 
and I ask you to relate this request to Secretary Nicholson. 
Admiral Cooper, I would also like to hear your views today on 
what criteria you think are fair in determining bonus awards 
going forward.
    Let me now turn to today's agenda. Under discussion are 
provisions of the Lane-Evans Veterans Health Benefits 
Improvement Act, which I introduced over the past two 
Congresses. This bill would enhance outreach to members of the 
National Guard and Reserves before they separate from service 
and require more comprehensive information tracking and 
reporting from VA and DOD. The measure would also establish 
one-on-one, face-to-face mental health screenings for all 
returning servicemembers and require individual electronic 
records upon discharge.
    Each day, we see the consequences of both poor planning 
within the VA and inadequate information tracking of the needs 
of our veterans. We continue to receive deeply troubling 
reports of lengthy and unnecessary bureaucratic delays in 
benefit claims and long delays in obtaining health 
appointments. As a result, many of our heroes languish with 
serious mental and physical health conditions while awaiting VA 
care, and I believe we can do better.
    The Global War on Terrorism Veterans Information System 
that I proposed under the Lane-Evans Act would enable better 
planning and assist the VA, as well as Congress, in setting 
policy to help our veterans. The VA argues that maintaining 
this system and submitting quarterly reports is too onerous and 
potentially costly. I would argue that the recent trend of 
budget shortfalls and an overwhelmed benefits system justify a 
more robust effort to anticipate veterans needs.
    I am also proud that this measure would help address the 
current disparity in how members of the National Guard and 
Reserves access the benefits to which they are entitled. This 
Act would enhance important outreach efforts to such members 
before they separate.
    So, Mr. Chairman, I welcome the opportunity to work with 
the Chairman in passing the Lane-Evans Act and I thank the 
veterans service organizations that are here today who have 
provided invaluable feedback. Thank you.
    Chairman Akaka. Thank you very much, Senator Obama.
    Senator Craig. Mr. Chairman?
    Chairman Akaka. Senator Craig?
    Senator Craig. Before we proceed to our witnesses, let me 
ask unanimous consent that my full statement be a part of the 
record.
    Chairman Akaka. Without objection, it will be part of the 
record.
    Senator Craig. Thank you.
    Chairman Akaka. And now I welcome our witnesses from VA, 
Admiral Daniel Cooper, Under Secretary for Benefits, who is 
accompanied by Mr. Jack Thompson, Deputy General Counsel. I 
thank you for being here. I want you to know that your full 
statement will be placed in the record of this hearing.
    Admiral Cooper, we will lead off with you.

    STATEMENT OF HON. DANIEL L. COOPER, UNDER SECRETARY FOR 
           BENEFITS, DEPARTMENT OF VETERANS AFFAIRS; 
   ACCOMPANIED BY JOHN H. THOMPSON, DEPUTY GENERAL COUNSEL, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Admiral Cooper Thank you, sir. Mr. Chairman, Members of the 
Committee, I would like to briefly mention our views on just a 
few of the bills on today's agenda. I regret that time has not 
permitted us to have cleared views and estimates on all those 
that we have seen just recently.
    On S. 117, the VA would be pleased to consult with the 
Department of Defense as provided in S. 117, the Lane-Evans 
Veterans Health and Benefits Improvement Act of 2007, regarding 
the military services outreach to members of the National Guard 
and the Reserve and to help explain Federal benefits and 
services available upon deactivation. We would work with these 
services to reach the greatest number of veterans. Hence, we 
would not limit ourselves merely to the limited time frame of 
Benefits Delivery at Discharge.
    This bill would also require VA to establish and maintain a 
comprehensive record of the veterans of the Global War on 
Terror who seek VA benefits and services and a record of the 
benefits and services we provided them. We are very concerned 
that the bill's requirements to compile and frequently report 
to Congress massive amounts of data, much of which is not 
currently available in the detail and manner specified, would 
require us to divert considerable resources from our primary 
responsibilities of providing timely and accurate benefits and 
services to all our veterans. We believe the costs of 
compliance would be very consequential and, therefore, we are 
unable to support these provisions of the bill. However, we 
would welcome the opportunity to work with your staff to 
identify program information that is currently lacking and that 
would be most helpful to the Committee in meeting its 
responsibilities.
    S. 225 would eliminate the requirement that a qualifying 
traumatic injury for the TSGLI program be the direct result of 
action in Operation Enduring Freedom and Iraqi Freedom. The 
elimination of this requirement would increase the number of 
individuals who could qualify retroactively for traumatic 
injury coverage for injuries sustained prior to the general 
effective date of the TSGLI coverage. We defer to DOD on this 
bill because DOD would be responsible for the additional costs 
associated with this change.
    S. 423, the Veterans Compensation Cost-of-Living Adjustment 
Act of 2007, would mandate a COLA adjustment in the rates of 
disability compensation and the dependency and indemnity 
compensation payable for periods beginning on or after December 
1, 2007. We wholeheartedly support the proposed COLA, which is 
consistent with the President's recommendation.
    S. 847, VA does not support enactment of S. 847. This bill 
would eliminate the requirement that the manifestation of 
multiple sclerosis must occur within seven years of separation 
from service to trigger the presumption of service connection. 
The current presumptive period of seven years is already the 
most generous one provided under the chronic disease provisions 
of the current law and we are aware of no scientific or medical 
justification for lifelong presumption.
    S. 1096 would expand VA's Housing Adaptation Assistance 
Programs for veterans and active duty servicemembers who have 
severe disabilities. First, it would authorize home 
improvements and structural alterations for certain totally 
disabled servicemembers. VA has no objection to this provision.
    Next, it would make specially adapted housing assistance 
available to disabled veterans with severe burn injuries. VA 
favors this provision but recommends including disabled active 
duty servicemembers and excluding burn injuries from the 
requirement to be permanent disability.
    S. 1096 would also allow disabled members of the Armed 
Services to receive these grants while temporarily residing in 
housing owned by family members. VA supports this objective but 
would like to work with the Committee staff to improve the 
drafting of this provision.
    S. 1163, Section 2 of the Blinded Veterans Paired Organ Act 
of 2007 would liberalize the eligibility for compensation and 
for specially adapted housing benefits for veterans in certain 
cases of impairment of vision involving both eyes. Subject to 
Congress's enactment of legislation offsetting the increased 
costs associated with this enactment, VA supports the 
compensation amendment because it would treat visual impairment 
in both eyes similarly to the way hearing loss in both ears is 
treated under the current law. VA opposes, however, the 
specially adapted housing amendment because it would treat 
visual impairment differently from the manner in which the 
other qualifying disability, anatomical loss, or loss of use of 
both hands, is treated.
    Mr. Chairman, this concludes my statement. I would be happy 
to entertain questions.
    [The prepared statement of Admiral Cooper follows:]
             Prepared Statement of Hon. Daniel L. Cooper, 
      Under Secretary for Benefits, Department of Veterans Affairs
    Chairman and Members of the Committee, thank you for the 
opportunity to testify today on several bills of great interest to 
veterans. I will comment today only on the provisions of the bills that 
affect the Department of Veterans Affairs (VA).
                                 s. 117
    Section 104 of S. 117, the ``Lane Evans Veterans Health and 
Benefits Improvement Act of 2007,'' would require the Department of 
Defense (DOD) to provide members of the National Guard and Reserve 
comprehensive outreach on the Federal benefits and services available 
upon deactivation from active duty and upon discharge or release from 
the Armed Forces. It would also require DOD to consult with the 
Secretary of Veterans Affairs and other Federal officials and to report 
to Congress on its actions in this regard.
    VA supports the provision of outreach to members of the National 
Guard and Reserve. However, VA believes such outreach should be 
provided through the Pre-Discharge program rather than through the 
Benefits Delivery at Discharge program (BDD). Servicemembers can 
participate in the Pre-Discharge program within 180 days of discharge. 
The BDD program, which is a part of the Pre-Discharge program, has more 
restrictive time frames for participation. Therefore, outreach efforts 
conducted in conjunction with the Pre-Discharge program would be more 
likely to reach a greater number of servicemembers. At this time, VA 
cannot determine the costs that would be associated with this 
provision.
    Section 201 of S. 117 would define temporally and geographically 
the term ``Global War on Terrorism.'' Because the term ``Global War on 
Terrorism'' appears nowhere else in title 38, United States Code, this 
definition is apparently intended for purposes of section 202, which is 
addressed below. However, even though S. 117 would not add the Global 
War on Terrorism to the list in 38 U.S.C. Sec. (11) of ``period[s] of 
war'' for VA benefit purposes or terminate the Persian Gulf War period, 
which is the period of war we are currently in, this amendment could 
cause confusion as to whether a veteran who served in the Global War on 
Terrorism would be considered to be a veteran of two periods of war. In 
addition, this definition would be unnecessary in view of our 
objections to sections 202 and 203 of the bill.
    Section 202 would require VA to establish and maintain an 
information system to provide a comprehensive record of the veterans of 
the Global War on Terrorism who seek VA benefits and services and of 
the benefits and services VA provided to those veterans. The system 
would be designed to permit accumulation, storage, retrieval, and 
analysis of information on those veterans, benefits, and services and 
to facilitate the preparation of quarterly reports on the effects of 
participation in the Global War on Terrorism on veterans and VA. 
Section 202(d) would require DOD, at its own cost, to provide VA with 
information from its Global War on Terrorism Contingency Tracking 
System as appropriate for purposes of VA's information system. Section 
203 would require VA to submit to Congress quarterly reports on the 
effects of participation in the Global War on Terrorism on veterans and 
VA beginning not later than 90 days after the bill's enactment. For 
each quarter, VA would be required to provide quarterly and aggregated 
personal information, information on military service, and information 
on health, counseling, and related benefits and services, and on 
compensation, pension, and other benefits, including burial and 
cemetery benefits, provided by VA. VA would be required to take 
appropriate actions in preparing and submitting reports to ensure that 
no personally identifying information on any particular veteran is 
included or improperly released.
    The bill's requirements to compile and frequently report to 
Congress massive amounts of data, much of which are not currently 
available, in the detail and manner specified would force VA to divert 
considerable resources from our primary responsibilities of providing 
timely and accurate benefits and services to all veterans, their 
dependents, and survivors. We are as yet unable to reliably estimate 
the costs of compliance in terms of both manpower and potential for 
detracting from our ability to timely administer VA programs, but our 
initial reaction is that they could be very consequential. We are 
therefore unable to support sections 202 and 203 of the bill.
    We are, of course, mindful of this Committee's oversight 
responsibilities and would welcome the opportunity to work with staff 
to identify program information that is currently lacking that would be 
most helpful to the Committee in meeting its responsibilities.
    The Veterans Health Administration (VHA) is in the process of 
analyzing the feasibility of carrying out the requirements of sections 
202 and 203 with respect to health-care services and health-care-
related information. We will address the feasibility for VHA in our 
statement for the Committee's legislative hearing on health-care bills 
scheduled for May 23, 2007.
    Sections 102, 103, and 205 of S. 117 concern DOD. Section 204 of 
the bill concerns the Department of Labor (DOL). Because these 
provisions affect only DOD and DOL, VA defers to those departments for 
comments on these provisions. Section 101 deals with VA health-care 
matters that will be addressed at the Committee's May 23 hearing.
                                 s. 168
    Section 1(b) of S. 168 would require VA to establish a national 
cemetery in the Pikes Peak region, defined in section 1(a) as the 
geographic area consisting of Teller, El Paso, Fremont, and Pueblo 
counties in Colorado. Section 1(c) would require VA to consult with 
Federal, State, and local officials before selecting a site for the 
cemetery. Section 1(d) would authorize VA to accept the gift of an 
appropriate parcel of real property, over which VA would have 
administrative jurisdiction, to be used to establish the cemetery. The 
property would be considered a gift to the United States for purposes 
of Federal income, estate, and gift taxes. Finally, section 1(e) would 
require VA to report to Congress on the establishment of the cemetery, 
including an establishment schedule and estimated costs.
    VA does not support S. 168 because the need for a new national 
cemetery in the Pikes Peak region is not demonstrated under the 
criteria VA has adopted and Congress has endorsed for determining the 
need for additional national cemeteries. The established criteria 
require an unserved veteran population threshold of 170,000 within a 
75-mile radius as appropriate for establishing new national cemeteries. 
The vast majority of veterans who reside in the Pikes Peak region are 
currently served by either Fort Logan National Cemetery or Fort Lyon 
National Cemetery. Fort Logan National Cemetery will have casket and 
cremation burial space available until approximately 2020. Fort Lyon 
National Cemetery will have casket and cremation burial space available 
until approximately 2030.
    As required by law, VA is establishing a total of 12 new national 
cemeteries, 6 of which have been opened for burials. The locations for 
these cemeteries were determined from demographic studies of the 
veteran population, which allow VA to focus its efforts on areas that 
will serve the greatest number of veterans. The most recent demographic 
study of the veteran population, which was completed in 2002, did not 
indicate a need for a new national cemetery in Colorado.
    Besides objecting to S. 168 because there is no demonstrated need 
for a new national cemetery in the Pikes Peak region, we note that the 
cost of establishing a new cemetery is considerable. Based on recent 
experience, the cost for establishing new national cemeteries ranges 
from $500,000 to $750,000 for environmental compliance requirements; $1 
million to $2 million for master planning and design; $1 million to $2 
million for construction document preparation; $5 million to $10 
million for land acquisition, if required; and $20 million to $30 
million for construction. The average annual cost for operating a new 
national cemetery ranges from $1 million to $2 million.
    The VA State Cemetery Grants program, however, can provide 
additional burial options for veterans in the Pikes Peak region. 
Through this program, VA may provide up to 100 percent of the cost of 
improvements in establishing a state veterans cemetery, including the 
cost of initial equipment to operate the cemetery. VA worked with 
Colorado officials in providing more than $6 million to establish a 
state veterans cemetery in Grand Junction and would be pleased to 
assist the State in exploring this option for the Pikes Peak region.
                                 s. 225
    Current law provides to members of the uniformed services who are 
insured under the Servicemembers' Group Life Insurance program coverage 
against a traumatic injury sustained on or after December 1, 2005, that 
results in a qualifying loss. In addition, a member of the uniformed 
services who sustained a traumatic injury between October 7, 2001, and 
November 30, 2005, that resulted in a qualifying loss is eligible for 
coverage if the loss was a direct result of a traumatic injury incurred 
in the theater of operations for Operation Enduring Freedom or 
Operation Iraqi Freedom. S. 225 would eliminate the requirement that 
the loss be the direct result of a traumatic injury incurred in the 
theater of operations for Operation Enduring Freedom or Operation Iraqi 
Freedom, thereby increasing the number of individuals who could qualify 
for traumatic injury coverage for injuries sustained before the general 
effective date of the coverage.
    VA defers to DOD on this bill because that department would be 
responsible for additional costs associated with this change.
                                 s. 423
    S. 423, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2007,'' would mandate a cost-of-living adjustment (COLA) in the 
rates of disability compensation and dependency and indemnity 
compensation (DIC) payable for periods beginning on or after December 
1, 2007. The COLA would be the same as the COLA that will be provided 
under current law to Social Security benefit recipients, which is 
currently estimated to be an increase of 1.4 percent. This proposal is 
identical to that proposed in the President's Fiscal Year 2008 budget 
request to protect the affected benefits from the eroding effects of 
inflation. VA supports this proposal and believes that the worthy 
beneficiaries of these benefits deserve no less.
    VA estimates that enactment would result in benefit costs of $348.4 
million for Fiscal Year 2008 and $4.7 billion over the period Fiscal 
Year 2008-2017.
                                 s. 526
    S. 526, the ``Veterans Employment and Training Act of 2007,'' would 
expand the programs of education for which accelerated payment of 
educational assistance may be made under the chapter 30 Montgomery GI 
Bill program. Specifically, this measure would permit accelerated 
payment of the basic educational assistance allowance to veterans 
pursuing an approved program of education, in addition to the programs 
now authorized such payment, lasting less than 2 years and leading to 
employment in a transportation, construction, hospitality, or energy 
sector of the economy. This provision would be effective for 4 years, 
from October 1, 2007, through September 30, 2011.
    S. 526 is a departure from funding only high-technology, high-cost 
programs. This bill would limit accelerated payment to programs of 
study 2 years or less in length that would lead to employment in 
specific areas. Expanding accelerated pay for other career fields could 
be valuable to address existing workforce needs subject to Congress' 
enactment of legislation offsetting the increased benefits cost. 
However, any expansion must take into consideration accelerated pay's 
original intent in developing the workforce for a high-technology 
industry of the future. If enacted, VA estimates this bill would cost 
$37 million in Fiscal Year 2008 and approximately $158 million over the 
period of Fiscal Years 2008-2011.
                                 s. 643
    Under the National Service Life Insurance program, a veteran with a 
service-connected disability may be provided life insurance, known as 
Service Disabled Veterans Insurance (SDVI). If such an insured veteran 
is totally disabled under specified conditions that qualify him or her 
for waiver of premiums under current law, he or she is eligible for 
supplemental insurance of up to $20,000. S. 643, the ``Disabled 
Veterans Insurance Act of 2007,'' would increase the amount of 
available supplemental insurance from $20,000 to $40,000.
    Subject to Congress' enactment of legislation offsetting the 
increased costs associated with the enactment of the new authority, VA 
does not object to S. 643 because increasing the amount of available 
supplemental SDVI to $40,000 would address a concern of veterans as 
reported in an independent study commissioned by Congress, ``Program 
Evaluation of Benefits for Survivors of Veterans with Service-Connected 
Disabilities.'' This change would increase the financial security of 
disabled veterans by affording them the opportunity to purchase 
additional life insurance coverage otherwise not available to them. The 
costs that would result from enactment would depend on whether an open 
season would be provided for SDVI policy holders to apply for the 
additional supplemental insurance. Currently, approximately 75,500 SDVI 
policy holders qualify for supplemental insurance. Without an open 
season, the additional coverage would cost $4.3 million over 5 years 
and $14.5 million over 10 years with negligible administrative costs. 
With a 1-year open season, the additional coverage would cost $25.7 
million over 5 years and $50.9 million over 10 years with 
administrative costs of approximately $100,000.
                                 s. 698
    S. 698, the ``Veterans' Survivors Education Enhancement Act of 
2007,'' would expand and enhance educational assistance under VA's 
Survivors' and Dependents' Educational Assistance program codified in 
chapter 35, title 38, United States Code.
    Under 38 U.S.C. Sec. 3511(a)(1), an eligible person may not receive 
educational assistance under chapter 35 for more than 45 months or the 
equivalent thereof in part-time training. Also, under section 3695(a), 
a person may not receive more than 48 months of entitlement under 
chapter 35 and one or more provisions of law listed in that section.
    S. 698 would eliminate the 45-month limitation on entitlement under 
chapter 35 and allow for dependents, spouses, and surviving spouses to 
receive educational assistance up to a maximum dollar amount. It would 
also exempt any entitlement received under chapter 35 from the 48-month 
aggregate maximum entitlement allowed under more than one education 
benefit program. Thus, for example, an eligible person could receive 
full entitlement under chapter 35, then go on to receive full 
entitlement under another education program or vice versa.
    While we appreciate the desire to enhance the chapter 35 
educational assistance benefit, we do not believe it would be equitable 
to allow chapter 35 recipients to receive far more benefit dollars up 
front and overall than veterans, servicemembers, or reservists who are 
not eligible to receive benefits under chapter 35. There also would be 
a significant cost associated with making chapter 35 entitlement exempt 
from the 48-month maximum-entitlement rule.
    S. 698 would allow an eligible dependent child to receive 
educational assistance under the chapter 35 program until the child's 
thirtieth birthday. Currently, such a child receives educational 
assistance until age 26 (with certain exceptions). This, of course, 
would allow more individuals to be eligible for chapter 35 benefits for 
a longer period of time.
    One of the purposes of this chapter is to aid eligible children in 
reaching the educational status they might have obtained but for the 
disability or death of the veteran parent. We have no evidence to show 
that this purpose is not being fulfilled with the current age-26 cutoff 
or that it would be better met if the age for the ending date of a 
child's period of eligibility were 30.
    Under current law the monthly educational assistance allowance for 
chapter 35 is computed on the basis of the type of training being 
pursued and the training time. S. 698 would eliminate any fixed monthly 
educational assistance allowance. S. 698 does not define in what 
increments payment should be disbursed. Instead, it provides for an 
aggregate educational assistance amount of $80,000 and allows this to 
be paid in any amount for institutional courses, vocational training, 
apprenticeship or other on-job training, farm cooperative programs, and 
special educational assistance for the educationally disadvantaged and/
or special restorative training. Correspondence training for spouses 
would also be subject to this limit. Educational assistance, including 
special training allowance, would be provided to eligible persons at an 
institution located in the Republic of the Philippines at the rate of 
$.50 for each dollar. S. 698 also specifies that the aggregate 
educational assistance amount would be increased annually based on the 
Consumer Price Index.
    VA objects to the proposed new educational assistance payment for 
several reasons. The $80,000 educational assistance amount bears little 
or no connection to the cost of the education an eligible person might 
be pursuing. This amount is more than the cost of tuition, fees, room, 
and board charged at a 4-year public school according to the National 
Center for Education Statistics. It far exceeds the cost of any 
correspondence course an eligible person might pursue. Furthermore, 
payment of $80,000 would mean that an apprentice or job trainee under 
chapter 35 would actually receive a sharp decline in income when 
training was completed and the journeyman-level wage attained.
    Contrary to the stated purpose of chapter 35, if this provision 
were enacted, an individual eligible for chapter 35 benefits could 
receive $80,000 in educational assistance without receiving an 
education. For example, an eligible individual could ask for and 
receive $80,000 at the start of the first semester of a college program 
then drop out after a short time. Under this bill and the provisions of 
existing law concerning mitigating circumstances, the claimant could 
keep the $80,000 even if the claimant never pursued any education 
program again. This bill would remove the incentive for a student to 
complete a program of educational training and, in effect, separate the 
benefit from the whole program.
    Finally, this provision as written would allow any eligible person 
to request a lump-sum payment of $80,000 as soon as the person enrolled 
in an approved training program. Thus, persons currently receiving 
chapter 35 benefits could also request a lump-sum payment of $80,000 as 
soon as this bill is enacted, regardless of how much they have already 
received in chapter 35 benefits. This would result in significant up-
front costs.
    The amendments made by S. 698 would be effective as of the date of 
enactment of the Act. Since the bill eliminates the months of 
entitlement charged for chapter 35 benefits, those persons still within 
their delimiting date on the day the bill is enacted could request a 
lump-sum payment of $80,000 even if they had previously exhausted their 
entitlement under the current law. The bill does not address such 
transitional issues for current chapter 35 beneficiaries and those 
eligible persons still within their delimiting date.
    Moreover, VA estimates that, if enacted, S. 698 would cost $7.2 
billion in Fiscal Year 2008, $9.6 billion for the first 5 years, and 
$13.1 billion over the 10-year period from Fiscal Year 2008 through 
Fiscal Year 2017. Enactment of this bill would also require extensive 
computer system changes, which VA estimates would cost $3 million.
    For the foregoing reasons, VA cannot support S. 698.
                                 s. 847
    Current law provides a presumption that certain diseases 
manifesting in veterans entitled to the presumption were incurred in or 
aggravated by service, that is, that the diseases are service 
connected, even if there is no evidence of such diseases in service. A 
presumption is provided for certain chronic diseases if manifested to a 
degree of disability of 10 percent or more within 1 year of separation 
from service, for certain tropical diseases if manifested to a degree 
of disability of 10 percent or more (generally) within 1 year of 
separation from service, for active tuberculosis or Hansen's disease if 
manifested to a degree of disability of 10 percent or more within 3 
years of separation from service, and for multiple sclerosis if 
manifested to a degree of disability of 10 percent or more within 7 
years of separation from service. S. 847 would eliminate the 
requirement that the manifestation of multiple sclerosis occur within 7 
years of separation from service to trigger the presumption.
    VA does not support enactment of this bill. First, the current 
presumptive period of 7 years is already the most generous one provided 
under 38 U.S.C. Sec. 1112(a). Second, we are aware of no scientific or 
medical justification for presuming multiple sclerosis to be service 
connected, no matter how long after service it first manifests, in 
light of the medical literature indicating that there is genetic 
susceptibility to this disease of unknown cause. Even if a veteran 
cannot qualify for the current presumption, service connection is not 
precluded under current law if the veteran can establish that his 
current multiple sclerosis is in fact related to his or her service. 
Further liberalization would appear to undermine the purpose of 
providing compensation for disabilities incurred in or aggravated by 
active service.
    VA estimates that the benefit costs of this bill if enacted would 
be $185.5 million in the first year and $4.9 billion over 10 years. We 
estimate administrative costs to be $4.7 million for 68 full-time 
employees the first year and $85.3 million for 96 full-time employees 
over 10 years.
                                 s. 848
    Section 2(a) of S. 848, the ``Prisoner of War Benefits Act of 
2007,'' would eliminate the requirement that a veteran have been 
detained or interned as a prisoner of war (POW) for at least 30 days to 
be entitled to a presumption of service connection for certain diseases 
currently listed in 38 U.S.C. Sec. 1112(b)(3). Section 2(b) would add 
two diseases, diabetes (type 2) and osteoporosis, to the list of 
diseases in section 1112(b) that may be presumed to be service 
connected for former POWs.
    VA does not support elimination of the 30-day minimum internment 
requirement because it is not reasonable to assume that extreme 
deprivation of the type that could cause diseases listed in section 
1112(b), such as those resulting from nutritional deficiencies, would 
occur in less than 30 days. Just a few years ago, section 1112(b) 
limited the presumption of service connection for specified diseases 
associated with the POW experience to veterans who were former POWs and 
were detained or interned for not less than 30 days. However, section 
201 of the Veterans Benefits Act of 2003, Pub. L. No. 108-83, Sec. 201, 
eliminated the 30-day requirement for psychosis, any anxiety state, 
dysthymic disorder, organic residuals of frostbite, and post-traumatic 
osteoarthritis. In implementing that amendment in its regulations, VA 
noted that the diseases that remained subject to the 30-day 
requirement, such as diseases associated with malnutrition, are 
generally incurred over a prolonged period of internment. Interim Final 
Rule, Presumptions of Service Connection for Diseases Associated with 
Service Involving Detention or Internment as a Prisoner of War, 69 Fed. 
Reg. 60,083, 60,088 (2004). Such a requirement is appropriate for 
certain diseases if the evidence indicates that they are associated 
only with prolonged captivity, such as with maladies normally resulting 
from nutritional deprivation. Accordingly, VA does not support 
elimination of the 30-day minimum internment requirement.
    With respect to adding diabetes (type 2) and osteoporosis to the 
list of diseases that may be presumed to be service connected for 
former POWs, VA is not aware of any sound scientific or medical 
evidence of an association between these diseases and internment as a 
POW. Accordingly, VA does not support section 2(b) of S. 848.
    Section 2(c) of S. 848 would authorize VA to establish a 
presumption of service connection for former POWs for any disease for 
which VA has determined, based on sound medical and scientific 
evidence, that ``a positive association exists between (i) the 
experience of being a [POW] and (ii) the occurrence of [the] disease in 
humans.'' Section 2(c) would also require VA to issue certain 
regulations and, in determining whether a positive association exists, 
to consider recommendations from the Advisory Committee on Former 
Prisoners of War and all other available sound medical and scientific 
information and analyses.
    VA does not support the procedure in section 2(c) for establishing 
presumptive service connection for diseases associated with POW 
internment because more appropriate and effective regulatory procedures 
for identifying diseases associated with POW internment already exist. 
Pursuant to the Secretary's authority provided by 38 U.S.C. Sec. 501(a) 
to prescribe all rules and regulations necessary or appropriate to 
carry out the laws administered by VA, including regulations with 
respect to the nature and extent of proof and evidence, VA has 
promulgated regulations, codified at 38 CFR Sec. 1.18, establishing a 
new procedure for establishing POW presumptions. VA's establishment of 
presumptive service connection for heart disease and stroke, which was 
done under VA's regulatory procedure, demonstrates that the new 
procedure is effective.
    Section 2(c) of the bill would require VA, within specified 
periods, to publish a notice or regulations in response to 
recommendations received from the Advisory Committee on Former 
Prisoners of War. Under 38 U.S.C. Sec. 541(a)(2), the Committee 
comprises representatives of former POWs, disabled veterans, and health 
care professionals. Under current law, VA must regularly consult with 
the Committee and seek its advice on the compensation, health-care, and 
rehabilitation needs of former POWs. Not later than July 1 of each odd-
numbered year through 2009, the Committee must submit to VA a report 
recommending, among other things, administrative and legislative 
action. The procedure outlined in section 2(c) of S. 848 would require 
VA, within 60 days of receiving a Committee recommendation that a 
presumption be established for a disease, to determine whether a 
presumption is warranted. If VA determines that a presumption is 
warranted, we would have to issue proposed regulations within 60 days 
following that decision and issue a final rule within 90 days of 
issuing the proposed rule. If VA determines that a presumption is not 
warranted, we would have to publish a Federal Register notice 
explaining the scientific basis for the determination within 60 days of 
making the determination.
    This procedure is similar to the procedure that Congress 
established for herbicide and Gulf War presumptions under 38 U.S.C. 
Sec. Sec. 1116 and 1118, both of which generally concern VA rulemaking 
following the receipt of a report from the National Academy of 
Sciences. However, unlike the herbicide and Gulf War procedures, S. 848 
would require strict guidelines for rulemaking in response to Committee 
recommendations, which do not provide a thorough scientific review and 
analysis upon which to establish presumptions. A determination as to 
whether a disease should be added to the list of diseases warranting 
presumptive service connection involves a lengthy process of scientific 
study. Sixty days is not sufficient to conduct such a process. Under 
current 38 CFR Sec. 1.18, the Secretary may contract with the 
appropriate expert body, such as the National Academy of Sciences' 
Institute of Medicine, for the necessary analysis of current science. 
We believe this regulation provides a more scientifically sound basis 
for creation of presumptions than that contemplated by S. 848.
    Based on the amendments that would be made by section 2(a) of S. 
848, VA estimates that approximately 99 former POWs would be affected 
by this legislation and would apply for benefits in the first year and 
1,102 would apply in the first 10 years. Assuming a 100-percent grant 
rate, we further estimate that benefit costs would be $808,000 in the 
first year and $9.9 million over 10 years.
    Based on the amendments that would be made by section 2(b) of S. 
848, VA estimates that approximately 4,045 former POWs would be 
affected by this legislation and would apply for benefits in the first 
year and 44,855 in the first 10 years. Assuming a 100-percent grant 
rate, we further estimate that benefit costs would be $36.3 million in 
the first year and $442.9 million over 10 years.
    In addition, VA estimates that approximately 2,005 surviving 
spouses would be affected by the amendments that would be made by 
section 2(b) of S. 848 and would apply for benefits in the first year 
and 27,332 would apply in the first 10 years. Assuming a 100-percent 
grant rate, we estimate further benefit costs of $27.5 million in the 
first year and $392.6 million over 10 years.
    We estimate administrative costs to be $2.4 million for 29 full-
time employees in the first year and $5.1 million over 5 years.
    Although section 2(c) would allow VA to add and remove presumptive 
diseases, VA does not anticipate any regulatory changes. Therefore, 
there are no benefits savings or costs associated with this authority.
                                 s. 961
    S. 961, the ``Belated Thank You to the Merchant Mariners of World 
War II Act of 2007,'' would require VA to pay to certain merchant 
mariners $1,000 per month. This new benefit would be available to an 
otherwise qualified merchant mariner who served between December 7, 
1941, and December 31, 1946, and who received an honorable-service 
certificate from the Department of Transportation or DOD. The surviving 
spouse of an eligible merchant mariner would be eligible to receive the 
same monthly payment provided that he or she had been married to the 
merchant mariner for at least one year.
    VA does not support enactment of this bill for several reasons. 
First, to the extent that S. 961 is intended to offer belated 
compensation to merchant mariners for their service during World War 
II, many merchant mariners and their survivors are already eligible for 
veterans' benefits based on such service. Pursuant to authority granted 
by section 401 of the GI Bill Improvement Act of 1977, Public Law 95-
202, the Secretary of Defense in 1988 certified merchant mariner 
service in the oceangoing service between December 7, 1941, and August 
15, 1945, as active military service for VA benefit purposes. As a 
result, these merchant mariners are eligible for the same benefits as 
other veterans of active service. This bill appears to contemplate 
concurrent eligibility with benefits merchant mariners may already be 
receiving from VA--a special privilege that is unavailable to other 
veterans.
    Second, there can be no doubt that merchant mariners were exposed 
to many of the same rigors and risks of service as those confronted by 
members of the Navy and the Coast Guard during World War II. However, 
the universal nature and the amount of the benefit this bill would 
provide for individuals with qualifying service are difficult to 
reconcile with the benefits VA currently pays to other veterans. S. 961 
would create what is essentially a service pension for a particular 
class of individuals based on no eligibility requirement other than a 
valid certificate of honorable service from the Department of 
Transportation or the DOD. Further, this bill would authorize payment 
to a merchant mariner, simply based on qualifying service, of a benefit 
greater than the benefit currently payable to a veteran for a service-
connected disability rated as 60-percent disabling. Because the same 
amount would be paid to surviving spouses under this bill, there would 
be a similar disparity in favor of this benefit in comparison to the 
basic rate of DIC for surviving spouses provided under chapter 13 of 
title 38, United States Code.
    VA estimates that enactment of S. 961 would result in a total 
additional benefit cost of approximately $234.1 million in the first 
fiscal year and an additional benefit cost of $1.4 billion over 10 
years. We also estimate that additional administrative costs associated 
with the need for more employees to process claims for the new monetary 
benefit would be $893,000 during the first fiscal year and $6 million 
over 10 years.
                                s. 1096
    VA's opinion on the various sections of this bill follow. Whenever 
VA supports or does not object to a particular section of the bill, it 
is subject to Congress' enactment of legislation offsetting the 
increased costs associated with the enactment of the new authority.
    Section 2 of S. 1096, the ``Veterans' Housing Benefits Enhancement 
Act of 2007,'' would make certain members of the Armed Forces eligible 
to receive grants for home improvements and structural alterations 
(HISA) that are needed for the continuation of treatment or to provide 
access to the home or to essential lavatory and sanitary facilities. 
The cost of such improvement and alterations would be subject to the 
statutory dollar limits set forth in 38 U.S.C. Sec. 1717(a)(2)(A) and 
(B). Section 2 would extend eligibility for HISA grants to 
servicemembers: (1) who the Secretary of Veterans Affairs determines 
have a total disability permanent in nature incurred or aggravated in 
the line of duty in the active military, naval, or air service; (2) who 
are receiving outpatient medical care, services, or treatment for that 
disability; and (3) who are likely to be discharged or released from 
the Armed Forces for that disability, as determined by the Secretary of 
Veterans Affairs.
    These grants would be one-time grants. If a covered servicemember 
uses the HISA grant for a home located near his or her military duty 
station, that individual would not qualify for another grant if he or 
she relocates for any purpose after discharge or release from service. 
VA has no objection to section 2.
    Pursuant to 38 U.S.C. Sec. 2101, VA may provide Specially Adapted 
Housing (SAH) assistance to eligible veterans and active duty 
servicemembers who suffer from certain permanent and total service-
connected disabilities. Section 3 of this bill would add ``severe burn 
injuries'' to the types of specified disabilities and would allow VA to 
determine what criteria constitute such a burn injury. VA favors 
enactment of this provision, but points out that as written it would 
exclude active duty servicemembers as eligible recipients. Therefore, 
VA recommends that the Committee amend the bill to revise existing 
section 2101(c) to ensure that otherwise eligible active duty 
servicemembers are not excluded from this important benefit.
    VA also recognizes that many burns, regardless of the severity or 
extent of the injury, may not be considered ``permanent and total'' 
but, nevertheless, may require years of special care and convalescence. 
As such, VA recommends that section 2101 be amended so that severe burn 
injuries are excepted from the permanent and total disability 
requirement for SAH assistance.
    VA currently cannot project costs for section 3 because the number 
of qualifying severely burned servicemembers is unknown. We do know 
from DOD data (April 2003-April 2005) that burns constitute 5 percent 
of all Operation Iraqi Freedom or Operation Enduring Freedom combat-
related injuries, with an average total burned body surface area of 22 
percent. However, we do not know the extent to which such burn victims 
would qualify under section 3 of S. 1096.
    Section 4 would require VA to report to Congress about existing 
authorities for SAH assistance for disabled veterans. The report would 
focus on veterans who have disabilities not already described in 38 
U.S.C. Sec. 2101 and would be submitted to the Committees on Veterans' 
Affairs in the Senate and House of Representatives no later than 
December 31, 2007. VA does not oppose this provision, but the Committee 
may prefer to revise subsection (a)(2) of this section by changing the 
``or'' after the semicolon to ``and'', to clarify that the Committees 
would like a report on all items specified. VA also recommends that the 
Committee clarify whether VA should include in the report data on 
active duty servicemembers.
    Under 38 U.S.C. Sec. 3901(1), VA may provide automobile and 
adaptive equipment to eligible veterans and active duty servicemembers. 
Section 5 of S. 1096 would add ``severe burn injuries'' to the existing 
list of enumerated qualifying injuries and would require VA to 
promulgate necessary implementing regulations. VA favors enactment of 
this provision, subject to Congress' enactment of legislation 
offsetting the benefits cost of such enactment.
    VA currently cannot project costs for section 5 because the number 
of qualifying severely burned servicemembers is unknown. As indicated 
above, we do know some information about burn injuries. However, we do 
not know the extent to which such burn victims would qualify under 
section 5 of S. 1096. We presume the number would be small and note 
that the average cost of adaptive equipment is approximately $4,000.
    Section 6 would expand the categories of persons eligible for SAH 
assistance provided under 38 U.S.C. Sec. 2102A to include certain 
members of the Armed Forces residing temporarily with family members. 
Until recently, VA was not authorized to provide either a veteran or an 
active duty servicemember with SAH assistance if the veteran or active 
duty servicemember intended to reside temporarily with a family member. 
This changed, in part, with the enactment of Public Law 109-233, which 
made veterans eligible for such assistance. Yet, Public Law 109-233 did 
not include active duty servicemembers as eligible recipients. VA 
supports the objective of this section, which is to grant similar 
assistance to active duty servicemembers. However, VA cannot support 
this section as currently drafted because it would create a 
definitional conflict in the statute that could potentially create 
different classes of active duty servicemembers eligible for SAH 
assistance. Section 6 also would require VA to report on assistance for 
disabled veterans and members of the Armed Forces who reside in housing 
owned by a family member on a permanent basis. The report would need to 
be submitted to the Committees on Veterans Affairs in the Senate and 
House of Representatives no later than December 31, 2007. VA is not 
opposed to this provision.
                                s. 1163
    Section 2 of S. 1163, the ``Blinded Veterans Paired Organ Act of 
2007,'' would liberalize the eligibility for compensation and SAH 
benefits for veterans in certain cases of impairment of vision 
involving both eyes. Under current law (38 U.S.C. Sec. 1160(a)), a 
veteran with service-connected blindness in one eye and nonservice-
connected blindness in the other eye may be compensated as though the 
combination of both disabilities were service connected. Section 2(a) 
would replace the entitlement requirement of ``blindness'' with 
impairment of vision in each eye of visual acuity of 20/200 or less or 
of a peripheral field of vision of 20 degrees or less (the definition 
of ``legal blindness'' adopted by all 50 states and the Social Security 
Administration (SSA)). Also, under current law (38 U.S.C. 
Sec. 2101(b)), a veteran entitled to compensation for ``permanent and 
total service-connected disability'' due to blindness in both eyes with 
5/200 visual acuity or less is entitled to SAH assistance. Section 2(b) 
would replace the entitlement requirement of ``blindness . . . with 5/
200 visual acuity or less'' with a requirement of visual acuity of 20/
200 or less or of a peripheral field of vision of 20 degrees or less.
    Subject to Congress' enactment of legislation offsetting the 
increased costs associated with the enactment of the provision, VA 
supports the amendment that would be made by section 2(a) because it 
would treat visual impairment in both eyes similarly to the way hearing 
loss in both ears is treated under current law. The amendment would be 
consistent with a prior amendment to section 1160(a) pertaining to 
special consideration for hearing loss in both ears. Before that 
amendment, a veteran with service-connected total deafness in one ear 
and nonservice-connected total deafness in the other ear could be 
compensated as though the combination of both disabilities were service 
connected. In 2002, section 103 of Public Law 107-330 amended section 
1160(a)(3) to replace the requirement of ``total deafness'' with 
``deafness compensable to a degree of 10 percent or more'' for the 
service-connected impairment and ``deafness'' for the nonservice-
connected hearing loss.
    However, VA opposes the amendment that would be made by section 
2(b) of S. 1163, primarily because it would treat visual impairment 
differently from the other disability that warrants SAH assistance 
under section 2101(b). The other disability that warrants such 
assistance is anatomical loss or loss of use of both hands. Not only do 
anatomical loss and loss of use of both hands warrant a higher 
schedular rating than the degree of visual impairment that section 2(b) 
would substitute for the current criterion of blindness, they also 
warrant special monthly compensation. Furthermore, section 2(b) would 
create an inconsistency in the requirements for SAH assistance under 
section 2101(b)(2). The overriding requirement for assistance is that a 
veteran have a ``permanent and total'' service connected disability of 
the specified nature. Visual acuity of 20/200 or less or a peripheral 
field of vision of 20 degrees or less, even when present in both eyes, 
does not warrant a total disability rating.
    VA estimates that enactment of section 2(a) of S. 1163 would result 
in a benefit cost of $893,000 in the first year and $11.4 million over 
10 years. VA estimates that enactment of section 2(b) would result in a 
benefit cost of $480,000 for 48 new SAH grants in the first year. The 
cost of additional SAH grants is less than $500,000 annually and is 
therefore insignificant. There are no administrative costs associated 
with these provisions.
    Section 3 of S. 1163 would require the use of the National 
Directory of New Hires (NDNH) for income-verification purposes for 
certain veterans benefits. It would require the Department of Health 
and Human Services (HHS) to compare information provided by VA on 
individuals under 65 years of age who are applicants for or recipients 
of VA pension benefits (under chapter 15 of title 38, United States 
Code), parents' DIC benefits (under section 1315 of title 38, United 
States Code), health-care services (under section 1710(a)(2)(G), 
(a)(3), and (b) of title 38, United States Code), and compensation paid 
at the rate of 100 percent based solely on unemployability (under 
chapter 11 of title 38, United States Code) with information in the 
NDNH and disclose information in that directory to VA solely for the 
purpose of determining an individual's eligibility for such benefits or 
the amount of such benefits to which the individual is entitled if the 
individual is under 65 years old. VA would be required to reimburse HHS 
for the costs incurred by HHS in providing this information. VA would 
be responsible for providing notice to applicants for or recipients of 
VA benefits whose information is being disclosed and for independently 
verifying information relating to employment and income from employment 
if VA terminates, denies, suspends, or reduces any benefit or service 
as a result of information obtained from HHS. Furthermore, an 
individual would have the opportunity to contest any findings made by 
VA when verifying the information. VA's expenses related to use of this 
directory for income-verification purposes would be paid from amounts 
available for the payment of VA compensation and pension. The authority 
for the income verification would expire on September 30, 2012.
    The NDNH, which was established as part of the Federal Parent 
Locator Service by 42 U.S.C. Sec. 653, provides a national directory of 
employment, wage, and unemployment compensation information to 
facilitate employment and income verification. Under 42 U.S.C. 
Sec. 653a(g)(2), State Directories of New Hires are required to furnish 
information regarding newly hired employees within 3 business days 
after the date information is entered into the State Directory of New 
Hires. In addition, it requires that, on a quarterly basis, State 
Directories of New Hires must furnish to the NDNH information 
concerning the wages and unemployment compensation paid to individuals.
    The Privacy Act allows agencies to disclose records maintained in 
systems of records to other agencies pursuant to computer data matching 
programs authorized by law. All computer data matching programs must be 
formalized by a written agreement that specifies, among other things, 
the justification for the program and the anticipated results, 
including a specific estimate of any savings.
    As currently drafted, section 3 of this bill would make the data 
match between VA and HHS mandatory, except to the extent that HHS 
determined that it would interfere with the effective operation of part 
D of title IV of the Social Security Act, ``Child Support and 
Establishment of Paternity.'' Accordingly, section 3 could conceivably 
require VA to enter a computer data matching program for which little 
or no justification exists and for which costs savings are unlikely. 
The decision to enter into a computer matching agreement under section 
3 should be within the sound discretion of VA, instead of a mandatory 
requirement. In addition, any administrative expenses associated with 
data matching should be paid from VA discretionary administration 
accounts and not from mandatory entitlement accounts.
    VA currently matches data with the Internal Revenue Service (IRS) 
and the SSA. As a result of these matches, VA obtains unearned and 
earned income data concerning its needs-based applicants and 
beneficiaries. VA's authority to use the NDNH for VA health-care 
services would not substantially improve the current income 
verification activities of VHA. It would add an interim match step into 
the current process VHA has established for income matching, which 
would not be definitive for the majority of veterans for whom matching 
is required. While the data may be more current than existing match 
data from the IRS and SSA, it is not a comprehensive income reporting 
source, particularly since it does not include unearned income. VA 
believes that the cost of adding such a match to the income 
verification business process and information and technology support 
systems is unlikely to be recouped by any substantial gain to the 
Government from integrating such a match into the income verification 
process. VA does not support enactment of section 3 as it applies to VA 
health-care services because VA believes it is unnecessary.
    VA's authority to use the NDNH to determine eligibility for certain 
other VA monetary benefits or the amount of such benefits for 
individuals under 65 years of age would have limited benefit with 
respect to eligibility determinations for pension benefits and parents' 
DIC and continued eligibility for individual unemployability benefits. 
Although eligibility for pension and parents' DIC depends on income, 
currently available statistics show minimal overpayments due to new 
employment. Furthermore, the average age of recipients of pension and 
parents' DIC is more than 65 years, and the only other source of income 
for most individuals who receive pension is Social Security benefits. 
In addition, with respect to continued eligibility for individual 
unemployability, regulations require a showing of sustained employment 
before adjusting individual unemployability awards. Thus, the utility 
of income verification for individuals receiving individual 
unemployability is not as great.
    VA's authority to use the NDNH would result in an additional 
expense for VA, and we believe that the cost of using the NDNH is 
unlikely to be recouped by any gain that might result from eligibility 
determinations with respect to pension benefits and parents' DIC, and 
continued eligibility for individual unemployability benefits. However, 
significant savings could be realized from use of the NDNH data base as 
an initial screening tool to make initial eligibility determinations 
for individual unemployability. Through its matches with SSA and IRS, 
VA has discovered cases where individual unemployability was awarded 
based on incorrect data furnished by the applicant. Because the NDNH 
data is more up-to-date, VA might discover some errors through the NDNH 
match up to 3 years earlier than it would have discovered the error if 
it relied on SSA and IRS matches.
    VA estimates that enactment of section 3 of S. 1163 would result in 
a cost to reimburse HHS for comparing our income data with data from 
the NDNH of $1 million in the first year and $4 million over 5 years, 
after which time the agreement would expire. VA also estimates that 
section 3 would result in benefit savings of $940,000 in the first year 
and $16.7 million over 10 years, resulting in an overall savings of 
$12.7 million. There are no other administrative costs associated with 
this provision.
                                s. 1215
    Section 1 of S. 1215 would authorize reimbursement from VA's 
readjustment benefits account to state approving agencies (SAAs) for 
certain expenses incurred in the administration of VA education benefit 
programs, not to exceed $19 million in any year. The current funding 
amount is $19 million for Fiscal Year 2007. However, that amount would 
revert to $13 million in Fiscal Year 2008 and subsequent fiscal years 
without legislative intervention.
    VA, consistent with a recent Government Accountability Office 
recommendation, is taking steps to coordinate its approval activities 
with other agencies and is considering ways to streamline the approval 
process. Regardless of any such activities, we anticipate that funding 
at the reduced level would cause SAAs to reduce staffing 
proportionately, severely curtail travel and outreach activities, and 
perform fewer approval/supervisory duties under their VA contracts. 
Some SAAs might decline to contract with VA altogether, requiring that 
VA employees assume their duties.
    We have been asked to disregard section 2 of this bill.
    Section 3 of S. 1215 would permit DOL to waive the current 
requirement that state Veterans' Employment and Training directors be 
residents of the state in which they serve for at least 2 years prior 
to their appointment if the waiver is in the public interest. VA defers 
to the DOL on this portion of the bill since it is within that 
Department's subject matter jurisdiction.
    Section 4 of S. 1215 would modify the requirements for the biennial 
study by DOL of unemployment among certain veterans to include those 
who served during and after the Global War on Terror. Studies of these 
groups would be completed in place of the associated studies for 
Vietnam era veterans and in addition to those of the other veteran 
populations also identified for the study. VA also defers to DOL on 
this portion of the bill since it is within that Department's subject 
matter jurisdiction.
    Section 5 would temporarily continue the 10-percentage-point 
increase (authorized under section 103 of Public Law 108-454; 118 Stat. 
3600) of the monthly educational assistance allowance payable for an 
individual pursuing apprenticeship or other on-job training at the 
full-time program rate under the Montgomery GI Bill or Active Duty and 
Selected Reserve programs (chapter 30 of title 38 and chapter 1606 of 
title 10, United States Code, respectively) and the chapter 32 Post-
Vietnam Era Veterans' Educational Assistance program. It would also 
continue the increase in the educational assistance allowance for such 
training under chapter 35 of title 38, United States Code (currently, 
for the first 6 months of training, $676; for the second 6 months of 
training, $527; and for the third 6 months of training, $380). This 
amendment would be effective for months beginning on or after January 
1, 2008, and before January 1, 2010.
    If enacted, VA estimates S. 1215 would cost $6 million in Fiscal 
Year 2008, approximately $44 million for the first 5 years and $740 
million over the 10-year period from Fiscal Years 2008 through 2017.
    Subject to Congress' enactment of legislation offsetting the 
increased benefits costs of S. 1215, VA has no objection to the 
enactment of this bill.
                                s. 1265
    Current law provides eligibility for mortgage life insurance to 
certain disabled veterans who have been granted assistance in obtaining 
SAH. S. 1265 would extend this eligibility to members of the Armed 
Forces who meet the same eligibility criteria.
    Subject to Congress' enactment of legislation offsetting the 
increased costs associated with the enactment of the new authority, VA 
supports the enactment of this bill because it would correct an 
oversight made when eligibility for SAH was extended to members of the 
Armed Forces. Mortgage life insurance was available for veterans 
receiving SAH assistance but was not available to the newly eligible 
Armed Forces members. This bill would rectify that disparity.
    VA estimates that enactment of this bill would cost $431,170 over 5 
years.
                               draft bill
To amend title 38, United States Code, to establish a program of 
        educational assistance for members of the Armed Forces who 
        serve in the Armed Forces after September 11, 2001, and for 
        other purposes.
    This draft bill, the ``Post-9/11 Veterans Educational Assistance 
Act of 2007,'' would add a new chapter 33 to title 38, United States 
Code, that would, in general, require that, to be eligible for 
educational assistance under the new chapter 33 program, an individual 
must serve at least 2 years of active duty with a least some period of 
active duty time served beginning on or after September 11, 2001. It 
would, for most individuals, link the number of months of educational 
assistance benefit to the individual's months of service after 
September 11, 2001, but, in general, not provide for more than 36 
months of benefits, with the educational assistance to cover the 
established charges of the program of education, room and board, and a 
monthly stipend of $1,000. Chapter 33 would provide for educational 
assistance for less-than-half time education, apprenticeships, on-job 
training, correspondence courses, and flight training. Chapter 33 also 
would provide payment for tutorial assistance, not to exceed $100 per 
month for a maximum of 12 months, and one licensing or certification 
test, not to exceed the lesser of $2,000 or the test fee. Generally, 
individuals would have 15 years to use their educational entitlement 
beginning on the date of their last discharge or release from active 
duty. VA would administer this program with payments of assistance made 
from funds made available to VA for the payment of readjustment 
benefits. In general, individuals eligible for benefits under chapter 
30 of title 38, United States Code, or chapters 107, 1606, or 1607 of 
title 10, United States Code, could irrevocably elect, instead, to 
receive educational assistance under chapter 33.
    We have serious concerns about certain provisions of the ``Post-9/
11 Veterans Educational Assistance Act of 2007'' and therefore oppose 
it. The complexity of eligibility rules, anticipated cost, and 
administrative burden associated with this bill are all problematic.
    As currently written, eligibility criteria for the proposed chapter 
33 are more complex than the current GI Bill. Entitlement 
determinations factoring in length of service and previous benefit 
usage would also be highly complex and difficult for individuals to 
fully understand.
    The increased amount of benefits payable at varying levels for 
different institutions would make administration of this program 
cumbersome. The requirement that the benefit be paid at the beginning 
of the term would further complicate administration and would tax 
existing VA resources. Section 3313(j)(2) would require VA to annually 
determine which public schools in each state have the highest in-state 
tuition rate and set the established charges for each state 
accordingly. This labor-intensive process would need to be completed 
annually in sufficient time to prepare for issuance of payments in 
advance of the term. Further, as written, this bill would be effective 
the date of enactment. It would be necessary to prescribe regulations, 
make systems changes, and make other key adjustments to support the 
components of this bill. It is also likely that other sections within 
title 38, United States Code, may need to be amended to address 
overpayment of the monthly stipend. For the above reasons, it is not 
feasible for VA to begin making payments under the proposed chapter 33 
benefit immediately.
    It also appears that, if enacted, the bill might have some 
unintended consequences. For example, the subsistence payment of $1,000 
per month would be payable to individuals attending degree and non-
degree programs and those who are completing internships and on-the-job 
training programs. This seems inequitable, as it would treat an 
individual in an apprenticeship program who is earning wages the same 
as a college student who is incurring expenses. It is also unclear what 
effect this benefit would have on recruiting and retention. While we 
defer to DOD on this matter, we acknowledge that this may lead to lower 
reenlistments.
    If enacted, VA estimates that the ``Post-9/11 Veterans Educational 
Assistance Act of 2007'' would result in benefit costs of $5.4 billion 
during Fiscal Year 2008, $32.2 billion for Fiscal Years 2008 through 
2012, and $74.7 billion over the 10-year period from Fiscal Years 2008 
through 2017.
    Significant administrative costs would also be incurred. As 
previously noted, section 3313(j)(2) would require VA to annually 
determine which public schools in each state have the highest in-state 
tuition rate and set the established charges for each state 
accordingly. This labor-intensive process would need to be completed 
annually in sufficient time to prepare for issuance of payments in 
advance of the term.
    Further, since VA's obligation is to ensure that veterans and 
servicemembers receive the most advantageous benefit, VA would be 
obligated to reevaluate all existing claims and award the greater 
chapter 33 benefits, as appropriate. The initial year of the program 
would require VA to double our current Education FTE in an attempt to 
meet the workload increase. Extensive system changes would be needed to 
make lump sum payments to all beneficiaries before the start of the 
term. VA also would need to develop technological system changes to 
account for the payment rate variations from state to state. This would 
be problematic because VA is in the midst of changing from one payment 
system (Benefits Delivery Network) to another (Veterans Services 
Network).
    Based on these factors, we would anticipate substantial 
administrative costs, but cannot fully estimate them without further 
research.
    VA does not have comments on the other bills included on the agenda 
for today's hearing because it did not receive them in time to develop 
and clear views and estimate costs.
    This concludes my statement, Mr. Chairman. I would be happy now to 
entertain any questions you or the other Members of the Committee may 
have.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Patty Murray 
 to Hon. Daniel L. Cooper, Under Secretary for Benefits, Department of 
                            Veterans Affairs
    Question. In 2004, a report by the Research Advisory Comittee on 
Gulf War Veterans Illnesses, a group created by Congress and appointed 
by Secretary Principi back in 2002, recommended to the VA that they 
conduct a study on the prevalence of MS in Gulf War. Has that been 
done?
    Response. The Veterans Health Administration's Office of Research 
and Development (ORD) is currently funding a project by Dr. Han Kang 
and has approved a second project for funding by Dr. Mitchell Wallin.

    Study 1. Dr. Kang is conducting a mortality follow-up study of 
621,000 Gulf War veterans and 750,000 non-Gulf War veterans. It is 
designed to address the risk of deaths due to neurologic diseases, 
including Amyotrophic Lateral Sclerosis (ALS) and MS. The ALS and MS 
deaths reported on the death certificates are being validated by a 
review of medical records of the decedents. These two Gulf War era 
veteran cohorts can also be compared to the U.S. male population 
adjusted for age, race and calendar period of deaths to determine 
whether or not veterans in general (1.37 million Gulf and non-Gulf 
veterans combined) or those who were deployed to Gulf War (621,000 
veterans) specifically are at a higher risk of ALS or MS deaths.

    Study 2. Another study, led by Dr. Wallin has been approved for 
funding by ORO and is entitled ``Multiple Sclerosis in Gulf War 
Veterans.'' The goal of this study is to evaluate the risk of 
developing MS in GW veterans. To our knowledge, no controlled studies 
on this topic exist. Using a large, cohort of veterans service-
connected for MS, it seeks to determine if military service in the GW 
theater increased the risk for MS in deployed compared with non-
deployed GW veterans.
    There are also ALS and MS registries within VHA.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               Number of                           Important Data
                                      Office Managing           Purpose         Veterans    Type of Veterans          Elements           Data Source
--------------------------------------------------------------------------------------------------------------------------------------------------------
ALS Registry.....................  Epidemiologic         Identify and              1,602  Diagnoses of ALS      Healthcare           Extracted from
                                    Research and          characterize                     within VA             utilization, ALS     existing VA files
                                    Information Center,   veterans with ALS,               healthcare system     Functional Rating    and self
                                    Durham, NC.           data source for                  and self-referrals.   Scale Every six      referrals.
                                                          future studies.                                        months.
MS Registry......................  MS Center of          Identify and             31,946  Diagnoses of MS       Healthcare           Extracted from
                                    Excellence, East      characterize                     within VA             utilization,         existing VA files.
                                    Baltimore, MD & MS    veterans with MS,                healthcare system.    Health Economics
                                    Center of             data source for                                        data.
                                    Excellence West,      future studies.
                                    Portland, OR and
                                    Seattle, WA.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    DOD is funding research on ALS, which is directly applicable to 
veterans. The following is a list of their studies (FY 2002 to FY 
2007):
The Peer Reviewed Medical Research Program funded seven ALS projects
    Title: Development of aptamers as anti-excitotoxic drugs for ALS 
therapy; Location: City University of New York; Funding: $1.153 
million.

    Title: Prospective study of ALS mortality among World War II, 
Korea, and Vietnam veterans; Location: Harvard University; Funding: 
$1.528 million.

    Title: Function of prostaglandin receptors in models of ALS; 
Location: Johns Hopkins University; Funding: $1.260 million.

    Title: Do Tau mutations increase susceptibility to ALS?; Location: 
Duke University; Funding: $979,000.

    Title: Biomarkers for ALS in active-duty military; Location: 
University of Cincinnati; Funding: $1.001 million,

    Title: Anti-apoptotic drugs for radioprotection; Location: Burnham 
Institute; Funding: $1.001 million.

    Title: Cytoprotective chemicals for ALS treatment and enhanced ALS 
services and outcome studies; Location: Burnham Institute; Funding: 
under negotiation (as of March 2007).
The Military Operational Medicine Program funded one ALS project
    Title: Development of spinal drug delivery techniques and genomic 
disease markers in a murine model of ALS; Location: ALS Therapy 
Development Foundation; Funding: $1.856 million.
The Neurotoxin Exposure Treatment Research Program funded one ALS 
        project
    Title: Implications of cycad neurotoxicity for ALS-Parkinson's 
disease cluster; Location: University of British Columbia; Funding: 
$806,000.
    Lastly, in November 2006, Institute of Medicine (IOM) issued a 
report of a study entitled: ``Amyotrophic Lateral Sclerosis in 
Veterans: Review of the Scientific Literature.'' The IOM committee 
concluded that there are significant limitations in existing studies 
that pertain to military and veteran populations but that ``there is 
limited and suggestive evidence of an association between military 
service and later development of ALS.''
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Barack Obama 
 to Hon. Daniel L. Cooper, Under Secretary for Benefits, Department of 
                            Veterans Affairs
    Question 1. Lane Evans--Admiral Cooper, thank you for providing 
feedback today on sections of S. 117, the Lane Evans Health and 
Benefits Improvement Act. You stated in your testimony that much of the 
data required under the reporting section of this measure are not 
currently available. But, in my view, the new Information System 
proposed in this bill would track some pretty basic items, such as the 
veteran's age, race, home address, and military service.

    Question 1(a). Could you specify which of these pieces of data the 
VA is currently tracking and which ones are not available?
    Response. The Veterans Benefit Administration (VBA) produces a 
report on benefits usage by veterans deployed in support of the Global 
War on Terror (GWOT). The current version of this report captures many 
of the data points identified in the proposed legislation. A copy of 
the latest report is attached. This report can be amended to include 
additional data captured in the Department of Veterans Affairs (VA) 
records systems or made available to VA through our data exchange with 
the Department of Defense (DOD).
    Some of the information proposed to be tracked is not yet available 
exactly as requested.

    <bullet> Information on Military Service: VA receives a file from 
DOD identifying veterans deployed in support of GWOT. We use that file 
to populate our reports. The file does not include the specific 
conflict or country of service. We can provide the breakdown by branch 
of service and can separate active duty veterans from members of the 
National Guard and Reserves. However, we cannot currently separate 
Reservists from National Guard members. We also cannot isolate which 
conflict(s) a veteran served in (Operation Enduring Freedom and/or 
Operation Iraqi Freedom, or neither), nor can we identify service in a 
specific country. We do not receive deployment history, the grade and 
rank of each veteran, or the number of evacuations. The deployment 
history, even if it were available, would be extremely difficult to 
align with claims for benefits.
    <bullet> Aggregate information: We currently do not have a method 
for aggregating all benefits each individual veteran used and/or 
applied for, though we are working toward a solution to this issue. We 
can and do provide a listing of how many veterans have applied for and 
received a particular benefit, but cannot yet summarize the benefits 
applied for and received by each individual veteran.
    <bullet> Amount of compensation paid to veterans: While we track 
benefit awards by disability percentage ratings, we do not currently 
track average monthly compensation paid to GWOT veterans, nor do we 
have a ready means available to do so. We are working on an approach to 
providing this data.
    <bullet> DIC benefits: We do not currently report on claims 
activity specifically for dependency and indemnity compensation (DIC) 
applicants, but we can do so with existing data.
    <bullet> Education benefits: We currently provide usage information 
regarding the majority of education benefits.
    <bullet> Loan Guaranty benefits: We currently report on total loan 
usage and total dollar amount for GWOT veterans. However, we do not 
have a means of determining whether the usage was prior to or after a 
veteran's deployment in support of GWOT. We are able to track the 
number of disabled GWOT veterans found eligible for specially adapted 
housing benefits.

    [Note: The Veterans Benefit Administration's (VBA) current report 
on benefits usage by veterans deployed in support of the Global War on 
Terror (GWOT) follows:]
         department of veterans affairs (va) benefits activity 
             veterans deployed to the global war on terror
                          october 2007 update
    This report summarizes participation in VA benefits programs by 
veterans identified by the Department of Defense as having been 
deployed overseas in support of the Global War on Terror (GWOT). 
Information is included for the following VA programs: Compensation, 
Insurance, Home Loan Guaranty, Education, and Vocational Rehabilitation 
and Employment.
    This update provides data on VA program participation for 754,911 
GWOT veterans separated from military service through May 2007.
    It is important to understand that because many GWOT veterans had 
earlier periods of service, the benefits activity identified in this 
report could have occurred either prior to or subsequent to their GWOT 
deployment (or both).

              Chart 1.-- GWOT Veterans by Branch of Service
------------------------------------------------------------------------
                                          Reserve     Active
           Branch of Service               Guard       Duty      Total
------------------------------------------------------------------------
Air Force..............................     80,932     58,660    139,592
Army...................................    255,907    148,847    404,754
Coast Guard............................        317        497        814
Marine Corps...........................     27,735     65,853     93,588
Navy...................................     21,890     88,543    110,433
Other..................................          4         14         18
Unknown................................      2,141      1,880      4,021
Total matched to VA systems............    388,926    364,294    753,220
Unable to match to VA systems..........        877        814      1,691
                                        --------------------------------
    Total..............................    389,803    365,108    754,911
------------------------------------------------------------------------
Note: The veteran's branch of service was obtained from VA's BIRLS
  system, which stores information for up to three periods of service.
  The branch of service associated with the most recent service date was
  used for the chart above.


                    Chart 2.--Gender of GWOT Veterans
------------------------------------------------------------------------
                                          Reserve     Active
                 Gender                    Guard       Duty      Total
------------------------------------------------------------------------
Female.................................     40,674     41,410     82,084
Male...................................    345,210    319,955    665,165
Unknown................................      3,042      2,929      5,971
Total matched to VA systems............    388,926    364,294    753,220
Unable to match to VA systems..........        877        814      1,691
                                        --------------------------------
    Total..............................    389,803    365,108    754,911
------------------------------------------------------------------------


                     Chart 3.--Age of GWOT Veterans
------------------------------------------------------------------------
                                          Reserve     Active
               Age Group                   Guard       Duty      Total
------------------------------------------------------------------------
Under 20...............................        106        259        365
20-29..................................    130,630    236,613    367,243
30-39..................................    115,767     69,777    185,544
40-49..................................    102,370     49,285    151,655
50-59..................................     34,812      6,934     41,746
60-69..................................      4,456        267      4,723
Unknown................................        785      1,159      1,944
Total matched to VA systems............    388,926    364,294    753,220
Unable to match to VA systems..........        877        814      1,691
    Total..............................    389,803    365,108    754,911
------------------------------------------------------------------------
Note: Veterans' ages are calculated as the number of whole years between
  the date of birth in the BIRLS system. Any veteran with a missing or
  invalid date of birth, or where the calculated age was under 17 years
  or over 69 years, was placed in the ``Unknown'' age group.


                 Chart 4.--Average Age of GWOT Veterans
------------------------------------------------------------------------
                                     Reserve Guard        Active Duty
------------------------------------------------------------------------
Average Age.....................  36.0 years........  30.0 years
------------------------------------------------------------------------


          Chart 5.--Average Length of Service for GWOT Veterans
------------------------------------------------------------------------
                                     Reserve Guard        Active Duty
------------------------------------------------------------------------
Average Length of Service.......  3.7 years.........  7.6 years
------------------------------------------------------------------------

Service-Connected Disability Compensation Program
    The Veterans Benefit Administration's (VBA) computer systems do not 
contain any data that would allow us to attribute veterans' 
disabilities to a specific period of service or deployment. We are 
therefore only able to identify GWOT veterans who filed a disability 
compensation claim at some point either prior to or following their 
GWOT deployment. We are not able to identify which of these veterans 
filed a claim for disabilities incurred during their actual overseas 
GWOT deployment.
    Many veterans file disability compensation claims for more than one 
condition. The table below provides information on individual GWOT 
veterans, not specific claimed disabilities.
    Individuals included in the category ``Veterans Awarded Service-
Connection'' are those veterans who have at least one condition that 
meets eligibility requirements for service connection under VA statutes 
and regulations. For veterans who filed a claim for more than one 
condition, this category contains veterans with a full grant of all 
conditions as well as veterans with a combination of disabilities 
granted and denied.
    If none of a GWOT veteran's claimed conditions meet eligibility 
requirements under VA statutes and regulations, these individuals are 
included in the category ``Veterans Denied Service-Connection.''

   Chart 6.--Compensation & Pension (C&P) Activity Among GWOT Veterans
   (Includes claims filed both prior to and following GWOT deployment)
------------------------------------------------------------------------
                                          Reserves    Active
                Category                   Guard       Duty      Total
------------------------------------------------------------------------
Deployed Servicemembers................    428,808  1,123,600  1,552,408
Total GWOT Veterans....................    389,803    365,108    754,911
Living GWOT Veterans...................    389,038    362,235    751,273
GWOT In-Service Deaths.................        765      2,873      3,638
Total GWOT Veterans with Claims             71,282    127,240    198,522
 Decisions.............................
Veterans Awarded Service-Connection....     61,318    119,833    181,151
Veterans Receiving Compensation........     46,988    103,657    150,645
Veterans Denied Service-Connection.....      9,964      7,407     17,371
Veterans with Pending Claims (as of 9-      16,445     18,603     35,048
 30-07)................................
Veterans with Pending Reopened Claims..      4,418      5,588     10,006
Pending from First-Time Claimants......     12,027     13,015     25,042
Total GWOT Veterans Filing Disability       83,309    140,255    223,564
 Claims \1\............................
------------------------------------------------------------------------
\1\ Includes ``Total GWOT Veterans with claims Decisions'' and ``Pending
  from First-Time claimants.''


    Disabilities are evaluated according to VA regulations, and the 
extent of the disability is expressed as a percentage from zero percent 
to 100 percent disabling, in increments of 10 percent. Veterans with 
more than one service-connected disability receive a combined 
disability rating.
    The chart below includes GWOT veterans awarded combined service-
connected disability ratings from zero percent to 100 percent, 
regardless of whether the veteran receives monetary compensation.

           Chart 7.--GWOT Veterans Awarded Service-Connection
                   (by Combined Deqree of Disability)
------------------------------------------------------------------------
                                     Reserves
         Combined Degree              Guard     Active Duty     Total
------------------------------------------------------------------------
0 percent........................       11,653       14,800       26,453
10 percent.......................       15,807       23,207       39,014
20 percent.......................        8,669       17,311       25,980
30 percent.......................        6,730       17,052       23,782
40 percent.......................        5,850       15,085       20,935
50 percent.......................        3,127        8,935       12,062
60 percent.......................        3,477        9,573       13,050
70 percent.......................        2,219        5,853        8,072
80 percent.......................        1,556        3,947        5,503
90 percent.......................          688        1,548        2,236
100 percent......................        1,542        2,522        4,064
                                  --------------------------------------
    Total........................       61,318      119,833      181,151
------------------------------------------------------------------------
Note: Includes corporate data. Previous reports included CPMR only.


   Chart 8.--Ten Most Frequent Service-Connected Disabilities for GWOT
                                Veterans
                  (Both Active Duty and Reserve/Guard)
------------------------------------------------------------------------
 Diagnostic
    Code                  Diagnosis Description                 Count
------------------------------------------------------------------------
       6260   Tinnitus.....................................       57,589
       5237   Lumbosacral or cervical strain...............       50,699
       6100   Defective hearing............................       46,761
       9411   Post-Traumatic Stress Disorder...............       31,465
       5260   Limitation of flexion of leg.................       26,563
       5271   Limited motion of the ankle..................       25,548
       5299   Generalized, Elbow and Forearm, Wrist,              21,817
               Multiple Fingers, Hip and Thigh, Knee and
               Leg, Ankle, Foot, Spine, Skull, Ribs, Coccyx
       5242   Degenerative arthritis of the spine..........       19,588
       7101   Hypertensive vascular disease (essential            18,654
               arterial hypertension)......................
       5201   Limitation of motion of the arm..............       17,448
------------------------------------------------------------------------

Insurance Program Traumatic lnjury Benefit
    Traumatic Servicemembers' Group Life Insurance (TSGLI) is a 
traumatic injury protection rider under Servicemembers' Group Life 
Insurance (SGLI) that provides for payment to any member of the 
uniformed services covered by SGLI who sustains a traumatic injury that 
results in certain severe losses. Through September 30, 2007, 6,739 
active duty servicemembers and veterans have applied for TSGLI. Of 
those, 3,752 were filed by GWOT veterans, and 2,008 of those received 
benefits.

         Chart 9a.--GWOT Veterans Who Applied for TSGLI Benefits
                                (by Age)
------------------------------------------------------------------------
                                          Reserve     Active
               Age Group                   Guard       Duty      Total
------------------------------------------------------------------------
Under 20...............................         --          1          1
20-29..................................        602      1,412      2,014
30-39..................................        560        395        955
40-49..................................        494         86        580
50-59..................................        178          2        180
60-69..................................         17         --         17
Unknown................................         --          5          5
                                        --------------------------------
    Total..............................      1,851      1,901      3,752
------------------------------------------------------------------------
Note: The totals above reflect veterans whose claims have been approved,
  have been denied or are currently pending.


          Chart 9b.--GWOT Veterans Who Received TSGLI Benefits
                                (by Age)
------------------------------------------------------------------------
                                          Reserve     Active
               Age Group                   Guard       Duty      Total
------------------------------------------------------------------------
Under 20...............................         --          1          1
20-29..................................        326        948      1,274
30-39..................................        240        262        502
40-49..................................        136         52        188
50-59..................................         39         --         39
60-69..................................          1         --          1
Unknown................................         --          3          3
                                        --------------------------------
    Total..............................        742      1,266      2,008
------------------------------------------------------------------------


        Chart 1Oa.--GWOT Veterans Who Applied for TSGLI Benefits
                               (by Gender)
------------------------------------------------------------------------
                                          Reserve     Active
                 Gender                    Guard       Duty      Total
------------------------------------------------------------------------
Female.................................         98         48        146
Male...................................      1,745      1,846      3,591
Unknown................................          8          7         15
                                        --------------------------------
    Total..............................      1,851      1,901      3,752
------------------------------------------------------------------------
Note: The totals above reflect veterans whose claims have been approved,
  have been denied or are currently pending.


          Chart 1Ob.--GWOT Veterans Who Recieved TSGLI Benefits
                               (by Gender)
------------------------------------------------------------------------
                                          Reserve     Active
                 Gender                    Guard       Duty      Total
------------------------------------------------------------------------
Female.................................         25         29         54
Male...................................        715      1,232      1,947
Unknown................................          2          5          7
                                        --------------------------------
    Total..............................        742      1,266      2,008
------------------------------------------------------------------------

Home Loan Guaranty Program
    VA's home loan guaranty program has been helping veterans purchase 
homes for more than 60 years. VA guaranteed home loans are made by 
banks and mortgage companies to veterans, servicemembers and eligible 
reservists. With VA backing a portion of the loan, veterans can receive 
a competitive interest rate without a downpayment, making it easier to 
buy a home.
    This benefit can be used more than once if needed to (1) refinance 
an existing VA guaranteed loan at a lower interest rate or (2) to 
purchase a home that will again be used as the person's primary 
residence (eligible to do this normally after paying off any previous 
loans).

                      Chart 11.--Home Loan Guaranty Program Participation by GWOT Veterans
----------------------------------------------------------------------------------------------------------------
                                                              Reserve Guard      Active Duty          Total
----------------------------------------------------------------------------------------------------------------
GWOT Veterans with VA Loan................................           100,190            73,588           173,778
Total Loans Made to GWOT Veterans.........................           154,730           108,826           263,556
Dollar Amount of All Loans to GWOT Veterans...............   $17,502,831,170   $13,571,983,255   $31,074,814,425
----------------------------------------------------------------------------------------------------------------

Education Programs
    The chart below reflects participation by GWOT veterans in VA 
education benefit programs since September 11, 2001. Participants may 
have been entitled to more than one benefit. For example, a reservist 
may have received Chapter 1606 benefits until he or she became eligible 
to receive Chapter 1607 benefits. This participant would be reported in 
both columns in the chart below.

  Chart 12.--Education Program Participation Among GWOT Veterans Since
                           September 11, 2001
------------------------------------------------------------------------
                               Chapter    Chapter    Chapter
      Type of Training            30        1606       1607      Total
------------------------------------------------------------------------
Graduate....................      6,509      5,867      3,292     15,668
Undergraduate...............     59,894     71,796     22,443    154,133
Junior College..............     73,355     47,657     12,111    133,123
NCD.........................     17,213      6,920      2,426     26,559
    Total...................    156,971    132,240     40,272    329,483
------------------------------------------------------------------------


    Montgomery GI Bill Active-Duty (Chapter 30) provides up to 36 
months of education benefits for degree and certificate programs, 
flight training, apprenticeship/on-the-job training, and correspondence 
courses. Generally, benefits are payable for 10 years following release 
from active duty.
    Montgomery GI Bill Selected Reserve (Chapter 1606) provides up to 
36 months of education benefits to members of the Reserve elements of 
the Army, Navy, Air Force, Marine Corps, and Coast Guard, and members 
of the Army National Guard, and the Air National Guard. This benefit 
may be used for degree and certificate programs, flight training, 
apprenticeship/on-the-job training, and correspondence courses. 
Benefits generally end the day a member separates from the Selected 
Reserve or National Guard. For those who are activated, eligibility is 
extended beyond separation for a period of time equal to time served on 
active duty plus 4 months.
    Reserve Educational Assistance Program (REAP) (Chapter 1607) 
provides educational assistance to members of the Reserve components 
called or ordered to active duty in response to a war or national 
emergency as declared by the President or Congress. This new program 
makes certain reservists who were activated for at least 90 days after 
September 11, 2001, eligible for education benefits or eligible for 
increased benefits.
Vocational Rehabilitation and Employment (VR&E) Program (Chapter 31)

              Chart 13.--VR&E Activity Among GWOT Veterans
 (Includes participation either prior to and following GWOT deployment)
------------------------------------------------------------------------
                                          Reserve     Active
          Current Case Status              Guard       Duty      Total
------------------------------------------------------------------------
Applicant..............................        375        830      1,205
Employment Services....................        134        367        501
Evaluation and Planning................      1,018      2,263      3,281
Extended Evaluation....................        165        352        517
Independent Living.....................         45         57        102
Interrupted............................        253        667        920
Rehabilitation to Employability........      1,938      5,876      7,814
Unknown................................         85         23        108
                                        --------------------------------
    Current Participants...............      4,013     10,435     14,448
------------------------------------------------------------------------
Rehabilitated..........................        688        730      1,418
Discontinued...........................        287        292        579
                                        --------------------------------
        Total VR&E Participants........      4,988     11,457     16,445
------------------------------------------------------------------------


    Applicant: A veteran's case is assigned to applicant status when 
the VA receives an application (VAF-1900) for services under Chapter 
31.
    Evaluation and Planning: Determination of feasibility of a 
vocational goal and/or evaluation of the veteran's ability to function 
independently within the veteran's family and community.
    Extended Evaluation: Determine the current feasibility of the 
veteran with a serious employment handicap to achieve a vocational 
goal.
    Rehabilitation to Employability: Services and training necessary 
for entry into employment in an identified suitable occupational 
objective.
    Independent Living Program: Services that are needed to enable a 
veteran to achieve maximum independence in daily living, including home 
accommodations, counseling, and educational services, as determined 
necessary.
    Employment Services: Services to assist in obtaining and/or 
maintaining suitable employment.
    Rehabilitated: The goals of a rehabilitation/employment/independent 
living program have been substantially achieved.
    Interrupted: Temporary suspension of the program warranted due to a 
veteran's individual circumstances.
    Discontinued: All services and benefits are terminated.
    Serious Employment Handicap: A significant impairment of a 
veteran's ability to prepare for, obtain, or maintain employment, as 
determined by a VA counselor.
Sources
DOD
    <bullet> Defense Manpower Data Center (DMDC) East, cumulative count 
of servicemembers deployed to OEF/OIF from September 11, 2001 through 
May 2007.
    <bullet> DMDC West, extract of OEF/OIF servicemembers discharged to 
civilian status from September 2001 through May 2007.
    <bullet> The DMDC list of 754,911 deployed GWOT veterans represents 
49 percent of the cumulative deployed GWOT servicemember population of 
1,552,408 through May 2007.
VBA
    <bullet> Beneficiary Identification and Records Locator Subsystem 
(BIRLS), as of the end of the month September 2007.
    <bullet> Compensation and Pension Master Record (CPMR), active 
records (``A'' type) as of the end of the month September 2007.
    <bullet> CPMR, terminated records (``E'' type) as of the end of the 
month June 2007.
    <bullet> Corporate records as of September 30, 2007.
    <bullet> Pending Issue File (PIF), as of the close of business on 
September 29, 2007.
    <bullet> Vocational Rehabilitation and Employment Service Chapter 
31 file, as of the end of the month September 2007.
    <bullet> Loan Guaranty data, as of October 4, 2007.
    <bullet> TSGLI file, as of September 30, 2007.
    <bullet> Education Service data, as of the end of September 2007.
Questions
    Questions may be referred to the Office of Performance Analysis and 
Integrity at (202) 461-9040.

    Question 1(b). What is the current protocol for producing such 
aggregated information when requested by Congress?
    Response. VA will provide all available information whenever 
requested by a Member of Congress.

    Question 2. Bonuses Issue--I thank Chairman Akaka for his 
leadership on requesting Secretary Nicholson to provide further 
thoughts on last year's bonus awards paid to senior personnel at the 
VA. His staff's analysis of these bonuses showed that they appeared to 
be distributed unevenly and in some cases rewarded questionable 
performance, for example performance that led to the serious budget 
shortfalls in 2005. What do you think are fair criteria to apply when 
considering bonus awards for senior staff at the VA?
    Response. VA bonus process is based on meaningful performance 
measures established each year and reviewed by the Deputy Secretary of 
VA on a monthly basis. These monthly reviews enable VA to monitor its 
organizational performance and determine appropriate recognition for 
the senior executives.
    Each senior executive has a performance plan with objective and 
quantifiable measures that are tied to organizational performance, and 
their performance is evaluated against these criteria. Supervisors make 
recommendations on employees' performance awards (bonuses). These 
recommendations are forwarded to the performance review board (PRB) for 
further evaluation. The PRB is responsible for ensuring that bonuses 
recommended for senior executives are based on individual and 
organizational performance.
    The Government Accountability Office and Office of Personnel 
Management (OPM) recently conducted reviews on VA's senior executive 
service performance management system. These reviews indicated that 
VA's system complied with all statutory and regulatory requirements and 
was comparable to that used in most Cabinet-level Departments. OPM made 
several recommendations to improve the process and VA has accepted 
these recommendations and is implementing them. These initiatives will 
strengthen VA's ability to set challenging, measurable performance 
standards, evaluate performance against these standards, and provide 
meaningful and appropriate recognition.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Johnny Isakson 
 to Hon. Daniel L. Cooper, Under Secretary for Benefits, Department of 
                            Veterans Affairs
    Question. The eArmyU, a Web-based curriculum, is that completely up 
and operational now and integrated with the VA education benefits?
    Response. VA Education Benefits and integration with eArmyU. The 
eArmyU program is an Army variation on Tuition Assistance. EArmyU is an 
entirely online degree program developed by the Army in July 2000. This 
program enables members to complete degree requirements using a laptop 
computer in their spare time. The eArmyU program provides the member 
with 100 percent Tuition Assistance and has the same limits as the 
Army's traditional Tuition Assistance Program. A member can utilize the 
VA tuition top-up and assistance program to supplement their eArmyU 
benefits once limits within that program are reached.
                       tuition assistance top-up
    In addition to the increase in Tuition Assistance limits, Public 
Law 106-398 revised chapter 30 to permit VA to issue payment to an 
individual for all or any portion of the difference between the Tuition 
Assistance amount paid by the military component and the total cost of 
tuition and related charges. This provision is called Tuition 
Assistance Top-up. Top-up is available only to persons eligible for 
chapter 30. A person who is eligible to receive chapter 30 who is 
receiving Tuition Assistance from a Reserve or National Guard 
component, is eligible for Top-up.

    Question 2. Does visual acuity of 20/200 or less, or a peripheral 
field of 20 degrees or less, constitute permanent and total disability 
in the Social Security Administration?
    Response. While we believe you should request a definitive response 
from the Social Security Administration (SSA), based upon our review of 
the governing regulations we believe visual acuity of 20/200 or less, 
or a peripheral field of 20 degrees or less constitutes permanent and 
total disability for SSA. SSA defines disability as the ``inability to 
engage in any substantial gainful activity by reason of any medically 
determinable physical or mental impairment which can be expected to 
result in death or which has lasted or can be expected to last for a 
continuous period of not less than 12 months. . . .'' (Social Security 
Act, 42 U.S.C. Sec.  423(d)). SSA pays only for total disability; it 
does not offer partial or short-term disability benefits.
    SSA defines statutory blindness in sections 216(i)(1) and 
1614(a)(2) of the Social Security Act (the Act), as visual acuity of 
20/200 or less in the better eye with the use of a correcting lens. SSA 
uses the individual's best-corrected visual acuity for distance in the 
better eye when determining if this definition is met. The Act also 
provides that an eye that has a visual field limitation such that the 
widest diameter of the visual field subtends an angle no greater than 
20 degrees is considered as having visual acuity of 20/200 or less.
    Under the SSA's method for evaluating disability, there is a 
listing of impairments which describes conditions that are considered 
severe enough to prevent an adult from performing any gainful activity 
(or would cause a child under the age of 18 to experience marked and 
severe functional limitations). Visual acuity of 20/200 or less meets 
the criteria in the listing of impairments under 2.02, loss of visual 
acuity, where the remaining vision in the better eye after best 
correction must be 20/200 or less. In addition, a peripheral field of 
20 degrees or less meets the criteria under 2.03A; requiring 
contraction of visual field in the better eye with the widest diameter 
subtending an angle around the point of fixation no greater than 20 
degrees.

    Chairman Akaka. Thank you very much, Admiral.
    I see that our distinguished Member from Washington State 
is here, Senator Cantwell. Welcome, and may I ask her to come 
to the table and make a few remarks on legislation that she has 
introduced. So aloha, welcome, and please proceed.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
this opportunity to testify before the Committee. Good morning 
to all my colleagues, particularly to my senior Senator, 
Senator Murray, who we are so proud of for her service on this 
Committee and her leadership on veterans issues. It is good to 
see my other colleague from the Northwest, Senator Craig, who 
also has been very vocal on veterans issues.
    I would like to begin by just talking specifically about my 
legislation, the Montgomery GI Bill for Life Act of 2007, which 
is S. 1261, and as I said, I would like to thank my colleagues 
who have already sponsored this legislation, Senator Murray and 
Senator Brown of the Veterans' Affairs Committee and my other 
colleagues in the Senate.
    For more than 60 years, the GI Bill has opened doors to 
higher education for millions of servicemembers and veterans 
who wouldn't otherwise have a chance to go to college, and the 
GI Bill has provided our country with over 450,000 engineers, 
238,000 teachers, and 91,000 scientists. In fact, just to note, 
in the last several years, the inventor of the silicon chip 
passed away and I read in his obituary that he also had gone to 
school on the GI Bill and I thought, what an incredible 
contribution that he made.
    The GI Bill has a tremendous impact, not only in helping 
veterans go back to school, but transforming America's middle 
class. The GI Bill has been an important tool in the soldier's 
transition from military service to civilian life. Now in the 
21st century, an environment in which enhanced skills, 
education, and job training are all critical to employment, we 
must ensure that veterans always have an open door to 
education.
    It is clear that it is time to modernize the GI Bill to 
better fit the needs of today's soldiers. According to the 
Bureau of Labor Statistics, by 2010, 40 percent of job growth 
will require some form of post-secondary education. Keeping 
America's workforce highly skilled and competitive in today's 
global economy means increasing education opportunities and 
guaranteeing our troops receive the education benefits they 
have earned.
    The GI Bill provides up to 36 months of college benefits 
for technical or vocational courses and a host of other 
training and apprentice programs. To enroll, servicemembers 
agree, obviously, to a $100 a month reduction in their pay for 
the first 12 months of service. That is a total of $1,200 
active duty servicemembers must contribute to this program. And 
even though that $1,200 buy-in is non-refundable, active duty 
participants only have 10 years from the day that they leave 
the military to use this to advance their education and 
training. For the Guard and Reserves, they do have a little 
longer period of time of 14 years.
    The Government Accountability Office reported in 1999 that 
96 percent of all active duty enlistees enroll in the GI Bill. 
However, only 57 percent of these enlistees took advantage of 
their benefits.
    In 2003, the Montgomery GI Bill Biennial Report to Congress 
cites that as this program began, 80 percent of those eligible 
have enrolled, but only 59 percent have used some or all of 
their benefits.
    Our veterans have already made contributions. Now we must 
ensure that the veterans have the opportunities in continuing 
their education.
    When our servicemembers leave, obviously, they leave their 
families, their obligations, their work commitments, and 
economic difficulties often, I think, get in the way when they 
return home. Currently, the Veterans' Administration only has a 
limited amount of discretion in granting extensions to those 
who are unable to use their benefits due to mental or physical 
handicaps. This is why the GI benefits should not come, I 
believe, with an expiration date.
    This legislation, the GI Bill for Life Act, would give our 
servicemembers and veterans who are eligible for the GI Bill an 
unlimited amount of time to use their earned education benefits 
by repealing the 10 and 14-year time limits.
    Brent Painter, one of my constituents from Washington state 
who retired from the U.S. Navy, is an example of a 
servicemember who was not able to use the full GI benefits due 
to family commitments. Mr. Painter wrote, ``While attending 
college, I had full-time jobs that required travel, so college 
was set aside until I could be at home. By the time I returned, 
the benefits had expired, so I never did complete my education. 
Of course, now you could say I am too old to teach new tricks 
to, but I really would have liked to have finished and received 
my degree.''
    Another veteran from Washington state, Dan Mullen, wrote 
explaining, ``I still have 25 months remaining on education 
benefits from the GI Bill. However, since it has been over 10 
years since I have been discharged from the military, I cannot 
collect the remaining benefits. This will create hardship for 
me since I will be required to pay off student loans upon my 
scheduled graduation later this year.''
    By removing the time limit, this legislation will make sure 
that these individuals can get the valuable skills and 
education training they need to succeed in life outside the 
military when it is right for them to do so.
    As the first person in my family to graduate from college 
and going to school on a Pell Grant, I understand the 
importance of a college education. That is why I believe that 
the Montgomery GI Bill for Life Act would provide greater 
access to education and training courses and will increase the 
participation in the GI Bill.
    The American Legion, the Military Officers Association of 
America, and the VFW support this legislation because I think 
it gives our veterans the greater flexibility they need to 
access their educational opportunities.
    I thank the Committee for this opportunity.
    Chairman Akaka. Thank you very much, Senator Cantwell.
    Now we will return to questions from Members to Admiral 
Cooper. Admiral, please describe the value of using the 
National Directory of New Hires data to make initial 
eligibility determinations for individuals' unemployability 
rather than using Social Security and IRS matches.
    Admiral Cooper. I think the primary value is timeliness 
when we use it to look at the individual and employability. We 
have not used it before. We have been using comparisons with 
Social Security and IRS. I think that is the primary value, the 
fact that information is available sooner rather than later.
    Chairman Akaka. And when you say the value is in timing, is 
that in amount of time that----
    Admiral Cooper. Yes, in the amount of time. We usually get 
the information that we use to compare from IRS and Social 
Security about 2 years late, and so there is a 2-year lag time. 
This information, I am not thoroughly familiar with it, but the 
information that we get would be received in a much shorter 
time frame.
    Chairman Akaka. I am very concerned, Admiral, about reports 
of long delays in claims processing for initial GI Bill 
payments. Some veterans have reported that it can take in 
excess of 4 months for a claim to be processed and to receive a 
first check. While I intend to explore this issue in more 
detail at seamless transition hearings later this year, are 
there any legislative impediments that need to be removed to 
expedite processing?
    Admiral Cooper. No, sir. At this time, I would say there 
are not. We were set back a bit with the Reserve program that 
came in about a year ago and it came in quite quickly, and it 
took us a while to get a computer program that would help us 
administer the program. We were doing it by hand. We fell 
behind. We took some very definite actions, including getting 
more people. We also set up a telephone center that could take 
telephone calls so that we could direct more people to 
adjudicate the claims.
    Our average time got as high as about 48 days. We brought 
that down and, the last I saw, it was about 38 days. We are 
also doing much better on supplemental claims, the ones that 
come thereafter. In other words, once you get the initial 
allowance, then the processing of payments thereafter is now 
down somewhere in the teens in the number of days.
    So we have made definite progress. We saw that problem 
about a year and a half to two years ago and took some pretty 
specific action.
    Chairman Akaka. Is there a possibility of decreasing that 
from 39 days to less?
    Admiral Cooper. Yes. I think we will continue to improve 
that time. We had the setback as we tried to take on the 
Reserve program that came in, what we call REAP, and we lost a 
good bit of time in that. But I think we are making progress 
and do expect to decrease the number of days to process.
    As a matter of fact, today, or as of Monday, we were around 
30,000 claims pending in education, about 30,000 less than we 
were last year. So I think there is definitely improvement that 
we have made.
    Chairman Akaka. Any changes in GI Bill programs must not 
only be consistent with the Nation's obligations to returning 
servicemembers and their needs for assistance in terms of 
readjusting to civilian life, but also sensitive to the 
military's needs to recruit and retain highly qualified young 
men and women. Please comment for the record, Admiral, on the 
legislation pending before the Committee and other GI Bill 
proposals in terms of this latter consideration. In so doing, 
we hope that you will consult with and obtain the views of the 
Department of Defense, as well.
    Admiral Cooper. Yes, sir. I think whenever we talk about 
retention, the effect on retention and enlistment, we always 
attempt to work with OSD and find out how they feel about the 
effect.
    Chairman Akaka. Before I turn it over to Senator Craig for 
his questions, has the continuation of the Persian Gulf War as 
a period of war for purposes of Title 38 caused any difficulty 
in working with data from the current conflicts? I want to let 
you know that I note that the lack of readily available data 
from VA on the impact of the current conflicts on VA's ability 
to deliver timely services and benefits has been the source of 
some concern in Congress.
    Admiral Cooper. We are starting to get a solid stream of 
information from DMDC, which is a defense organization, telling 
us of all those people who are now GWOT veterans. We are using 
that information and bouncing that against all the claims we 
have in each of our regional offices. We are then marking those 
claims that are from GWOT veterans, and, as we have announced, 
giving them priority over all the claims we have. So we are 
doing them as fast as we can, making sure that they get that 
priority. I think you will find that we will be more responsive 
and have quicker information up here, but it has taken us a 
good while to get the information necessary to give us a basis.
    Chairman Akaka. Thank you for your responses, Admiral.
    Senator Craig?
    Senator Craig. Mr. Chairman, thank you very much.
    Admiral, let me make a statement first and get your 
reaction to it. There are 26 pieces of legislation before us, 
all of them presented in the best of intent to benefit our 
veterans. But let me react this way because I know in your 
views and estimates they are not yet complete on much of what 
has been introduced, or some of what has been introduced, 
because of the short timeline you had to prepare for this 
hearing.
    A decade ago, all of the Members of this Committee, 
Democrat and Republican alike, signed a letter, and in that 
letter we said this. There are five of us still serving on this 
Committee. ``In preparing these comments, the Committee's 
Members have kept in mind the fiscal limitations within which 
we must operate if we are to get Federal spending under control 
and thereby reduce the Federal deficit and debt. We believe 
that the government can be fiscally responsible while still 
fulfilling its commitments to those deserving among us, 
including our Nation's veterans. We also are mindful of the 
fact that the uncontrolled Federal spending threatens the long-
term health of the Nation's economy and, in turn, could 
adversely affect the provisions of veterans benefits. Thus, we 
recognize that those who have worn the uniform in defense of 
this Nation seek, as we do, to protect the health of the 
Nation's economy.''
    From that time forward, we have done a mighty job here. We 
have increased spending almost 10 percent a year for veterans. 
We are verging on a $100 billion budget. We have recreated a 
health care system that is now second to none in the Nation by 
all outside and private estimates, something I think we can all 
be proud of. We have tackled challenges faced by incoming 
veterans from Afghanistan and Iraq, and while we will all argue 
here and there that pieces of that service may not be as good 
as it should be, it is so much better than it has ever been 
before, and I think that is something we can all be proud of.
    My concern, whether it is my legislation or any of my 
colleagues who have introduced any of the 26 pieces of 
legislation on today's agenda, I asked my staff to do kind of a 
guesstimate, because some of these programs are readjustments, 
others are new spending. But our guesstimate is that this 26-
bill package represents about $100 billion of new spending--
$100 billion of new spending, potentially. That is a lot of 
money. And that is considering the readjustments of existing 
programs and certainly the adding, and I am not blaming anybody 
here. I am part of that with my six pieces of legislation.
    Has VA yet pushed the total button on these 26 bills to 
determine their cost if they were to become law?
    Admiral Cooper. No, sir, we have not. The last set that we 
got on Thursday or Friday, we haven't looked at at all, and I 
frankly did not try to estimate a total amount on these bills.
    Senator Craig. OK. Some of the bills on today's agenda, and 
indeed some of the legislation that has been enacted in the 
last several years, have as their purpose providing government 
assistance to severely injured servicemembers and family 
members when they need it most by eliminating legal 
distinctions between benefits based on active duty status and 
veteran status. In testimony submitted by Ms. Beck of the 
Wounded Warrior Project, she recommends a blanket overlap of 
benefits provided by both DOD and VA to target groups of 
servicemembers and retired veterans. What do you think of that 
idea?
    Admiral Cooper. I am not sure that I understand what you 
mean by a blanket group of benefits. There are some things that 
we are doing right now in which we try to make sure that those 
who are eligible for such things as education for their 
children and adaptive housing have their eligibility 
established while they are on active duty.
    Senator Craig. It is explained to me, at least as we 
understand it, it is a crossover between some of those on 
active duty who can't benefit from veterans programs and some 
in veterans status that cannot benefit from active duty 
programs, and I will give Ms. Beck an opportunity to explain 
that. I was seeing whether you had a view of it as it relates 
to overlap----
    Admiral Cooper. No. We consistently look to see what we can 
do, and, as I was saying, with special adaptive housing in 
particular, we try to establish eligibility while they are on 
active duty and get them the housing properly adapted so that, 
even while they are on active duty, they can live in the 
housing if necessary and have that special adaptation.
    We also have been working to get them signed up for 
programs such as vocational rehabilitation. One of the things 
that we have tried to do with the seriously wounded is to work 
closely with them while they are at Walter Reed or any one of 
the MTFs so that we can have the compensation package ready the 
day they are discharged from the service and we get the DD-214, 
which is their discharge paper, they can immediately start 
accruing their disability compensation. So 30 to 40 days later, 
they are able to start getting that pay.
    We have attempted to do everything we can, particularly 
with the seriously wounded, ahead of time--adaptive automobile 
equipment, that sort of thing, TSGLI, as you well know. So I 
think we have tried to be cognizant of that. There may be some 
things we still need to do, but we have certainly attempted to 
think along that line.
    Senator Craig. OK.
    Admiral Cooper. And I will say we are working much more 
closely in the last few years with OSD to see that we have one 
individual who is a serviceman now and will be a veteran to try 
to ensure we are doing some of these things. Some things we are 
not doing well yet, but we are certainly working on it.
    Senator Craig. Admiral, thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Craig.
    Senator Webb?
    Senator Webb. Thank you, Mr. Chairman.
    Admiral Cooper, with respect to the language in your 
testimony on S. 22, the GI Bill that I proposed, I must say 
that I am a little perplexed. Just going through a summary of 
the page that I have in front of me, we are talking about the 
eligibility criteria being more complex in entitlement 
determinations, highly complex, difficult for individuals to 
understand. Benefits payable at varying levels for different 
institutions make the program cumbersome, would complicate 
administration and tax VA resources. It is a labor-intensive 
process. We are unclear what effect this ability would have on 
recruiting and retention, which I want to get back to. 
Significant administrative costs, technological changes, et 
cetera.
    The reason I am perplexed is that this is an almost 
identical bill to what came out of World War II, and I cannot 
imagine the VA at the end of World War II, when they were faced 
with 12 million people coming out of the military and were 
asked to implement a program which was identical to this in 
terms of how educational institutions were being paid, how 
entitlements were being compiled, I can't imagine that the VA 
would have said, well, this is complex. I think they would have 
said, this is a benefit that our people have earned and we are 
going to find a way to help them get it if this is the law that 
the Congress passes.
    I can't help but wonder whether the attitude of this 
Administration is basically, thank you for serving, but when 
you leave, you are a second-class citizen. You are not going to 
get the same kind of benefit as people who gave service during 
World War II, particularly when we start talking about how this 
might affect retention. What is the implication here, that we 
are going to reward people too much? I would like your comments 
on that.
    Admiral Cooper. First, let me say I don't think there is 
anybody that doubts the wonderful things done by the GI Bill 
and the fact that it set the basis for our economy today. I 
certainly cannot refute things that are in here as being good. 
I will say that, predicated on bills or the things we are 
executing now, this is a much more complicated bill and it 
would take us a while to get this right, and that is one of the 
things that I am very concerned about. I think there are some 
things here that the various staffs should talk about so we can 
try to figure out how to do it right as it comes.
    I can't talk about what the effect is on retention. I don't 
have that information. But let me assure you, anything that is 
good for the veteran, I certainly would not oppose, and we 
would certainly do what we could. That does not alter the fact 
that this would be a very difficult bill as it is right now. It 
is difficult for us to understand completely how we would 
administer it. I can't refute what we have said here. We were 
not able to estimate it predicated on the information we have.
    Senator Webb. Well, first of all, with respect to 
retention, it is a part of your testimony that ``this may lead 
to lower reenlistments.'' I know that has been----
    Admiral Cooper. I don't have----
    Senator Webb [continuing].--that has been some of the 
language that we have been hearing unofficially from DOD, and 
with all due respect, as someone who has worked in manpower a 
good part of my life, I think this would broaden the enlistment 
base. And the other part of that is just an equity part of it, 
that we can't really say that because you are going to give 
someone a true shot at a future so that they might leave the 
military, that that is a bad thing in and of itself.
    And in terms of cost, we have to come back to the premise 
that veterans benefits, and particularly readjustment benefits, 
are very much a cost of war. They are the cost of war. This is 
not like a lot of other programs that are up here. We have to 
help people transition back into their civilian environment.
    Admiral Cooper, did you use the GI Bill?
    Admiral Cooper. Say that again?
    Senator Webb. Did you use the GI Bill?
    Admiral Cooper. No, sir.
    Senator Webb. How did you receive your commission?
    Admiral Cooper. From the Naval Academy.
    Senator Webb. So the goodness of the U.S. Government gave 
you an education?
    Admiral Cooper. It certainly did, yes, sir.
    Senator Webb. And I would, having gone to the Naval 
Academy, I would surmise--I don't know what the number is 
today, but if we looked at the overall budget of the United 
States Naval Academy in order to put out approximately 900 
graduates a year, the cost that has been incurred to the 
American taxpayers dwarfs what we would be paying to help these 
people get the kind of education that they have earned, in many 
cases, on the battlefield.
    Mr. Thompson, did you use the GI Bill?
    Mr. Thompson. No, sir, I did not.
    Senator Webb. Did you serve?
    Mr. Thompson. I served in the Reserves.
    Senator Webb. All right. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you.
    Senator Murray?
    Senator Murray. Thank you, Mr. Chairman.
    We are here to talk about a number of important bills. I 
would be remiss, however, if I didn't ask you about a couple of 
other questions, Secretary Cooper, while you are here, and one 
of them is the issue of VA bonuses. I am hearing from a number 
of our soldiers who have returned home who can't get their 
benefits because of a backlog at VA, so they are literally 
going for months without any kind of income because of that 
backlog. So when they hear about a senior VA official getting a 
bonus while they can't even get a benefit to keep them in their 
home or feed their family, it is pretty disturbing.
    I would say it is especially disturbing to those of us who 
worked very hard several years ago, myself, Senator Akaka, and 
others, because of the inaccurate information we got from the 
VA about how much money was available for the VA and we had to 
go to the floor and fight for additional dollars that were 
desperately needed within the VA because of bad budget work, to 
find out that those budget officials received a bonus is pretty 
disturbing to us. So I would like your comments this morning on 
the justification, if you could for a minute, about the bonuses 
that we are hearing about.
    Admiral Cooper. I do not feel capable of really discussing 
it in detail. However, I will say that we very carefully follow 
the guidelines as laid down by OPM. We have several boards that 
review these people and, of course, the ultimate decision is 
made by the Secretary. But we have very good people at high 
levels who are working on these very problems, and as it 
becomes more complicated and we have more veterans coming in 
and we have more benefits that we adjudicate, it is very 
important that we get people, the best people we can, and we 
have some very strong, very good people working at the VA at 
those senior positions.
    And so I would merely say that sometimes in order to keep 
them, you want to ensure that they are not drawn out by groups 
particularly here in Washington that are looking for very 
talented, high-level, intelligent people. And so I would say 
that the people who got those bonuses with all the work that 
they did, that those bonuses were justified and they certainly 
went through a very careful screening process.
    Senator Murray. It is hard for us to understand. We don't 
know all the details yet, and I know, Mr. Chairman, you are 
looking at this, as well, but certainly for those budget 
officials who were giving inaccurate information, it is----
    Admiral Cooper. Yes, ma'am.
    Senator Murray [continuing].--deeply disconcerting to us 
and we are going to follow up with that.
    The other question I wanted to ask while you were here is 
that at the President's request, the Veterans Affairs Secretary 
released a report recently on ways to improve the transition 
from the Pentagon to the VA, a critical issue we are all 
following very carefully. There were some good ideas in that 
report, but I was pretty troubled that the President limited 
that task force to improvements that could be made within the 
authority of the individual departments or agencies using 
existing resources. That is like saying, tell us how we can fix 
the problem but leave out anything that costs money or requires 
new authority.
    I am very concerned that a lot of really important 
information in this very critical issue about how we transition 
these soldiers in a better way to serve them are being left out 
because of that. I would just like to hear your comments. Are 
there things being left out of this report because of those 
limitations?
    Admiral Cooper. I have read the Task Force Report by 
Secretary Nicholson and its recommendations are within the 
guidelines that you mentioned However, there are about four or 
five separate outfits looking at things. One of the primary 
ones is that headed by General Scott, the President's 
Commission on Benefits, which has been meeting now for about 2 
years and comes out with a report in October.
    Senator Murray. Correct.
    Admiral Cooper. There is also the report that is done by 
Mr. West and Mr. Marsh in looking quite specifically at the 
Army and at Walter Reed. There is a third group headed by 
Senator Dole.
    Senator Murray. Correct.
    Admiral Cooper. All of those together, I think, will 
cover----
    Senator Murray. I am aware there are a lot of different 
reports out there, but it was very troubling to me that there 
was this approach of if it requires new authority or new money, 
we are not going to do it. I think we are in a bind right now 
because we haven't been looking at all the options. Mr. 
Chairman, I just want it noted on the record, I am looking----
    Admiral Cooper. Yes, ma'am, and I think you will find, for 
instance, in my administration we have asked for more people, 
to get them aboard and get them trained and I have tried to 
hire them early because it takes a discrete amount of time to 
get them trained. So we are trying to look at some of those 
things and do as you say.
    Senator Murray. I appreciate that very much.
    And finally, if I could just ask real quick on the MS bill. 
You talked about it in your testimony. But because the symptoms 
of MS do not manifest themselves for many years, veterans can 
have the disease and not know it. We have a lot of issues going 
on with Traumatic Brain Injury and a lot of other things that 
people are looking at oftentimes that are missed. What do you 
tell a veteran who is diagnosed 7 years and 1 day after they 
conclude their service and are denied their benefits, because 
believe me, I have talked to those people?
    Admiral Cooper. I think every time we look at a presumptive 
or at something that takes a certain amount of time to 
manifest, we have tried to have a very careful procedure where 
we go to the National Science Foundation, the Institute of 
Medicine, and have them do a study. It takes some time but at 
least gives a very real basis for us to determine just how long 
we should allow this thing to manifest, and that is the best 
answer I can give you, trying to do it that way each time.
    Senator Murray. In 2004, a report by the Research Advisory 
Committee on Gulf War Veterans Illnesses, it was a group 
created by Congress and appointed by Secretary Principi back in 
2002, recommended to the VA that they do do a study on the 
prevalence of MS in Gulf War. Has that been done?
    Admiral Cooper. I am sorry, I cannot answer that. I will 
take it for the record.
    Senator Murray. I would appreciate a response back on that.
    Admiral Cooper. I just don't know.
    Senator Murray. OK. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Isakson?
    Senator Isakson. Thank you very much, Mr. Chairman.
    I have been interested in what Senator Webb was talking 
about in terms of education, but I want to go to something that 
has been done in the most recent years. eArmyU is completely up 
and operational now, is that not correct, the online, Web-based 
curriculum?
    Admiral Cooper. I can't answer that question.
    Senator Isakson. OK. Well, that is a DOD----
    Admiral Cooper. Yes, sir.
    Senator Isakson [continuing].--not a Veterans Affairs, but 
to make the point, because higher education is critical, with 
the development of eArmyU back in 2002-2003, if I am not 
mistaken now, active duty or Reservists who have been called up 
for active duty can go online to 34 different universities in 
the United States that cooperate through eArmyU and get a 
Bachelor's, and in some cases post-secondary credit and degrees 
while on active duty and while in service.
    I do not know whether that provision was extended. It was 
not, in its inception, extended to veterans----
    Admiral Cooper. Yes, and I am not aware that it----
    Senator Isakson. I don't think it is, but that might be 
something we take a look at. Senator Bob Kerrey and I developed 
that program out of the Web-Based Education Commission back in 
1999, and what you might take a look at is if that provision 
could be transitioned to be both in DOD and available to 
qualified veterans, you are meeting the intended goal of the 
Senator from Virginia and you are using existing investment of 
over a billion dollars, which is what it took to put that in 
place, so I just share that with you and with the Senator from 
Virginia as a partial solution to that issue.
    Admiral Cooper. If you will let me, I will look into that 
and try to find out about it because I just can't talk about 
it.
    Senator Isakson. That might be a good way to thread that 
needle----
    Admiral Cooper. Yes, sir.
    Senator Isakson [continuing].--and address the cost issue.
    Secondly, on concurrent receipt, which you don't hear much 
about anymore, but we are, I guess, in year six of the phase-in 
of concurrent receipt legislation that we passed, and to the 
credit of the Administration, it must be going well because my 
mail and complaints have dropped to next to nothing. Am I 
correct that it is going well?
    Admiral Cooper. You are correct, it is going well. We are 
still working carefully with DOD on the back pay. As you 
remember, there were two separate bills passed----
    Senator Isakson. Yes.
    Admiral Cooper [continuing].--and so you have this problem 
of the two separate bills and we are working closely with 
Defense DFAS, Defense Finance Group, to get the back pay to the 
people from the time that the claim was made or whatever it 
goes back to. I forget what the dates are.
    As far as the ongoing signing up for those particular 
items, that appears to be going quite well and I have heard 
nothing bad 
about it.
    Senator Isakson. And, I might add, that is a $22 billion 
investment over full implementation, as I understand it in the 
change that was made.
    Admiral Cooper. Sure.
    Senator Isakson. I credit Mike Bilirakis with that vision 
in the House.
    With regard to Senator Akaka's bill, S. 1163, which I am 
supportive of and have cosponsored, I would like for you to 
find out something for me. I don't know that you would know it 
or not, but in your written testimony, it says visual acuity of 
20/200 or less or a peripheral field of vision of 20 degrees or 
less, even when present in both eyes, does not warrant a total 
disability rating. It is my understanding, but I don't say I 
know it for a fact, that is the accepted definition for a total 
disability in other disability benefit programs, so I would 
like to know if that is correct, and if it is correct, what the 
difference is in your interpretation.
    Admiral Cooper. Let me get back to you on that. The total 
disability when you talk about housing is very definitive, so 
let me get back to you on that particular question, if I may.
    Senator Isakson. I would appreciate it, because I think 
Senator Akaka has raised excellent points and I know you have 
expressed support for parts of that legislation, but I have a 
particular interest in that component and would like to know an 
answer, so I will be happy for you to get back to me on that.
    Admiral Cooper. Yes, sir.
    Senator Isakson. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much.
    Senator Sanders?
    Senator Sanders. Thank you very much, Mr. Chairman.
    There are four issues that I want to cover that are in the 
legislation that we have introduced, but before I do, I very 
briefly want to comment on Senator Craig's statement a moment 
ago. All of us are concerned about the deficit and the national 
debt. Everybody up here is. I would simply point out that 
repealing the inheritance tax, which the President and many in 
this body want to do, cost us about $1.5 trillion over a 20-
year period. All the benefits go to the wealthiest three-tenths 
of 1 percent. But if we can provide $1.5 trillion for the 
wealthiest three-tenths of 1 percent, I would respectfully 
suggest we have enough money to take care of our veterans.
    Mr. Chairman and Admiral Cooper, let me ask you a few 
questions. As you know, disability compensation and dependency 
and indemnity compensation rates have historically been 
increased each year to keep these benefits even with the cost 
of living. However, as a temporary measure to reduce the budget 
deficit, Congress enacted legislation to require monthly 
payments after adjustment for increases in the cost of living 
to be rounded down--to be rounded down--to the nearest whole 
dollar amount. The Independent Budget expresses concerns about 
that. That seems to me a nickel-and-dime way of saving money on 
the backs of our benefits. In other words, if somebody gets a 
benefit of $2,988.98, you keep the 98 cents, the veteran 
doesn't get that. Do you think we could do away with that?
    Admiral Cooper. Senator, that is a law that Congress has 
passed.
    Senator Sanders. Well, my legislation repeals that law. 
Will you support it? Do you think we should nickel and dime 
veterans while we give tax breaks to billionaires?
    I would hope----
    Admiral Cooper. It sounds logical to me.
    Senator Sanders. Thank you. The other issue I want to talk 
to you is about plot allowances.
    Admiral Cooper. About what?
    Senator Sanders. Plot, burial plot allowances. In 2001, the 
plot allowance was increased for the first time in more than 28 
years to $300, from $150. It was $150, went up to $300, which 
covers approximately 6 percent of funeral costs. The 
Independent Budget recommends increasing the plot allowance 
from $300 to $745, an amount proportionally equal to the 
benefit paid in 1973. Do you think the VA can support raising 
the plot allowance to $745?
    Admiral Cooper. I have no position on that.
    Senator Sanders. Well, my legislation does that and we 
would look forward to your support on that.
    Admiral Cooper. Yes, sir.
    Senator Sanders. In terms of burial benefits, my 
legislation increases the non-service-connected burial benefit 
from $300 to $1,270. It also increases the service-connected 
benefit from $2,000 to $4,100, which seems to me to be 
reasonable. I am not quite sure what a funeral costs nowadays, 
but it costs a heck of a lot more than $4,100. Do you think we 
can support something like that?
    Admiral Cooper. Again, sir, I have no position. The VA has 
no position on that.
    Senator Sanders. Well, we have introduced--I thought, Mr. 
Chairman----
    Admiral Cooper. I have not----
    Senator Sanders [continuing].--that this meeting was about 
getting your thoughts on legislation that people had offered, 
and this is legislation that we are offering.
    Admiral Cooper. I have not had a chance to review that 
legislation, sir.
    Senator Sanders. Some of our veterans tragically are coming 
home without the ability to use their legs or their arms, and 
fortunately, there are automobiles that can be adapted to give 
them mobility. As you may know, currently, the $11,000 
automobile allowance represents only about 39 percent of the 
average cost of a new automobile, which is close to $28,000. Is 
that enough help for our veterans, is the question. My 
legislation would, in fact, enable those veterans who would 
like to be mobile--I am sure all of us want them to be mobile--
to be able to buy the automobile that gives them mobility, 
which is about $22,000. Is that something that the VA would 
support?
    Admiral Cooper. Again, I cannot give you a position right 
now. I haven't seen that bill.
    Senator Sanders. Well, Mr. Chairman, I would hope that the 
VA will be supportive. We look forward to talking to you about 
these provisions. We should not be balancing the budget by 
nickel and diming veterans and rounding down the benefits they 
receive. We should be providing plot allowances which are 
somewhat realistic, burial benefits which are somewhat 
realistic, and it seems to me that if a veteran comes home 
without use of their arms or their legs, we owe it to them to 
do the best that we can to make them mobile and provide them 
with an automobile that gets them around. I hope that you would 
be supportive of that.
    Admiral Cooper. Yes, sir.
    Senator Sanders. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Sanders.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I appreciate the 
hearing and appreciate you gentlemen being here today.
    I think Senator Sanders brings up a point on a bunch of 
different levels that I would like to just follow up on very, 
very briefly, and that is that as I was reading through your 
document, Admiral Cooper, there were some bills that you said 
you supported and some bills that you didn't support. I would 
love, if you guys could do this, I would love to have a 
document that said which ones you supported and which ones you 
opposed and why. I think it is important. You folks have got 
your hands in the dirt, so to speak. You are in the field. You 
are doing the work. I would just love to know why you would 
support or why you would oppose a certain initiative, policy 
decision. I think it is important for us to make good 
decisions.
    Admiral Cooper. Yes, sir.
    Senator Tester. Thank you, if you can do that.
    The other issue that I want to just talk about more 
globally is the issue of accessibility. There are a lot of good 
bills here, some of them I have signed on to, some I haven't, 
but I think they all have merit, depending on your perspective. 
The issue of accessibility, though, is an issue that I 
continually hear about when I am in the field, having field 
hearings with veterans throughout the State of Montana. And as 
I have told you before--I think I have told you this before, if 
I haven't I will tell you now--it is getting through the door 
that tends to be a big problem out in the field.
    So the question I have is that, if you were in our 
position, assuming that you realize that is a problem, and you 
may not agree with that, and that is fine if you don't, just 
tell me, what would you do to improve a veteran's accessibility 
to the system? In other words, if they have a problem and they 
need the care, what can we do to get them through the door 
quicker and more timely?
    Admiral Cooper. Are you asking about health care? Is the 
major subject health care?
    Senator Tester. Yes.
    Admiral Cooper. Could I leave that to my Under Secretary 
for Health?
    Senator Tester. Absolutely.
    Admiral Cooper. If I may, please, I would like to defer to 
him.
    Senator Tester. That would be fine. Absolutely.
    Admiral Cooper. As far as I am concerned for benefits, as I 
mentioned before to Senator Murray, we are doing everything we 
can to get more people to help us do claims and get our time 
down. But I am afraid I can't talk to you about the health 
benefits at the hospitals and----
    Senator Tester. That is fine. That is not a problem.
    As long as I can get somebody to answer the question, it 
would be fine.
    Admiral Cooper. I believe----
    Senator Tester. I am not trying to be critical. What I am 
trying to do is let you understand that that is what I hear 
about most.
    Admiral Cooper. That is a very important subject and I know 
that they are attacking it, but I just can't answer it.
    Senator Tester. That is fine.
    The last thing is, and I am just going to say this because 
I happen to be on Senator Webb's bill, I think it is important 
that the VA understand that we are in a different time now. I 
know the Senator from Idaho talked about a letter that they had 
written. I believe that letter was before the Gulf War and 
Afghanistan War. We are in a different time now and we have got 
different needs than we did five, six years ago. I think part 
of the cost of war that has been pointed out by this panel many 
times, and part of what is going to help you with recruitment, 
not detract from it, is that we give the kinds of benefits that 
are expected.
    And I would just say that I don't know what is going to 
happen with a lot of these bills, but I think it is incumbent 
upon you to make sure that they work, because we can pass all 
we want, and if the agencies don't want to make them work, they 
won't work.
    Admiral Cooper. I will guarantee you that anything that is 
passed that comes to me, I will do everything possible to make 
it work.
    Senator Tester. Thank you.
    Admiral Cooper. Sometimes you get a blip. Sometimes we 
don't do it quite right the first time. But I will guarantee 
you that we will do everything to make it work----
    Senator Tester. I appreciate that. Thank you very much. 
Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much.
    Because we anticipate a series of votes beginning at 11:30, 
I would like to go to the second panel. But before I do that, 
Senators Sanders, Isakson, Webb, Tester, if any of you have any 
questions that you want to ask the Admiral, will you please do 
that at this time.
    Senator Sanders. Thank you very much, and I will be very 
brief because we want to hear from the veterans groups. I would 
just reinforce what Senator Webb and Senator Tester and others 
have said. I hope that you trust that some of us are not happy 
with the way the VA, over the years, has treated our veterans 
and that today, with so many wounded in Iraq, with so many 
coming back with PTSD and TBI, there is an incredible 
responsibility on your shoulders to do the right thing. I would 
hope that you will work with us and go forward in terms of 
educational opportunities and the other benefits that our 
veterans need. Some of us are going to be pretty persistent on 
that.
    And again, we think that in the wealthiest nation in the 
history of the world, some of us are not going to turn our 
backs on veterans anymore and we are going to demand that there 
is adequate funding and we are going to demand that the VA 
accepts the responsibility that has been given to them and does 
the quality of work that needs to be done.
    Thank you.
    Senator Webb. No, Mr. Chairman. I would just like to say 
that I appreciated Admiral Cooper's testimony and I hope we can 
keep working on that.
    Just one final sentence on the complexity of the bill. It 
was the bill in the 1940s, and having worked in the veterans 
areas every day for 4 years at one point in my life, the 
Montgomery GI Bill was pretty complex when we started trying to 
look at how that might be implemented. I hope that in good 
spirit, the Administration will look at this in terms of how we 
really should be rewarding the people who have stepped forward. 
It is a very small percentage of the country that has done this 
and they deserve the right to have as big a future as they can 
go on and get. That is my only motivation in proposing the 
bill.
    Admiral Cooper. And if it comes, I will guarantee you we 
will execute it.
    Senator Webb. We would like to see the Administration be a 
little more encouraging on the fact that it might take place.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much.
    Any further comments? Thank you very much. Thank you, 
Admiral, for being here today.
    Admiral Cooper. Yes, sir.
    Chairman Akaka. I want to welcome the representatives of 
the veterans service organizations to our panel today: Meredith 
Beck of the Wounded Warrior Project, Carl Blake of the 
Paralyzed Veterans of America, Eric Hilleman of the Veterans of 
Foreign Wars, Kimo Hollingsworth of AMVETS, Brian Lawrence of 
the Disabled American Veterans, Robert Norton of the Military 
Officers Association of America, and Alec Petkoff of the 
American Legion.
    I thank you all for appearing before the Committee today. 
Of course, your full statements will appear in the record of 
the 
hearing.
    Will you please proceed in the order in which you were 
introduced? I call first on Meredith Beck for your statement.

 STATEMENT OF MEREDITH BECK, NATIONAL POLICY DIRECTOR, WOUNDED 
                        WARRIOR PROJECT

    Ms. Beck. Yes, sir. Mr. Chairman, Members of the Committee, 
thank you for the opportunity to testify before you today 
regarding pending benefits legislation. My name is Meredith 
Beck and I am the National Policy Director for the Wounded 
Warrior Project, a nonprofit, nonpartisan organization 
dedicated to assisting the men and women of the United States 
Armed Forces who have been severely injured during the current 
conflicts.
    Beginning at the bedside of the severely wounded, WWP 
provides programs and services designed to ease the burden of 
these heroes and their families, aid in the recovery process, 
and smooth their transition back home. As a result of our 
direct daily contact with these wounded warriors, we have 
gained a unique perspective on their needs and the obstacles 
they face as they attempt to reintegrate into their respective 
communities.
    Due to our limited time today, I would like to submit my 
prepared testimony for the record and limit my oral comments to 
three pieces of legislation that are of particular interest to 
our newest generation of wounded warriors.
    First, WWP strongly supports S. 225, sponsored by Senators 
Akaka and Craig, to expand the number of individuals who 
qualify for retroactive benefits under the Traumatic 
Servicemembers' Group Life Insurance. As an organization, one 
of our proudest achievements in assisting wounded 
servicemembers was the role we played in the creation of this 
program to provide timely payments up to $100,000 to 
servicemembers who incurred certain devastating injuries. This 
new insurance program has in most cases become the intended 
financial bridge from the time of injury until the warrior is 
eligible for VA benefits.
    While WWP is very pleased with the overall implementation 
of the TSGLI program, S. 225 would correct one major inequity. 
As currently written, the regulation governing the program 
dictates that in order for a retroactive injury to be covered, 
it must have been incurred in Operations Enduring Freedom or 
Iraqi Freedom. While those who are injured after December 1, 
2005, are potentially eligible regardless of where their injury 
occurred. By limiting the retroactive payments based on 
location and date, the regulation has disqualified a number of 
traumatically injured servicemembers from payment.
    WWP believes that the same criteria that apply to 
prospective injuries should apply to retroactive injuries to 
October 7, 2001, the date on which the conflict in Afghanistan 
began. It is unfair to deny retroactive payments to those who 
have suffered the same grievous injuries during the same 
conflict based on the location where the traumatic event and 
the date on which it occurred. Without corrective action, brave 
men and women who were traumatically injured after October 7, 
2001, and before December 1, 2005, will continue to be denied 
the same retroactive payment given to their wounded comrades 
even though the Servicemembers' Group Life Insurance for which 
TSGLI is a rider was made wholly retroactive.
    Brave men and women like Navy SEAL Toshiro Carrington, who 
is here with us today, and who was injured in a training 
accident in December of 2004. He was holding a charge in his 
left hand when another servicemember accidentally detonated it. 
SO1 Carrington was left with a traumatically severed left hand, 
a severed right tip of his thumb, and his remaining fingers 
were all fractured. Unfortunately, Toshiro's severe injuries 
did not qualify him for payment under TSGLI because he was in 
the United States when the incident occurred.
    Another servicemember, Seaman Robert Roeder, was injured in 
January 2005 when an arresting wire on the aircraft carrier the 
U.S.S. Kitty Hawk severed his left leg below the knee. Seaman 
Roeder was on his way to the Gulf of Arabia when his injury 
occurred during flight training operations. Although the ship 
was on its way to the Gulf and training exercises being 
conducted were in preparation for action, Roeder's injury does 
not qualify him for payment under the law as written because he 
was not actually in the AOR.
    SO1 Carrington and Seaman Roeder are not the only wounded 
servicemembers being impacted by the inequity in this 
regulation. Therefore, we applaud Senators Akaka and Craig for 
their recognition of the situation and strongly urge Congress 
to quickly act on S. 225 so that Seaman Roeder, SO1 Carrington, 
and other wounded warriors like them will not be deprived of 
this vital insurance program.
    WWP also supports both S. 1096, the Veterans Housing 
Benefits Enhancement Act, a bill that would make wounded 
warriors with severe burns eligible to receive adaptive housing 
grants, and S. 1265, a bill that would make wounded warriors 
who are receiving specially adapted housing assistance while 
still on active duty also eligible for Veterans' Mortgage Life 
Insurance. WWP again applauds Senators Cornyn and Craig for 
recognizing this problem and encourages the swift passage of 
these measures.
    That being said, we would also like to encourage the 
Committee to address these types of issues on a more 
comprehensive basis. By expanding eligibility for these 
benefits to servicemembers who have not yet been officially 
retired, both of the aforementioned pieces of legislation 
reflect the reality that many severely injured active duty 
servicemembers can benefit from VA services but are precluded 
from doing so simply due to their status in the Armed Forces. 
At the same time, the Department of Defense offers certain 
benefits that could greatly assist new veterans still 
recovering from their severe wounds. The discrepancy in 
benefits between the two agencies leads to confusion among 
families who are forced to try to determine what is in the best 
interest of the servicemember, often without having full 
knowledge of the difference in the benefits offered to active 
duty versus veterans.
    For example, consider that an active duty patient can be 
seen at a VA polytrauma to treat his Traumatic Brain Injury. 
However, while at the VA facility, the servicemember, due to 
his duty status, cannot enjoy VA benefits such as vocational 
rehabilitation or independent living services that can help in 
his recovery if the Veterans Benefits Administration must spend 
funds to accommodate the need.
    Alternately, a medically retired servicemember cannot 
enjoy, among other things, the benefits of DOD's Computer-
Assistive Technology Program because that benefit is only 
available to active duty servicemembers. While there is an 
obvious need for an advantage to the active duty service, those 
who are severely injured as a result of their service in an 
all-volunteer force deserve special consideration.
    Mr. Chairman, thank you for this opportunity to testify and 
we look forward to your questions.
    [The prepared statement of Ms. Beck follows:]
    Prepared Statement of Meredith Beck, National Policy Director, 
                     Wounded Warrior Project (WWP)
    Mr. Chairman, Senator Craig, Members of the Committee, thank you 
for the opportunity to testify before you today regarding pending 
benefits legislation.
    My name is Meredith Beck, and I am the National Policy Director for 
the Wounded Warrior Project (WWP), a nonprofit, nonpartisan 
organization dedicated to assisting the men and women of the United 
States Armed Forces who have been severely injured during the War on 
Terrorism in Iraq, Afghanistan and other hot spots around the world. 
Beginning at the bedside of the severely wounded, WWP provides programs 
and services designated to ease the burdens of these heroes and their 
families, aid in the recovery process and smooth the transition back to 
civilian life. We strive to fill the vital need for a coordinated, 
united effort to enable wounded veterans to aid and assist each other 
and to readjust to civilian life. As a result of our direct, daily 
contact with these wounded warriors, we have gained a unique 
perspective on their needs and the obstacles they face as they attempt 
to reintegrate into their respective communities.
    I would like to specifically address 5 pieces of legislation that 
are of particular interest to our newest generation of wounded 
warriors. First, WWP strongly support S. 225, a bill to expand the 
number of individuals who qualify for retroactive benefits under the 
Traumatic Servicemembers' Group Life Insurance. As an organization, one 
of our proudest achievements in assisting wounded servicemembers was 
the role we played in the creation of this program to provide timely 
payments up to $100,000 to servicemembers who have incurred certain 
devastating injuries. This new insurance program has in most cases 
become the intended financial bridge from the time of injury until the 
warrior is eligible for VA benefits.
    While WWP is very pleased with the overall implementation of the 
TSGLI program, S. 225 would correct one major inequity. As currently 
written, the regulation dictates that in order for a retroactive injury 
to be covered it must have been incurred, ``in Operations Enduring 
Freedom or Iraqi Freedom''. It then defines ``in Operations Enduring 
Freedom or Iraqi Freedom'' to mean that the servicemember must have 
been injured while deployed, ``outside the United States on orders in 
support of Operations Enduring or Iraqi Freedoms or served in a 
geographic location that qualified the servicemember for the combat 
zone Tax Exclusion under 26 U.S.C. 211.''
    By defining ``in Operations Enduring Freedom or Iraqi Freedom'' as 
such, the regulation has disqualified a number of traumatically injured 
servicemembers from payment based solely on their location at the time 
their injury was incurred. WWP believes that the same criteria that 
apply to prospective injuries should apply to retroactive injuries to 
October 7, 2001. It is inequitable to deny retroactive payments to 
those who have suffered the same grievous injuries based solely on the 
location where the traumatic event took place.
    Without corrective action, brave men and women who were 
traumatically injured after October 7, 2001, but before December 1, 
2005, will continue to be denied the same retroactive payment given to 
their wounded comrades even though the Servicemembers' Group Life 
Insurance for which TSGLI is a rider was made retroactive--brave men 
and women like Navy Seal Toshiro Carrington who was injured in a 
training accident at Camp Pendleton on December 15, 2004. He was 
holding a charge in his left hand when another servicemember 
accidentally detonated it. SO 1 Carrington was left with a 
traumatically severed left hand, a severed right tip of his thumb and 
his remaining fingers all fractured. Unfortunately, Toshiro's severe 
injuries did not qualify him for a payment under TSGLI due to the date 
on which the accident occurred. Another servicemember, Seaman Robert 
Roeder, was injured on January 29, 2005 when an arresting wire on the 
aircraft carrier, the USS Kitty Hawk, severed his left leg below the 
knee. Seaman Roeder was on his way to the Gulf of Arabia when his 
injury occurred during flight training operations. Although the ship 
was on its way to the Gulf and the training exercises being conducted 
were in preparation for action in either Operation Enduring or Iraqi 
Freedom, Robert's injury does not qualify for payment under the law as 
written. Robert was hospitalized at Brooke Army Medical Center in San 
Antonio, Texas for over a year and his recovery and rehabilitation has 
been just as strenuous and arduous as it would have been had his ship 
made it to the Gulf of Arabia prior to his injury.
    SO 1 Carrington and Seaman Roeder are not the only wounded 
servicemembers being impacted by this inequity in the regulation. 
Therefore, we applaud Senators Akaka and Craig for their recognition of 
this inequity and strongly urge Congress to quickly act on S. 225 so 
that Seaman Roeder, SO 1 Carrington, and other wounded warriors like 
them will not be deprived of this vitally important insurance program.
    WWP also supports both S. 1096, the Veterans' Housing Benefits 
Enhancement Act, a bill that would make wounded warriors with severe 
burns eligible to receive adaptive housing grants and S. 1265, a bill 
that would make wounded warriors who are receiving specially adapted 
housing assistance while still on active duty also eligible for 
veterans' mortgage life insurance. WWP applauds Senators Cornyn and 
Craig for recognizing these problems, and encourage the swift passage 
of these measures.
    That being said, we would also like to encourage the Committee to 
address applicability of veterans benefits to severely wounded Active 
Duty military personnel on a more comprehensive basis. By expanding 
eligibility for these benefits to servicemembers who have not yet been 
officially retired, both of the aforementioned pieces of legislation 
reflect the reality that many severely injured active duty 
servicemembers can benefit from VA services but are precluded from 
doing so simply due to their status in the Armed Forces. At the same 
time, the Department of Defense offers certain benefits that could 
greatly assist new veterans still recovering from grievous wounds. The 
discrepancy in benefits between the two agencies leads to confusion 
among families who are forced to try to determine what is in the best 
interest of the servicemember, often without having full knowledge of 
the difference in benefits offered to active duty versus veterans.
    For example, consider that an active duty patient can be seen at a 
VA Polytrauma Center to treat his Traumatic Brain Injury. However, 
while at the VA facility, the servicemember, due to his duty status, 
cannot enjoy VA benefits such as Vocational Rehabilitation or 
Independent Living Services that can be helpful in his recovery. 
Alternately, a medically retired servicemember cannot enjoy, among 
other things, the benefits of the Computer Assistive Technology Program 
(CAP) because that benefit is only available to active duty 
servicemembers. While there is an obvious need for an advantage to 
active duty service, those who are severely injured as a result of 
their service in an all-volunteer force deserve special consideration. 
Please note, WWP is only asking for the Committee to address the 
discrepancy in benefits and services, not for a broad overlap of active 
duty pay and VA disability compensation.
    Finally, WWP also supports Senator Feingold's legislation, The 
Veterans Outreach Improvement Act of 2007. This legislation would 
enhance the outreach efforts of the Department of Veterans Affairs and 
require the coordination of these outreach activities throughout the 
Department. In many of the cases we have seen, the creation of new 
benefits wasn't needed to aid the servicemember, rather, the wounded 
warrior just needed to have the existing benefits systems better 
explained and untangled in order to understand what was available to 
them. Information is the key for many of our younger wounded veterans, 
and for those who are transitioning from active duty to veteran's 
status, the responsibility for the coordination of outreach efforts 
should lie not only within the VA as required by this legislation, but 
also with the Department of Defense.
    Finally, WWP would like to support S. 1289, The Veterans Justice 
Assurance Act. This legislation would, among other things, modify the 
current authorities affecting the recall of judges retired from The 
United States Court of Appeals for Veterans Claims. The changes 
included in this legislation would help to ensure that the Court is 
capable of handling its cases in a timely manner, an issue of great 
concern for all wounded warriors who wish to challenge their disability 
compensation rating from the VA.
    Mr. Chairman, thank you again for this opportunity to testify, and 
I look forward to your questions.
                                 ______
                                 
   Response to Written Question Submitted By Hon. Daniel K. Akaka to 
 Meredith Beck, National Policy Director, Wounded Warrior Project (WWP)
    Question. What are the top five legislative priorities of the 
Wounded Warrior Project?
    Response. The top five legislative priorities of the Wounded 
Warrior Project are:
    1. S. 225-- to expand retroactive TSGLI benefits.
    2. S. 1096--the Veterans' Housing Enhancement Act.
    3. S. 1265--regarding the Veterans' Mortgage Life Insurance.
    4. S. 1314--The Veterans Outreach Improvement Act.
    5. S. 1289--the Veterans Justice Assurance Act.

    Chairman Akaka. Thank you very much.
    Carl Blake?

    STATEMENT OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Chairman Akaka, Members of the Committee, on 
behalf of PVA, I would like to thank you for the opportunity to 
testify today. I will limit my remarks to a few of the items 
under consideration.
    As you know, during initial consideration of the Traumatic 
Injury Insurance Rider for TSGLI, PVA expressed concerns about 
the proposal that eventually became law. Our principal concern 
at that time was that servicemembers should not have to pay a 
premium for this coverage, and that concern remains. However, 
the Traumatic Injury Insurance has proven to be very beneficial 
for veterans who have elected to have that coverage.
    We support S. 225 as it addresses an additional concern 
that we had with the proposal in 2005. We believed then, as we 
do now, that a veteran who incurs a service-connected 
disability that qualifies them for this benefit should be able 
to receive the payment regardless of where that injury 
occurred. A servicemember should not be denied this benefit 
simply because he or she was not injured while serving in Iraq 
or Afghanistan.
    S. 847 would eliminate the current 7-year window that 
allows a veteran to claim service-connectedness for multiple 
sclerosis, MS, and extend that service-connectedness window 
indefinitely. At this time, there is no known cause of MS. PVA 
cannot support this proposed legislation that would increase 
the presumptive period for MS beyond the current 7 years as 
long as new medical evidence has not been presented to 
substantiate this change. PVA does, however, encourage this 
Committee and Congress to promote more research in the area of 
MS and related neurological conditions. We are aware that there 
may be higher rates of MS in certain groups of veterans 
attributable to environmental or other factors and VA should 
examine this, as they did for exposures of veterans of 
Southeast Asia.
    PVA generally supports the intentions of the Comprehensive 
Benefits Improvement legislation introduced by Senator Sanders. 
In fact, many of the provisions contained within this 
legislation are specifically addressed in the recommendations 
of the Independent Budget for Fiscal Year 2008. PVA 
particularly appreciates the provisions devoted to specially 
adapted housing and automobile 
assistance.
    Currently, the VA has the authority to provide the 
specially adapted housing grant up to a maximum of $50,000 to a 
service-connected disabled veteran with severe disabilities.
    PVA fully supports Section 501 of this proposed legislation 
that would increase the amount of the grant from $50,000 to 
$60,000. PVA members are the highest users of this very 
important grant. This grant allows veterans with severe 
service-connected disabilities to own the dream of owning their 
own home when they otherwise may not have had the opportunity. 
PVA also supports the increase of the grant for veterans with 
service-connected blindness from $10,000 to $12,000.
    In accordance with recommendations of the Independent 
Budget, we also support the provision that would require the 
Secretary of the VA to establish a residential home cost-of-
construction index to be used to automatically adjust the 
amount of these grants each year. As the housing market has 
continued to boom, these grants have not kept pace. Without an 
annual adjustment to the grants, inflation will continue to 
erode their purchasing power.
    Likewise, PVA supports Section 702 of the proposed 
legislation that would increase the adaptive automobile 
assistance grant. We are particularly pleased that the value of 
the grant is initially increased to a level commensurate with 
the original intent of this benefit.
    Finally, as I mentioned in my written statement, we are 
pleased to see that this Committee is devoting a great deal of 
attention to education benefits. We believe that Senator Webb's 
legislation, the Post-9/11 Veterans Educational Assistance Act, 
should be the standard that this Committee seeks to achieve. We 
also believe a great deal can be done to address the 
educational needs of the National Guard and Reserves.
    The Independent Budget for Fiscal Year 2008 includes some 
discussion about the concept for a total force Montgomery GI 
Bill to match the operational integration of active duty, 
National Guard, and Reserve servicemembers. We call your 
attention to our recommendations and hope that you will further 
address the educational needs of the men and women who are 
currently serving in harm's way and who have done so in the 
past.
    PVA appreciates the efforts of this Committee to address 
the broad range of benefits available to the men and women who 
have served and sacrificed. We look forward to working with you 
to find meaningful changes that may best benefit veterans.
    Thank you again for the opportunity to testify and I would 
be happy to answer any questions that you might have.
    [The prepared statement of Mr. Blake follows:]
   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America
    Chairman Akaka, Ranking Member Craig, and Members of the Committee, 
on behalf of Paralyzed Veterans of America (PVA) I would like to thank 
you for the opportunity to testify today on the proposed benefits 
legislation. The scope of benefits issues being considered here today 
is very broad. We appreciate the Committee taking the time to address 
these many issues, and we hope that out of this process meaningful 
legislation will be approved to best benefit veterans.
s. 117, the ``lane evans veterans health and benefits improvement act''
    PVA supports the provisions of Section 104 of the bill which would 
require enhanced outreach to members of the National Guard and 
Reserves. We have testified many times in the past as to the importance 
of effective outreach. It is only appropriate that National Guard and 
Reserve servicemembers be handled in the same way. The level of service 
being required of these men and women in current operations more than 
justifies the need to inform them of all of the health care and 
benefits services available.
    Although PVA has no objection to the report requirements 
established under Title II of the legislation, we remain concerned that 
this wealth of information will go unused. Collecting this information 
without acting on any findings from that information would serve no 
real purpose. We would hope that the congressional committees will use 
this information to affect positive change within the VA, Department of 
Labor, and Department of Defense. However, we must emphasize that 
additional resources should be provided to allow the agencies involved 
to properly compile this information as we believe that this could be a 
monumental undertaking.
                                 s. 168
     PVA fully supports this legislation which authorizes the VA to 
establish a national cemetery in the Pikes Peak region of Colorado as 
long as there is a clearly demonstrated need. According to VA 
information, there are currently only two national cemeteries located 
in Colorado, neither of which is near this area. With the rate that 
veterans are dying today, particularly World War II veterans, it is 
imperative that the VA be able to provide a suitable burial location 
for these men and women. The Pikes Peak region would certainly provide 
an excellent cemetery location that is centrally located in the state.
                                 s. 225
    During initial consideration of the traumatic injury insurance 
rider for Servicemembers' Group Life Insurance (SGLI), PVA expressed 
concerns about the proposal that eventually became law. The legislation 
was meant to help servicemembers who incur a severe disability while 
serving this country to overcome the financial hardship placed on them 
and their families while they are undergoing medical treatment and 
rehabilitation. Our principal concern that servicemembers should not 
have to pay a premium for this coverage remains. We believe that 
helping these severely injured men and women overcome the financial 
strain of their situation is an obligation of the Federal Government.
    However, the traumatic injury insurance has proven beneficial for 
veterans who elected to have the coverage. We support the concept of 
this legislation as it addresses an additional concern that we had with 
the proposal in 2005. We believed then, as we do now, that a veteran 
who incurs a service-connected severe disability that qualifies them 
for this benefit should be able to receive the payment regardless of 
where that disability was incurred. A servicemember should not be 
denied this benefit simply because he or she was not injured while 
serving in Iraq or Afghanistan. We believe that this legislation 
corrects that particular inequity that exists in the current statute; 
therefore, we support this legislation on those grounds.
          s. 423, the ``veterans' compensation cost-of-living 
                            adjustment act''
    PVA supports S. 423, the ``Veterans' Compensation Cost-of-Living 
Adjustment Act of 2006.'' This bill would increase the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for widows of certain 
disabled veterans. As we have done in the past, we oppose again this 
year the provision rounding down the cost-of-living adjustment to the 
nearest whole dollar. Continuing to round down these benefits year 
after year only serves to erode the value of them. Furthermore, this 
provision forces veterans to bear some of the burden of cost-savings 
for the Federal Government.
       s. 526, the ``veterans employment and training (vet) act''
    PVA supports S. 526, the ``Veterans Employment and Training Act of 
2007.'' This will allow veterans to pursue education or training in the 
high-technology career area for programs that are less than 2 years in 
duration. Many veterans may prefer an occupation that does not require 
a 4-year college degree. This will allow the veteran to use the funds, 
some of which they have contributed, for specific training in an 
occupational field of their choice. As Congress increases the training 
opportunities for veterans they must insure that new programs paid for 
with VA funds meet the approval of State Approving Agencies (SAA). SAAs 
operate through a state's department of education. They currently 
review and evaluate programs that are paid for with the Montgomery GI 
Bill.
            s. 643, the ``disabled veterans insurance act''
    PVA supports increasing the amount of supplemental insurance for 
the totally disabled veteran from $20,000 to $40,000. Several years ago 
when the amount of $20,000 was designated as an appropriate insurance 
pay out, that pay out helped finalize outstanding loans or expenses 
accrued by the veteran. Today, $20,000 has much less buying power. An 
increase to $40,000 is not unreasonable. The cost of the current policy 
is more than some veterans are willing to pay. Congress should ensure 
that if the benefit of the policy doubles, that the payment does not 
double. A large increase in payments to purchase the policy will render 
this insurance inaccessible for many veterans.
     s. 698, the ``veterans' survivors education enhancement act''
    PVA supports the ``Veterans' Survivors Education Enhancement Act of 
2007.'' The bill increases the amount for educational assistance for 
survivors from $788 to $1,777 per month for 45 months, for a total of 
$80,000. It extends the eligibility of dependents from twenty six years 
of age, to thirty years of age. The bill also increases the range of 
programs that the educational assistance can be used for. This reflects 
the fact that all programs to prepare for future employment do not 
require the standard 4 years of college.
                                 s. 847
    This bill would eliminate the current 7-year window that allows a 
veteran to claim service connectedness for multiple sclerosis (MS) and 
extend that service connectedness window indefinitely. At this time, 
there is no known cause of MS. PVA cannot support this proposed 
legislation that would increase the presumptive period for MS beyond 
the current 7 years as long as new medical evidence has not been 
presented to substantiate this change. PVA does, however, encourage 
this Committee and Congress to promote more research in the area of 
multiple sclerosis and related neurological conditions. We are aware 
that there may be higher rates of MS in certain groups of veterans 
attributable to environmental or other factors, and VA should examine 
this as they did for exposures for veterans of Southeast Asia.
              s. 848, the ``prisoner of war benefits act''
    This legislation would repeal the requirement that a Prisoner of 
War (POW) be held captive for at least 30 days in order to receive a 
presumption of service-connection for the purposes of receiving 
benefits. This issue was first considered last year after American 
service personnel who were held captive by Iraq during the early stages 
of the war were released or rescued after less than 30 days of 
internment. These men and women had sustained severe injuries as a 
result of combat actions and their subsequent internment. It seems only 
fair that any POW, regardless of time in captivity, be recognized as 
being eligible for service-connected benefits. PVA supports this 
provision.
    We likewise support the addition of the following diseases to the 
list of diseases presumed to be service-connected: Type 2 diabetes, and 
osteoporosis. We have no objections to the requirements placed on the 
Secretary of VA for adding or subtracting diseases to the presumptive 
service-connection list. We would only caution that veterans and former 
POWs should be given the benefit of the doubt before any consideration 
is given to removing a disease from the list.
            s. 961, the ``belated thank you to the merchant 
                         mariners of wwii act''
    Although we recognize the sacrifices that these brave men made in 
service to the Nation during World War II and we support the intent of 
this legislation, we have some concerns with the proposals it makes. 
The importance of their sacrifices cannot be overstated. While 
suffering extremely high casualty rates during the war, they delivered 
troops, tanks, food, airplanes, fuel and other needed supplies to every 
theater of the war.
    However, PVA believes that this bill would be very costly to the 
Department of Veterans Affairs (VA). We believe that the money needed 
to provide this new monthly benefit would reduce the ability of the VA 
to continue to provide the wide-ranging scope of benefits that it 
already manages.
    We also do not understand how the amount to be provided as a 
monthly benefit was determined. As it stands, if this legislation was 
enacted, a merchant mariner would be entitled to a payment equal to 
veterans who have a 70 percent compensable service-connected 
disability. Furthermore, the surviving spouses of these individuals 
would be entitled to a benefit nearly equal to the amount provided to 
the surviving spouses of veterans with service-connected disabilities. 
Although we do not dispute the idea that these individuals should 
receive some type of benefit, we do not believe that the 
recommendations of this legislation are equitable with similar 
programs. We are not certain that this legislation maintains the 
priority that the VA follows for providing compensation benefits.
      s. 1096, the ``veterans' housing benefits enhancement act''
    PVA supports S. 1096, the ``Veterans' Housing Benefits Enhancement 
Act of 2007.'' This bill will allow the servicemember to plan and make 
necessary modifications to their residence to accommodate their medical 
condition before they are released from the service. This will be very 
beneficial for servicemembers returning to their residence and who use 
a wheelchair as a result of their injury. In most situations doorways 
must be widened, ramps must be installed, and kitchens and bathrooms 
must be remodeled.
    This bill also allows for specially adapted housing assistance for 
disabled veterans with severe burns. Severe burns are one of the 
signature wounds of the Iraq war. Living with this condition after 
being discharged from a hospital could require a precise temperature 
control system in a home, along with an air filtration system. A water 
purification system may also be required. All of these modifications 
take time and are very costly. This bill will give the servicemember 
financial assistance to allow them to make these critically needed 
modifications.
           s. 1163, the ``blinded veterans paired organ act''
    PVA supports S. 1163, the ``Blinded Veterans Paired Organ Act of 
2007.'' This bill would change eligibility requirements for benefits 
available to blinded veterans. If a veteran has lost sight in one eye 
and that loss is service-connected, and then looses sight in the other 
eye, but not as a result of service, the veteran shall receive benefits 
as if both eyes are service-connected.
    Currently, service-connected blinded veterans receive up to $10,000 
to modify their home to accommodate their condition. This bill extends 
this benefit to all legally blind veterans. This small amount of 
financial assistance can help to make the blinded veteran more 
independent in his or her home.
            s. 1261, the ``montgomery gi bill for life act''
    Although PVA has no specific objection to this legislation, we have 
some concern that it could change the underlying meaning of the MGIB. 
Education benefits, particularly the MGIB, are meant to be a 
readjustment benefit for servicemembers immediately upon leaving the 
service or in the interim 10-year period. By eliminating this 10-year 
period, the benefit would then be opened up to a generation of veterans 
who may have long since passed the need for readjustment.
    The one benefit that we do see to this legislation is it could 
allow a veteran to make a career change if he or she finds that their 
current career choice was not the right one. The availability of the 
MGIB benefit later in life would open many new doors. However, we do 
not want this change to open up the opportunity for veterans who may 
have retired from a career already to use the benefit simply to give 
them something to do. This could certainly occur.
         the ``post-9/11 veterans educational assistance act''
    PVA supports this bill that would enhance the current educational 
benefits for the men and women who have served on active duty since 
September 11, 2001. The dollar amount of educational assistance would 
be equal to the established charges of an approved institution. This 
would give the veteran a greater selection of institutions to pursue 
their education since they would not be restricted to less expensive 
institutions. An additional amount of funding would be paid for room 
and board, and a monthly stipend of $1,000 would be paid to the student 
for other expenses. Tutorial assistance would also be available, and 
would be paid for a period up to 12 months to help the student with 
difficult courses. This amount would not be taken from the student's 
entitlement. The bill allows the veteran up to 15 years to take 
advantage of these benefits. This is an important addition since many 
returning veterans may not be emotionally ready right away to start 
school. This educational package offers the veteran many incentives to 
encourage them to enroll in school or continue with their educational 
program.
          the ``disabled veterans insurance improvement act''
    PVA supports this proposed bill that provides for increases in the 
amount of insurance available for disabled veterans. Section 2 of the 
proposed legislation would increase the maximum coverage of Veterans' 
Mortgage Life Insurance from $90,000 to $200,000. This is a necessary 
increase in today's housing market. Section 3 of the legislation would 
increase the amount of term life insurance available to disabled 
veterans. The veteran can purchase insurance coverage amounts in 
increments of $10,000 up to a maximum of $50,000. These adjustments in 
the available insurance are important, particularly since disabled 
veterans generally have difficulty obtaining coverage.
       expanded eligibility for veterans' mortgage life insurance
    PVA supports this bill that would expand eligibility for Veterans' 
Mortgage Life Insurance. This bill would include members of the Armed 
Forces who have received housing modification grant assistance from VA 
for severely disabling conditions. Although military personnel may 
receive the VA housing grant to make modifications to a home to 
accommodate a medical condition, the Veterans' Mortgage Life Insurance 
program has not been available for the individual while they are still 
on active duty. This bill will correct this discrepancy. PVA supports 
the intention of this legislation, particularly if coupled with an 
increase in Veterans' Mortgage Life Insurance to reflect the value of 
homes of today. Often the amount the life insurance policy pays to a 
spouse when the veteran dies leaves the spouse with years of payments 
remaining.
                 the ``veterans justice assurance act''
    PVA opposes what we understand would essentially be lifetime 
appointments for any newly nominated judge to the Veterans Court as 
outlined in Section 2 of this proposed legislation. Recognizing the 
concern discussed in recent years about multiple judges retiring at the 
same time, we believe 15-year appointments, made on a staggered basis, 
adequately addresses this problem.
    Furthermore, we believe that the periodic introduction of new 
judges of varying backgrounds and perspectives that occurs now through 
term limits is a significant value to the development of veteran's law 
jurisprudence. The difference between a 15-year term and a lifetime 
appointment could conceivably be as much as 35-45 years. This time 
difference cuts multiple ways and could adversely affect the 
relationships among the judges, the bar and veterans in ways that are 
unknown at this time.
    Realizing also that there is a perception that newly appointed 
judges are ineffective for a significant period of time, partly as a 
result of their learning process, and that a lifetime appointment would 
result in the Veterans Court being populated with judges who are 
effective for longer periods of time, and even assuming that there is 
some truth to this perception, there are other ways in which Congress 
could address this issue. For example, Congress might take more care to 
encourage the nomination of judges who have some prior experience in 
Veterans Law. Congress could also ensure that the Court maintain an 
experienced and skilled central legal staff that would be in a position 
to assist newly appointed judges. Congress also may encourage the Court 
to look at creating a more active mentoring process, perhaps using 
retired judges, for newly appointed judges--a practice that is used 
successfully in other Courts.
    Ultimately, PVA believes that changing the term of a Veterans Court 
judge from a term of 15 years to a lifetime appointment is a 
significant departure from the current practice with many unknown 
consequences. This is not a direction that should be taken without a 
thorough understanding of what the change is intended to accomplish and 
without trying other less drastic alternatives.
    PVA would also like to suggest a couple of changes to language 
included in the legislation. In Section 4, we would like to see the 
following language added: (d)(5)(B) ``and other recognized bar 
associations.'' We would also like to see a new section ``(E) The 
Veterans Pro Bono Consortium Program.'' These organizations would have 
valuable input and should not be excluded from the current list of 
organizations the chief judge might consult with. In Section 6, we 
would like to see the following language added: ``(9) The number of 
appeals taken to the U.S. Court of Appeals for the Federal Circuit, to 
include the number of appeals taken by the Secretary.''
    PVA also has some concerns about the study proposed in Section 7 of 
the legislation. The study should also include the impact, if any, on 
PVA, (an entity that works with the Court and which currently leases 
space in the same commercial facility in which the Court is located) of 
establishing a dedicated Veterans Courthouse and Justice Center in the 
existing commercial facility. Currently, PVA leases space in the same 
commercial facility in which the Court is located. The study should 
consider whether additional provision should be required to ensure that 
PVA is not disadvantaged in any way vis-a-vis other entities that work 
with the Court and are not currently located in the same commercial 
facility as the Court.
  the ``veterans' education and vocational benefits enhancement act''
    The accelerated payment program was enacted in 2003 to address 
opportunities for veterans in the high-tech industry. Intensive courses 
condensed into a few months offer an excellent opportunity for veterans 
to be certified in advanced levels of information technology knowledge. 
In less than the standard 36 months of normal classroom study, a 
student is ready to enter the workplace. PVA supports this legislation. 
We likewise support the provision for accelerated payments for 
surviving spouses and dependents educational assistance.
    PVA also supports Section 3 of the legislation that would enhance 
educational assistance for Reservists. However, we believe that more 
can be done in this area. The Independent Budget for Fiscal Year 2008 
includes some discussion about the concept for a Total Force Montgomery 
GI Bill to match the operational integration of active duty, National 
Guard, and Reserve servicemembers. We call your attention to our 
recommendations and hope you will further address the educational needs 
of the men and women who are currently serving in harm's way.
        the ``comprehensive veterans benefits improvement act''
    PVA generally supports the intentions of the proposed legislation. 
In fact, many of the provisions contained within this legislation are 
specifically addressed in recommendations of The Independent Budget for 
Fiscal year 2008. With this in mind, I will attempt to address each of 
the benefits provisions being considered today.
    PVA supports Section 201 of the legislation as this is in 
accordance with the recommendations contained within The Independent 
Budget. It is time for Congress to enact legislation to totally repeal 
the inequitable requirement that military retirement pay, based on 
longevity, be offset by an amount equal to their earned VA disability 
compensation. Likewise, we support Section 202 which would increase the 
rates of compensation for service-connected veterans who are determined 
housebound or in need of regular aid and attendance. This is certainly 
an issue of prime concern for PVA as many of our members fall into this 
category.
    PVA also supports the remaining Sections in Title II of the 
legislation in accordance with the recommendations of The Independent 
Budget. We would also recommend that the Committee consider legislation 
that would repeal the offset between dependency and indemnity 
compensation and the Survivor Benefit Plan.
    PVA supports the provisions of Title IV regarding burial and 
memorial affairs as they also reflect the recommendations of The 
Independent Budget. We also appreciate the fact that the legislation 
includes automatic annual adjustments for these benefits. The only way 
to prevent the erosion of these benefits is to ensure that they keep 
pace with inflation.
    Currently, the Department of Veterans Affairs (VA) has the 
authority to provide the Specially Adapted Housing (SAH) grant up to a 
maximum of $50,000 to service-connected disabled veterans with severe 
disabilities. PVA fully supports Section 501 of this proposed 
legislation that would increase the amount of the grant from $50,000 to 
$60,000. PVA members are the highest users of this very important 
grant. This grant allows veterans with severe service-connected 
disabilities to realize the dream of owning their own home when they 
otherwise may not have had the opportunity. PVA also supports the 
increase in the grant for veterans with service-connected blindness 
from $10,000 to $12,000.
    In accordance with recommendations of The Independent Budget, we 
also support the provision that would require the VA Secretary to 
establish a residential home cost-of-construction index to be used to 
automatically adjust the amount of these grants each year. As the 
housing market has continued to boom, these grants have not kept pace. 
Without an annual adjustment to the grants, inflation will continue to 
erode their purchasing power.
    Likewise, PVA supports Section 702 of the proposed legislation that 
would increase the adaptive automobile assistance grant. We are 
particularly pleased that the value of the grant is initially increased 
to a level commensurate with the original intent of this benefit.
    Finally, with regard to this legislation, I would like to comment 
on the concept of Section 604 of the legislation. Although we have no 
problem with studying the claims process to determine measures to 
improve it, it is important to realize that this is no easy 
undertaking. Regardless of the findings and recommendations of any 
possible report, we believe that many of the problems in the Veterans 
Benefits Administration are centered on proper training and 
accountability. Without uniform training across all of VBA on the 
standards established in regulations, problems will continue to arise 
and the claims backlog will continue to grow. Furthermore, it is 
absolutely essential that VBA personnel at all levels be held 
accountable for their own actions and the actions of their 
subordinates. Although we continue to advocate for adequate resources 
and additional staff, these steps will not go far enough if training 
and accountability are not a major component. Similarly, we recognize 
that veterans' service organizations have a commensurate obligation to 
properly train and supervise their personnel.
    In the meantime, it is important to realize that the disability 
evaluation process for the VA and the Department of Defense are meant 
to serve two entirely different purposes. Although recommendations may 
be made to expedite both processes, they do not operate together and 
they should not.
          permanent authority to furnish government headstones
    P.L. 107-330 authorized the VA to provide government markers to 
veterans who have marked graves in private cemeteries. This legislation 
was meant to provide for recognition of those men and women who have 
served this Nation with honor. However, P.L. 107-330 only provided this 
benefit retroactively to veterans who died after September 11, 2001. It 
excluded veterans who died between November 1, 1990 and September 11, 
2001. Prior to enactment of P.L. 107-330, the VA estimated that it 
denied more than 20,000 headstones or markers to these veterans. This 
legislation would make permanent this authority and correct this 
serious inequity. All veterans should be afforded the same recognition 
of their service following their death. PVA fully supports this 
proposed legislation.
      the ``servicemembers' cellular phone contract fairness act''
    PVA fully supports the provisions of this proposed legislation. 
Just as we testified in 2003, when motor vehicle leases were added to 
the Servicemembers Civil Relief Act, it makes no sense to require a 
servicemember to maintain a cellular phone contract when they will have 
no opportunity to use it while on active duty and deployed. The 
inability of the servicemember to use the cellular phone service should 
preclude their requirement to pay for that service.
               the ``veterans outreach improvement act''
    The ``Veterans Outreach Improvement Act'' is intended to improve 
outreach activities performed by the VA. It does so by creating a new 
budget line item for funding the outreach activities of the Veterans 
Health Administration (VHA), the Veterans Benefits Administration 
(VBA), and the National Cemetery Administration (NCA). This money is 
currently drawn from the budget line item for general operating 
expenses.
    The bill also would create a structure within the VA to require the 
Office of the Secretary, the Office of Public Affairs, the VBA, the 
VHA, and the NCA to coordinate outreach activities. Coordinated 
activities could improve the efficiency of each office and make them 
more effective at providing for the needs of current veterans and new 
veterans who will be returning home from new conflicts. The legislation 
would also allow the VA to enter into cooperative agreements with State 
Departments of Veterans Affairs regarding outreach activities and would 
give the VA the authority to provide grants to these state departments. 
PVA supports the provisions of ethis proposed legislation.
          the ``veterans mental health care and advocacy act''
    PVA generally supports the provisions of the proposed legislation. 
If our interpretation of the statute and the proposed legislation is 
correct, Section 2 would allow veterans who experience Post Traumatic 
Stress Disorder (PTSD) to receive medical care if that PTSD is the 
result of exposure to toxic agents or similar agents. We question how 
it was determined that this particular condition should be added to 
this part of the statute. The preceding sections in 1710(e)(1) 
designate veterans based on areas of service, not particular conditions 
incurred.
    With respect to the pro bono legal assistance outlined in Section 
3, PVA has no objection to this proposal. We would like to remind the 
Committee that PVA is currently a member of the Veterans Consortium Pro 
Bono Program. We would be glad to offer assistance to ensure that 
viable entities are chosen for these grants.
    PVA appreciates the efforts of this Committee to address the broad 
range of benefits available to the men and women who have served and 
sacrificed so much for this country. We are particularly pleased that 
the Committee seems to have made improvements to educational assistance 
benefits a priority. We look forward to working with you to ensure that 
meaningful changes are made to best benefit veterans.
    Thank you again for the opportunity to testify. I would be happy to 
answer any questions that you might have.
                                 ______
                                 
   Response to Written Question Submitted By Hon. Daniel K. Akaka to 
   Carl Blake, National Legislative Director, Paralyzed Veterans of 
                                America
    Question. What are the top five legislative priorities of the 
Paralyzed Veterans of America?
    Response. During the hearing, you requested that we submit a list 
of our top five legislative priorities as it relates to the legislation 
that was considered during the hearing. I will outline for you the 
principal issues we are concerned about and why we think they are 
important.
    However, before I explain our positions further, I would first like 
to comment on the concerns addressed during the hearing about the cost 
of the various benefits. I would like to emphasize that the veterans 
service organizations, and PVA in particular, do not factor cost 
considerations into our benefits recommendations. The fact is that we 
believe all of our recommendations are necessary. It is up to the 
elected Members of Congress to determine how best to pay for the 
legislative decisions that are made. With that in mind, I will now 
outline the provisions that are a priority to PVA in their order of 
precedence.
    Our first priority from the legislative measures considered during 
the hearing is the provision of S. 225 which would allow servicemembers 
who incur a severe disability while on active duty to receive the 
traumatic injury insurance protection, as part of Servicemembers' Group 
Life Insurance, regardless of whether the injury was incurred in a 
combat theater or not. We strongly supported this idea when the 
original legislation was considered in 2005. Every year, more new 
service-connected PVA members result from injuries incurred outside of 
Iraq and Afghanistan than in the combat theater. This legislation would 
correct a blatant inequity that exists in the statute.
    Our second priority centers on a broader idea considered in a 
couple of the bills. We believe that each of these provisions can be 
lumped under the umbrella of special assistance grants for severely 
disabled veterans. Specifically, we believe that the Specially Adapted 
Housing (SAH) grant and adaptive automobile grant programs need to be 
significantly improved. Section 501 of the ``Comprehensive Veterans' 
Benefits Improvement Act'' addresses the SAH grant. As we stated in our 
written testimony on May 9, 2007, currently, the VA has the authority 
to provide the SAH grant up to a maximum of $50,000 to service-
connected disabled veterans with severe disabilities. PVA members are 
the highest users of this important grant. It allows them to become 
independent sooner and to realize the dream of owning their own home 
when they otherwise may not have had the opportunity. Likewise, we 
believe the automatic annual adjustment proposed in this legislation is 
a must. Increasing the grant only periodically through legislation 
serves only to erode the purchasing power of this benefit over time.
    PVA also supports S. 1096, the ``Veterans' Housing Benefits 
Enhancement Act,'' specifically as it relates to SAH assistance for 
disabled veterans with severe burns. Home modifications to suit 
disabled veterans with severe burns can take a great deal of time and 
be very costly. It only makes sense that the men and women who have 
incurred such a devastating injury be afforded this benefit.
    Similarly, PVA supports Section 702 of the legislation that 
increases the adaptive automobile assistance grant to an amount 
commensurate with the original intent of this benefit. Furthermore, an 
automatic annual adjustment is equally important to this grant to 
maintain its purchasing power as well.
    Our third priority focuses on the improvement of veterans' 
education benefits. In short, we believe that the Committee should make 
every effort to pass S. 22, the ``Post-9/11 Veterans Educational 
Assistance Act.'' We particularly support the provision of this 
legislation that would essentially realign the Montgomery GI Bill 
(MGIB) to conform to the intent of the original GI bill following World 
War II. This new benefits package would include the costs of tuition, 
room and board, and a monthly stipend of $1,000. We believe that this 
should be the standard that the Committee seeks to achieve as it 
considers improvements in education benefits. In the interim, we would 
hope that the Committee would review the recommendations of The 
Independent Budget regarding the Total Force MGIB and consider making 
changes based on that framework.
    Our fourth priority centers on the concept of improved outreach. As 
such, we believe that the ``Veterans Outreach Improvement Act'' should 
be quickly approved by the Committee. It is essential that the 
Secretary, along with the Office of Public Affairs, Veterans Health 
Administration, Veterans Benefits Administration, and the National 
Cemetery Administration coordinate outreach activities. We simply see 
this as a ``no-brainer'' concept. Furthermore, there would be no real 
cost to the VA to enhance its outreach activities.
    As a part of this priority, we believe the Committee should also 
consider the provisions of S. 117, the ``Lane Evans Veterans Health and 
Benefits Improvement Act,'' that require enhanced outreach to members 
of the National Guard and Reserves. The level of service being required 
of these men and women in current operations more than justifies the 
need to inform them of all of the health care and benefits services 
available.
    Our final priority is included in Section 202 of the 
``Comprehensive Veterans Benefits Improvement Act.'' This section would 
significantly increase the compensation benefits for service-connected 
disabled veterans who are determined to be housebound or in need of 
regular aid-and-attendance. We believe that current aid-and-attendance 
benefits for the most severely disabled are wholly inadequate and do 
not reflect the high cost of attendant care. Attendants are essential 
to allowing seriously disabled veterans to accomplish basic activities 
of daily living, such as dressing, bathing, and eating. Veterans who 
are in need of 24-hour aid-and-attendance live virtually on the margins 
because the cost of this care is so high. They have very little 
positive quality of life because every resource they have goes to 
providing for their care. This change would afford them some 
flexibility and allow them to hire the absolute best caregivers 
possible.

    Chairman Akaka. Thank you very much.
    Eric Hilleman?


        STATEMENT OF ERIC A. HILLEMAN, DEPUTY DIRECTOR, 
 NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE 
                         UNITED STATES

    Mr. Hilleman. Thank you, Chairman Akaka. Members of the 
Committee, it is my pleasure to testify on behalf of the 2.4 
million men and women of the Veterans of Foreign Wars and our 
Auxiliaries. Thank you for the invitation and we look forward 
to presenting our views on these important bills pending before 
the Committee.
    Due to the large number of bills and the brief few moments 
I have before you today, I would confine my oral statements to 
four bills, the first of which is S. 225, introduced by Senator 
Craig. This bill was designed to expand a servicemember's 
eligibility under Servicemembers' Group Life Insurance for 
traumatic injuries. The VFW has strongly supported the wounded 
warrior insurance since its inception. It has helped numerous 
troops and their families grapple with the financial burdens 
associated with injury and the gap in Federal assistance. S. 
225 would make a retroactive benefit for all seriously injured 
servicemembers who served during October 7, 2001, to December 
1, 2005, regardless of where they were serving when injured. We 
applaud this change and agree that all injured servicemembers, 
regarding of their service in combat theater, should be equally 
cared for.
    The second bill we would like to testify on is S. 961, 
introduced by Senator Nelson, the Belated Thank You to Merchant 
Mariners of World War II Act of 2007. The VFW recognizes their 
heroic service as instrumental in World War II. Yet we cannot 
support this legislation to pay a $1,000 monthly benefit for 
life to a Merchant Marine and/or his surviving spouse. This 
benefit would be in addition to any other current veteran's 
benefit paid. It would create a disproportionate payment in 
terms of benefits and recognition for all other veterans who 
have also gone in harm's way at the behest of their country.
    The next bill is the draft bill introduced by Senator Webb, 
Post-9/11 Veterans Education Assistance Act of 2007. This 
legislation would enhance military strength, provide an 
education benefit to fill an ever-widening gap in transition 
assistance, and equip a generation of veterans to face the 
challenges of tomorrow. The VFW has advocated for a GI Bill in 
the spirit of the original World War II-style GI Bill for many 
years. This bill would cover the cost of tuition, housing, 
fees, books, and provide a cost-of-living stipend. This 
legislation accomplishes these goals and many more. It 
recognizes the tens of thousands of Guard and Reservists who 
have served an aggregate of 24 months on active duty. It 
lengthens the post-service usage time from 10 years to 15 years 
from the date of discharge and establishes a post-service 
benefit for Guard and Reserve.
    A personal note, if I may. I used the active duty GI Bill 
after completing four years in the Marine Corps. I graduated 
from Utah State University in 2004. To afford my education, I 
drew the GI Bill. I worked part-time jobs, I was awarded a 
sizable scholarship, and I accrued student loans. Hopefully, in 
the next four to five years, I should pay those off, given the 
current amortization tables. The cost of an education is 
growing ever higher. If Senator Webb's bill is enacted into 
law, I will give a great deal of consideration to going back on 
active service and pursuing a higher degree.
    In many cases, the current GI Bill falls short, especially 
given that the original GI Bill helped to create a middle class 
by educating a generation of Americans after World War II. The 
Department of Defense has long used the GI Bill to recruit and 
retain high-quality personnel. Senator Webb's bill translates 
into a strong national defense program and economic prosperity 
for the next generation, the 9/11 generation of Americans. The 
VFW enthusiastically supports this bill.
    And the final bill I will address today in my oral 
testimony is Senator Akaka's draft bill titled, Disabled 
Veterans Insurance Improvement Act of 2007. This bill mirrors 
the Independent Budget recommendations for Fiscal Year 2008. 
This bill will increase the Veterans Mortgage Life Insurance 
Benefit from $90,000 to $200,000. Traditionally, Department of 
Veterans Affairs insurance programs have not reflected 
commercial industry rates. This corrects this apparent 
shortcoming for VMLI and goes a step further to create a relief 
from premiums for service-connected disabled veterans at the 
age of 70. The VFW supports this legislation.
    Thank you, Senator Akaka and Members of the Committee.
    This concludes my testimony and I would be happy to answer 
any of your questions.
    [The prepared statement of Mr. Hilleman follows:]
   Prepared Statement of Eric A. Hilleman, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of this Committee:
    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars of the U.S. (VFW) and our Auxiliaries, I would like to thank you 
for your invitation to testify at today's important hearing on 
veterans' benefits legislation.
s. 117, the lane evans veterans health and benefits improvement act of 
                                  2007
    The first bill under discussion today is S. 117. This bill aims to 
improve VA and DOD transitioning efforts by increasing outreach 
services available to our Guard and Reserve members and requires 
comprehensive reporting by the Departments of Veterans Affairs, Labor 
and Defense with respect to Global War on Terror (GWOT) veterans.
    VFW applauds Section 104 of this bill which would enhance outreach 
services for National Guard and Reserve members as they are deactivated 
from service. Currently there are over 80,000 Guard and Reserve members 
mobilized in the GWOT. Unlike their active duty counterparts, upon 
demobilization many receive abbreviated transition assistance and are 
without a support system able to guide them through the maze of VA 
benefits. This will help to alleviate some of the burden facing those 
trying to adjust back to civilian life.
    The VFW supports Title II which deals with reports on effects of 
the Global War on Terrorism. By requiring comprehensive reporting from 
all of the stakeholders (VA, DOD and Labor) you will ensure that proper 
oversight and planning is in place to take care of the changing needs 
of those brave soldiers returning home from war.
 s. 168, legislation that would direct the va to establish a national 
             cemetery in the pikes peak region of colorado
    The VFW supports S. 168. Colorado's fifth Congressional district 
contains the highest concentration of military retirees in the Nation 
and has as many as 175,000 veterans residing in the area. The VFW 
Department of Colorado, along with many military groups in southern 
Colorado, has actively supported the building of a national cemetery to 
serve those who wish to have their final resting place in this region. 
The VFW urges the Committee to move quickly on this legislation to 
enable this project to be completed in a timely manner.
   s. 225, a bill to expand the number of individuals qualifying for 
 retroactive benefits from traumatic injury protection coverage under 
                  servicemembers' group life insurance
    The VFW strongly supports S. 225. From inception the VFW has 
supported the Wounded Warrior Bill as a way to provide immediate 
financial assistance for those severely injured servicemembers and 
their families. This legislation would provide those not included in 
the original legislation a chance to receive equal payment for their 
serious injuries by allowing all injured servicemembers who served 
between October 7, 2001 and December 1, 2005 to be eligible for TSGLI 
payments irrespective of where their injuries occurred. We applaud this 
change and agree that all injured servicemembers, those inside and 
outside the combat theatre, should be treated equally when it comes to 
benefits afforded them.
           s. 423, the veterans' compensation cost-of-living 
                         adjustment act of 2007
    VFW also supports S. 423, legislation that would provide a cost-of-
living adjustment to compensation, clothing allowance, and dependency 
and indemnity compensation (DIC) rates for veterans and their families. 
Maintaining the purchasing power of these benefits for service-
connected veterans, their dependents, and survivors is very important, 
especially to those who have limited or no other sources of income.
        s. 526, the veterans employment and training act of 2007
    This legislation seeks to increase the types of education programs 
eligible for accelerated payments under the GI Bill. Currently, only 
education programs in the high-technology industry qualify, allowing GI 
Bill recipients to receive lump sum payments for computer training and 
electronics repair. The proposed expansion of eligible programs would 
include the fields of transportation, construction, hospitality, and 
the energy sector.
    Enhancing the GI Bill has long been a high priority for the VFW. 
This bill would expand the application of accelerated payments based on 
today's economic needs. While supportive of this bill, we are concerned 
that it will dramatically increase the number of ``schools of 
training'' seeking veterans as their clients. With this increase we 
expect many will be reputable, seeking accreditation to earn GI Bill 
dollars, but also impacting the VA's need for greater oversight of the 
accreditation process. Also, with the wealth of new schools seeking 
veteran clients, we remain fearful that valuable education benefits may 
be squandered on less than reputable businesses squeaking through 
without proper vetting. We urge caution in considering this expansion 
of eligible schools of training.
          s. 643, the disabled veterans insurance act of 2007
    VFW supports the next bill under consideration today, S. 643. This 
bill would increase the amount of insurance a disabled veteran can 
purchase under Service-Disabled Veterans Insurance from $20,000 to 
$40,000. Many disabled veterans have difficulty purchasing commercial 
life insurance and are only able to purchase insurance through VA's 
insurance benefit program. This increase is long overdue and will 
provide some peace of mind for our disabled veterans seeking more 
coverage.
               s. 698, the veterans' survivors education 
                        enhancement act of 2007
    This Act would increase the maximum amount of GI Bill benefits 
available for eligible veterans' survivors and dependents from the 
current $788 a month, paid over 45 months equaling $35,460, to $80,000 
total. It allows the benefit to be used for special restorative 
training, apprenticeships, on-the-job training, and tutoring 
assistance. And it allows survivors and dependents to draw the benefit 
until their 30th birthday, extending the usage age from 26th birthday.
    We deeply respect the loss, challenge and pain survivors and 
dependents suffer. Benefits paid to widows/widowers and orphans grant a 
degree of security when faced with the sudden loss of a loved one. The 
VFW fully supports enhancement of educational assistance for survivors 
and dependents of veterans, but we also feel the benefit should move in 
tandem with the education benefit available to the chapter 38 active 
duty GI Bill.
    The current chapter 38 active duty GI Bill benefit total is 
approximately $37,000 and the survivors education benefit is 
approximately $35,500; thus, giving some relative parity in the two 
benefits. S. 698 would award survivors twice the earned benefit 
available to active duty troops. The VFW views such a dramatic increase 
as creating an unfortunate inequity.
  s. 847, a bill that would extend the period of time during which a 
veteran's multiple sclerosis is to be considered to have been incurred 
     in, or aggravated by, military service during a period of war
    VFW supports S. 847. Multiple Sclerosis (MS) is an idiopathic 
inflammatory disease of the central nervous system with subtle symptoms 
at onset and periods of remission. It is often very difficult to 
diagnose. Consequently, many individuals may not seek medical care 
until months or years after the initial symptoms appear, as many of the 
symptoms come and go and often are not related to each other. Because 
the course of the disease is variable and uncertain, it may take years 
for a doctor to recognize the symptoms as those of MS. By allowing for 
an open extension of presumption of service, you will be including 
those veterans who may not have been correctly diagnosed with this 
debilitating disease before time under the law has ran out.
            s. 848, the prisoner of war benefits act of 2007
    The proposed changes in this bill repeal the 30-day requirement for 
former prisoners of war to file for presumptive disabilities related to 
their captivity. It also creates a flexible law giving the Secretary of 
Veterans Affairs the authority to add or remove presumptive 
disabilities on the public registry based on medical science. The 
Advisory Committee on Former Prisoners of War will review and recommend 
all proposed decisions by the Secretary.
    Many ailments, injuries, and diseases incurred or aggravated by 
captivity may not manifest themselves until many years after discharge 
from service. The law must allow flexibility to keep pace with the 
ever-changing nature of war and advances in medicine. For example, 
presumptive disabilities like that of Type 2 diabetes and its links to 
Vietnam and defoliation agents were not discovered until many years 
after the end of the conflict. This legislation is a sound attempt to 
stride the chasm between medical science and law.
    VFW supports S. 848, which would provide improved benefits for 
veterans who are former POWs. We especially applaud the repeal of the 
30-day minimum period of confinement prior to presumption of service-
connection for certain listed diseases for purposes of payment of 
veterans' disability compensation. By eliminating the 30-day minimum 
period so that eligibility starts from the moment of capture, those 
POWs who have been held for shorter intervals but have certainly 
suffered most of the same physical and psychological trauma as other 
POWs will be eligible for compensation.
        s. 961, the belated thank you to the merchant mariners 
                      of world war ii act of 2007
    This bill seeks to expand the current dates of service for WWII 
Merchant Marines who are recognized as veterans, and to pay a $1,000 
monthly benefit to these WWII Merchant Marines or to their surviving 
spouses. The VFW recognizes the heroic service of Merchant Marines 
during WWII. Their sacrifices and heroic efforts were instrumental in 
winning WWII. We cannot, however, support this legislation to pay a 
monthly benefit, which would be in addition to any current veterans' 
benefit that would be otherwise payable. We believe that this payment 
would be disproportionate, in terms of recognition and benefits, to 
what other veterans who have gone in harm's way in service to the 
country currently receive.
    With regard to their service as Merchant Marines, and the proposal 
that they should be recognized for this Merchant Marine service in 
addition to being recognized as veterans, or for a period extending 
beyond the currently recognized dates of WWII, the VFW has not taken a 
position on this matter.
                s. 1096, the veterans' housing benefits 
                        enhancement act of 2007
    This legislation would provide VA housing and automobile grants to 
servicemembers and veterans with burn injuries and those with traumatic 
brain injuries (TBI). S. 1096 broadly impacts the existing grant 
program by including these new types of injuries, but it also adds a 
reporting requirement with the intent of tracking the types of 
adaptations needed specifically in regard to TBI. So much is unknown 
about the long-term effects of this injury that every effort to 
document and track the nature of this injury should be made. We believe 
that adaptive housing and automobile grants should be awarded to 
disabled veterans based on the nature of their injury. The VFW supports 
S. 1096.
         s. 1163, the blinded veterans paired organ act of 2007
    VFW is happy to support S. 1163, a legislation that would improve 
compensation and specially adapted housing for veterans who have 
impairment of vision involving both eyes and allow the use of the 
National Directory of New Hires for income verification purposes.
              s. 1215, legislation to extend and improve 
                       certain authorities of va
    VFW supports S. 1215. We are happy to see funding for State 
Approving Agencies (SAAs) increased to $19 million instead of the 
previous cap of $13 million. SAAs work side-by-side with VA in 
administering its education program. The funding will be well spent in 
monitoring educational and vocational training programs chosen by 
veterans. We also applaud the section of the bill that extends the 
amount paid for institutional training for full-time students to the 
current 85-percent rate and allows those veterans who wish to use their 
on-the-job or apprenticeship training to become claims adjudicators. 
VBA is in desperate need of employees who are dedicated to the needs of 
veterans, and who better understand the process than those who have 
lived it?
    We also support the inclusion of Global War on Terrorism veterans 
with respect to DOL Veterans Employment and Training reports on 
employment and unemployment statistics. Remaining vigilant as to 
employment trends is a critical oversight tool in helping to ease the 
transition process of today's servicemen and women.
          s. 1261, the montgomery gi bill for life act of 2007
    The Montgomery GI Bill (MGIB) has opened the door to higher 
education for millions of Americans. This bill seeks to eliminate time 
limits that often prevent servicemembers from using a life-altering 
benefit when they need it the most. S. 1361 would eliminate the post-
service 10-year time limit for the active duty MGIB and the in-service 
14-year time limit for Guard and reservists. Time limits prevent 
servicemembers from seeking training and education later in life or at 
mid-career milestones. The VFW supports the lifelong career approach to 
the benefit. If a servicemember has earned the benefit, why prevent 
them from using it?
    Many servicemembers seek education and retraining later or at mid-
career. This helps them adapt to the ever-changing economy, 
transitioning from fields that may offer more job security. Also, many 
younger veterans and servicemembers have family obligations that 
prevent them from seeking an education early in life. The VFW supports 
S. 1261 and the repeal of time limits on the GI Bill.
s. 1265, legislation to expand eligibility for veterans' mortgage life 
   insurance (vmli) to include members of the armed forces receiving 
              specially adapted housing assistance from va
    VFW supports S. 1265. Current law allows those medically retired 
servicemembers to receive VA specially adapted housing benefits before 
leaving service but does not provide the same eligibility under the VA 
insurance program. This legislation closes that gap and allows those 
who may have difficulty getting commercial insurance the opportunity to 
receive reasonable coverage under VMLI.
     s. 1266, the veterans dignified burial assistance act of 2007
    VFW supports S. 1266. Current law allows a veteran who is not 
buried in a national cemetery, a plot allowance of up to $300. VFW has 
long supported legislation that will increase the burial plot allowance 
as recent increases have not keep pace with the cost of purchasing a 
final resting place for those who honorably served our nation. As co-
author of the Independent Budget (IB), we have strongly advocated 
increasing the burial plot allowance. We believe an increase to $400 is 
a good place to start but would like to see the amount closer to the IB 
recommendation of $745.
    We also support the bill's intent to increase grants for state 
cemeteries to help with operational and maintenance costs and the 
provision which waives the 2-year limitation on burial of remains of 
veterans located in a state veterans' cemetery. Preserving the dignity 
of our national cemeteries and those buried in it is the right thing to 
do.
             draft bill, the post-9/11 veterans education 
                         assistance act of 2007
    This legislation enhances military strength while providing a 
servicemember's education benefit to aid in transition assistance and 
equips a generation of veterans to face the challenges of tomorrow. We 
have long advocated a GI Bill in the spirit of the original WWII bill, 
which would cover tuition, housing, fees, books, and provide a cost-of-
living stipend. This legislation accomplishes these goals and more. It 
recognizes the tens of thousands of Guard and Reserve members who have 
actively served an aggregate of 24 months defending our nation. It 
lengthens the post-service usage period from 10 to 15 years from date 
of discharge and establishes a post-service benefit for the Guard and 
Reserve.
    The original GI Bill helped to create the middle class by improving 
access to education and creating an unprecedented number of 
opportunities for millions of Americans. It has eased the transition 
from active duty into civilian life for millions of veterans while 
equipping its recipients with the tools to adapt to the ever-changing 
marketplace. The Department of Defense has long used the GI Bill to 
recruit and retain high quality personnel. The GI Bill has profoundly 
improved our military's strength and the quality of life for all of its 
recipients. The VFW enthusiastically supports this bill.
              draft bill, the disabled veterans insurance 
                        improvement act of 2007
    VFW also supports draft legislation entitled the Disabled Veterans 
Insurance Improvement Act of 2007. Department of Veterans Affairs (VA) 
insurance program premiums and coverage do not reflect commercial 
industry rates, and in many cases are no longer providing the intended 
benefit for eligible veterans. This legislation will correct that 
inequity by increasing the Veterans' Mortgage Life Insurance from 
$90,000 to $200,000 and create a new insurance program for veterans 
with service-connected disabilities. The ``new insurance'' will update 
antiquated mortality tables to those used by the commercial insurance 
industry and allow for coverage up to $50,000. These provisions mirror 
IB recommendations for Fiscal Year 2008 insurance benefits.
        draft bill, the veterans' justice assurance act of 2007
    VFW also supports draft legislation entitled the Veterans' Justice 
Assurance Act of 2007. The current backlog of claims at the Board of 
Veterans' Appeals continues to grow at alarming rates. VFW applauds the 
provisions of this bill which, if enacted, will provide some relief to 
a burdened veterans' court system. Some of the bill's highlights 
include repealing term limits and allowing judges who have pending 
nominations before the Senate to serve in office while the process 
plays out. These necessary changes, as well as recalling retired judges 
at equal pay to current judges, will all contribute positively to the 
current situation and help to move some veteran's appeals forward.
          s. 1290, a bill impacting the funding and reporting 
                   of state approving agencies (saa)
    This bill would overhaul the funding and reporting mechanism for 
the SAAs. It would help to eliminate redundant procedures, further the 
flexibility of VA, and improve accountability for the SAAs. The bill 
would require improved coordination between the VA and SAA, the 
Department of Education, the Department of Labor, and other entities to 
reduce overlapping functions. It would ultimately change the funding 
structure for SAAs by allowing up to $19 million per year for SAAs: $13 
million derived from mandatory funding and $6 million in discretionary 
funding.
    The VFW has no objection to this bill.
        s. 1293, the veterans' education improvement act of 2007
    This legislation would expand accelerated payments for the existing 
GI Bill programs to allow funding for any short-term, high-cost school. 
The bill would also allow Guard and Reserve members and veterans' 
surviving dependents to use accelerated payments as part of their 
education benefit. S. 1293 would also allow Guard and Reserve members 
to qualify for the 80-percent GI Bill rate, under chapter 1607 Reserve 
Education Assistance Program (REAP), with an aggregate of 3 years of 
service. This is a change from the required 2 years of consecutive 
service. The bill further extends a $600 ``buy-up,'' similar to the 
active duty ``buy-up,'' for Guard and Reserve troops eligible under 
REAP; awarding them an additional $150 a month over the life of their 
GI Bill.
    S. 1293 is an excellent step toward resolving inequities between 
military service and earned benefits, specifically when examining the 
Guard and Reserve. The VFW agrees with changing the administrative 
benefit qualifier Guard and Reserve GI Bill from consecutive service (a 
servicemember's longest tour) to an aggregate service (counting every 
month activated). However, the goal of fairly administering this 
benefit may be better served by considering a purely equitable benefit, 
such as: 1 month of full-time MGIB for every month a Guard or Reserve 
member serves activated.
    In expanding the number of eligible ``schools of training'' in 
receipt of accelerated payments, we think it is reasonable to assume 
there will be an increased use of this benefit. The caps S. 1293 places 
on the education benefits: three million for Active Duty recipients, 
two million for Guard and Reserve Chapter 1606 recipients, and one 
million for Guard and Reserve Chapter 1607 recipients may be too low to 
meet the actual demand. This would be especially true if these caps 
were based on a previous year's usage levels of the benefit for only 
one area of training, technology. The VFW would advise increasing the 
caps to allow funding for all individuals seeking to draw this benefit.
    We support this legislation and the spirit guiding these changes; 
however we ask that Congress consider the full impact of these changes.
            draft bill, the comprehensive veterans benefits 
                        improvement act of 2007
    VFW supports the Comprehensive Veterans Benefits Improvement Act of 
2007. This legislation mirrors Fiscal Year 2008 Independent Budget 
recommendations in the areas of compensation and pension, insurance, 
burial, housing and vocational rehabilitation benefits. The 
improvements made by this legislation would go a long way toward 
updating and correcting inequities across the range of benefits and 
services offered to veterans. We urge Congress to enact this 
legislation quickly.
    VFW strongly supports this legislation, which would expand 
eligibility for government markers for marked graves of veterans at 
private cemeteries. Public Law 107-103 included a provision to allow VA 
to furnish headstones or markers for veterans buried in private 
cemeteries as long as the death occurred on or after September 11, 
2001. The law does not include veterans who died before that date.
    Congress has endorsed restoring the right of every veteran to 
receive a grave marker that recognizes and pays tribute to their 
service from a grateful Nation. This legislation would amend the 
current law and include those veterans who have died since November 1, 
1990. VFW Resolution 627 calls on Congress to correct this inequity and 
allow those who died between November 1, 1990 and September 10, 2001 to 
be honored with a government headstone or marker.
        draft bill, the servicemembers' cellular phone contract 
                          fairness act of 2007
    VFW supports the Servicemembers' Cellular Phone Contract Fairness 
Act of 2007, legislation that would amend the servicemembers Civil 
Relief Act by providing relief for servicemembers with respect to 
contracts and cell phone fees for cellular phone service. Most cellular 
phone contracts require a term of 2 years or more for service provided.
    If a contract is canceled before the service has ended, hundreds of 
dollars in termination fees are collected. Many of our servicemembers 
are deployed to areas where cell phones are of no use and cannot be 
activated. Most service providers will not suspend a contract while 
soldiers are deployed. Our soldiers should not have to pay a provider 
for termination or monthly fees on a contract for a service they cannot 
use. Passing this legislation is the right thing to do.
       draft bill, the veterans outreach improvement act of 2007
    The VFW supports the Veterans Outreach Improvement Act of 2007. 
This bill aims to improve outreach activities within the Department of 
Veterans Affairs (VA) by coordinating the efforts among the offices of 
the Secretary, Public Affairs, Veterans Health Administration, Veterans 
Benefits Administration and the National Cemetery Administration.
    In order to increase effectiveness of VA outreach, it directs the 
Secretary to establish a grant program for state veterans' agencies by 
providing funding under Section 561 of Title 38, CFR for state and 
local outreach services available to veterans.
    The VFW has always encouraged and supported increased awareness of 
benefits and services provided by VA to veterans. We believe that all 
veterans and their survivors should have access to up-to-date 
information about services and benefits for which they may be eligible. 
However, since success of this initiative will result in increased 
claims submissions to VA, we urge that funding for VBA adjudication 
keep pace with increases in the number of claims filed as a result of 
greater outreach at the local level. We also encourage substantial 
outreach efforts at the local and state level be made on behalf of 
National Guard and Reserve members and would like to see additional 
language which specifies oversight by Congress regarding use of funds 
granted to state and local governments that perform outreach services, 
to ensure that these funds are being spent properly.
             draft bill, the iraq and afghanistan veterans 
                 mental health and advocacy act of 2007
    VFW does not support the draft legislation entitled Iraq and 
Afghanistan Veterans Mental Health and Advocacy Act of 2007 as written.
    Mr. Chairman and Members of the Committee, this concludes the VFW's 
testimony, I would be happy to answer any of your questions. Thank you.
                                 ______
                                 
Response to Written Question Submitted By Hon. Daniel K. Akaka to Eric 
 Hilleman, Deputy Director, National Legislative Service, Veterans of 
                   Foreign Wars of the United States
    Question. What are the top five legislative priorities of the 
Veterans of Foreign Wars of the United States?
     Response. The Veterans of Foreign Wars of the United States 2008 
legislative priority goals are:
VA Budget
    The VFW calls on Congress to pass a sufficient budget for the 
Department of Veterans Affairs to properly care for the health care 
demands of all veterans, especially the thousands of young 
servicemembers accessing their earned benefits for the first time.
    The VFW urges an assured funding mechanism for the Department of 
Veterans Affairs that guarantees a full, timely and predictable funding 
stream for veterans' health care that is provided consistently on time 
year after year.
    Congress must ensure that the unique health care and benefits needs 
of OEF/OIF veterans are met, to include increasing funding for research 
into Traumatic Brain Injuries and other related disabilities, as well 
as improved access to care, especially for those veterans suffering 
from mental illnesses.
VA Benefits and Compensation
    The VFW calls on Congress to provide adequate resources to enable 
the Veterans Benefits Administration (VBA) to reduce the current 
backlog of claims. VBA is the gateway to all VA benefits and health 
care.
    We must ensure that the disability compensation program is fully 
funded and preserved in its current form to protect the needs of 
current and future veterans. The VFW opposes any changes to the current 
definition of ``line of duty,'' structural changes to the programs for 
disability and survivors' benefits, or curtailment of veterans' or 
beneficiaries' rights of entitlement, or to appeal benefit decisions.
Education
    The VFW calls on Congress to enact a comprehensive GI Bill for the 
21st Century in the spirit of the original WWII GI Bill, covering the 
total cost of education including tuition, books, fees and living 
expenses for attendance at any educational institution.
    The VFW supports legislation that invests in the future of our 
Nation's veterans, promotes national security as strong military 
recruiting tool, and recognizes the burdens of war carried by our 
National Guard, Active Reserve, and Active Duty Forces.
    Congress must weigh the short term and long term gains for such a 
comprehensive earned benefit. A high quality military force is a direct 
result of offering potential recruits a robust benefits package and the 
best training in the world. A GI Bill for the 21st Century is an 
investment in our Nation, our military, and the individual lives of 
veterans.
Military Quality of Life
    The VFW calls on Congress to fully fund all programs that enable 
our troops to succeed in their mission. We must ensure our active duty, 
Guard and Reserve members are provided increase pay, affordable health 
care, and adequate housing and work facilities for themselves and their 
families.

    Chairman Akaka. Thank you very much, Mr. Hilleman.
    Kimo Hollingsworth?

   STATEMENT OF KIMO S. HOLLINGSWORTH, NATIONAL LEGISLATIVE 
              DIRECTOR, AMERICAN VETERANS (AMVETS)

    Mr. Hollingsworth. Mr. Chairman, Members of the Committee, 
I am pleased to offer testimony on behalf of American Veterans 
regarding pending benefits legislation.
    AMVETS believes that veterans should be given the benefit 
of the doubt when trying to establish a service-connected 
injury or illness. In the past, Congress has mandated the 
presumption of service-connection in certain conditions and 
AMVETS supports these efforts where applicable.
    AMVETS supports several modifications to the current 
Montgomery GI Bill education program, to include elimination of 
the $1,200 member contribution. We would also like to see 
accelerated payments for fields other than those leading to 
high-technology employment. We also believe that Congress 
should eliminate the time period that veterans must use their 
benefits.
    Overall, we fully support efforts to improve the business 
practices between the Department of Veterans Affairs and State 
Approving Agencies for education and training programs. We also 
support efforts to fund adaptive housing grants and other 
insurance benefits for active duty personnel.
    Mr. Chairman, AMVETS fully supports authorizing VA to 
reimburse the cost of a private headstone or a marker that was 
not supplied by VA.
    With regard to the claims backlog, it is a relatively old 
issue. It is complicated and it is multi-faceted. Overall, we 
believe that quality control is central to this issue. In 
addition, AMVETS believes strongly that Congress should require 
DOD to conduct mandatory separation physicals and also require 
DOD to utilize the Benefits Delivery at Discharge that was 
jointly developed and agreed to by both agencies. It was used 
very briefly during the mid-1990s.
    We support initiatives that would raise rates of veterans 
compensation to keep pace with the cost of living in this 
country, and we would support such a measure to be automatic 
without an act of Congress.
    With regards to the Service Members Civil Relief Act, 
AMVETS supports modification and updates to the law when and 
where needed.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer questions.
    [The prepared statement of Mr. Hollingsworth follows:]
   Prepared Statement of Kimo S. Hollingsworth, National Legislative 
                  Director, American Veterans (AMVETS)
    Mr. Chairman and Members of the Committee:
    I am pleased to offer testimony on behalf of American Veterans 
(AMVETS) regarding pending benefits legislation before this Committee.
    Last October, AMVETS hosted the ``National Symposium for the Needs 
of Young Veterans'' in Chicago, Illinois. More than 500 veterans, 
active duty and National Guard and Reserve personnel, family members, 
and others who care for veterans examined the growing needs of our 
returning veterans. The Symposium findings revealed the need to better 
assist returning veterans transitioning to the civilian sector through 
improved education benefits, and employment training.
    Mr. Chairman, following the first Persian Gulf War, Congress 
enacted legislation that provided for the presumption of service-
connection for a veteran's unexplained illness. AMVETS believes that 
veterans should be given the benefit of the doubt when trying to 
establish a service-connected injury or illness. This legal concept is 
codified in Title 38 Code of Federal Regulations, chapter 3, paragraph 
3.102 that is generally referred to as ``the benefit of the doubt 
rule.'' This is especially true for combat veterans and prisoners of 
war.
    There appears to be some diseases and illnesses, to include 
multiple sclerosis, that have a higher reported incidence among the 
veteran population than non-veterans, but there is no clear medical 
evidence to support a service-connected condition at this time. AMVETS 
Service Officers have unofficially reported a higher percentage of 
multiple sclerosis diagnosis among Air Force veterans than any other 
group of veterans for claims that they process. The Secretary of 
Veterans Affairs has the authority to review certain illness and 
diseases for certain groups of veterans and make recommendations based 
on the findings. Despite this authority, it is a long and time-
consuming process. In the past, Congress has mandated the presumption 
of certain conditions and AMVETS supports these efforts where 
applicable.
    Over the last 10 years, there have been significant improvements to 
Montgomery GI Bill (MGIB) education benefits. Both the House and Senate 
Veterans' Affairs Committees were at the forefront in raising the 
educational stipend to an acceptable level. Unfortunately, payments to 
colleges on behalf of our veterans are taking longer to process. In 
some cases payments are taking so long that it causes a financial 
hardship to the veteran and the veteran's family. Congress must take 
steps to provide funding to the VA to ensure adequate staffing and 
adequate technological improvements so that payments are approved, 
processed, and disbursed within 35 days of receipt of the appropriate 
documentation.
    AMVETS supports several modifications to the current Montgomery GI 
Bill education program to include elimination of the $1,200 member 
contribution. AMVETS would also like to see accelerated benefits 
payments for fields other than those leading to ``high technology'' 
employment. Many work related training programs that require licensing 
or certification are short-term in duration, but are time intensive. 
These types of training programs also generally require upfront payment 
of tuition or fees.
    AMVETS also believes that Congress should eliminate the time period 
that veterans must use their MGIB benefits. Transitioning from the 
military can be a very difficult process. This is especially true for 
married personnel and those with families. The top priority for these 
veterans is finding employment and a place to live. Many veterans opt 
to return to their home of record and later find that meaningful 
employment opportunities are in other geographic locations that require 
another move. By the time many of these veterans settle into a career 
and begin the college testing, application and acceptance process, they 
are near the 10-year time limit requirement. This process is further 
complicated for combat veterans that may be experiencing mental or 
health problems, or other types of general readjustment problems.
    In addition, AMVETS believes that MGIB benefits should be excluded 
from being considered as income for purposes of determining eligibility 
for education grants or student loans. In essence, many veterans are 
being penalized for earning a benefit that many other grant or loan 
applicants opted not to earn. Overall, Congress must ensure that this 
program is capable of maintaining parity, in a timely manner, with the 
rising costs of a college education and also in keeping pace with the 
trends in how students earn or receive an education.
    One of the biggest problems facing our service members today is 
civilian employment. Despite some of the best technical training and 
years of aggressively using their military occupational skill sets, 
civilian licensing and certifying agencies may not certify or license a 
veteran without additional training and education. We would like to 
thank the House and Senate Veterans' Affairs Committees for including 
language in Public Law 109-461 that authorized a pilot program within 
the Office of the Assistant Secretary for Veterans' Employment and 
Training (ASVET). Overall, AMVETS fully supports efforts to improve the 
business practices between the Department of Veterans Affairs and the 
State Approving Agencies for education and training programs.
    Mr. Chairman, AMVETS has been a vocal critic of both the Department 
of Defense and the VA with regard to seamless transition. AMVETS fully 
supports efforts by both departments to continue to better coordinate 
and share resources, where applicable. AMVETS supports efforts to fund 
adaptive housing grants and other insurance benefits for active duty 
personnel.
    Public Law 106-117 required VA to contract for an independent study 
on improvements to veterans' cemeteries. Overall, VA provided this 
Committee three volumes as part of the Study on Improvements to 
Veterans Cemeteries. AMVETS fully supported the Study on Improvements 
to Veterans Cemeteries and believes it serves as a valuable planning 
tool for VA and Congress in establishing standards and priorities with 
regards to VA national cemeteries.
    In accordance with the above mentioned independent Study on 
Improvements to Veterans Cemeteries, AMVETS continue to recommend that 
Congress establish a 5-year, $250 million ``National Shrine 
Initiative'' to restore and improve the condition and character of NCA 
cemeteries. Enacting a 5-year program with dedicated funds and an 
ambitious schedule, the national cemetery system holds the potential to 
fully serve all veterans and their families with the utmost dignity, 
respect, and compassion.
    Mr. Chairman, AVMETS fully supports authorizing VA to reimburse the 
cost of a private headstone or a marker that was not supplied by VA, up 
to the cost of a government headstone or marker. There has also been 
serious erosion in the value of the burial allowance benefits over the 
years. In 2001, the plot allowance was increased for the first time in 
more than 28 years, to $300 from $150. AMVETS, along with its other 
partners in the Independent Budget, recommends increasing the plot 
allowance from $300 to $745, an amount proportionally equal to the 
original benefit.
    In the 108th Congress, the burial allowance for service-connected 
deaths was increased from $500 to $2,000. Prior to this adjustment, the 
allowance had been untouched since 1988. AMVETS, along with its 
Independent Budget partners, recommends increasing the service-
connected burial benefit from $2,000 to $4,100, bringing it back up to 
its original proportionate level of burial costs. The non-service-
connected burial allowance was last adjusted in 1978, and we recommend 
increasing the non-service-connected burial benefit from $300 to 
$1,270.
    AMVETS believes it is also grossly unfair for disabled military 
retirees to forfeit a dollar of their retirement pay for every dollar 
they receive in VA disability compensation. A disabled veteran who has 
served this country for 20 years should not be penalized for choosing a 
military career over a civilian career. In fact, no other category of 
Federal employee faces the same restriction on disability and 
retirement pay. Again, because of action by some on this Committee, 
Congress has enacted legislation to incrementally correct this 
inequity. We thank you for these past efforts and we would urge this 
Congress to fully enact concurrent receipt legislation.
    The Department of Veterans Affairs (VA) claims backlog is a 
relatively old issue that is complicated and multi-faceted. Currently, 
the backlog is way over the 600,000 mark and it continues to grow at a 
rapid rate. Rather than making headway and overcoming the chronic 
backlog, VA has lost ground on the problem. By VA's estimates, over 
263,000 Operation Enduring Freedom (OEF)/Operation Iraqi Freedom (OIF) 
veterans will seek VA services; most of them will want to file a claim. 
Secretary Nicholson has said that reducing the backlog is one of VA's 
highest management priorities.
    The reasons for the claims backlog are many--veterans repeatedly 
filing claims, a lack of quality control, misplaced or lost 
documentation and a lack of staffing. Overall, AMVETS believes that a 
lack of quality control is central to this issue. VA must establish a 
long-term strategy focused on attaining quality and not merely 
achieving quotas in claims processing. Veterans Benefits Administration 
(VBA) can greatly reduce the backlog by hiring more staff, initiating 
quality training programs, and most importantly, instituting an 
accountability program.
    Despite years of collaboration on a single separation physical and 
the development of the Benefits Delivery at Discharge exam (BDD), the 
Department of Defense (DOD) and VA still conduct separate separation 
physicals and separate compensation and pension exams. Furthermore, 
separation physicals are still not mandatory. Congress should require 
the DOD to conduct mandatory separation physicals and also require DOD 
to utilize the BDD that was jointly developed and agreed to by both 
agencies. The effective Benefits Delivery at Discharge joint physical 
was successfully demonstrated from 1995 through 1998 and still isn't 
universally adopted.
    AMVETS would encourage the VA to expand the practice of putting 
adjudication officers in VA offices aboard active duty military bases. 
For example, VA has an office aboard Camp Lejeune, NC. The office is 
staffed with qualified contract medical personnel and full-time VA 
claims adjudicators. Separating servicemembers are provided 
compensation exams on base. Many claims are adjudicated and issued a 
temporary rating decision pending receipt of a DD-214. Once discharged, 
many new veterans are receiving compensation and disability benefits 
within 30 days of final release from active duty.
    The claims backlog has spanned several Administrations and it is 
clear that the VA is either unwilling or unable to resolve this issue. 
While veterans, the VSOs, the VA and the Congress all share 
responsibility for this debacle, what is very clear is that 
congressional intervention is now necessary. It is also very clear that 
the Department of Defense (DOD) has been absent in sharing 
responsibility for the backlog of VA claims. DOD must be forced to 
comply with congressional intent with regards to seamless transition. 
If Congress does not intervene, the system will fail.
    AMVETS believes that a review of claims backlog legislation would 
be incomplete without a discussion of Congress' authorization of 
private attorneys to access VA and charge veterans for representation 
in veterans' disability claims. The Veterans Benefits Administration 
has indicated allowing attorneys to represent veterans will only 
complicate and lengthen the resolution of veterans' disability claims. 
Despite these findings, Congress ignored the recommendation of VA and 
the VSOs and passed legislation to allow private attorneys to represent 
veterans during the claim process.
    AMVETS has 58 National Service Officers located across the country 
whose sole job is to aid veterans with their claim. We do provide--free 
of charge--a more thorough and complete representation for veterans and 
their families. We do not have any financial interests in a claim, and 
our National Service Officers know the Veterans Benefits Administration 
system. Recently, the Board of Veterans' Appeals released its Fiscal 
Year 2006 Report. Out of the major VSOs, AMVETS has the lowest numbers 
of appeals submitted. Ultimately the report proves that organizations 
like AMVETS are filing well-developed and meaningful claims. Allowing 
attorneys to represent veterans will most likely complicate the process 
by legal maneuvering in lieu of good sound claim development. AMVETS 
asks that this Committee review its decision, and rescind this law.
    AMVETS firmly believes that service-connected disabled veterans 
should receive fair, timely, and appropriate compensation for their 
injuries. We fully support initiatives that would raise the rates of 
veterans' compensation to keep pace with the rising cost-of-living in 
this country or efforts to automatically increase veterans' disability 
benefits each year by the Consumer Price Index (CPI), without an act of 
Congress.
    AMVETS also recognizes the sacrifices that the Merchant Mariners 
made in service to the Nation during World War II. We have a resolution 
that supports efforts to provide Merchant Mariners benefits. We do, 
however, have serious concerns about the cost and how it would impair 
VA's ability to provide the benefits it already manages. AMVETS would 
be strongly opposed to funding benefits for this group of veteran at 
the expense of other veterans.
    Mr. Chairman, on December 19, 2003, the President of the United 
States signed Public Law 108-189, the Servicemembers Civil Relief Act. 
This law completely rewrites the Soldiers and Sailors Civil Relief Act 
of 1940, expanding many of the previous law's civil protections. 
Overall, the law will allow military members to suspend or postpone 
some civil obligations so the military member can devote his or her 
full attention to military duties. It is designed to protect active 
duty military members, reservists who are in active Federal service, 
and National Guardsmen who are in active Federal service. AMVETS 
support modifications and updates to the law when applicable.
    Mr. Chairman, this concludes my testimony.
                                 ______
                                 
   Response to Written Question Submitted By Hon. Daniel K. Akaka to 
Kimo S. Hollingsworth, National Legislative Director, American Veterans 
                                (AMVETS)
    Question. What are the top five legislative priorities of the 
American Veterans (AMVETS)?
    Response. The following are the AMVETS legislative priorities for 
2007:
    The Department Veterans Affairs (VA) Fiscal Year 2008 Budget--The 
President's budget request for VA in Fiscal Year (FY) 2008 seeks 
approximately $86.7 billion for veterans' benefits and services. This 
amounts to $39.4 billion in discretionary funding and $44.9 billion in 
mandatory appropriations. In Fiscal Year 2008, AMVETS requests roughly 
$43.6 billion in discretionary funding.
    Mandatory Funding for VA Health Care--In May 2001, President George 
W. Bush signed Executive Order 13214 creating the President's Task 
Force to Improve Health Care Delivery for Our Nation's Veterans (PTF). 
In May 2003, the PTF issued its final report and recommended that the 
Federal Government should provide full funding . . . and that full 
funding should occur through modifications to the current budget and 
appropriations process by using a mandatory funding mechanism. Recent 
history demonstrates why Congress should pass legislation to make VA 
health care funding mandatory spending. In Fiscal Year 2005, VA faced a 
$1.3 billion shortfall in spending and Congress had to include 
additional funding in emergency appropriations. For Fiscal Year 2007, 
Congress failed to pass the annual VA spending bill and the Department 
is operating under a Continuing Resolution well below Fiscal Year 2007 
requested levels.
    Extend Enrollment for OEF/OIF Veterans--H.R. 612 and S. 383 
introduced in the House of Representatives and the Senate, 
respectively, would extend from 2 years to 5 years, following discharge 
or release from active duty, the eligibility period for veterans who 
served in combat during or after the Persian Gulf War. Continued 
eligibility would allow veterans to receive hospital care, medical 
services, or nursing home care provided by the Secretary of Veterans 
Affairs, notwithstanding a lack of evidence to conclude that their 
condition is attributable to such service. AMVETS fully supports the 
passage of legislation to extend the 2-year priority enrollment for 
OEF/OIF veterans.
    Seamless Transition--In March 2007, GAO testified that the 
Department of Defense (DOD) and VA were still having problems sharing 
the necessary medical records the VA needed to determine whether 
servicemembers' medical conditions allowed participation in VA's 
rehabilitation activities. Congress should require the two agencies to 
develop electronic medical records that are interoperable, 
bidirectional, and standards-based. Congress should also require DOD to 
conduct mandatory separation physicals for all separating service 
personnel and also utilize the Benefits Delivery at Discharge (BDD) 
joint separation exam that was developed and agreed to by both 
agencies.
    Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury 
(TBI)--VA operates a network of more than 190 specialized Post 
Traumatic Stress Disorder (PTSD) outpatient treatment programs 
throughout the country. Vet Centers are seeing a rapid increase in 
their enrollment. Equally important, AMVETS is concerned about the lack 
of awareness and screening among health care professionals for 
Traumatic Brain Injury (TBI). PTSD and TBI clinically present the same 
symptoms and the problem for medical personnel is trying to 
differentiate between PTSD and TBI. VA's approach to PTSD is to promote 
early recognition of this condition and the same must be done for TBI. 
In addition, there is no medical diagnostic code specific to TBI. 
AMVETS is asking Congress to increase funding for PTSD and TBI, with an 
emphasis on developing improved screening techniques and assigning a 
new medical code specifically for TBI.
    VA Burial Allowance--VA reimbursement benefits were first 
instituted in 1973 and provided $150 in reimbursements for deaths that 
were not service-related. In 2001, the plot allowance was increased for 
the first time in more than 28 years, to $300. The non-service-
connected burial allowance was last adjusted in 1978 and now also 
provides $300. AMVETS supports increasing the non-service-connected 
burial benefit from $300 to $1,270 and increasing the plot allowance 
from $300 to $745, an amount proportionally equal to the original 
benefit. In 2001, Congress increased the burial allowance for service-
related deaths from $500 to $2,000. Prior to this adjustment, the 
allowance had been untouched since 1988. AMVETS recommends increasing 
the service-related burial benefit from $2,000 to $4,100, restoring the 
value of burial costs to its original proportionate level.
    VA Claims Backlog--The VA Claims Backlog is now over 600,000 
outstanding claims and it continues to grow at a rapid rate. VA's 
estimates that over 263,000 OEF/OIF veterans will seek VA services and 
most will want to file a claim. At the end of Fiscal Year 2006, rating-
related compensation claims were pending an average of 127 days, which 
is 16 days more than at the end of Fiscal Year 2003. During the same 
period, the inventory of rating-related claims grew by almost half, in 
part because of increased filing of claims, including those filed by 
veterans of the Iraq and Afghanistan conflicts. Meanwhile, appeals 
resolution remains a lengthy process, taking an average of 657 days in 
Fiscal Year 2006. Overall, a lack of quality control is central to this 
issue and VA must establish a long-term strategy focused on attaining 
quality and not merely achieving quotas in claims processing. AMVETS 
supports increased funding for VA to hire more Full Time Equivalents 
(FTEs) in order to address the backlog. AMVETS also supports the 
practice putting adjudication officers in VA offices aboard active duty 
military bases.

    Chairman Akaka. Thank you very much, Mr. Hollingsworth.
    Mr. Brian Lawrence?

STATEMENT OF BRIAN E. LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Lawrence. Yes, sir. Good morning, Chairman Akaka and 
Members of the Committee. On behalf of the 1.3 million members 
of the DAV, thank you for the opportunity to present our views 
on the bills under consideration today.
    There are a number of noteworthy provisions in these bills 
and we are encouraged that the Committee is considering so many 
ways to expand and enhance benefits for disabled veterans and 
their families. It is difficult to know where to begin with 
such an array of beneficial measures, but as the title implies, 
the Comprehensive Veterans Benefits Improvement Act of 2007 
would be a huge stride toward a more perfect system to help 
veterans of the Armed Forces. The bill was reflective of many 
recommendations of the Independent Budget and DAV resolutions 
and we hope the Committee will consider it favorably.
    S. 225 would amend the Veterans Housing Opportunity and 
Benefits Improvement Act of 2006 to ensure that certain members 
of the Armed Forces injured while serving our country are 
covered by traumatic injury protection under the SGLI program. 
The DAV supports this measure.
    The Disabled Veterans Insurance Act of 2007 would increase 
the amount of supplemental insurance available for totally 
disabled veterans from $20,000 to $40,000. The DAV supports S. 
643.
    S. 847 would remove the time limit during which multiple 
sclerosis is considered to have been incurred in or aggravated 
by military service. It would ensure that no veteran who 
contracts MS as a result of service is left without benefits, 
regardless of when the disease becomes manifest, and we support 
this bill.
    The POW Benefits Act of 2007 would eliminate the 
requirement that a prisoner of war must have been captive for a 
minimum of 30 days to be presumed service connected for certain 
listed diseases. The bill would also add diabetes Type 2 and 
osteoporosis to the list of presumptive diseases and would 
require VA to expand the list to include conditions that 
warrant such presumption by reason of having an association 
with the experiences of POWs. 
S. 848 would ensure that no former POW who contracts certain 
diseases as a result of an internment is left without benefits 
regardless of the amount of time he or she was held captive and 
we support this bill.
    The Veterans Housing Benefits Enhancement Act of 2007 would 
provide home improvements and structural alterations to totally 
disabled members of the Armed Forces prior to their discharge 
and we support this bill.
    We also support the Blinded Veterans Paired Organ Act of 
2007, S. 1265.
    The Veterans Dignified Burial Assistance Act of 2007, S. 
1266 is beneficial, as the title implies. It would give 
veterans more access to a dignified burial. We do have a 
concern regarding a provision that allows VA to make grants to 
States for the operation and maintenance of State veterans 
cemeteries. We just want to make sure that it didn't take 
necessary funds away from national cemetery programs.
    The Disabled Veterans Insurance Improvement Act of 2007 
would increase the amount of Veterans Mortgage Life Insurance 
from $90,000 to $200,000. It would create a new level premium 
life insurance for veterans with service- connected 
disabilities who are less than 65 years of age. We support the 
creation of that new program. We do question the provision that 
restricts to veterans who become entitled to service connection 
within 10 years of separation from the Armed Forces. Such a 
restriction might preclude eligibility for veterans service-
connected for late onset conditions, such as certain types of 
cancer associated with defoliating agents.
    And lastly, I would like to acknowledge the tremendous 
positive impact the Post-9/11 Veterans Educational Assistance 
Act of 2007 would have for veterans as well as for future 
generations of Americans. S. 22 would provide post-9/11 era 
veterans with educational benefits parallel to those provided 
to servicemembers at the end of World War II, when veterans 
using the GI Bill became a catalyst that spurred economic 
growth and expansion for an entire generation of Americans. 
Today's veterans carry the same potential and we should grant 
them the highest level of resources possible to reward them for 
their service.
    Thank you, Chairman Akaka, for your time.
    [The prepared statement of Mr. Lawrence follows:]
       Prepared Statement of Brian Lawrence, Assistant National 
            Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee:
    I am happy appear before you to present the views of the Disabled 
American Veterans (DAV) on the various bills under consideration today. 
In accordance with its congressional charter, the DAV legislative 
mission is focused on benefits and services provided to veterans on 
account of their service-connected disabilities. We are therefore 
pleased to support the bills insofar as they fall within that scope. We 
are also pleased to acknowledge other provisions within these bills 
that transcend the DAV legislative focus, but are nonetheless 
beneficial to many veterans.
                                 s. 22
    The Post-9/11 Veterans Educational Assistance Act of 2007 would 
entitle certain members of the Armed Forces who served on active duty 
on or after September 11, 2001, to enhanced educational assistance. The 
legislation would require completion of a secondary school diploma, or 
its equivalent, for eligibility. In most cases the duration of such 
assistance would be 36 months and assistance amounts would be subject 
to several criteria such as the frequency of attendance and charges for 
the program of education. The legislation would allow assistance for 
the pursuit of: programs on a full or part-time basis; apprenticeship 
or other on-job training; correspondence courses; flight training; 
tutorial assistance; and licensure and certification tests. The bill 
would also allow for the pursuit of an approved program of education 
while the member served on active duty. All programs would be subject 
to approval by the Department of Veterans Affairs (VA).
    S. 22 would provide 9/11 era veterans with educational benefits 
parallel to those provided to servicemembers at the end of World War 
II. Following WWII, veterans using the GI Bill became a catalyst which 
spurred economic growth and expansion for an entire generation of 
Americans. Today's veterans carry the same potential and we should 
grant them the highest level of resources possible to reward them for 
their service. History has clearly illustrated that when our Nation 
invests in veterans' educational opportunities we are ensuring our 
Nation's economic vitality. Because the DAV maintains an acute focus on 
benefits that are specific to disabled veterans and their families, our 
legislative agenda does not include resolutions pertaining to the 
education benefits. However, the DAV acknowledges that S. 22 could have 
a tremendously positive impact for veterans and future generations of 
Americans, and we certainly have no opposition to its passage.
                                 s. 57
    The Filipino Veterans Equity Act of 2007 would grant eligibility 
for VA benefits to members of the organized military forces of the 
Government of the Commonwealth of the Philippines and the Philippine 
Scouts who performed in active military service before July 1, 1946. 
The DAV has no opposition to the enactment of this bill.
                                 s. 117
    The Lane Evans Veterans Health and Benefits Improvement Act of 2007 
would grant eligibility for a number of health services to veterans who 
served on active duty during a period of war, without requiring medical 
evidence that the condition is attributable to such service. Such 
services would include mental health evaluation and hospital care, 
medical services, nursing home care, and family and marital counseling 
for any identified mental health condition. S. 117 would require: post-
deployment medical and mental health screenings to be conducted within 
30 days after a deployment; provision of an electronic copy of all 
military records to separating members; and outreach to members of the 
National Guard and Reserves concerning benefits and services available 
upon discharge or deactivation. The legislation would require VA to 
establish and maintain a Global War on Terrorism Veterans Information 
System, and it would require VA, the Department of Labor (DOL), and the 
Department of Defense (DOD) to submit quarterly reports on how veterans 
are affected by the Global War on Terrorism. While the DAV does not 
have resolutions specific to this legislation, it would be beneficial 
to veterans seeking health care services and benefits. As such, the DAV 
has no objection to the favorable consideration of this bill.
                                 s. 161
    The Veterans' Disability Compensation Automatic COLA Act would 
require that, whenever there is an increase in benefit amounts payable 
under title II of the Social Security Act, the VA shall make the same 
percentage increase to the rates of disability compensation for 
veterans with service-connected disabilities, additional compensation 
for dependents, the clothing allowance for certain disabled adult 
children, and dependency and indemnity compensation for surviving 
spouses and children.
    To maintain the value of veterans' benefits they must be adjusted 
to keep pace with the rising cost of living. Clearly, disabled veterans 
warrant automatic COLA increases to ensure their standard of living 
does not decline. As such the DAV supports S. 161. Along with the 
provisions of S. 161, the DAV encourages the Committee to consider a 
similar measure that would provide an automatic COLA for specially 
adapted housing and auto grants, which also must be adjusted annually 
if they are to remain meaningful benefits and keep pace with the cost 
of living. A provision that would do so is contained within another 
bill under consideration today. Section 701 of the Comprehensive 
Veterans Benefits Improvements Act of 2007 would establish an automatic 
COLA for specially adapted housing and auto grants. As such, the DAV 
would encourage the Committee to favorably consider this provision 
along with S. 161.
                                 s. 168
    This legislation would require the VA to establish a national 
veterans' cemetery in the Pikes Peak Region of Colorado, and would 
require the VA to consult with appropriate state and local officials in 
site selection, and with the Administrator of General Services or other 
appropriate officials regarding the availability of Federal lands in 
that area suitable for those purposes.
    The DAV has no resolution to support this issue, but we have no 
objection to the enactment of this legislation to make more burial 
space available for veterans.
                                 s. 225
    This legislation would amend the Veterans' Housing Opportunity and 
Benefits Improvement Act of 2006 to remove the requirement that, in 
order to qualify for retroactive benefits from traumatic injury 
protection coverage under the Servicemembers' Group Life Insurance 
program during the period beginning on October 7, 2001, and ending on 
November 30, 2005, the Secretary of the military department concerned 
must determine that the loss was a direct result of a traumatic injury 
incurred in the theater of operations. The DAV supports S. 225.
                                 s. 423
    The Veterans' COLA Adjustment Act of 2007 would increase, effective 
as of December 1, 2007, the rates of compensation for veterans with 
service-connected disabilities and the rates of dependency and 
indemnity compensation for the survivors of certain disabled veterans. 
Within the bill is a provision that ``Each dollar amount increased 
under paragraph (1), if not a whole dollar amount, shall be rounded to 
the next lower whole dollar amount.'' While the DAV supports the 
overall intent of this bill, we have testified for the past several 
years that rounding down the adjusted rates to the next lower dollar 
amount will gradually erode the value of benefits and they will not 
keep pace with the rise in the cost of living. Rounding down veterans' 
cost-of-living adjustments unfairly targets veterans for convenient 
cost savings for the government. The DAV supports S. 423, but we urge 
the Committee to strike the provision regarding the rounding down of 
the COLA. A provision that would do so is contained within another bill 
under consideration today. Section 602 of the Comprehensive Veterans 
Benefits Improvements Act of 2007 would eliminate the rounding down of 
the annual COLA. As such, the DAV would encourage the Committee to 
favorably consider this provision along with S. 423.
                                 s. 526
    The Veterans Employment and Training Act of 2007 would expand the 
scope of programs of education for which accelerated payments of 
educational assistance under the Montgomery GI Bill (MGIB) may be used. 
The DAV has no resolutions pertaining to this bill but because it would 
benefit veterans and their family members, the DAV has no objection to 
its favorable consideration.
                                 s. 643
    The Disabled Veterans Insurance Act of 2007 would increase the 
amount of supplemental insurance available for totally disabled 
veterans. More specifically, it would amend section 1922A(a) of title 
38, United States Code, by striking $20,000 and inserting $40,000. The 
DAV supports S. 643.
    Regarding the issue of veterans' insurance benefits, the DAV also 
encourages the Committee to consider increasing the amount of coverage 
available under Service-Disabled Veterans Insurance (SDVI). The $10,000 
maximum coverage under the base SDVI policy has not been increased 
since it was established in 1917. Additionally, SDVI premiums are much 
higher than standard commercial rates because they are based on 1941 
mortality tables. Because life expectancy has improved since 1941, the 
program no longer fulfills congressional intent to provide life 
insurance to service-connected disabled veterans at standard rates.
    The DAV supports increasing the face value of SDVI, along with 
basing SDVI premiums on current mortality tables. A provision that 
would do so is contained within another bill under consideration today. 
Section 301 of the Comprehensive Veterans Benefits Improvements Act of 
2007 would base SDVI premiums on current mortality table. As such, the 
DAV would encourage the Committee to favorably consider this provision 
along with S. 643.
                                 s. 698
    The Veterans Survivors Education Enhancement Act of 2007 would 
eliminate the 45-month limitation on the use of dependents' educational 
assistance for eligible veterans' survivors and dependents, and the use 
of such assistance for special restorative training. It would also make 
survivors and dependents eligible for educational assistance until 
their 30th (currently 26th) birthday. The bill would make the aggregate 
amount of educational assistance $80,000, and it would make survivors 
and dependents eligible for tutorial assistance. The DAV has no 
resolutions pertaining to this bill but because it would benefit 
veterans and their family members, the DAV has no objection to its 
favorable consideration.
                                 s. 847
    This legislation would remove the time limit during which multiple 
sclerosis is to be considered to have been incurred in, or aggravated 
by, military service.
    Normally, to establish eligibility for service-connected benefits, 
a veteran must provide evidence of a correlation between military 
service and the condition being claimed. Under presumption of service 
connection, VA presumes the service connected relationship exists based 
on the other qualifying criteria, such as statistical information 
indicating a higher than normal affliction rate among veterans. 
Multiple sclerosis is one of the insidious conditions that may appear 
years after a veteran leaves active duty. This bill recognizes that 
manifestation of multiple sclerosis may occur beyond the current 7-year 
presumptive period. S. 847 would ensure that no veteran who contracts 
multiple sclerosis as a result of service is left without benefits, 
regardless of when the disease becomes manifest. The DAV supports this 
bill.
                                 s. 848
    The POW Benefits Act of 2007 would eliminate the requirement that a 
prisoner of war (POW) must have been interned for a minimum of 30 days 
to be presumed service connected for certain listed diseases. The bill 
would also add diabetes (type 2) and osteoporosis to the listed 
presumptive diseases; and it would require VA to expand the list to 
include diseases that warrant such presumption by reason of having a 
positive association with the experience of being a prisoner of war.
    S. 848 would ensure that no former POW who contracts certain 
diseases as a result of internment is left without benefits, regardless 
of the amount of time he or she was held captive. The DAV supports this 
bill.
                                 s. 961
    The Belated Thank You to the Merchant Mariners of World War II Act 
of 2007 would require the VA to pay a monthly benefit of $1,000 to 
certain Merchant Mariners who served between December 7, 1941, and 
December 31, 1946, and who received honorable-service certificates. The 
surviving spouse of an eligible Merchant Mariner would be eligible to 
receive the same monthly payment provided that he or she had been 
married to the Merchant Mariner for at least one year prior to the 
Merchant Mariner's death.
    This legislation would provide a non service-connected benefit, to 
certain Merchant Mariners or their surviving spouses, that exceeds the 
amount of compensation the VA pays to a 60 percent service connected 
disabled veteran. Along with the disparity illustrated by this 
comparison, the DAV is concerned about the cost of this provision. In 
its April 18, 2007 testimony before the House Veterans' Affairs 
Committee regarding H.R. 23, the companion bill to S. 961, the VA 
estimated that enactment of the legislation would cost approximately 
$234.1 million in the first fiscal year and an additional benefit cost 
of $1.4 billion over 10 years.
    The DAV statement of policy specifies that we will not oppose 
legislation unless it is evident that it will jeopardize benefits for 
service-connected disabled veterans. As such, we would strongly oppose 
offsetting the costs associated with S. 961 against other VA programs. 
While the DAV acknowledges the bravery, sacrifice, and contributions of 
the Merchant Mariners of WWII, we cannot support S. 961.
                                s. 1096
    The Veterans' Housing Benefits Enhancement Act of 2007 would 
provide home improvements and structural alterations to totally 
disabled members of the Armed Forces prior to their discharge or 
release from active service. The bill would also expand the number of 
veterans eligible for such benefits to include disabled veterans with 
severe burns. It would require VA to submit to Congress a report that 
contains an assessment of the adequacy of the authorities available to 
the VA to assist disabled veterans in acquiring: suitable housing units 
with special fixtures or movable facilities required for their 
disabilities; adaptations to their residences that are reasonably 
necessary because of their disabilities; or, residences already adapted 
with special features determined by the VA to be reasonably necessary 
as a result of their disabilities. S. 1096 would provide assistance for 
automobiles and adaptive equipment to disabled veterans with severe 
burns. It would provide partial housing grants for those veterans 
residing with a family member to include servicemembers still on active 
duty and awaiting their final VA disability rating. This legislation 
will also require the VA to report on the need for a permanent housing 
grant for wounded veterans who reside with family members.
    S. 1096 would provide immediate, meaningful assistance to disabled 
veterans and their families by strengthening and expanding current 
laws. The DAV fully supports this commendable bill.
                                s. 1163
    The Blinded Veterans Paired Organ Act of 2007 would grant 
eligibility for compensation and specially adapted housing to certain 
veterans with impairment of vision involving both eyes. The VA 
disburses home adaptation grants of up to $10,000 to veterans with a 
service-connected blindness in both eyes. Current law requires that 
such veterans have a visual acuity of 5/200 or less in order to be 
eligible for these grants. This legislation would ease this standard to 
include veterans who have a visual acuity of 20/200 or less. It would 
also make specially adapted housing grants available to veterans with a 
visual acuity of 20/200 or less, or a peripheral field of vision of 20 
degrees or less. The bill would also provide for the use of the 
National Directory of New Hires for income verification purposes.
    This commendable legislation takes into consideration the high 
number of injuries related to improvised explosive devices (IEDs). 
Along with traumatic brain injuries, IEDs frequently cause damage to 
servicemembers' vision. This bill will allow those who have suffered 
severe vision impairment to speed their readjustment by adapting their 
homes to accommodate the disability. Additionally, those who have 
suffered blindness in one eye will be assured that they are provided 
for in the event that they lose sight in the other eye. The DAV 
appreciates and strongly supports this provision of S. 1163, but we 
have no resolution pertaining to the use of the National Directory of 
New Hires for income verification purposes.
                                s. 1215
    This legislation would raise the cap on funds for State Approving 
Agencies and extend authority for a pilot program for on-the-job claim 
adjudicators' training. It would also: update various reporting 
requirements; authorize case-by-case waiver of residency requirement 
for a Director for Veterans' Employment and Training; modify an 
unemployment study to cover veterans of the Global War on Terror; 
extend an increase in benefit for individuals pursuing apprenticeship 
or on-job-training. The DAV has no opposition to the enactment of this 
bill.
                                s. 1261
    The Montgomery GI Bill for Life Act of 2007 would repeal the 10-
year limit on the use of veterans' educational benefits. It would 
extend entitlement that was set to expire to allow a veteran to 
complete the quarter or semester, and it would repeal the 14-year limit 
on the use of selected reserve educational assistance benefits. The DAV 
has no resolutions pertaining to this bill, but because it would 
benefit veterans and their family members, the DAV has no objection to 
its favorable consideration.
                                s. 1265
    This legislation would expand eligibility for Veterans' Mortgage 
Life Insurance to include members of the Armed Forces receiving 
specially adapted housing assistance from the VA. Because this bill 
would provide additional coverage for severely disabled veterans who 
have sacrificed so much on behalf of the security of their fellow 
citizens, the DAV supports this commendable legislation.
                                s. 1266
    The Veterans' Dignified Burial Assistance Act of 2007 would 
increase plot or interment allowance from $300 to $400, and it would 
repeal the time limit for States filing for reimbursement of internment 
costs. This bill would also authorize VA to make grants to States for 
the operation and maintenance of State veterans' cemeteries.
    Overall, S. 1266 is a bill that is beneficial as it helps to 
ensure, as its title implies, that veterans have access to a dignified 
burial that provides the level of honor they deserve. However, a 
concern arises regarding the provision that allows VA to make grants to 
States for the operation and maintenance of State veterans' cemeteries. 
While this provision appears favorable because it would make more 
burial space available for veterans, the DAV wants to ensure that it 
would not have the unintended consequence of creating competition 
between State and National cemetery programs for funding. Should such 
certainty be made, we would welcome the provision. Last, along with the 
proposed increase for the burial plot allowance, the DAV would 
encourage the Committee to consider legislation to increase the burial 
allowance payable in the case of death due to service-connected 
disability and to provide for automatic annual adjustments indexed to 
the rise in the cost of living. During the most recent DAV National 
Convention, our members voted to again adopt a long standing resolution 
calling for an increase for burial allowance, which seems worthy of 
mention considering the objective of this commendable legislation. This 
bill is consistent with the recommendation of the The Independent 
Budget (IB) on this issue. The IB is a budget and policy document that 
sets forth the collective views of the DAV, AMVETS, the Paralyzed 
Veterans of America (PVA), and the Veterans of Foreign Wars of the 
United States (VFW). While the DAV supports the favorable consideration 
of S. 1266, it is noteworthy that another bill under consideration 
today, the Comprehensive Veterans Benefits Improvements Act of 2007, 
would increase the plot allowance to $745. As such, the DAV would 
encourage the Committee to approve the more favorable plot allowance 
provision.
        the disabled veterans insurance improvement act of 2007
    This draft bill would increase the amount of veterans' mortgage 
life insurance (VMLI) from $90,000 to $200,000. It would create a new 
level-premium life insurance for veterans with service connected 
disabilities who are less than 65 years of age. The amount of insurance 
granted would be a maximum of $50,000. Eligible veterans could elect 
lesser amounts of life insurance, which would be available in $10,000 
increments. For veterans insured under this program who reached 70 
years of age, the amount available would be reduced to equal 20 percent 
of the amount previously covered. Premiums would be based on the 2001 
Commissioners Standard Ordinary Basic Table of Mortality and interest 
rate of 4.5 per centum per annum. The bill would expand coverage of 
Servicemembers' Group Life Insurance to include members of the 
individual ready Reserve.
    Overall, this bill is favorable to both veterans and disabled 
veterans. The DAV specifically supports the creation of level-premium 
life insurance for veterans with service connected disabilities. While 
this provision expands benefits for disabled veterans, the DAV 
questions the rationale for restricting it to veterans who became 
entitled to VA service connection within 10 years of separation from 
the Armed Forces. Such a restriction would preclude eligibility for 
veterans service connected for latent onset conditions such as certain 
types of cancer associated with defoliant agents. We hope that the 
Committee will strike this restriction to prevent the unintended 
inequity it would create for a significant number of disabled veterans.
              the veterans' justice assurance act of 2007
    This draft bill would repeal term limits for judges of the United 
States Court of Appeals for Veterans' Claims, and it would increase the 
salary amount for the chief judge of the Court. The bill would 
establish provisions to recall retired judges of the Court, and it 
would grant the Court discretion to set reasonable practice and 
registration fees. It would require the Court to submit an annual 
report to Congress that summarizes the Court's workload during the 
previous fiscal year. Last, the bill would produce a report on the 
feasibility of establishing a Veterans Courthouse and Justice Center.
    With regard to the repeal of term limits for judges of the Court, 
the DAV does not believe that appointing judges to longer terms is 
desirable. Appointments to extended terms during good behavior are 
generally reserved for judges of Article III courts. Since judges of 
the Court may be removed by the President by reason of misconduct, 38 
U.S.C. Sec. 7253(f), there is no doubt that the Court is part of the 
executive branch. The proposed departure from the present 15-year term 
might raise a question about the status of the Court because there 
seems to be no precedent for life tenure within the executive branch. 
The DAV has no objection to the Chief Judge of the Court of Appeals for 
Veterans Claims receiving a higher rate of compensation than the other 
judges of the Court. Regarding the recall of retired judges, the DAV 
notes that the proposed provisions for doing so are somewhat complex 
and may raise issues for judges who have retired far from Washington, 
DC. The Committee might want to consider simpler staffing solutions, 
such as increasing the number of judges authorized for the Court. The 
DAV believes that the proposed annual report to Congress from the Court 
should be more specific and include, along with the number and type of 
dispositions, the number of dispositions based on settlements, joint 
motions for remand, voluntary dismissals, and the number of memorandum 
decisions made by each judge. The DAV supports the establishment of a 
dedicated Veterans Courthouse and Justice Center. During the most 
recent DAV National Convention, our members voted to again adopt a long 
standing resolution calling for such a facility. Our resolution 
envisions an architectural design and location that is reflective of 
the United States' respect and gratitude for veterans of military 
service. Rather than designating the office building where the Court 
currently leases space as the permanent facility, we encourage the 
Committee to authorize the construction of a new Veterans Courthouse 
and Justice Center that features the design and location worthy of its 
status.
the veterans' education and vocational benefits improvement act of 2007
    This draft bill would provide a temporary expansion of courses for 
which accelerated payment of educational assistance for veterans and 
their dependents may be made. It would also enhance educational 
assistance for Reserve component members supporting contingency 
operations and other operations. The DAV has no resolutions pertaining 
to this bill but because it would benefit veterans and their family 
members, the DAV has no objection to its favorable consideration.
                               draft bill
    This draft bill would provide additional discretion to VA in 
contracting with State Approving Agencies. The DAV has no resolutions 
pertaining to this bill but because it would benefit veterans and their 
family members, the DAV has no objection to its favorable 
consideration.
        comprehensive veterans benefits improvements act of 2007
    This draft bill contains a number of provisions to improve benefits 
and services for veterans. Many such provisions are reflective of both 
the DAV Legislative Program resolutions and the recommendations of the 
IB. Where applicable, this testimony points out the bill's provisions 
that relate to DAV resolutions or IB recommendations. Mr. Chairman, per 
your instruction, the portion of the bill pertaining to health care 
matters is not addressed in this testimony.
    Section 201 of the bill would repeal the prohibition on concurrent 
receipt of VA compensation and military longevity retirement pay. This 
provision is consistent with both DAV Resolution Number 003 and the IB 
recommendation on this issue.
    Currently, some former servicemembers who are retired from the 
Armed Forces on the basis of length of service must forfeit a portion 
of the retired pay they earned through faithful performance of military 
service to receive VA compensation for service-connected disabilities. 
This is inequitable because military retired pay is earned by virtue of 
a veteran's long service on behalf of the Nation. Entitlement to 
compensation, on the other hand, is because of disability incurred 
during that military service. Most non-disabled military retirees 
pursue second careers after serving, in order to supplement their 
income, thereby justly enjoying a full reward for completion of a 
military career along with the added reward of full pay in civilian 
employment. In contrast, military retirees with service-connected 
disabilities do not enjoy the same full earning potential. Their 
earning potential is reduced commensurate with the degree of service-
connected disability. To put them on equal footing with non-disabled 
military retirees, disabled retirees should receive full military 
retired pay and compensation, to account for diminution of their 
earning capacities.
    The DAV supports the provision of this bill that would repeal the 
offset between military longevity retired pay and VA disability 
compensation for those service connected less than 50 percent. The DAV 
has no resolutions pertaining to concurrent receipt for Chapter 61 
retirees with less than twenty years of military service, but because 
it would benefit veterans and their family members, the DAV has no 
objection to its favorable consideration.
    Section 202 would increase the rates special monthly compensation. 
This provision is consistent with the recommendation of the IB on this 
issue. The VA, under the provisions of title 38, United States Code, 
section 1114(k) through (s), provides additional special compensation 
to select categories of veterans with very severe, debilitating 
disabilities, such as the loss of a limb, loss of certain senses, and 
to those who require the assistance of an aide for the activities of 
daily living, such as dressing, toileting, bathing, and eating. The 
payment of special monthly compensation, while minimally adjusted for 
inflation each year, is now no longer sufficient to compensate for the 
special needs of these veterans. As such the DAV supports this 
commendable provision to increase this crucial benefit.
    Section 203 would establish a minimum VA disability rating of 10 
percent for veterans with service connected hearing loss requiring a 
hearing aid. This provision is consistent with both DAV Resolution 
Number 122 and the IB recommendation on this issue. Currently, The VA 
Schedule for Rating Disabilities does not provide a compensable rating 
for hearing loss at certain levels severe enough to require hearing 
aids. The minimum disability rating for any hearing loss warranting use 
of hearing aids should be 10 percent, and the schedule should be 
changed accordingly. A disability severe enough to require use of a 
prosthetic device should be compensable. Beyond the functional 
impairment and disadvantages of artificial restoration of hearing, 
hearing aids affect the wearer's physical appearance. As such, the DAV 
supports this provision to provide a minimum 10 percent disability 
rating for hearing loss for which a hearing aid is required.
    Section 204 would increase the rate of dependency indemnity 
compensation for surviving spouses of members of the Armed Forces who 
die while on active duty. This provision is consistent with the 
recommendation of the IB on this issue, and the DAV supports its 
favorable consideration.
    Section 205 would lower the age threshold for eligibility for 
restoration of dependency and indemnity compensation to remarriage of 
survivors of veterans who die from service-connected disabilities. This 
provision is consistent with the recommendation of the IB on this 
issue, and the DAV supports its favorable consideration.
    Section 206 would eliminate an inequity in current law controlling 
the beginning date for payment of increased compensation based on 
periods of incapacity due to hospitalization or convalescence. 
Hospitalization in excess of 21 days for a service connected disability 
entitles the veteran to a temporary total disability rating of 100 
percent. This rating is effective the first day of hospitalization and 
continues to the last day of the month of discharge from hospital. 
Although the effective date of the temporary total disability rating 
corresponds to the beginning date of hospitalization or treatment, the 
provisions of 38 U.S.C. Sec. 5111 delay the effective date for payment 
purposes until the first day of the month following the effective date 
of the increased rating. This provision deprives veterans of any 
increase in compensation to offset the total disability during the 
first month in which temporary total disability occurs. This 
deprivation and consequent delay in the payment of increased 
compensation often jeopardizes disabled veterans' financial security 
and unfairly causes them hardships. Therefore, the DAV supports this 
measure to authorize increased compensation on the basis of a temporary 
total rating for hospitalization or convalescence to be effective, for 
payment purposes, on the date of admission to the hospital or the date 
of treatment, surgery, or other circumstances necessitating 
convalescence.
    Section 207 would produce a report on the adequacy of dependency 
and indemnity compensation to ensure the level of VA financial support 
is adequate to maintain these beneficiaries above the poverty level. 
This provision is consistent with the recommendation of the IB on this 
issue, and the DAV supports its favorable consideration.
    Section 301 would lower premiums for Service Disabled Veterans' 
Insurance (SDVI) policies based on improved life expectancy under 
current mortality tables. Because of service-connected disabilities, 
disabled veterans have difficulty getting or are charged higher 
premiums for life insurance on the commercial market. Congress 
therefore created the SDVI program to furnish disabled veterans life 
insurance at standard rates. When this program began in 1951, its 
rates, based on mortality tables then in use, were competitive with 
commercial insurance. Commercial rates have since been lowered to 
reflect improved life expectancy shown by current mortality tables. VA 
continues to base its rates on mortality tables from 1941 however. 
Consequently, SDVI premiums are no longer competitive with commercial 
insurance and therefore no longer provide the intended benefit for 
eligible veterans. This provision, which would restore SDVI to its 
intended purpose, is consistent with both DAV Resolution Number 191 and 
the IB recommendation on this issue. Section 301 would also increase 
the amount of coverage from $10,000 to $50,000. This increase is also 
reflective of the IB and DAV Resolution Number 022. As such, the DAV 
supports this provision.
    Section 401 would increase plot or interment allowance from $300 to 
$745, and it would provide for an automatic annual COLA for the plot 
allowance to keep pace with rising costs. This provision is consistent 
with the recommendation of the IB on this issue, and the DAV supports 
its favorable consideration.
    Section 402 would increase plot allowance and burial expenses for 
disabled veterans, from $300 to $1,270 and from $2,000 to $4,100 
respectively. This provision is consistent with both DAV Resolution 
Number 202 and the IB recommendation on this issue. Therefore, the DAV 
supports this provision.
    Section 403 would authorize $37 million for the State veterans' 
cemetery grants for Fiscal Year 2008. This provision is consistent with 
the recommendation of the IB on this issue, and the DAV supports its 
favorable consideration.
    Section 501 would increase specially adapted housing grants. The 
current $50,000 grant would be increased to $60,000, and the current 
$10,000 grant would be increased to $12,000. This section would also 
provide for future automatic annual adjustments indexed to the rise in 
the cost-of-living. VA currently provides specially adapted housing 
grants of up to $50,000 to veterans with service-connected disabilities 
consisting of certain combinations of loss or loss of use of 
extremities and blindness or other organic diseases or injuries. 
Veterans with service-connected blindness alone or with loss or loss of 
use of both upper extremities may receive a home adaptation grant of up 
to $10,000. Increases in housing and home adaptation grants have been 
infrequent, although real estate and construction costs rise 
continually. Unless the amounts of the grants are periodically 
adjusted, inflation erodes the value and effectiveness of these 
benefits, which are payable to a select few but among the most 
seriously disabled service-connected veterans. This provision, which 
would address the need for such increases, is consistent with both DAV 
Resolution Number 021 and the IB recommendation on this issue; 
therefore, the DAV supports this provision.
    Section 502 would increase the amount of VMLI from $90,000 to 
$150,000. This provision is consistent with the recommendation of the 
IB on this issue, and the DAV supports its favorable consideration.
    Section 503 would make members of the National Guard and Reserves, 
who serve on active duty for at least one year, eligible for housing 
loans. The DAV has no resolutions pertaining to this bill, but because 
it would benefit veterans and their family members, the DAV has no 
objection to its favorable consideration.
    Section 504 would adjust housing loan fees to rates in effect 
before the enactment of the Veterans' Benefits Act of 2003. The DAV has 
no resolutions pertaining to this bill, but because it would benefit 
veterans and their family members, the DAV has no objection to its 
favorable consideration.
    Section 601 would authorize the Court of Appeals for the Federal 
Circuit (CAFC) to review and set aside changes to the VA Schedule for 
Rating Disabilities found to be arbitrary and capricious or clearly in 
violation of statutory provisions. Under 38 U.S.C. Sec. 502, CAFC may 
review challenges to VA's rulemaking. Section 502 exempts from judicial 
review actions relating to the adoption or revision of the VA Schedule 
for Rating Disabilities, however. Formulation of criteria for 
evaluating reductions in earning capacity from various injuries and 
diseases requires expertise not generally available in Congress. 
Similarly, unlike other matters of law, this is an area outside the 
expertise of the courts. Unfortunately, without any constraints or 
oversight whatsoever, VA is free to promulgate rules for rating 
disabilities that may not fall within the broad parameters of 38 U.S.C. 
Sec. 1155. Therefore, the CAFC should have jurisdiction to review and 
set aside VA changes or additions to the rating schedule when they are 
shown to be arbitrary and capricious or clearly violate basic statutory 
provisions. Section 601 would grant the CAFC such authority; therefore, 
the DAV supports this provision.
    Section 602 would eliminate the rounding down of COLAs for the 
rates of compensation for veterans with service-connected disabilities 
and the rates of dependency and indemnity compensation for the 
survivors of certain disabled veterans. As mentioned previously in this 
statement with regard to S. 243, COLA increases normally require that 
each partial dollar amount increased shall be rounded to the next lower 
whole dollar amount. The DAV has testified for the past several years 
that continually rounding down the adjusted rates to the next lower 
dollar amount will gradually erode the value of benefits and they will 
not keep pace with the rise in the cost of living. Rounding down 
veterans' cost-of-living adjustments unfairly targets veterans for 
convenient cost savings for the government. As such, the DAV supports 
section 602 and we urge the Committee to eliminate the rounding down of 
the COLA.
    Section 603 would establish a clinical information data exchange 
bureau that facilitates data between the DOD and VA health systems. 
Recently, there has been a great deal of effort to develop proposals to 
promote VA/DOD initiatives within the medical care arena. The IB 
believes DOD and VA must continue to develop electronic medical records 
that are interoperable. Better coordination of the two electronic 
medical record systems will afford the opportunity to see tangible 
initiatives of VA/DOD programs. It will also expedite the handling of 
patient information especially in the transition of the patient from 
the DOD system to the VA system. Section 603 is consistent with the 
recommendation of the IB on this issue, and the DAV supports its 
favorable consideration.
    Section 604 would require VA and DOD to conduct a joint study 
regarding the interoperability of their respective disability rating 
systems. This provision would seek to address a longstanding problem in 
the military disability evaluation system. Injured servicemembers, are 
routinely denied benefits to which they are entitled. This occurs 
primarily because some military services consistently underrate the 
severity of those disabling conditions found to render the 
servicemember unfit for further service. Military services do not 
adhere to the VA Schedule for Rating Disabilities as required by 
chapter 61 of title 10 United States. The DAV asserts that this statute 
and the ruling by the U.S. Court of Claims in John F. Hordechuck vs. 
The United States (U.S. Ct. Cl. 492, 1959) make it clear that DOD must 
use the VA schedule as its standard for rating disabilities. While 
section 604 of this bill would be a step toward resolving this problem, 
the DAV encourages the Committee to consider legislative action to 
eliminate any ambiguity on this issue. Such legislation should make it 
unmistakably clear that: (1) there is only one rating schedule, the one 
adopted by the VA, and that DOD does not have authority to modify that 
schedule; and (2) that decisions of the Court of Appeals for Veterans 
Claims interpreting the rating schedule must also be followed by DOD.
    Section 701 would increase the amount of automobile assistance 
allowance for disabled veterans. The VA provides certain severely 
disabled veterans grants for the purchase of automobiles or other 
conveyances. This grant also provides for adaptive equipment necessary 
for safe operation of these vehicles. This program also authorizes 
replacement or repair of adaptive equipment. To restore the 
comparability between the cost of an automobile and the allowance, the 
allowance, based on 80 percent of the average new vehicle cost, would 
be $22,484. Section 701 would increase the amount to this level, and it 
would provide for an automatic annual COLA. This provision is 
consistent with the recommendation of the IB on this issue, and the DAV 
supports its favorable consideration.
    Section 702 would change the law to permit refund of an 
individual's MGIB contributions when his or her discharge was 
characterized as general or under honorable conditions because of minor 
infractions or inefficiency. This provision is consistent with the 
recommendation of the IB on this issue, and the DAV supports its 
favorable consideration.
                               draft bill
    This draft bill would make permanent authority for the VA to 
furnish government markers for graves of veterans buried in private 
cemeteries. While the DAV has no resolution on this issue, the bill 
would accomplish a beneficial purpose, and we certainly have no 
objection to its passage.
              the servicemembers' cellular phone contract 
                          fairness act of 2007
    This draft bill would allow servicemembers who must relocate for 
military reasons to terminate cellular phone contracts without penalty. 
While the DAV has no resolution on this issue, the bill would 
accomplish a beneficial purpose, and we certainly have no objection to 
its passage.
             the veteran's outreach improvement act of 2007
    This legislation would direct the VA to establish procedures for 
effective coordination of outreach activities between the various 
offices and administrations within VA. It would also authorize the VA 
to make grants to state veteran agencies for state and local outreach 
services.
    The DAV understands the importance of reaching out to veterans to 
inform them of benefits to which they may be entitled, and expends 
considerable resources in this regard. Both the DAV Veterans' 
Information Seminar program and the DAV Mobile Service Office (MSO) 
program are designed to educate disabled veterans and their families on 
veterans' benefits and services. In both programs, highly trained 
members of DAV National Service Officer Corps provide service deep 
within veterans' communities across the country to counsel and assist 
veterans in completing applications for benefits from the VA and other 
government agencies.
    While outreach is important, we believe a higher budget priority 
for VA is to decrease the number of backlogged VA compensation claims. 
Therefore, the funding that would be authorized by this bill for 
outreach would be better utilized if it was put toward a program that 
would help reduce the backlog. For instance, the Benefits Delivery at 
Discharge (BDD) is a program that assists servicemembers at 
participating military bases with development of VA disability 
compensation claims prior to release from active duty. The discharge 
physical is conducted under VA disability examination protocols either 
by VA medical staff, contract medical examiners or military personnel. 
BDD fosters a seamless transition from the military to the VA system 
and accelerates claims for compensation. In summary, the DAV does not 
oppose this bill, but we would prefer to see additional funding 
directed toward the more urgent need for resources within the VA claims 
processing system.
                               draft bill
    This draft bill would make veterans diagnosed with Post Traumatic 
Stress Disorder eligible for hospital care, medical services, and 
nursing home care, despite insufficient medical evidence to conclude 
that such disability may be associated with military service. It would 
also assess the feasibility of making grants available to legal service 
organizations to assist servicemembers and veterans in obtaining pro 
bono legal representation to ensure they receive health care, benefits 
and services. The DAV supports these provisions. While we do not 
recognize a widespread need for legal representation for veterans 
seeking health care, we do acknowledge that pro bono legal 
representation could be beneficial to a large number of veterans 
seeking benefits. Accordingly, the DAV has recently entered into an 
agreement with LeBoeuf, Lamb, Greene & MacRae LLP, under which DAV and 
the firm will coordinate to provide pro bono legal services to 
servicemembers going before formal physical evaluation boards in 
Washington, DC. The DAV hopes to conclude a similar agreement with 
another large firm in the near future. The goal of this effort is to 
ensure that every servicemember who desires the assistance of an 
attorney while the servicemember is proceeding through the military 
disability evaluation system in Washington, DC, is provided that 
assistance at no cost. The DAV believes that similar efforts can, and 
should, be organized in other cities without the need to expend public 
funds. There are many veterans' service organizations, and attorneys 
have an obligation to perform pro bono service. DAV believes that large 
numbers of attorneys will welcome the opportunity to complete that 
obligation by serving veterans.
                                closing
    Mr. Chairman and Members of the Committee, the DAV appreciates the 
opportunity to present our views on these bills. We look forward to our 
continued work with the Committee to serve our Nation's disabled 
veterans and their families.
                               __________
    Response to Written Questions Submitted by Hon. Daniel K. Akaka 
 to Brian Lawrence, Assistant National Legislative Director, Disabled 
                           American Veterans
    Question. What are the top five legislative priorities of the 
Disabled American Veterans?
    Response. As you requested during the hearing, I have provided the 
following list of issues the DAV believes should be considered priority 
subjects.
                             claims backlog
    Despite ongoing efforts to reduce the unacceptably large claims 
backlog, C&P has been unable to gain ground on its pending claims. 
Experience has shown that this problem has persisted primarily because 
of inadequate resources compounded by higher claims volumes. The VA 
needs to be provided with adequate resources that will allow it to hire 
enough employees to clear the mountain of backlogged claims. The VA 
also requires resources to establish and improve training programs to 
enable newly hired personnel to absorb the tremendous volume of 
information contained in the laws, regulations, and court decisions 
affecting veterans' claims. Lastly, VA must hold its employees 
accountable for quality and accuracy in their work. DAV has long 
stressed quality over quantity; mere completion of a large number of 
claims decisions is ineffective if many of them must be reworked. It is 
more important to do the work right the first time. It is paramount 
that substantial measures be taken immediately to fix the backlog in 
claims processing before the system collapses under its own weight. To 
solve the claims backlog problems, VA must have:
    <bullet> Adequate staffing levels and resources.
        <all>  Congress should authorize 10,675 total full time 
        employees for VA Compensation and Pension Service for Fiscal 
        Year 2008.
    <bullet> Comprehensive training programs to enable claims 
processing personnel to make accurate decisions.
    <bullet> Accountability for the accuracy of claims decisions.
        <all>  Quality control measures should be established for each 
        individual making claims decisions.
                     repeal the attorney provision
    The DAV is deeply concerned that allowing fee-charging lawyers and 
agents into the VA claims process will profoundly change the system to 
the detriment of veterans and other claimants. We believe there is 
potential wide-ranging unintended consequences. Beyond the cost to 
veterans, added administrative costs for VA are likely to be 
substantial, without commensurate advantages. It is reasonable to 
expect that this provision will negatively impact productivity in the 
claims adjudication process and further bog down an already overloaded 
system, and will eventually lead to the need for even more increases in 
VA staffing. For example, VA will have the responsibility of oversight 
and administration of fee agreements, but no consideration has been 
given by either Congress or the VA regarding the amount of monetary or 
human resources that will be necessary to perform these functions.
    <bullet> Lawyers and agents must not be allowed to charge fees for 
assisting veterans with VA disability claims.
    <bullet> The provision in S. 3421, Public Law 109-461, which allows 
lawyers and agents to charge such fees, must be repealed.
                   assured funding for va health care
    The DAV firmly believes that service-connected disabled veterans 
have earned the right to VA medical care through their extraordinary 
sacrifices and service to our Nation. Year after year the DAV has 
fought for sufficient funding for VA health care but despite our 
efforts, the cumulative effects of insufficient funding have resulted 
in the rationing of health care. VA reports that it has reached 
capacity at many of its health care facilities.
    The funding for VA health care is a discretionary program. The DAV 
believes that making such funding mandatory would ensure the government 
meets its obligation to provide health care to service-connected 
disabled veterans by eliminating the year-to-year uncertainties about 
funding levels that have prevented VA from being able to adequately 
plan for and meet the growing number of veterans seeking treatment.
    <bullet> Funding for VA health care should be transferred from the 
discretionary budget and appropriations process and made mandatory.
                           concurrent receipt
    Recent laws have been enacted to phase in a new benefit and 
incrementally eliminate the unfair law that bans concurrent receipt of 
career retirement pay and VA disability compensation. However, only 
career retirees who are at least 50 percent disabled are eligible. The 
DAV believes an unfair law should also be repealed for everyone 
affected by it; there should be no eligibility criteria, based on a 
veteran's level of disability, to determine entitlement to justice. 
Something unfair to a veteran who is 50 percent disabled, is equally 
unfair to a veteran with a 40 percent disability. The attempt to 
partially and incrementally correct the unfair offset has also led to 
the creation of a hodge-podge of programs with different eligibility 
criteria. Besides giving rise to much confusion, each new program has 
created unforeseen inequities that required further corrective actions. 
The complexity and vagueness of these programs have undoubtedly added 
to the costs of administration.
    <bullet> Congress should take steps to fully repeal the unfair 
prohibition on the concurrent receipt of military retired pay and VA 
disability compensation for all disabled career military retirees.
              restore market value of disabled veterans' 
                         readjustment benefits
Specially Adapted Housing/Auto Grants
    In addition to compensation, the VA provides special benefits to 
accommodate a veteran or servicemember with severe disabilities that 
resulted from an injury or disease incurred or aggravated during active 
military service. Such benefits include grants for housing and home 
adaptation, and grants for the purchase of an automobile and automobile 
adaptive equipment. VA currently provides specially adapted housing 
grants of up to $50,000 to veterans with service-connected disabilities 
consisting of certain combinations of loss or loss of use of 
extremities and blindness or other organic diseases or injuries. 
Veterans with service-connected blindness alone or with loss or loss of 
use of both upper extremities may receive a home adaptation grant of up 
to $10,000.
    Increases in these grants have been infrequent, although associated 
costs rise continually. Unless the amounts of the grants are 
periodically adjusted, inflation erodes the market value and 
effectiveness of these benefits. Congress should increase the value of 
these programs and provide for automatic adjustments annually.
    <bullet> Congress should increase the automobile grant amount from 
$11,000 to an amount based on the average new vehicle cost.
    <bullet> Congress should increase specially adapted housing grants. 
The current $50,000 grant should be increased to $60,000, and the 
current $10,000 grant should be increased to $12,000.
               service disabled veterans insurance (sdvi)
    Disabled veterans have historically found difficulty obtaining life 
insurance or they are charged higher premiums for life insurance on the 
commercial market. Congress therefore created the SDVI program to 
furnish disabled veterans life insurance at standard rates. When this 
program began in 1951, its rates, based on mortality tables then in 
use, were competitive with commercial insurance. Commercial rates have 
since been lowered to reflect improved life expectancy shown by current 
mortality tables. VA continues to base its rates on mortality tables 
from 1941 however. Consequently, SDVI premiums are no longer 
competitive with commercial insurance and therefore no longer provide 
the intended benefit for eligible veterans.
    Also, when life insurance for veterans had its beginnings in the 
War Risk Insurance program, first made available to members of the 
Armed Forces in October 1917, coverage was limited to $10,000. Today, 
more than 88 years later, maximum coverage under the base SDVI policy 
is still $10,000. Given that the annual cost of living is many times 
what it was in 1917, the same maximum coverage well over three quarters 
of a century later clearly does not provide meaningful income 
replacement for the survivors of service-disabled veterans.
    <bullet> Congress should enact legislation to authorize VA to 
revise its premium schedule for SDVI to reflect current mortality 
tables.
    <bullet> Congress should enact legislation to increase the maximum 
protection under base SDVI policies to at least $50,000.

    Chairman Akaka. Thank you very much, Mr. Lawrence.
    Mr. Norton?

   STATEMENT OF COLONEL ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
                           OF AMERICA

    Colonel Norton. Thank you, Mr. Chairman and distinguished 
Members of the Committee, for this opportunity to appear before 
you today on behalf of the Military Officers Association of 
America. I also want to say it is good to see you, Senator 
Webb, having worked for you at the Pentagon back in the last 
millennium.
    Senator Webb. If I may, Mr. Chairman, for a moment. It is 
really great to see Colonel Norton. He worked on my staff when 
he was a wet-behind-the-ears major and I was a wet-behind-the-
ears Assistant Secretary of Defense many years ago. He did some 
terrific work on the IRR, which I think we paid off over the 
past couple of years. It is good to see you.
    Colonel Norton. Thank you, Senator.
    MOAA is very grateful, Mr. Chairman, for the growing 
bipartisan interest in upgrading educational benefits for our 
Nation's returning warriors. I will focus my remarks on this 
issue.
    First, to put the GI Bill in context, there have been no 
substantive improvements in most of the GI Bill programs since 
prior to 9/11. Two exceptions are the commendable increases in 
survivors' and dependents' educational benefit rates, including 
extending the usage time line for survivors out to 20 years 
after the death of the military member. Accelerated benefits 
for high-technology courses is also a very useful improvement.
    Most Americans and perhaps many of the troops may not know 
that for Guard and Reserve veterans of Iraq and Afghanistan, 
the only veterans benefit denied them is access to their 
educational benefits after they complete their service. Let me 
repeat, the only veterans benefit denied Guard and Reserve 
active duty veterans of the War on Terror is the Montgomery GI 
Bill. The Nation has now called 600,000 citizen warriors since 
9/11 and 85,000 have served two or more tours. When it is time 
for these volunteers to be discharged or retire from the 
Reserve forces, they get not a single penny of their Montgomery 
GI Bill benefits earned in service to the Nation as a 
readjustment benefit.
    One example of this inequity is the experience of the 39th 
Brigade Combat Team of the Arkansas Army National Guard. It 
returned from Iraq in 2005 and has been alerted for 
redeployment again this year. That is a rotation pace that 
exceeds many active Army units. Not only will these veterans 
not be able to use their benefits when they get out, they can't 
even earn more GI Bill entitlement during their second or 
future call-ups in the National Guard.
    There are many other Guard and Reserve units also facing 
second and third tours in Iraq and Afghanistan and they are 
similarly situated. They cannot earn additional Montgomery GI 
Bill entitlement and they cannot access these benefits after 
they separate from the Reserve forces.
    The sad reality, Mr. Chairman, is that our warrior citizens 
can't access these benefits unless they agree to remain in the 
service. Active duty service men and women don't have such 
golden handcuffs on their GI Bill benefits. They can use them 
on active duty or when they become veterans. Reservists can 
only use theirs if they agree to remain in the service. There 
is no readjustment benefit for Reservists under the GI Bill.
    MOAA strongly supports some progress on GI Bill benefits 
this year. In the context outlined above, we are particularly 
supportive of the provision in Senator Webb's S. 22 that 
permits Guard and Reserve veterans to aggregate multiple active 
duty service toward entitlement to the GI Bill. The cost of war 
should not overlook the service and sacrifice of all of our 
veterans.
    MOAA also endorses Senator Craig's bill that would expand 
accelerated benefits for short job-related courses and 
establish buy-up provisions for the Reserve and survivor 
programs. Unfortunately, for Guard and Reserve veterans of Iraq 
and Afghanistan, they would have no access to such benefits 
when they get out of the service.
    We also think Senator Cantwell's bill to create lifetime 
entitlement under the Montgomery GI Bill has merit. In our 
view, however, the first order of business needs to be 
establishment of a readjustment benefit for active duty service 
of our Guard and Reserve veterans. They have earned these 
benefits in harm's way and they deserve no less.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Colonel Norton follows:]
  Prepared Statement of Colonel Robert F. Norton, USA (Ret.), Deputy 
   Director, Government Relations, Military Officers Association of 
                                America
    Mr. Chairman and distinguished Members of the Committee, on behalf 
of the nearly 362,000 members of the Military Officers Association of 
America (MOAA), I am honored to have this opportunity to present the 
Association's views on legislative proposals being considered before 
you today.
    MOAA is an original founding member of the Partnership for 
Veterans' Education, a consortium of military, veterans, and higher 
education groups which advocate for passage of a ``total force'' 
approach to the Montgomery GI Bill to meet the needs of our operating 
forces--active duty, National Guard and Reserve--in the 21st century.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                           executive summary
    MOAA appreciates the growing interest in Congress in improving 
educational benefits under the Montgomery GI Bill (MGIB) for our 
Nation's returning warriors. Legislative proposals range from modest 
improvements at the margins to restoration of a ``World War II-style'' 
GI Bill that would cover all costs of a veteran's education or training 
plus a living-expense stipend.
    MOAA certainly supports almost all of these proposals. The question 
is how will the Committee and this Congress ``rack and stack'' them 
given other competing priorities and direct spending realities.
    In addressing these questions, MOAA recognizes that all good things 
are not going to happen in one session of Congress. In our close 
collaboration with the 45 associations that make up the Partnership for 
Veterans' Education, MOAA believes that the following priorities should 
inform the work of the Committee on the MGIB. In order:

    1. Establishment of a readjustment benefit under the MGIB for Guard 
and Reserve veterans of the War on Terror. This is the only veterans' 
benefit denied returning Guard and Reserve warriors. (S. 644 addresses 
this gross inequity.)
    2. Integration of the Reserve MGIB programs with active duty 
provisions in Title 38 and establishment in law of a principle that 
benefits should be proportional to length and type of duty performed 
(e.g., buy-up provisions for Guard and Reserve participants, etc. would 
follow).
    3. Benchmarking MGIB rates to the average cost of a 4-year public 
college or university education, including restoration of proportional 
parity between active and Selected Reserve rates.
    4. Improvement in the flexible delivery of MGIB benefits such as 
accelerated payments (see #2).
    5. Elimination of the $1200 payroll reduction for active duty 
service entrants.
    6. Extension of time-limits toward the goal of lifetime learning 
for remaining MGIB entitlement.

     From this perspective, MOAA is pleased to offer our views on the 
legislation being considered by the Senate Committee on Veterans' 
Affairs today.
    This testimony focuses on legislation before the Committee that 
concerns educational benefits for members of the armed forces, 
including National Guard and Reserve servicemen and women, veterans and 
survivors.
Denial of a Core Veterans' Benefit to Operational Reservists'
    National Guard and Reserve servicemen and women who have been 
called into Federal service on active duty in the War on Terror are 
entitled to all veterans' benefits upon completion of their service 
with one glaring exception: a readjustment benefit under the Montgomery 
GI Bill (MGIB).
    Since, September 11, 2001, approximately 600,000 Guard and Reserve 
veterans have served on active duty. Contingency operation service 
enables them to access VA health care, apply for service-connected 
disabilities, VA home loans, and other benefits authorized in law. 
About 85,000 have served multiple combat tours.
    The Defense Department's ``operational reserve'' policy means that 
reservists can expect to serve on active duty multiple times during a 
normal 20 to 30-year Guard or Reserve career. DOD now plans to activate 
reservists 1 year out of 5 years for 12 months per tour. However, with 
85,000 members of the reserve forces have already served two or more 
tours since 9/11 and more units slated for re-deployment, ``operational 
reservists'' are deploying at or above active duty force rotations. 
When Guard and Reserve veterans complete these commitments, the one 
benefit denied them is to access Montgomery GI Bill benefits under 
Chapter 1607 of Title 10 U.S. Code after they are discharged or retire.
    There is no MGIB readjustment benefit available to reservists who 
have served the Nation on active duty.
    MOAA and our colleagues in the Partnership for Veterans' Education 
are deeply committed to righting this fundamental injustice. The 
Partnership for Veterans' Education includes the 35 members of The 
Military Coalition (which includes MOAA, the VFW and AMVETS), other 
major veterans' service organizations and higher education 
associations.
    It is in this context that MOAA is surprised and disappointed that 
the Committee is not including consideration of S. 644 (Senators 
Lincoln [D-AR] and Collins [R-ME]) at this hearing. In our view, S. 644 
directly concerns the jurisdiction of this Committee in that a 
fundamental purpose of the bill is to integrate the two Reserve MGIB 
programs into Title 38 so that, going forward, educational benefits can 
be properly scaled according to the length and type of duty performed 
by members of the Nation's total force team--active duty, National 
Guard, and Reserve.
    Unfortunately, the Nation's total force military policy is not 
matched by educational benefits programs that maximize MGIB purposes, 
namely, support for recruitment, reenlistment, and readjustment.
    From this perspective, MOAA is pleased to respectfully offer its 
views on some of the bills before the Committee at this hearing.
S. 22 (Revised), Post-9/11 Veterans Educational Assistance Act of 2007 
        (Webb)
    Senator Webb's (D-VA) bill, S. 22, would in effect re-establish and 
enhance the post-World War II ``GI Bill'' of educational benefits.
    S. 22 would establish ``wartime'' service GI Bill benefits that 
would permit servicemen and women who serve or have served since 9/11 
and who meet the requisite active duty service requirements in the 
legislation to be reimbursed for the entire cost of a college, 
university, or training program of their choice.
    Reimbursement rates would match the cost paid by non-veterans at 
such programs. Additionally, veterans would receive a $1,000 per month 
stipend for 36 months, matching the maximum entitlement reimbursement 
period. Veterans would have up to 15 years after their service to 
exhaust entitlement. The existing bar to duplication of benefits would 
preclude paying other MGIB benefits concurrently.
    National Guard and Reserve ``wartime'' veterans with qualifying 
active duty service would be entitled to the benefits described in the 
bill.
MOAA Comment on S. 22
    MOAA supports S. 22. S. 22 represents a vision, perhaps even a GI 
Bill ``holy grail,'' that our Nation's warriors surely have earned in 
service to the Nation. We worry, however, that absent a strong signal 
of support from this Committee and the full Senate and House, the 
likelihood of this bill's passage is remote at best.
    MOAA has long supported many of the features in S. 22, especially: 
the increase in GI Bill benefit rates, the elimination of the $1,200 
payroll reduction, extension of the post-service usage period, and 
establishment of a readjustment benefit for mobilized reservists. 
However, based on the fact that the last substantive upgrades to the 
MGIB-Active Duty program were enacted before 9/11, stakeholders must 
wonder if there is genuine resolve to upgrade the MGIB.
    MOAA's approach on military and veterans benefits is to work with 
Congress to find realistic ways to make progress on military and 
veteran people' issues that support a strong national defense, military 
readiness, and fair treatment of those who have worn the uniform of the 
country. Sure, MOAA would prefer to have all the features of S. 22 and 
all at once. Our experience has shown that Congress rarely acts that 
way.
    For many years and over the course of many sessions of Congress, 
retired Ranking Member of the House Veterans' Affairs Committee, Lane 
Evans--a distinguished Vietnam veteran--sponsored legislation similar 
to S. 22. Unfortunately, none of his bills attracted enough support to 
gain serious consideration.
    A practical shortcoming in S. 22 is the absence of MGIB ``kicker'' 
authority for the military services--Section 3015(d), 38 U.S. Code. DOD 
has long used financial incentives--``kickers''--as tools to distribute 
military manpower into high demand skills needed for readiness. Kickers 
have proven very effective in combination with the MGIB-AD (Chapter 30) 
to support Armed Forces recruiting goals.
    It may be that the quantum leap in GI Bill benefits under S. 22 
would suffice for overall recruiting purposes, obviating the need for 
``kickers.'' Manpower planners, however, probably will be extremely 
reluctant to test this theory.
    If forced to choose, we believe the most glaring inequity that 
needs to be addressed immediately in GI Bill legislation is the absence 
of a readjustment benefit under the MGIB for activated reservists.
S. 1293, the Veterans' Education and Vocational Benefits Improvement 
        Act of 2007 (Craig)
    Senator Craig's draft bill has two broad features. It would 
temporarily expand the payment of accelerated benefits under the MGIB 
during the period between October 2008 and September 2012. Eligible 
participants would receive accelerated benefits for short term, high 
cost courses, not just ``high technology'' coursework as currently 
authorized.
    Accelerated payments would be available to participants in the MGIB 
Active Duty (Chapter 30), MGIB Reserve Programs (Chapter 1606 and 
Chapter 1607, 10 U.S. Code), and Survivors and Dependents Educational 
Assistance (Chapter 35). Each program would have an annual expenditure 
cap ranging from $3 million for MGIB-AD, $2 million for MGIB-Selected 
Reserve (Chapter 1606), and $1 million each for the Reserve Educational 
Assistance Program (REAP) (Chapter 1607), and Survivors and Dependents 
(Chapter 35).
    The second feature would establish the opportunity for members of 
the Guard and Reserve to ``buy up'' their benefits under REAP. They 
could contribute up to $600 in $20 increments in order to receive an 
additional $150 per month in MGIB benefits.
    MOAA supports the greater flexibility envisioned in the accelerated 
payment provisions. As a practical matter, the annual expenditure caps 
may substantially limit participation in the program, given the tens of 
thousands of MGIB users.
    The ``buy up'' feature proposed for REAP confirms our view that the 
Reserve MGIB programs are not properly synchronized with basic benefits 
under Chapter 30. The reality is that there have been no adjustments to 
the reserve MGIB programs since the late 1990s, other than annual 
COLAs.
    MOAA appreciates the intent and direction of the buy-up provisions 
in the bill and we endorse its provisions.
    A hopefully unintentional consequence of the proposed REAP buy-up 
provision is that returning Guard and Reserve warriors who honorably 
complete their service and separate or retire, would not be authorized 
access to their buy-up benefits under REAP following service. Again, 
there is no readjustment benefit under law for Guard and Reserve 
veterans. All such benefits are forfeited upon honorable completion of 
service resulting in discharge or retirement.
    Veterans who elect to increase their REAP accounts can only use 
them if they agree to remain in the Guard or Reserve. The buy-up 
provision comes with ``golden handcuffs.'' In our view, our All 
Volunteer Force should be structured under the principle of willing 
service. Active duty servicemembers have readjustment benefits under 
the MGIB, but operational reservists returning from war zones do not.
    MOAA does not support separate treatment of active duty veterans 
and Guard/Reserve active duty veterans in terms of access to their 
earned MGIB benefits. Any Guard or Reserve veteran with REAP 
entitlement who elects buy-up, would forfeit all such benefits at 
separation.
    MOAA recommends that the REAP buy-up provision be authorized in 
conjunction with post-service access to those benefits.
Toward a Total Force MGIB for the 21st Century
    MOAA appreciates the growing interest in adapting and improving 
MGIB programs to fit the needs of the 21st century force. Numerous 
Senate and House bills address various facets of the MGIB.
    MOAA believes that the first priority in creating a more effective 
MGIB is to evaluate proposals against the principle of aligning 
benefits with the length and type of duty performed by members of our 
Nation's Armed Forces team--active duty, National Guard and Reserve. In 
short, a ``total force'' approach is needed for the MGIB.
    In achieving this objective--an objective we believe will better 
accomplish recruitment, reenlistment, and readjustment purposes--MOAA 
strongly endorses as a first order of business two affordable steps.
    First, all active duty and reserve MGIB programs would be 
consolidated under Title 38. DOD and the Services would retain 
responsibility for cash bonuses, MGIB ``kickers'', and other 
enlistment/reenlistment incentives. Second, MGIB benefit levels would 
be structured according to the level of military service performed.
    The Total Force MGIB would restructure MGIB benefit rates as 
follows:
    <bullet> Tier one, the Active Duty MGIB (Chapter 30, Title 38)--
initially, no statutory change. Individuals who enter the active Armed 
Forces would earn MGIB entitlement unless they decline enrollment.
    <bullet> Tier two, the Selected Reserve MGIB (Chapter 1606, Title 
10)--MGIB benefits for a 6-year enlistment or reenlistment the Guard or 
Reserve. Chapter 1606 would transfer to Title 38. Congress should 
consider adjusting benefit rates in proportion to the active duty 
program. Historically, Selected Reserve benefits have been 47-48 
percent of active duty benefits.
    <bullet> Tier three, Reserve Educational Assistance Program 
(Chapter 1607, Title 10),--MGIB benefits for mobilized members of the 
Guard/Reserve on ``contingency operation'' orders. Chapter 1607 would 
transfer to Title 38 and be amended to provide mobilized servicemembers 
one month of ``tier one'' benefits (currently, $1,075 per month) for 
each month of activation after 90 days active duty, up to a maximum of 
36 months for multiple call-ups.
    A servicemember would have up to 10 years to use remaining 
entitlement under Tier One or Tier Three programs upon separation or 
retirement. A Selected Reservist could use remaining Second Tier MGIB 
benefits only while continuing to serve satisfactorily in the Selected 
Reserve. Reservists who qualify for a reserve retirement or are 
separated/retired for disability would have 10 years following 
separation to use all earned MGIB benefits. In accordance with current 
law, in cases of multiple benefit eligibility, only one benefit would 
be used at one time, and total usage eligibility would extend to no 
more than 48 months.
MGIB-SR Benefit Upgrades Ignored by DOD/Services Since Prior to 9/11
    For the first 15 years of the Reserve MGIB program's existence, 
benefits earned by individuals who initially join the Guard or Reserve 
for 6 years or who reenlist for 6 years, paid 47 cents to the dollar 
for active duty MGIB participants. Since 9/11, however, the ratio has 
dropped to 29 cents to the dollar. One consequence of the rate drop is 
that reservists feel their service is devalued. The following chart 
illustrates the sharp decline in rate parity since 9/11.

                        Montgomery GI Bill Program Benefit History--Full Time Study Rates
----------------------------------------------------------------------------------------------------------------
                                                                                     Selected
                                                                    Active Duty       Reserve
                      Month                            Year       Chapter 30 ($)   Chapter 1606    (in percent)
                                                                                        ($)
----------------------------------------------------------------------------------------------------------------
July............................................            1985         $300.00         $140.00              47
                                                            1986          300.00          140.00              47
                                                            1987          300.00          140.00              47
                                                            1988          300.00          140.00              47
                                                            1989          300.00          140.00              47
                                                            1990          300.00          140.00              47
October.........................................            1991          350.00          170.00              49
                                                            1992          350.00          170.00              49
April...........................................            1993          400.00          190.00              48
October.........................................            1994          404.88          192.32              48
October.........................................            1995          416.62          197.90              48
October.........................................            1996          427.87          203.24              44
October.........................................            1997          439.85          208.93              48
October.........................................            1998          528.00          251.00              48
October.........................................            1999          536.00          255.00              48
October.........................................            2000          552.00          263.00              48
November........................................            2000          650.00          263.00              40
October.........................................            2001          672.00          272.00              40
December........................................            2001          800.00          272.00              34
October.........................................            2002          900.00          276.00              31
October.........................................            2003          985.00          282.00              29
October.........................................            2004        1,004.00          288.00            28.6
October.........................................            2005        1,034.00          297.00            28.6
October.........................................            2006        1,075.00          309.00            28.7
----------------------------------------------------------------------------------------------------------------

Guard and Reserve Warriors are Denied Veterans' Benefits Under REAP
    Certain MGIB benefits are earned by mobilized reservists who serve 
the Nation on active duty for at least ninety days during a national 
emergency under contingency operation' orders. The REAP (Chapter 1607, 
10 U.S. Code) benefit package was cobbled together with little 
consultation/coordination with the Departments of Defense and Veterans 
Affairs, and other stakeholders. For example, the benefit rate 
structure is based on an administratively cumbersome percentage of 
active duty MGIB Chapter 30 benefits. Ironically, substantial benefits 
are awarded after 90 days service, but no post-service access to those 
benefits is authorized. Clearly, the principle of scaling benefits 
proportional to service performed was not used in fashioning REAP.
    The Total Force MGIB would address these concerns by establishing 
in law month-for-month entitlement to active duty MGIB benefits 
(Chapter 30). With enactment of a portability feature for earned REAP 
benefits, the program ultimately would be fairer to all members of the 
force and serve as an incentive for continued service in the Guard or 
Reserves.
    A restructured REAP would support DOD policy of calling up the 
``operational reserve'' for no more than 12 months per tour every 5 or 
6 years. The proposal would enable a G-R member to potentially acquire 
full MGIB entitlement after 36 months aggregate service on contingency 
operation orders. Presently, Chapter 1607 benefits are awarded only for 
a single tour of active duty. Additional service offers no additional 
benefit, even though over the course of a 20-year Guard or Reserve 
career, reservists will serve multiple tours of active duty. Under the 
Total Force MGIB, the more one serves the more MGIB entitlement is 
earned.
    A key feature of S. 644 is that reservists mobilized for at least 
90 days under Federal contingency operation orders would have access to 
use remaining REAP benefits after separation. That is, they would be 
entitled to post-service readjustment benefits under the MGIB.
    America's volunteer military--active duty and reserve component--
become veterans when they complete their active duty service 
agreements. For mobilized reservists, when they return from an active 
duty call-up (under contingency operation orders) they are veterans, 
and no American would dispute that fact, no less their sacrifice. Why 
then should they be treated as second-class citizens for purposes of 
the MGIB? If an active duty member who serves 2 years on active duty 
and one tour in Iraq may use MGIB benefits for up to 10 years after 
leaving service, do we not owe equal treatment to a Guard or Reserve 
member who serves 2 or more years in Iraq over a period of 6 or 8 years 
of Guard/Reserve service?
    DOD's own survey of reserve component members (DOD Status of Forces 
Survey, November 2004) indicates that ``education'' is not a key 
component in extension or reenlistment decisions. Moreover, a 
reenlistment or extension decision enables the servicemember to retain 
original Reserve MGIB benefits (currently, Chapter 1606) as well as the 
potential to earn more active duty MGIB entitlement through successive 
call-ups. That's not possible under the REAP program today. Reservists 
who choose to remain in the Selected Reserve and are subsequently 
activated would earn one month of active duty MGIB benefits for every 
month mobilized, up to 36 months of benefits, under the Total Force 
MGIB proposal. Under S. 644, they would still have up to 12 months 
remaining usage under Chapter 1606, since current law allows dual-
benefit accrual up to 48 months maximum entitlement. In short, there is 
a built-in incentive to continue serving in the Selected Reserve 
because of the potential to earn more MGIB entitlement under S. 644.
    MOAA strongly supports enactment of S. 644 to consolidate military/
veteran MGIB programs in Title 38 and align benefit rates according to 
the length and type of service performed, a Total Force MGIB.
S. 1261, Montgomery GI Bill for Life Act of 2007 (Cantwell)
    Senator Cantwell's bill, S. 1261, would repeal the 10-year 
limitation on post-service usage of the MGIB-AD (Chapter 30) and the 
14-year in-service usage limitation on the MGIB-SR (Chapter 1606, 10 
U.S. Code). The elimination of the MGIB-SR time limit may help to 
encourage overstressed Guard and Reserve members with remaining 
entitlement to extend their reserve component service.
    MOAA supports this legislation. Establishment of a lifetime 
learning benefit for unused MGIB-AD benefits is a worthy goal. However, 
if forced to choose, MOAA believes this legislation must rank 
considerably below other issues outlined in this Statement for 
reforming and re-structuring the MGIB for our Nations's forces.
S. 1215, State Approving Agencies (SAA) Funding and for Other Purposes 
        (Akaka)
    Chairman Akaka's (D-HI) bill, S. 1215, would raise the cap on SAA 
funding so that these offices can more effectively provide essential 
services to veterans seeking educational and training opportunities in 
the states. The bill also extends the current rates of payment for 
veterans who are enrolled in an apprenticeship or other on-the-job 
training program. As a result, more veterans of the War on Terror will 
be able to pursue training for an occupation or profession. SAAs are 
the vital link for effective oversight of the GI Bill at the state 
level. MOAA supports S. 1215.
                                 ______
                                 
   Response to Written Question Submitted By Hon. Daniel K. Akaka to 
   Colonel Robert F. Norton, USA (Ret.), Deputy Director, Government 
          Relations, Military Officers Association of America
    Question. What are the top five legislative priorities of the 
Military Officers Association of America?
    Response. The top legislative priorities of the MOAA are:
    1. Fully fund the VA health care system to meet rising demand for 
VHA services from Iraq and Afghanistan veterans. Recommendation is 
consistent with the report of the President's Task Force to Improve 
Health Care Delivery for our Nation's Veterans (2003) that the VA 
health system should be fully funded by ``using a mandatory funding 
mechanism, or by some other changes in the process to achieve the 
desired goal.'' MOAA recommends the goal can be achieved by funding the 
VA to meet its own published access standards.
    2. Seamless Transition/Wounded Warrior Care. MOAA recommends that 
Congress establish a separate Federal agency responsible for overseeing 
development and implementation of ``seamless transition'' objectives 
including a joint, bidirectional DOD-VA electronic medical record; 
improved care, rehabilitative services and research for Traumatic Brain 
Injury (TBI) and PTSD; a ``one-stop'' separation physical that meets 
DOD-VA requirements; a single disability determination process at 
separation or retirement from military service.
    3. Improve VA disability claims system quality, processes, and 
timeliness. As of mid-February 2007, the backlog of VA claims was 
626,429 according to the VA. At year's end, total claims for disability 
and education will reach or exceed 800,000. MOAA supports additional 
resources to hire and train new claims adjudicators along with 
investment in techology upgrades, training, process improvement and 
quality control.
    4. ``Total Force'' Montgomery GI Bill for the 21st century. 
Educational benefits for active duty and Reserve component 
servicemembers do not match the greater demands of their service and 
sacrifice, nor have benefits kept pace with the cost of education. MOAA 
recommends restructuring Montgomery GI Bill programs according to the 
length and type of duty performed by all servicemen and women. Benefits 
for active duty service should accrue on a month-for-month basis (after 
90 days) for activated National Guard/Reserve servicemembers including 
aggregation of entitlement on a month-for-month basis for multiple 
callups. MGIB educational reimbursement rates for full-time study 
should match the cost of an education at the average four-year public 
college/university as measured by Department of Education data.

    Chairman Akaka. Thank you very much.
    Mr. Petkoff?

  STATEMENT OF ALEC S. PETKOFF, ASSISTANT DIRECTOR, VETERANS 
   AFFAIRS AND REHABILITATION COMMISSION, THE AMERICAN LEGION

    Mr. Petkoff. Thank you, Mr. Chairman, Members of the 
Committee. I would just like to say this is my first time 
before this Committee and I feel very honored to be part of 
this process. Thank you very much.
    I want to thank you for allowing me to testify today on the 
proposed legislation before us on behalf of the American 
Legion. The American Legion commends the Committee for holding 
the hearing to discuss these important and timely issues.
    It is of the utmost importance to the United States that we 
ensure that veterans are never forgotten, marginalized, or left 
to slip through the cracks of a grateful Nation's bureaucratic 
good intentions. Flag waving and lip service do not qualify as 
a job well done when it comes to the serious needs of veterans 
and their 
dependents.
    It was George Washington who said that the willingness with 
which our young people are likely to serve in any war, no 
matter how justified, shall be directly proportional to how 
they perceive veterans of early wars are treated and 
appreciated by our Nation.
    The hurt and pain and troubles that often accompany 
veterans and their families after they leave service are varied 
and often severe. The American Legion again applauds this 
Committee for presenting legislation on these timely issues. I 
will now try to take some time to comment on some of the 
proposed legislation before the Committee today.
    I would first like to comment kind of jointly on Senator 
Cantwell's bill, S. 1261, the Montgomery GI Bill for Life Act 
of 2007, and Senator Webb's legislation, S. 22, the Post-9/11 
Veterans Education Assistance Act of 2007. The American Legion 
supports the passage of major enhancements to the current 
Montgomery GI Bill. We note that the current make-up of the 
operational military force requires that adjustments be made to 
support all Armed Forces servicemembers.
    The American Legion applauds S. 22 in that it allows for 
members of the Armed Services to receive enhanced educational 
benefits more in line with today's needs. Enactment of this 
bill will greatly increase the recruitment and retention 
ability of the branches of the Armed Services. While this 
legislation is aimed toward the active duty force, the American 
Legion supports legislation that will allow Reservists to earn 
credits for education when mobilized, just as active duty 
troops do, and then use them after they leave the military 
service.
    The Montgomery GI Bill for Life aims to repeal all 
timeliness to use the Montgomery GI Bill. This is a step in the 
right direction and we support the measures that would be 
enacted. In addition to the positive measures that the bill 
encompasses, the American Legion feels that all veterans be 
treated equally regardless of their Reserve or National Guard 
status in such that an individual who is called to duty and 
served honorably should not have to remain in the selected 
Reserve to use their earned benefits. We support legislation 
that would allow all Reservists and National Guard members to 
use their MGIB benefits, to include the Reserve Educational 
Assistance Program, known as REAP, for up to 10 years after 
separation regardless of disability status or if their 
enlistment contract expires.
    I would also like to quickly comment on Senator Feingold's 
legislation that would improve the outreach activities of the 
Department of Veterans Affairs. The American Legion believes 
that proper and thorough outreach is essential to ensuring this 
Nation's veterans and their dependents are fully informed and 
aware of all these benefits to which they may be entitled to 
receive based on their honorable military service to our 
Nation. Our one concern is that the bill does not address 
veterans who are living in rural areas. We want to make sure 
that they would also be, I guess, accounted for and make sure 
that they are aware of all the benefits, as well.
    The American Legion looks forward to working with this 
Committee to ensure that veterans and veterans families are 
receiving the care and attention they have earned and that a 
grateful Nation should gladly give.
    Thank you, Mr. Chairman, for this opportunity to comment on 
the proposed legislation and I will be glad to answer any 
questions the Committee may have.
    [The prepared statement of Mr. Petkoff follows:]
  Prepared Statement of Alec S. Petkoff, Assistant Director, Veterans 
       Affairs and Rehabilitation Commission, The American Legion
    Chairman and Members of the Committee:
    Thank you for this opportunity to present The American Legion's 
views on the bills being considered by the Committee today. The 
American Legion commends the Committee for holding a hearing to discuss 
these important and timely issues.
 s. 117, the ``lane evans veterans health and benefits improvement act 
                               of 2007''
    The American Legion supports the intent of Section 104 and Title II 
of S. 117. Specifically concerning Title II of the bill, The American 
Legion is in support of tracking veterans who serve in the Global War 
On Terrorism (GWOT) in a new databasese. This bill would make data on 
these veterans more accessible upon request. GWOT veterans require 
their own system, since the exposures and experiences they encountered 
are different from veterans of the first Gulf War. GWOT veterans 
experience more combat time, multiple deployments, continuous urban 
warfare, blast traumas and more women have participated. The veterans 
of the 1991 Gulf War experienced widespread oil well fires, possible 
nerve agent exposure and a shorter combat time.
    This bill also addresses the need to differentiate veterans who 
served in OIF and OEF, those who served in both and those who served in 
neither. The environmental exposures may differ and the combat 
experiences may differ. The American Legion suggests that under the 
Health, Counseling and Related Benefits section (section 3), the 
conditions should also be tracked according to whether the veteran 
served in OIF, OEF or both or in neither--not just by inpatient 
outpatient status. This would show if any trends in illness are 
developing among the groups. It should also show a breakdown by gender.
    s. 168, ``a bill to direct the secretary of veterans affairs to 
establish a national cemetery for veterans in the pikes peak region of 
                               colorado''
    While the American Legion is not for or against the building of a 
national cemetery in Pikes Peak, CO, The American Legion supports the 
establishment of additional national and state veterans cemeteries and 
columbaria wherever a need for them is apparent. As such The American 
Legion supports the National Cemetery Administration (NCA) in 
completing its goals set forth in the ``Millennium Act'' and in Public 
Law (P.L.) 108--109. NCA has successfully established the cemeteries 
set forth in the ``Millennium Act'' and has received authorization for 
Fiscal Year 2008 for the six cemeteries to be constructed in accordance 
with P.L. 108-109.
                 s. 225, ``traumatic injury benefits''
    S. 225 seeks to enlarge the group of those who, while on active 
duty status from October 7, 2001 through November 30, 2005, suffered a 
traumatic injury and associated covered loss, and under certain 
conditions of service qualified for retroactive benefits payments under 
the Traumatic Injury Servicemembers' Group Life Insurance (TSGLI) 
program, as initially established by P.L. 109-13 in 2005, by 
eliminating the original legislation's requirement that only those 
traumatic injuries and losses occurring from service directly in 
Operations Enduring Freedom or Iraqi Freedom would qualify for such 
retroactive benefits. S. 225 would open this group to include all 
servicemembers on active duty status during the retroactive period, 
regardless of where the traumatic injury occurred. The Department of 
Veterans Affairs (VA) has issued a Final Rule to its Code of Federal 
Regulations, as published in the Federal Register of March 8, 2007, 
that for purposes of TSGLI payments servicemembers did not have to 
actually be insured under the Servicemembers' Group Life Insurance 
(SGLI) program in order to be eligible for this benefit. Therefore, 
were S. 225 to be enacted into law as currently presented, all such 
servicemembers, insured under SGLI or not, who suffered a qualifying 
loss during the stated retroactive period, would be eligible for 
payment of TSGLI benefits.
    The American Legion supports the intent of S. 225. It has always 
been the position of The American Legion that veterans' benefits 
entitlements should apply equally to all those in service on active 
duty. Military servicemembers serve under the command of their 
respective service departments and it is not their prerogative to 
determine the location of such service and the duties assigned. Such 
service and duties may very well be located well outside a combat 
theater of operations, but it is military service to the Nation 
nonetheless, and the nature of such military service often exposes 
members to hazard of life and limb. The American Legion does not 
support the creation of different classes of veterans for purposes of 
different levels or types of veterans' benefits. We believe therefore 
that S. 225 should proceed successfully and be enacted into law.
 s. 423, the ``veterans' compensation cost-of-living adjustment act of 
                                 2007''
    S. 423 will increase, effective as of December 1, 2007, the rates 
of compensation for veterans with service-connected disabilities and 
the rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans. The amount of increase shall be the same 
percentage as the percentage by which benefit amounts payable under 
title II of the Social Security Act (42 U.S.C. 401 et. seq.) are 
increased effective December 1, 2007.
    The American Legion supports this annual cost-of-living adjustment 
in compensation benefits, including dependency and indemnity 
compensation (DIC) recipients. It is imperative that Congress annually 
considers the economic needs of disabled veterans and their survivors 
and provide an appropriate cost-of-living adjustment to their benefits, 
especially should the adjustment need to be higher than that provided 
to other Federal beneficiaries, such as Social Security.
                        s. 526, the ``vet act''
    The American Legion supports the provisions of S. 526. Increasing 
the educational benefit available through the Montgomery GI Bill (MGIB) 
will provide a better incentive to veterans to complete a program with 
immediate employment results, without the concern of going in to short-
term debt. The American Legion supports granting a veteran the option 
to request an accelerated payment of all monthly educational benefits 
upon meeting the criteria for eligibility for MGIB financial payments. 
The selection of courses veterans undergo remain exclusively the 
decision of the individual veteran. All earned veterans' education 
benefits should be made available to veterans in support of their 
endeavors. Accelerated payments allow veterans to achieve their 
education goals in the manner that they decide. Binding the time frame 
of an education payout may restrict educational options for some 
veterans.
    In addition to the traditional institutions for higher learning, 
MGIB benefits can be used for training at Non-College-Degree 
Institutions, On-the-Job or Apprenticeship Training, Independent, and 
Distance or Internet training. The MGIB also allows VA to reimburse 
veterans for the fees charged for national tests for admission to 
institutions of higher learning and national tests providing an 
opportunity for course credit at institutions of higher learning. 
Examples of tests covered are SAT, GRE, CLEP, GMAT, LSAT, etc. The MGIB 
for veterans, and not those eligible under Survivors and Dependents 
Educational Assistance (DEA), is available for Flight Training and 
Correspondence Training.
    The significance of expanding the scope of accelerated payments is 
that the preceding categories are eligible for MGIB payments, yet 
excluded from accelerated payments. The American Legion recommends that 
all MGIB-approved courses, including the On-the-job-training (OJT) and 
Apprenticeship courses, become eligible for accelerated payments.
            s. 643, ``service-disabled veterans insurance''
    This bill would increase the amount of supplemental life insurance 
offered under the VA's Service-Disabled Veterans Insurance (SDVI) 
program from its present $20,000 maximum to a $40,000 maximum.
    VA's SDVI program provides life insurance coverage for veterans who 
are rated service-disabled by the VA, and who apply within two years of 
their last VA rating for a new disability, and who are in good health 
except for their service-connected disabilities. The program is 
essentially divided into two parts: Basic SDVI coverage with a maximum 
face value of $10,000 and a provision for a disability waiver of 
premiums if the insured is unable to follow any substantially gainful 
employment due to a disability beginning before age 65, and 
supplemental SDVI with a maximum coverage of $20,000 and no provision 
for a disability waiver of premiums. Supplemental SDVI has stringent 
eligibility requirements in that a service-disabled veteran must have a 
basic SDVI policy in force, must qualify for a disability premium 
waiver on it, must be under age 65 at time of application, and must 
apply within one year of being advised of the approval of the 
disability premium waiver on the basic SDVI policy. These requirements, 
which are in addition to the already strict requirements for basic 
SDVI, naturally greatly limit participation in Supplemental SDVI 
coverage.
    As a further consideration, SDVI premium rates, which are the same 
per $1,000 of coverage per month for both basic SDVI and supplemental 
SDVI, are quite expensive as they are based on a long outdated 1941 
insurance industry mortality table. VA has proposed on several 
occasions that these premium rates be set by an updated current 
mortality table, such as the 2001 or 2003 edition, thereby reducing 
these premium rates by an average of 30 percent to 40 percent, but such 
has not yet met with congressional approval. With the majority of 
applicants for SDVI coverage being currently from the Vietnam era 
(though an increasing number of veterans with service from the 1980s to 
1990s are being seen), these premium costs can be very significant, 
especially since most insured veterans pay their premiums out of their 
VA disability compensation.
    An increase of supplemental coverage to a new maximum of $40,000 
would bring the overall possible SDVI coverage for totally disabled 
veterans to a total of $50,000, taking into consideration basic SDVI as 
well. This $50,000 overall coverage figure has appeared in regards to 
enhancing SDVI, and continues to appear, for several years now in 
various combinations. Though such a proposed coverage increase is a 
positive step to attaining a much needed enhancement to the SDVI 
program, it remains far below, for example, the $400,000 coverage 
maximum figure afforded to new and recent insured veterans under the 
Veterans' Group Life Insurance program, and should not be regarded as a 
final long term solution. A congressionally initiated comprehensive 
private sector study of VA benefits for survivors of veterans with 
service-connected disabilities, completed in May 2001 (The Program 
Evaluation of Benefits for Survivors of Veterans with Service-Connected 
Disabilities), concluded that significant increases in the SDVI 
coverage amounts were fully warranted.
    Relatively few disabled veterans who are insured under the basic 
SDVI program, and who are totally disabled for insurance purposes, and 
under age 65, actually apply for and maintain supplemental coverage due 
to its high premium cost. Of these, a large percentage take out only 
half the maximum, or $10,000, coverage, again due to the high premium 
costs. Therefore, an enhancement to SDVI which consisted solely of an 
increase in supplemental coverage may actually have little impact on 
the severely (by definition) disabled veterans in this group and 
provide a very limited benefit to the whole. The increased coverage 
benefit would mainly accrue to those relative few able to afford the 
much higher premiums, and to those in near-term life threatening 
situations at the time the option to purchase supplemental coverage is 
available, and who make application within the one year supplemental 
coverage eligibility period.
    The American Legion believes that a much more equitable approach to 
enhancing VA's SDVI program, and of much greater benefit to these 
service-connected disabled veterans, would be to increase the maximum 
amount of coverage under the program's basic insurance portion, with 
its provision for a disability waiver of premiums, and to increase the 
supplemental coverage maximum as well. If an overall coverage maximum 
of $50,000 were the goal, an increase of basic coverage to $20,000 or 
$25,000, and supplemental coverage to a maximum of $30,000 or $35,000, 
would be much more beneficial to program insured veterans than an 
increase in supplemental coverage alone. Such would be a significant 
step to meeting the proven insurance needs of the most severely 
disabled veterans.
    In conclusion, while The American Legion agrees with the basic 
intent of this legislation, for the reasons stated previously, 
attention should be given to a more equitable division in this 
insurance increase between basic and supplemental SDVI. Barring this, 
we feel that at the least the premium rates for supplemental SDVI 
coverage should be based on a more updated insurance industry mortality 
table than the obsolete 1941 table currently in use.
  s. 698, the ``veterans survivors education enhancement act of 2007''
    As this legislation was not received in time for us to thoroughly 
review, The American Legion defers comment and respectfully requests 
the Committee to allow us to submit for the record at a later date.
    s. 847, ``to extend the period of time during which a veteran's 
  multiple sclerosis is to be considered to have been incurred in, or 
        aggravated by, military service during a period of war''
    This bill would eliminate the current 7-year period after service 
in which a wartime veteran must develop multiple sclerosis, in order 
for it to be presumptively service-connected, and extend it 
indefinitely so such a veteran would qualify for service-connection on 
a presumptive basis if the disease developed anytime after the 
veteran's separation from the military.
    Multiple sclerosis is an autoimmune disease, the cause of which is 
unknown, affecting the central nervous system. The American Legion 
fully supports this legislation. Given the nature of this terrible 
disease, elimination of a delimiting period for the establishment of 
presumptive disability benefits is certainly warranted.
          s. 848, the ``prisoner of war benefits act of 2007''
    This bill would repeal the current requirement in Title 38, United 
States Code (U.S.C.) that an individual had to have been detained or 
interned for a period of not less than 30 days in order to be entitled 
to presumptive service-connection for certain prisoner-of-war (POW) 
diseases. It would also expand the list of POW diseases presumed to be 
service-connected, currently set forth in Title 38, U.S.C. section 
1112(b), to include diabetes Type 2 and osteoporosis. The legislation 
would also specifically authorize the Secretary of Veterans Affairs to 
create regulations adding or deleting diseases enumerated in section 
1112(b), on the basis of sound medical and scientific evidence, to 
include recommendations from VA's Advisory Committee on Former 
Prisoners of War.
    The issue of the welfare and well being of those veterans who have 
endured the hardship and trauma of being held as a POW has long been 
one of the major concerns of The American Legion. To ensure that the 
Federal Government fulfills its obligation to these brave men and 
women, The American Legion has actively supported improvements in 
benefits provided to these individuals and their survivors. We are 
pleased to support the addition of the two conditions, specified in 
this bill, to the list of those currently presumed to be service-
connected. It is hoped this legislation will provide the impetus for 
continuing action to further broaden the list of presumptive diseases 
and disabilities, which former POWs are known to suffer from. Toward 
this end, we are encouraged that the bill recognizes and emphasizes the 
important role played by VA's Advisory Committee on Former Prisoners of 
War. This group of esteemed individuals, many of whom are themselves 
former POWs, provide the necessary mechanism and forum to evaluate 
scientific and medical studies on former POWs to make appropriate 
recommendations to the Secretary regarding needed changes in VA's 
outreach, benefits, and medical care program for this community of 
veterans.
    Additionally, The American Legion has long supported the 
elimination of the arbitrary 30-day requirement for internment. Studies 
have shown there can be long lasting adverse health effects resulting 
from even a relatively short period of confinement as a prisoner of 
war. Such findings are especially important considering the nature of 
today's warfare and the rather short period of confinement most 
American POWs have faced during the post-Vietnam era.
    This legislation represents a solid step toward ensuring former 
POWs receive the compensation and medical care to which they are 
clearly entitled. However, in addition to those diseases that would be 
presumed service-connected, The American Legion recommends that the 
list also include chronic pulmonary disease, where there is a history 
of forced labor in mines during captivity, and generalized 
osteoarthritis, as differentiated from the currently listed disability 
of post-traumatic osteoarthritis.
         s. 961, ``belated thank you to the merchant mariners 
                      of world warii act of 2007''
    S. 961 would amend title 46, U.S.C., to provide benefits to certain 
individuals who served in the United States merchant marine (including 
the Army Transport Service and the Naval Transport Service) during 
World War II. The benefit would be a special pension of $1,000 a month 
to Merchant Mariners who served between December 7, 1941 and December 
31, 1946, and their spouses.
    Merchant Marines (Mariners) who served during the period from 
December 7, 1941 through August 15, 1945 were granted veteran status by 
the Civilian Military Service Review Board in January 1988. They were 
issued a DD-214 from the Coast Guard and are entitled to the same 
medical, disability, and burial benefits as other veterans.
    The American Legion does not have an official position on this 
legislation.
  s. 1096, the ``veterans' housing benefits enhancement act of 2007''
    The American Legion is pleased to support this pending legislation 
that would allow the Secretary of the Department of Veteran Affairs 
improve the housing arrangements to better suit the disabled veterans' 
needs, with specific emphasis on severe burn injuries, and to 
accommodate those veterans with severe burns. The American Legion 
additionally applauds the intent of the legislation to assist disabled 
veterans to receive adaptive equipment for automobiles.
    The American Legion conveys that specially adaptive housing should 
also include those veterans suffering from Traumatic Brain Injury 
(TBI), and other debilitating injuries. We are also concerned with the 
ambiguity of the term ``severe'' in that there are many different 
levels of injury where a severe injury to one individual may not be as 
severe to another.
         s. 1163, ``blinded veterans paired organ act of 2007''
    This bill would amend title 38, U.S.C., to improve compensation and 
specially adapted housing for veterans in certain cases of impairment 
of vision involving both eyes, and to provide for the use of the 
National Directory of New Hires for income verification purposes.
    Specifically, this bill would strike the word ``blindness'' in both 
places it appears in section 1160(a)(1) of title 38, U.S.C., and 
replace it with ``an impairment of vision.'' It would also establish 
specific visual acuity levels constituting an ``impairment of vision'' 
under this section. The American Legion supports this portion of the 
legislation as it is consistent with provisions of the Veterans 
Benefits Act of 2002 (P.L. 107-330), which instituted similar changes 
for hearing loss evaluations.
    The American Legion also supports the changes to the visual 
impairment requirements for specially adapted housing under section 
2101 of title 38, U.S.C., as such changes conform to the visual 
impairment changes in section 1160.
    The American Legion has no position or comment on the portion of 
this legislation pertaining to National Directory of New Hires.
s. 1215, ``to amend title 38, united states code, to extend and improve 
certain authorities of the secretary of veterans affairs, and for other 
                               purposes''
Section 1
    The American Legion supports the provision that will maintain the 
current level of funding for the State Approving Agencies at an annual 
rate of $19 million.
    The American Legion believes that honorable military service, 
combined with improved education and vocational training opportunities, 
enhances an individual, increases diversity, and betters society as a 
whole. The education pillar is continuous and ever evolving. 
Diminishment in support for education and ability to gain knowledge for 
veterans will harm the Nation as a whole, decrease the ability to 
recruit new servicemembers, and unfairly subject veterans to barriers 
of benefits that they have earned.
    State Approving Agencies are instrumental in the education process. 
The American Legion fully supports all efforts to maintain and enhance 
veterans' education benefits and recommends that State Approving 
Agencies remain funded at $19 million.
Section 2
    The American Legion supports the extension of the pilot project on-
training-on-the-job for claims adjudicators.
Section 4
    The American Legion applauds the modification to create an 
unemployment study on Global War on Terrorism era veterans, but we are 
concerned with the exclusion of Vietnam era veterans. The American 
Legion feels that veterans of the Vietnam era unemployment study 
continue to be conducted in addition to a study on unemployment of 
Veteran of the Global War on Terrorism.
Section 5
    The American Legion supports the provisions that would extend the 
rates of education benefits for Apprenticeship and On-the-Job-Training 
from 2008 to 2010; however, we feel that this date should be extended 
indefinitely.
s. 1261, ``the montgomery gi bill (mgib) for life act 2007'' and (s. 22 
  revised) the ``post-9/11 veterans educational assistance act of 2007
    The American Legion supports passage of major enhancements to the 
current All-Volunteer Force Education Assistance Program, better known 
as the Montgomery GI Bill (MGIB). We note that the current make up of 
the operational military force requires that adjustments be made to 
support all Armed Forces members. The American Legion applauds S. 22 in 
that it allows for members of the armed services to receive enhanced 
educational benefits more in line with today's needs. Enactment of this 
law will greatly increase the recruitment and retention ability of the 
branches of the armed services. While this legislation is aimed toward 
the active duty force, The American Legion supports legislation that 
will allow Reservists to earn credits for education while mobilized, 
just as active-duty troops do, and then use them after they leave the 
military service.
    The Montgomery GI Bill for life aims to repeal all time limits to 
use the MGIB. This bill is a step in the right direction and we support 
the measures that would be enacted. In addition to the positive 
measures that the bill encompasses, The American Legion feels that all 
veterans be treated equally regardless of their Reserve/National Guard 
status in such that an individual who was called to duty and served 
honorably should not have to remain in the selected reserve to use 
their earned benefits. We support legislation that would allow all 
Reservists and National Guard members to use their MGIB benefits, to 
include the Reserve Educational Assistance Program (REAP) for up to 10 
years after separation regardless of disability status and if their 
enlistment contract expires.
    Under current law, members of the Reserve component face many 
challenges in using the MGIB-SR benefits. Since September 11, 2001, the 
utilizations of the Reserve components to augment the Active Duty Force 
(ADF) presents complications for those members of the Guard and 
Reserves enrolled in college programs. The uncertainty associated with 
unit activations, lengthy activations, individual deactivations, and 
multiple unit activations makes utilization of educational benefits 
extremely difficult. Such decisions as whether to enroll for a 
semester, long-range planning for required courses, or whether to 
finish a semester are among the challenges confronted. Other factors 
include accrued student loan debt, falling behind peers in studies, and 
limbo status due solely to the military's indecision.
    With the number of activations of the Reserve component since 
September 11, 2001, these same Reservists, who are attending colleges 
and universities around the country, are discovering that their actual 
graduation date may be extended well past their initial anticipated 
graduation date. It's also taking longer for students to graduate, 
raising the overall cost of a college degree. The College Board, an 
association composed of more than 5,200 schools, colleges, 
universities, and other educational organizations, states that the 
average public university student now takes 6.2 years to finish. They 
also report that tuition and fees represent only a fraction of the 
total cost of attending college. The overall cost (tuition, fees, room, 
board, books, and including transportation) of a typical public college 
is about $16,400 a year. (College Board)
    In the 20 years since the MGIB went into effect on June 30, 1985, 
the Nation's security has changed radically from a fixed cold war to a 
dynamic Global War on Terrorism. In 1991, the Active-Duty Force (ADF) 
of the military stood at 2.1 million; today it stands at 1.4 million. 
Between 1915 and 1990 the Reserve Force (RF) was involuntarily 
mobilized only nine times.
    There is now a continuum of service for military personnel, 
beginning with those who serve in the Reserve component only, extending 
through those in the Reserve component who are called to active-duty 
for a considerable period of time, and ending with those who enlist in 
the ADF and serve for a considerable period of time. Since 9/11 more 
than 600,000 members of the 860,000-member Selected Reserve have been 
activated.
    Today, approximately 40 percent of troops in Iraq are Guard 
personnel or Reservists. Despite this, both the MGIB-AD and the MGIB-SR 
still reflect benefits awarded 20 years ago with increases well behind 
the annual educational inflation rate. The Reserve component members 
rarely served on active duty at that time. The idea that any projection 
of U.S. power would require the activation of at least some Reservists 
was never considered in creating these programs.
    According to the Fiscal Year 2007 MGIB pay rates, troops who serve 
on active-duty three or more years can collect up to $1,075 a month for 
36 months as full-time students totaling $38,700. That benefit is 
available up to 10 years after discharge.
    Reserve and Guard personnel can earn percentages of the full-time 
active-duty rate depending on length of their mobilization. If they are 
mobilized for 15 months--the average length of deployment--and then go 
to school full-time they can only receive up to a maximum of $23,220 
(FY 2007 rates) using their Reserve Education Assistance Program (REAP) 
benefits. However, they can collect only if they remain in a Guard or 
Reserve unit. If they go into the inactive Reserve (Individual Ready 
Reserve) or are discharged, they no longer are eligible for education 
benefits.
    The American Legion recommends that activated Reservists get one 
month of benefits, at the active-duty rate, for each month of 
mobilization up to 36 months and there should be no delimiting date for 
use of the benefits from the last date of active or Reserve service.
    The American Legion recommends that Congress move Montgomery GI 
Bill-Selected Reserve (MGIB-SR) from title 10, U.S.C., to title 38, 
U.S.C., and that VA have administrative authority for both the MGIB and 
the MGIB-SR. We recommend that the annual appropriations for the MGIB 
and the MGIB-SR become one annual appropriation within the VA.
    The American Legion supports the termination of the current 
military payroll deduction ($1,200) required for enrollment in MGIB.
    The American Legion supports eliminating the 10-year delimiting 
period for veterans to use Montgomery GI Bill educational benefits and 
support legislation that would allow all Reservists and National Guard 
members to use their MGIB-SR benefits for up to 10 years after 
separation.
    The American Legion supports an MGIB-SR participant reimbursement 
rate adjusted for time spent on Federalization activation, State 
activation, and normal service for a period not to exceed 36 months is 
created.
    The American Legion recommends that the dollar amount of the 
entitlement should be indexed to the average cost of college education 
including tuition, fees, textbooks and other supplies for a commuter 
student at an accredited university, college or trade school for which 
they qualify and that the educational cost index should be reviewed and 
adjusted annually.
    The American Legion supports that a monthly tax-free subsistence 
allowance indexed for inflation must be part of the educational 
assistance package, The American Legion believes that if a veteran 
enrolled in the MGIB program acquired educational loans prior to 
enlisting in the Armed Forces, MGIB benefits may be used to repay 
existing educational loans.
    The American Legion supports that enrollment in the MGIB shall be 
automatic upon enlistment. However, benefits will not be awarded unless 
eligibility criteria have been met and if a veteran enrolled in the 
MGIB becomes eligible for training and rehabilitation under Chapter 31 
of title 38, U.S.C. In such a case, the veteran shall not receive less 
educational benefits than otherwise eligible to receive under MGIB.
    The American Legion supports that any veteran with 6 years of 
service will be qualified to transfer education entitlements upon re-
enlistment for 4 years and to amend title 38, U.S.C., to restore the 
reimbursement rate for correspondence and distance learning training to 
90 percent of tuition.
s. 1265, the ``veterans mortgage life insurance eligibility expansion''
    S. 1265 addresses the expansion of Veterans' Mortgage Life 
Insurance (VMLI), a VA program offering $90,000 of mortgage life 
insurance to severely disabled veterans who are awarded grants by VA 
for specially adapted housing, to include members of the military 
service who meet similar disability requirements, yet who are still in 
an active-duty status either due to a lengthy separation process for 
various reasons, or who are retained in such status due to their 
occupational specialties being needed by their service department or 
due to other manpower requirements.
    The American Legion supports this proposal as these individuals 
obviously meet the same criteria as is used for those presently insured 
under the VMLI program. The only difference here is that this group is 
not yet separated from service, which is a requirement of the current 
statute. We believe the justification here is, in essence, the same and 
that these individuals should also have the option of being insured 
under the VMLI program.
   s. 1266, the ``veterans dignified burial assistance act of 2007''
    This bills seeks to: increase the burial plot allowance from $300 
to $400; repeal the time limitation for state filing of reimbursement 
costs; and, modify the grants to state veterans' cemeteries for 
operation and maintenance.
    The American Legion strongly supports the portion of this bill that 
would repeal the time limitation for state filing of reimbursement 
costs for veterans who are interred in a private or state cemetery. 
This portion of the legislation will assist in the location and burial 
of cremated remains of veterans that go unclaimed for over two years as 
well as give families more time in the grieving process as they will 
not have to be concerned about deadlines in claiming these benefits.
    The American Legion urges Congress to enact legislation that would:

    1. Increase the burial allowance for veterans now eligible under 
title 38, U.S.C., section 2302 and 2303 from $300 to $1,135.
    2. Increase the burial allowance for veterans who died as a result 
of a service-connected condition as set forth in title 38, U.S.C., 
section 2307 from $2,000 to $3,712.
    3. That the burial plot allowance be increased from $300 to $670.
    4. That VA be required to annually adjust burial allowances and 
burial plot allowance for inflation by tying the increased allowances 
to the Consumer Price Index.

    The American Legion also has concerns with the provision that 
allows state cemeteries to receive grants up to $5 million for 
improvements to state cemeteries. The purpose of the State Cemetery 
Grants program is to pay for the cost of establishing a state veterans' 
cemetery that will then be maintained by the state and not the Federal 
Government. States that ask for improvement money will be breaking 
their obligation to maintain those cemeteries they agreed to be 
responsible for. Funds for improvements would take money away form new 
projects as well.
         draft legislation, the ``disabled veterans insurance 
                       improvement act of 2007''
    This proposed bill is comprised of three separate veterans 
insurance issues.
    First, it would raise the maximum coverage in the Veterans' 
Mortgage Life Insurance (VMLI) program from the current $90,000 up to 
$200,000. The current maximum, established on December 1, 1992, covers 
only approximately 64 percent of veterans' outstanding mortgage 
balances; raising it to $200,000 would cover approximately 93 percent 
of outstanding balances and accords with previous VA recommendations 
that the coverage level be increased to keep pace with rising housing 
costs. The American Legion supports this increase as one that is long 
overdue and that is certainly justified by the obvious rise in housing 
costs and values over the past fifteen years. However, we believe this 
$200,000, which should be enacted into law, should only be regarded as 
a starting point and that the VMLI coverage maximum should be tied to 
an appropriate economic indicator to maintain a reasonable level of 
coverage for the extremely disabled veterans in this group of insured 
veterans.
    Second, the bill introduces a major, long awaited, addition to the 
VA's Service-Disabled Veterans Insurance benefit area in a proposal to 
establish a Level Term Insurance program for disabled veterans with a 
maximum face value coverage of $50,000.
    This proposal again mirrors certain findings by the private sector 
study on Program Evaluation of Benefits for Survivors of Veterans with 
Service-Connected Disabilities, completed in spring 2001, which found 
an enhancement was needed in insurance coverage options for veterans 
with service-connected disabilities. The proposed legislation would 
provide such veterans up to $50,000 Term insurance coverage on a level, 
permanent premium basis up to age 70, at which point the amount of 
insurance would reduce to 20 percent of the face value held, but which 
would then be in a paid-up insurance state. A standard disability 
waiver of premiums provision would also apply, and the aggregate of 
service-disabled coverage held under all such programs would not exceed 
$50,000.
    Qualifying criteria would be the same as for the current SDVI 
program, but with the added significant constraint of an overall 
eligibility period of applying for such within 10 years of release from 
active-duty, a period on principle chosen to orient this new program 
wholly to the current generation of disabled veterans to lower program 
costs, avoiding the need to offer coverage to older or even slightly 
older disabled veterans, and which further reflects an assumption that 
loss of insurability because of service-connected disabilities impacts 
far more heavily on those in the younger age groups. We find both this 
concept arguable and the 10-year time period to be nothing less than 
arbitrary. In many, many cases service-connected disabilities, or 
substantial increase in severity to them, arise more than 10 years 
after service, and loss of insurability can impact just as heavily at 
older ages as at younger one for many reasons as we all know well.
    The American Legion has long been in favor of an enhancement to the 
VA's SDVI program which would bring it into line with today's economic 
realities. The standard SDVI maximum of $10,000 has long been 
insufficient, and only the most disabled veterans under age 65 who 
cannot follow gainful employment because of their disability qualify 
for supplemental SDVI coverage, for which they must pay high premiums.
    We feel this legislation to be a step in the right direction to 
address the deficiencies of the present program, but we favor a more 
extensive overall eligibility period than the 10 years after release 
from active duty specified in the bill. We also believe that service-
connected disabled veterans who receive increases in their service-
connected disabilities, rather than only those who receive original 
ratings for service-connection, should be eligible to apply for such 
coverage and that such provision be extended to the regular SDVI 
program as well. In connection with this, it has been our experience 
that the present two-year eligibility period from the date of 
notification of a rating is too restrictive and should be extended to a 
more appropriate time period for all SDVI programs.
    In a related area, this proposed legislation does not permit the 
provisions of regular SDVI Gratuitous insurance to apply, retaining 
that limit to $10,000 even for those veterans who would have qualified 
for coverage under this new program. Gratuitous SDVI permits an 
insurance settlement in cases where a veteran, otherwise eligible, 
could not apply for SDVI because of a service-connected disability 
rendering him or her mentally incompetent and hence unable to do so, 
thus placing them on an even footing with other qualifying service-
connected veterans.
    The American Legion believes the same principle should govern with 
this new program. Beneficiaries of those deceased veterans who would 
otherwise have qualified for insurance under this proposed legislation, 
and also meet the rigorous criteria for Gratuitous insurance, should be 
permitted the full $50,000 settlement. Given the rarity of such cases 
we do not believe this should impact adversely on program costs to a 
significant extent. Beneficiaries of those veterans meeting Gratuitous 
insurance criteria outside the overall eligibility period eventually 
chosen for this program (i.e., from date of release from service) for 
such new coverage, where the veteran would have qualified only for 
standard SDVI, would still be eligible for the regular $10,000 
Gratuitous insurance. The SDVI programs would then be more consistent 
in their application should this program proposal be enacted.
    The American Legion is in full agreement with VA's proposal to 
switch to the Commissioners 2001 Standard Ordinary Table of Mortality 
for the determination of premium rates for this SDVI program, rather 
than the outdated 1941 Table presently in use. It is neither sensible 
nor fair to base premium rates for service-disabled veterans on 
mortality tables over sixty-five years old, and long rendered obsolete 
by changes in American living conditions and modern medicine, evident 
to all. Such action constitutes a deliberate overcharging of disabled 
veterans for their own benefits, and works to negate the original 
intent of Congress in such programs.
    The American Legion supports the proposal to add a new insurance 
program for service-connected veterans, and strongly believes both the 
new issue presently under consideration, hopefully with the adjustments 
discussed previously, and the current SDVI program, are necessary to a 
viable and proper set of benefits for our country's veterans who, as 
recent experience has again shown, we continue to rely on in times of 
recurring crisis.
    Lastly, The bill would offer to those in the mobilization category 
of the Reserves within the Individual Ready Reserve, the option to be 
covered by Servicemembers' Group Life Insurance (SGLI), instead of only 
the option to be covered by Veterans' Group Life Insurance (VGLI) as is 
now the case. The American Legion supports this provision, which 
corrects an omission in previous legislation. These individuals are in 
an essentially on-call status because of their professional or 
occupational specialties, and can be sent to active duty at any time. 
The option to be insured under SGLI allows them access to dependent 
coverage and to SGLI's much lower group premium rates. We believe this 
addition to be correct and fully justifiable.
   draft legislation, ``the veterans justice assurance act of 2007''
    As this legislation was not received in time for us to thoroughly 
review, The American Legion defers comment and respectfully requests 
the Committee to allow us to submit for the record at a later date.
      draft legislation, the ``veterans' education and vocational 
                   benefits enhancement act of 2007''
    The American Legion supports granting veterans the option to 
request an accelerated payment of all monthly educational benefits upon 
meeting the criteria for eligibility for Montgomery GI Bill (MGIB) 
financial payments. The selection of courses veterans undergo remain 
exclusively the decision of the individual veteran, and all earned 
veterans' education benefits should be made available to veterans in 
support of their endeavors. Accelerated education payments allow 
veterans to achieve education goals in the manner that they decide. 
Binding the time frame of an education payout may restrict educational 
options for some veterans.
    In addition to the traditional institutions for higher learning, 
MGIB benefits can be used for training at Non-College-Degree 
Institutions, On-the-Job or Apprenticeship Training, Independent, and 
Distance or Internet training. The MGIB also allows the VA to reimburse 
veterans for the fees charged for national tests for admission to 
institutions of higher learning and national tests providing an 
opportunity for course credit at institutions of higher learning. 
Examples of tests covered are SAT, GRE, CLEP, GMAT, LSAT, etc. The MGIB 
for veterans, and not those eligible under Survivors and Dependents 
Educational Assistance (DEA), is available for Flight Training and 
Correspondence Training.
    The significance of expanding the scope of accelerated education 
payments is that the preceding categories are eligible for MGIB 
payments, yet excluded from accelerated education payments. The 
American Legion recommends that all MGIB-approved courses, including 
the On-the-job training (OJT) and Apprenticeship courses, become 
eligible for accelerated education payments.

    The American Legion supports the expansion of P.L. 107-103 to 
include but not limited to:

    1. Survivors and Dependents Educational Assistance (DEA, or Chapter 
35).
    2. Post-Vietnam Era Veterans' Educational Assistance Program (VEAP, 
or Chapter 32).
    3. Reserve Educational Assistance Program (REAP, or Chapter 1607).

    Furthermore, The American Legion expressed that all active duty 
time served, regardless of continuous or aggregate service, be applied 
toward MGIB benefits at the active duty rate in tune with a month for 
month benefit.
    According to Fiscal Year 2007 MGIB pay rates, this bill would 
provide an opportunity for REAP eligibles to ``buy-up'' to receive a 
total of $860 per month times 36 months for full-time study totaling 
$30,960 (title 10, Chapter 1607). However, a provision already exists 
that if a servicemember has served 2 or more continuous years active 
duty, they retain the option of buying the MGIB-AD (title 38, Chapter 
30) with $1,200 and receiving a total of $38,700 in benefits.
    Furthermore, the provision would force the veteran that enrolls to 
remain in the selected reserve to use their benefits compared to the 
current 10-year period following discharge an MGIB-AD participant could 
use. It would create an unfair element to the veteran.
 draft legislation, ``a bill to amend title 38, united states code, to 
 provide additional discretion to the secretary of veterans affairs in 
  contracting with state approving agencies, and for other purposes''
    The American Legion has no position on accrediting courses.
draft legislation, ``comprehensive veterans benefits improvement act of 
                       2007'' (titles ii-vi only)
    As this legislation was not received in time for us to thoroughly 
review, The American Legion defers comment and respectfully requests 
the Committee to allow us to submit for the record at a later date.
 draft legislation, ``a bill to amend section 2306 of title 38, united 
    states code, to make permanent authority to furnish government 
 headstones and markers for graves of veterans at private cemeteries, 
                        and for other purposes''
    The government furnished headstones and markers are a recognized 
symbol of service and honor. The American Legion supports this 
legislation that would make permanent the authority to furnish 
government headstones and markers for graves of veterans at private 
cemeteries.
     draft legislation, ``servicemembers' cellular phone contract 
                         fairness act of 2007''
    This bill seeks to amend the Servicemembers Civil Relief Act to 
provide relief for servicemembers with respect to contracts for 
cellular phone services, and other purposes.
    The American Legion supports this bill.
draft legislation, ``to amend title 38, united states code, to improve 
the outreach activities of the department of veterans affairs (va), and 
                          for other purposes''
    The American Legion believes that proper and thorough outreach is 
essential to ensuring this Nation's veterans and their dependents are 
fully informed and aware of all of the benefits to which they may be 
entitled to receive based on their honorable military service to our 
Nation.
    The American Legion supports the provisions of this bill that would 
establish a separate account for the funding of outreach activities as 
well as separate subaccounts for the funding of such outreach 
activities pertaining to the Veterans Benefits Administration (VBA), 
Veterans Health Administration (VHA) and the National Cemetery 
Administration (NCA). We also support the provision that would require 
the Secretary to establish and maintain procedures for ensuring the 
effective coordination of the outreach activities of VA between and 
among the Secretary's office, Public Affairs, VBA, VHA, and NCA. The 
aforementioned provisions would undoubtedly provide for better 
accountability as well as help to ensure that VA's outreach activities 
are conducted in a more efficient and systematic manner.
    The American Legion supports the provision of this legislation 
pertaining to cooperative activities with, and grants to, states to 
accomplish the goal of improving outreach and assistance to veterans 
and their family members who may be eligible to receive veterans or 
veterans-related benefits (including benefits and services provided 
under state veterans' programs). We are, however, concerned that the 
scope of this provision is limited to or otherwise favors urban 
locations or other areas with larger concentrations of veterans while 
neglecting rural areas or locations with lower veteran populations. All 
veterans, no matter where they live, deserve equal treatment and access 
to information or assistance regarding the benefits and services to 
which they may be entitled. Accordingly, we strongly encourage the 
establishment or designation of rural veteran outreach coordinators to 
ensure that veterans and their families residing in areas with low 
veteran populations are not left out. We further recommend that an 
oversight hearing be conducted to assess the overall effectiveness of 
VA's outreach program, especially as it pertains to outreach and 
dissemination to veterans living in rural areas.
   draft legislation, ``iraq and afghanistan veterans mental health 
                        and advocacy act of 2007
    As this legislation was not received in time for us to thoroughly 
review, The American Legion defers comment and respectfully requests 
the Committee to allow us to submit for the record at a later date.
                               conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important measures. We will provide the 
Committee with additional views on those draft bills we did not have 
time to thoroughly review. As always, The American Legion welcomes the 
opportunity to work closely with you and your colleagues on enactment 
of legislation in the best interest of America's veterans and their 
families.

                                 ______
                                 
    [Note: The following is an addendum to the prepared statement of 
Alec S. Petkoff, which was submitted after the hearing.]

              s. 698, the ``veterans survivors education 
                       enhancement act of 2007''
    S. 698 would expand the current benefit of survivors and dependents 
educational assistance to an amount greater than the current value of 
the Montgomery GI Bill (MGIB) education benefit. The aggregate amount 
would become $80,000 compared to the current full time rate MGIB 
benefit of $38,700.
    The American Legion supports legislation in which the dollar amount 
of the MGIB entitlement would be indexed to the average cost of college 
education including tuition, fees, textbooks and other supplies for a 
commuter student at an accredited university, college or trade school 
for which they qualify and that the educational cost index be reviewed 
and adjusted annually.
        s. 1289, ``the veterans justice assurance act of 2007''
    S. 1289 addresses concerns regarding The United States Court of 
Appeals for Veterans Claims. The American Legion has the following 
positions on this bill:

    <bullet> Section 2. Repeal of Term Limits for Judges of the United 
States Court of Appeals for Veterans Claims.
    The American Legion does not have an official position on this 
provision.

    <bullet> Section 3. Increased Salary for Chief Judge of United 
States Court of Appeals for Veterans Claims.
    The American Legion does not have an official position on this 
provision.

    <bullet> Section 4. Provisions Relating to Recall of Retired Judges 
of the United States Court of Appeals for Veterans Claims.
    The American Legion supports the recalling of retired judges and we 
agree with changes to this procedure as stipulated in this provision.

    <bullet> Section 5. Additional Discretion in Imposition of Practice 
and Registration Fees.
    The American Legion does not have an official position on this 
provision.

    <bullet> Section 6. Annual Reports on Workload of United States 
Court of Appeals for Veterans Claims.
    The American Legion supports this provision, which would require 
the chief judge of the United States Court of Appeals for Veterans 
Claims to submit annual workload reports to Congress. The information 
provided in this report would be extremely beneficial in ensuring the 
Court has adequate resources, including funding and personnel, as well 
as ensure proper Congressional oversight of its activities.

    <bullet> Section 7. Report on Expansion of Facilities for United 
States Court of Appeals for Veterans Claims.
    The American Legion does not have an official position on this 
provision.
              s. 1326, ``comprehensive veterans benefits 
                       improvement act of 2007''
Title I. Health Care Matters
    <bullet> Section 101. Remove Government ban on enrollment of 
Priority 8 veterans in the VA.
      <all> Background: In January of 2003 VA announced that it would 
not allow Priority Group 8 veterans to enroll into the VA health care 
system. Priority Group 8 veterans are those with no service-connected 
disabilities or service-connected disabled veterans rate zero percent 
(non-compensable) and with incomes higher than a geographically 
adjusted threshold. The Administration justified this move on the 
grounds that these are ``higher income'' veterans. The truth, however, 
is that these veterans can make as little as $27,000 a year. VA 
estimates that more than 1.5 million Priority Group 8 veterans will 
have been denied enrollment in the VA health-care system by Fiscal Year 
2008, not based on their military service, but simply on their 
geographical residence.
      <all> This section would remove the government ban on enrollment 
of Priority Group 8 veterans in the VA. This section is similar to S. 
1147, introduced by Senator Murray.
    The American Legion supports this provision.

    <bullet> Section 102. Addressing the misclassifications of Priority 
Group 4 veterans, exempts them from copayments.
      <all> Background from the IB: ``Reports of catastrophically 
disabled veterans being denied care still persist. VA has acknowledged 
Public Law 104-262, which specifies that veterans who are receiving an 
increased pension based on a need for regular aid and attendance or by 
reason of being permanently housebound and other veterans who are 
catastrophically disabled will be classified as enrollment Priority 
Group 4. However, after 9 years, the Veterans' Health Administration 
(VHA) has not developed a consistent and effective mechanism for 
identifying eligible veterans and properly classifying them.''
      <all> (b) This section requires the VA to properly reclassify as 
Priority Group 4's those misclassified veterans and provide them access 
to related Priority Group 4 benefits.
      <all> (c) This section prohibits the collection of copayments and 
other fees for hospital or nursing home care for veterans who are 
catastrophically disabled.
    The American Legion has no official position on this provision.

    <bullet> Section 103: Change in rules regarding access to non-VA 
emergency services.
      <all> Background from the IB: ``The non-VA emergency medical care 
benefit was established as a safety net for veterans who have no other 
health-care insurance coverage and experience a medical emergency. 
Under this benefit, VA will pay for services rendered to a veteran who 
is found eligible and files a claim for payment for emergency treatment 
received from a private facility. However, some veterans' claims are 
denied payment due to the restrictive nature of the eligibility 
criteria.''
      <all> This section eliminates the provision requiring veterans to 
be seen by a VA health-care professional at least once every 24 months 
to be eligible for non-VA emergency care service. The bill requires 
only that the veteran be enrolled in VA health care to be eligible.
    The American Legion has no official position on this provision.

    <bullet> Section 104: Lung cancer screening pilot program.
      <all> Background from the IB: ``The Department of Defense (DOD) 
routinely distributed free cigarettes and included cigarette packages 
in K-rations until 1976. The 1997 Harris report to the Department of 
Veterans Affairs (VA) documented the higher prevalence of smoking and 
exposure to carcinogenic materials among the military and estimated 
costs to VA and TRICARE in the billions of dollars per year. For 
example, the percentage of Vietnam veterans who ``ever smoked'' is more 
than 70 percent, double the civilian ``ever smoked'' rate of 35 
percent.''
      <all> This section requires that the Secretary of the VA carry 
out a pilot program for screening of lung cancer in veterans and then 
report to Congress on this pilot program and what actions Congress 
should take to establish a permanent program. VA will work with the 
International Early Lung Cancer Action Program and other public and 
private entities to develop this pilot program.
    The American Legion supports this provision.
Title II. Compensation and Pension Matters
    <bullet> Section 201: Full concurrent receipt.
      <all> Background: The Concurrent Receipt or Disabled Veterans' 
Tax issue exists because of a 19th century law that required a dollar-
for-dollar offset of earned military retired pay by the amount of 
awarded disability compensation received from VA. The American Legion 
strongly believes retired pay is earned for a career of uniformed 
service and VA disability compensation is recompense for pain, 
suffering and lost future earning power due to service-connected 
disabilities. For that reason veterans should receive both payments and 
not have one offset the other.
      <all> This legislation would allow veterans to receive both 
compensation/pension benefits and retired or retirement pay. This 
section is similar to S. 439, introduced by Senator Reid.
    The American Legion supports the complete repeal of the Disabled 
Veterans' Tax for all service-connected disabled military retirees 
awarded a VA disability rating regardless of their total service time 
on active-duty or degree of disability.

    <bullet> Section 202: Increase in Special Monthly Compensation.
      <all> Background from the IB: ``The Department of Veterans 
Affairs, under the provisions of title 38, United States Code, section 
1114(k) through (s), provides additional special compensation to select 
categories of veterans with very severe, debilitating disabilities, 
such as the loss of a limb, loss of certain senses, and to those who 
require the assistance of an aide for the activities of daily living, 
such as dressing, toileting, bathing, and eating. . . . The payment of 
special monthly compensation, while minimally adjusted for inflation 
each year, is now no longer sufficient to compensate for the special 
needs of these veterans.''
      <all> This section increases the special monthly compensation 
under title 38, United States code, section 1114(l) through (s) by an 
immediate 20 percent above the current base amount and additionally, 
increases by 50 percent the current base amount of special monthly 
compensation under title 38, United States Code, Section 1114(k).
    The American Legion supports this provision.
    <bullet> Section 203: Presumption of service connected disability 
for combat and military-work related hearing loss and tinnitus and 
minimum hearing loss disability rating of 10 percent.
      <all> (a) Background from the IB: ``The VA Schedule for Rating 
Disabilities does not provide a compensable rating for hearing loss at 
certain levels severe enough to require hearing aids. The minimum 
disability rating for any hearing loss warranting use of hearing aids 
should be 10 percent, and the schedule should be changed accordingly.''
      <all> This section amends the Schedule for Rating Disabilities to 
provide a minimum 10 percent disability rating for any hearing loss for 
which the wearing of a hearing aid or aids is medically indicated.
    <all> (b) Background from the IB: ``Many combat veterans and 
veterans that had military duties involving high levels of noise 
exposure who now suffer from hearing loss or tinnitus likely related to 
noise exposure or acoustic trauma during service are unable to prove 
service connection because of inadequate testing procedures, lax 
examination practices, or poor recordkeeping.''
      <all> This provision enacts a presumption of service-connected 
disability for combat veterans and veterans who performed military 
duties typically involving high levels of noise exposure and who 
subsequently suffer from tinnitus or hearing loss of a type typically 
related to noise exposure or acoustic trauma.
    The American Legion supports this provision.

    <bullet> Section 204: Repeal the offset between dependency and 
indemnity compensation and the Survivor Benefit.
      <all> Background: Under current law, the survivors of veterans 
who die as a result of service-connected causes are entitled to 
compensation known as dependency and indemnity compensation (DIC). In 
addition, military retires can have money deducted from their retiree 
pay to purchase a survivors annuity. This is called the Survivor 
Benefit Plan (SBP). However, if the military retiree dies from service-
connected causes his or her survivors will receive a SBP payment offset 
dollar for dollar by the amount of the DIC payment they receive. Like 
the offset between military retiree pay and VA disability payments, 
this SBP/DIC offset unfairly denies beneficiaries the full amount of 
two programs that are meant to compensate for different loses.
      <all> This section repeals the offset between dependency and 
indemnity compensation and the Survivor Benefit Plan. This section is 
similar to S. 935, introduced by Senator Bill Nelson.
    The American Legion supports this provision.

    <bullet> Section 205: Authorize dependency and indemnity 
compensation (DIC) eligibility at increased rates to survivors of 
deceased military personnel on the same basis as that for the survivors 
of totally disabled service-connected veterans
      <all> Background from the IB: ``Current law authorizes the 
Department of Veterans Affairs to pay additional, enhanced amounts of 
dependency and indemnity compensation, in addition to the basic rate, 
to the surviving spouses of veterans who die from service-connected 
disabilities, after at least an 8-year period of the veteran's total 
disability rating prior to death. However, surviving spouses of 
military servicemembers who die on active duty receive only the basic 
rate of DIC.''
      <all> This section sets DIC eligibility at increased rates to 
survivors of deceased military personnel on the same basis as that for 
the survivors of totally disabled service-connected veterans.
    The American Legion has no official position on this provision.

    <bullet> Section 206: Lower the existing eligibility age for 
reinstatement of DIC to remarried survivors of service-connected 
veterans, from 57 years of age to 55 years of age.
      <all> Background from the IB: ``Current law permits remarried 
survivors of veterans who die from service-connected disabilities to 
requalify for DIC benefits if the remarriage occurs at age 57 or older, 
or if already remarried, they apply for reinstatement of DIC at age 57. 
While The Independent Budget veterans service organizations appreciate 
the action Congress took to allow this restoration of rightful 
benefits, the current age threshold of 57 years is based on no 
objective data related to this population or its needs. Remarried 
survivors of retirees in other Federal programs obtain a similar 
benefit at age 55.''
      <all> This section lowers the existing eligibility age for 
reinstatement of DIC to remarried survivors of service-connected 
veterans, from 57 years of age to 55 years of age.
    The American Legion supports this provision.

    <bullet> Section 207: Effective date change for temporary total 
compensation awards.
      <all> Background from the IB: ``An inequity exists in current law 
controlling the beginning date for payment of increased compensation 
based on periods of incapacity due to hospitalization or convalescence. 
Hospitalization in excess of 21 days for a service-connected disability 
entitles the veteran to a temporary total disability rating of 100 
percent. This rating is effective the first day of hospitalization and 
continues to the last day of the month of discharge from hospital. 
Similarly, where surgery for a service-connected disability 
necessitates at least one month's convalescence or causes 
complications, or where immobilization of a major joint by cast is 
necessary, a temporary 100 percent disability rating is awarded 
effective the date of hospital admission or outpatient visit. Although 
the effective date of the temporary total disability rating corresponds 
to the beginning date of hospitalization or treatment, the provisions 
of 38 U.S.C. Sec. 5111 delay the effective date for payment purposes 
until the first day of the month following the effective date of the 
increased rating.''
      <all> This section amends the law to authorize increased 
compensation on the basis of a temporary total rating for 
hospitalization or convalescence to be effective, for payment purposes, 
on the date of admission to the hospital or the date of treatment, 
surgery, or other circumstances necessitating convalescence.
    The American Legion supports this provision.

    <bullet> Section 208: Review of dependency and indemnity 
compensation (DIC) program by GAO.
      <all> Background from the IB: ``The VA Dependency and Indemnity 
Compensation program provides monthly financial support to the widow or 
widower of a veteran who dies from a service-connected disability 
(including the survivor of an active duty servicemember who dies while 
still in military service). Historically, DIC was intended to enable a 
survivor of a veteran to maintain a standard of living above the 
poverty level that might have ensued because of the loss of a spouse's 
life income and earning power. Current payment rates for DIC are set in 
law, and generally the maximum monthly payment is limited to $1,033--
about 41 percent of the level of maximum service-connected disability 
payment to a totally disabled veteran--and considerably less than 
pensions paid to a survivor of a Federal retiree, which is set in law 
at 55 percent of that Federal annuity. Because of inflation and other 
economic factors, many widows (and some widowers) are in fact now 
living in poverty due to lack of income other than DIC.''
      <all> This section requires the Government Accountability Office 
(GAO) to examine the VA's DIC program to ensure that current policy 
adequately provides for the survivors of veterans (at a standard of 
living above the poverty level) who died as a result of service-
connected disabilities and make legislative recommendations to Congress 
to correct any inequities observed from such examination.
    The American Legion supports this provision.
Title III. Insurance Matters
    <bullet> Section 301: Lower premiums for Service-Disabled Veterans 
Insurance (SDVI) due to changed mortality rates.
      <all> Background from the IB: ``Because of service-connected 
disabilities, disabled veterans have difficulty getting or are charged 
higher premiums for life insurance on the commercial market. Congress 
therefore created the SDVI program to furnish disabled veterans life 
insurance at standard rates. When this program began in 1951, its 
rates, based on mortality tables then in use, were competitive with 
commercial insurance. Commercial rates have since been lowered to 
reflect improved life expectancy shown by current mortality tables. VA 
continues to base its rates on mortality tables from 1941, however. 
Consequently, SDVI premiums are no longer competitive with commercial 
insurance and therefore no longer provide the intended benefit for 
eligible veterans.''
      <all> This section revises the premium schedule for SDVI to 
reflect current mortality tables and increase the maximum protection 
under base SDVI policies to at least $50,000 while allowing options for 
the level of insurance veterans can choose from.
    Sec. 301, S. 1326 looks to be the best of the several recent 
legislative proposals for finally updating and enhancing the Service-
Disabled Veterans Insurance (SDVI) program. It takes the present SDVI 
program and just raises the maximum coverage limit from the current 
$10,000 to $50,000. It leaves the provision for a disability waiver of 
premiums in place for those veterans unable to follow substantially 
gainful employment due to their disabilities (for most these are 
service-connected disabilities). It changes the long outdated mortality 
table, upon which premiums are based, from the current 1941 table to 
the 2001 table, which will lower premiums on average quite a bit (in 
the 30-40 percent range) for all SDVI policyholders not on premium 
waiver, and it permits veterans the option to have a mix of permanent 
plans as well as Term coverage. (Permanent plans, while more expensive, 
build loan and cash values.)
    The bill would cap SDVI at $50,000 under any combination of SDVI or 
Supplemental SDVI coverage. In fact, it effectively eliminates 
Supplemental SDVI for new policyholders who qualify for disability 
waiver of premiums since they would naturally go for the maximum for 
free. However, the Supplemental SDVI program is of course still needed 
since many would probably take out a lesser amount of coverage due to 
premium costs (even with a new rate table being used). Should these 
insured veterans become TD and qualify for a premium waiver at a later 
date prior to age 65, when they may very well no longer be eligible for 
new SDVI coverage, they may very much need and want Supplemental 
coverage at that time.
    The overly strict qualifying criteria are still maintained. That 
is, a veteran must apply within two years of his or her last NEW 
service-connected rating, and must be in good health except for 
service-connected disabilities. While the good health criteria isn't 
really arguable for this type of insurance, by definition, the two-year 
period should be increased to at least five years (a large portion of 
denials are because of a veteran being outside of the two-year period, 
which is an arbitrarily derived one, of course). Also, increases in 
service-connection ratings--the natural progression of such 
disabilities--should be permitted as well for purposes of the 
eligibility period. This is often when such veterans realize they need 
coverage the most and, as in Compensation, recognition should be given 
to this factor. Again, the NEW disability rule is an arbitrary one 
designed to keep eligibility down for budget purposes. There is also no 
provision for an open period of one or two years for those existing 
SDVI insured veterans, who no longer would meet the eligibility 
criteria for new SDVI coverage, to come in and apply for more coverage 
should this initiative be passed.
    The American Legion is concerned with a possible deletion of the 
long-standing provision for Gratuitous SDVI in Title 38, Sec. 
1922(b)(1). Due to the wording of S. 1326 (a)(1) and (2), there is 
confusion as to whether this may delete Title 38 (b)(1) due to the 
wording of the bill.
    The American Legion certainly wishes the provision for Gratuitous 
SDVI to remain, at least as it has been ($10,000) if it should not be 
possible for it also to be included in the proposed $50,000 increase. 
This provision entails relatively few cases annually (perhaps several 
hundreds), but is very needful for those beneficiaries falling under 
it. Gratuitous insurance is to permit an insurance settlement in cases 
where a veteran is mentally incompetent from a service-connected 
disability, and would qualify for SDVI, but died before being able to 
make an application for it. The requirements, listed in Title 38, 
1922(b)(1), are quite restrictive, so this does not impact much on the 
overall budget. However, we feel this should remain as a matter of 
equity and fairness for this class of service-connected veterans. The 
provision has stood the test of time in this regard, has endured for 
generations, and The American Legion should be most opposed to its 
removal. We should bring it up only as a concern. Actually, as a matter 
of equity, should the main intent of S. 1326 become law, the increase 
to $50,000 should also apply to Gratuitous SDVI, as well as regular 
SDVI, since in these cases it is virtually always that the veteran has 
died from service-connected disabilities that also rendered him or her 
mentally incompetent, and so unable to make decisions for benefits such 
as insurance, plus the families involved are usually in the worst of 
financial straits.
Title IV. Burial and Memorial Mmatters
    <bullet> Section 401: Increase in burial benefits.
      <all> Background from the IB: ``There has been serious erosion in 
the value of burial allowance benefits over the years. While these 
benefits were never intended to cover the full costs of burial, they 
now pay for only a small fraction of what they covered in 1973, when 
the Federal Government first started paying burial benefits for our 
veterans.''
      <all> This section increases the plot allowance from $300 to $745 
and expands the eligibility for the plot allowance for all veterans who 
would be eligible for burial in a national cemetery, not just those who 
served during wartime. This section also contains a provision to adjust 
these payments annually.
    The American Legion supports this provision.

    <bullet> Section 402: Increase in funeral and burial expenses.
      <all> Background from the IB: ``The nonservice-connected benefit 
was last adjusted in 1978, and today it covers just 6 percent of 
funeral costs. In the 108th Congress, the allowance for service-
connected deaths was increased from $500 to $2,000. Prior to this 
adjustment, the allowance had been untouched since 1988. Clearly, it is 
time this allowance was raised to make a more meaningful contribution 
to the costs of burial for our veterans.''
      <all> The section increases the nonservice-connected benefit from 
$300 to $1,270. This section then increases the service-connected 
benefit from $2,000 to $4,100. This section also contains a provision 
to adjust these payments annually.
    The American Legion supports this provision.

    <bullet> Section 403: Authorize $37 million for State Cemetery 
Grants Program.
      <all> Background from the IB: ``The State Cemetery Grants Program 
(SCGP) complements the NCA [National Cemetery Administration] mission 
to establish gravesites for veterans in those areas where the NCA 
cannot fully respond to the burial needs of veterans. Several 
incentives are in place to assist states in this effort. For example, 
the NCA can provide up to 100 percent of the development cost for an 
approved cemetery project, including design, construction, and 
administration. In addition, new equipment, such as mowers and 
backhoes, can be provided for new cemeteries. Since 1978, the 
Department of Veterans Affairs has more than doubled acreage available 
and accommodated more than 100 percent increase in burials.''
      <all> This section authorizes $37 million for the State Cemetery 
Grants Program a $5 million increase over the FY07 level.
    The National Cemetery Administration's request for $32 million 
dollars for the current fiscal year is to be used to establish six new 
cemeteries (Abilene, TX; Des Moines, IA; Glennville, GA; Fort Stanton, 
NM; Missoula, MT; Williamstown, KY) and to expand four others 
(Cheltenham, MD; Crownsville, MD; Jacksonville, NC; Kona Coast, HI). 
Determining an ``average cost'' to build a new state cemetery or to 
expand an existing one is very difficult. Many factors influence cost, 
such as location, size and the availability of public utilities. Two 
new state cemeteries planned for obligation in Fiscal Year 2007 are 
Abilene, Texas ($7.1 million) and Des Moines, Iowa ($7.5 million). 
While these awards may be delayed in being granted due to the states 
not being ready to proceed with the construction of a new cemetery, The 
American Legion would suggest that it is unwise to grant money on the 
hopes that a state will not be able to accept the grant in a timely 
fashion. Therefore, for the purpose of budgeting, the VA should assume 
that grants will be awarded in a timely fashion.


------------------------------------------------------------------------
                               President's budget       The American
                               request for Fiscal   Legion's Fiscal Year
                                     Year 07           08  recommended
------------------------------------------------------------------------
State Grants for Veterans'    $32 million.........  $42 million.
 Cemeteries.
------------------------------------------------------------------------
Abilene, Texas..............  $7.1 million........  $7.1 million.
------------------------------------------------------------------------
Des Moines, Iowa............  $7.5 million........  $7.5 million.
------------------------------------------------------------------------
Glennville, GA
Fort Stanton, NM
Missoula, MT
Williamstown, KY              $17.4 million         $27.4 million
                               (average dollars      (average dollars
                               left per.             left per
Cheltenham, MD                project is $2.175     project is $3.425
                               million)              million).
Crownsville, MD
Jacksonville, NC
Kona Coast, HI
------------------------------------------------------------------------


    By only budgeting for $4 million per project, The American Legion 
predicts serious shortfalls in State Grant funding. After the Texas and 
Des Moines' cemeteries are granted, an average of only $2.175 million 
will be left for each of the eight other projects remaining. The only 
way to avoid this funding shortage will be to hope that states are: not 
ready to receive the money; take the money from other construction 
needs in VA; or to delay the construction of these highly needed 
cemeteries.
    The American Legion recommends $42 million for the State Cemetery 
Grants Program in Fiscal Year 2008.
                        title v. housing matters
    <bullet> Section 501: Increases housing grants and allowing 
subsequent specialty adapted housing grants.
      <all> Background from the IB: ``VA provides specially adapted 
housing grants of up to $50,000 to veterans with service-connected 
disabilities consisting of certain combinations of loss or loss of use 
of extremities and blindness or other organic diseases or injuries. 
Veterans with service-connected blindness alone or with loss or loss of 
use of both upper extremities may receive a home adaptation grant of up 
to $10,000. . . . Increases in housing and home adaptation grants have 
been infrequent, although real estate and construction costs rise 
continually.''
      <all> This section increases the housing grant from $50,000 to 
$60,000 and increases the amount of the home adaptation grant for 
veterans with service-connected blindness or with loss or loss of use 
of both upper extremities from $10,000 to $12,000. This section also 
establishes a mechanism for periodic increases in this grant pegged to 
a housing price index. This section also establishes a grant to cover 
the costs of home adaptations for veterans who replace their specially 
adapted homes with new housing.
    The American Legion supports this provision.

    <bullet> Section 502: Increase the maximum coverage under Veterans 
Mortgage Life Insurance (VMLI) from $90,000 to $150,000.
      <all> Background from the IB: ``The maximum VMLI coverage was 
last increased in 1992. Since then, housing costs have risen 
substantially. Because of the great geographic differentials in the 
costs associated with accessible housing, many veterans have mortgages 
that exceed the maximum face value of VMLI. Thus, the current maximum 
coverage amount does not cover many catastrophically disabled veterans' 
outstanding mortgages. Moreover, severely disabled veterans may not 
have the option of purchasing extra life insurance coverage from 
commercial insurers at affordable premiums.''
    <all> This section increases the maximum coverage under VMLI from 
$90,000 to $150,000.
    Title IV, Sec. 502 proposes raising the Veterans Mortgage Life 
Insurance limit to $150,000 from the current $90,000. This is too low. 
VA has looked for a $200,000 limit here for years, and the $200,000 
limit (as a start) in Senator Akaka's bill (S. 1315, Sec. 2) is much 
better. This would allow some 93 percent of outstanding mortgage 
balances to be covered (presently it is 64 percent). We all know how 
housing costs have gone in the past decade or so. The coverage limit 
should actually start at $200,000 and be linked to some appropriate 
economic market indicator.

    <bullet> Section 503: Full eligibility for VA Home loan guaranty 
program for Selected Reserve forces.
      <all> Background from the IB: ``Various incentive, service, and 
benefit programs designed a half century ago for a far different Guard 
and Reserve philosophy are no longer adequate to address demands on 
today's Guard and Reserve forces. Accordingly, steps must be taken by 
Congress to upgrade National Guard and Reserve benefits and support 
programs to a level commensurate with the sacrifices being made by 
these patriotic volunteers. Such enhancements should provide Guard and 
Reserve personnel a level of benefits comparable to their active duty 
counterparts and provide one means to ease the tremendous stresses now 
being imposed on Guard and Reserve members and their families, and to 
bring the relevance of these benefits into 21st century application. . 
. . With concern about the current missions of the Guard and Reserve 
forces, Congress must take necessary action to upgrade and modernize 
Guard and Reserve benefits, to include more comprehensive health care, 
equivalent Montgomery GI bill educational benefits, and full 
eligibility for the VA Home Loan guaranty program.''
      <all> This section gives Selected Reserve forces who have served 
at least a year full eligibility to the VA Home loan guaranty program.
    The American Legion does not have an official position on this 
resolution ``Until the Gulf Era is ended by law or Presidential 
Proclamation, persons on active duty are eligible for a home loan after 
serving on continuous active duty for 90 days.''

    <bullet> Section 504: No increase in and return of funding fees for 
home loan funding to the levels agreed before the 108th Congress.
      <all> Background from the IB: ``Congress initially imposed 
funding fees upon VA guaranteed home loans under budget reconciliation 
provisions as a temporary deficit reduction measure. Now, loan fees are 
a regular feature of all VA home loans except those exempted. During 
its first session, the 108th Congress increased these loan fees. The 
purpose of the increases was to generate additional revenues to cover 
the costs of improvements and cost-of-living adjustments in other 
veterans' programs. In effect, this legislation requires one group of 
veterans (and especially our young active duty military), those subject 
to loan fees, to pay for the benefits of another group of veterans, 
those benefiting from the programs improved or adjusted for increases 
in the cost of living.''
      <all> This section returns the home loan funding fees to the 
levels before the Veterans Benefit Act of 2003 (108th Congress).
    The American Legion supports reducing or eliminating the funding 
fee.
Title VI. Benefits Administration
    <bullet> Section 601: Revision of the power of the Court of Appeals 
for the Federal Circuit and of the Rules of the Court of Appeals for 
Veterans Claims.
      <all> (a) Background from the IB: ``Under 38 U.S.C. Sec. 502, the 
Court of Appeals for the Federal Circuit (CAFC) may review directly 
challenges to VA's rulemaking. Section 502 exempts from judicial review 
actions relating to the adoption or revision of the VA Schedule for 
Rating Disabilities, however. Formulation of criteria for evaluating 
reductions in earning capacity from various injuries and diseases 
requires expertise not generally available in Congress. Similarly, 
unlike other matters of law, this is an area outside the expertise of 
the courts. Unfortunately, without any constraints or oversight 
whatsoever, VA is free to promulgate rules for rating disabilities that 
do not have as their basis reduction in earning capacity. The co-
authors of The Independent Budget have become alarmed by the arbitrary 
nature of recent proposals to adopt or revise criteria for evaluating 
disabilities. If it so desired, VA could issue a rule that a totally 
paralyzed veteran, for example, would only be compensated as 10 percent 
disabled. VA should not be empowered to issue rules that are clearly 
arbitrary and capricious.''
      <all> This section amends 38 U.S.C. Sec. 502 to authorize the 
CAFC to review and set aside changes to the Schedule for Rating 
Disabilities found to be arbitrary and capricious or clearly in 
violation of statutory provisions.
      <all> (b) Background from the IB: ``The CAVC upholds Department 
of Veterans Affairs (VA) factual findings unless they are clearly 
erroneous. Clearly erroneous is the standard for appellate court 
reversal of a district court's findings. When there is a ``plausible 
basis'' for a factual finding, it is not clearly erroneous under the 
case law from other courts, which the CAVC has applied to Board of 
Veterans' Appeals (BVA) findings.''
      <all> This sections amends 38 U.S.C. Sec. 7261 of title 38 United 
States Code to provide that the court will hold unlawful and set aside 
any finding of material fact that is not reasonably supported by a 
preponderance of the evidence.
    The American Legion has no official position on this provision.

    <bullet> Section 602: Elimination of Rounding Down of Certain Cost-
of-Living Adjustments.
      <all> Background from the IB: ``Disability compensation and 
dependency and indemnity compensation (DIC) rates have historically 
been increased each year to keep these benefits even with the cost of 
living. However, as a temporary measure to reduce the budget deficit, 
Congress enacted legislation to require monthly payments, after 
adjustment for increases in the cost of living, to be rounded down to 
the nearest whole dollar amount. Finding this a convenient way to meet 
budget reconciliation targets and fund spending for other purposes, 
Congress seemingly has become unable to break its recurring habit of 
extending this round-down provision and has extended it even in the 
face of prior budget surpluses. Inexplicably, VA budgets have 
recommended that Congress make the round-down requirement a permanent 
part of the law. While rounding down compensation rates for one or two 
years may not seriously degrade its effectiveness, the cumulative 
effect over several years will substantially erode the value of 
compensation. Moreover, extended--and certainly permanent--rounding 
down is entirely unjustified. It robs monies from the benefits of some 
of our most deserving veterans and their dependents and survivors, who 
must rely on their modest VA compensation for the necessities of 
life.''
      <all> This section removes the round-down provisions for 
dependency compensation and requires the payments to be made at the 
full-calculated amounts.
    The American Legion supports this provision.

    <bullet> Section 603: Creation of a Department of Veterans Affairs 
and Department of Defense Joint Data Exchange Bureau to Improve Claims 
Processing and Clinical Data Sharing.
      <all> One problem that currently exists between the VA and the 
DOD is that they do not consistently use the same clinical vocabularies 
and therefore clinical data exchange, which is so critical for both 
effective healthcare and disability rating, has created longstanding 
inefficiencies in both Departments. This exchange is particularly 
important today because the DOD has begun to amass critical amounts of 
data on servicemembers because of the deployment of DOD's new 
electronic health record, as well as surveys that are now tracking 
individuals' health at regular intervals over their service careers.
      <all> This section creates a joint VA-DOD Data Exchange Bureau to 
establish technology and standards for clinical data recording and 
sharing between the two agencies to improve healthcare delivery and 
accuracy and speed of claims processing. This Bureau will establish an 
ongoing mapping service that will ensure that data produced by clinical 
software systems are understandable in both Departments. Importantly, 
this Bureau is envisioned to produce mappings that are completely in 
the public domain, which will ultimately encourage the commercial 
sector to use the mappings as well. Ultimately, this will speed the 
adoption of clinical data interoperability nationally, long understood 
as a major impediment to the adoption of electronic health records and 
their attendant promise of increased quality and cost savings.
    The American Legion supports this provision.

    <bullet> Section 604: Joint study and report from the DOD and the 
VA on automating the Veterans Administration Schedule for Rating 
Disabilities (VASRD).
      <all> Background: One of the most critical tools in the 
disability ratings process is the Veterans Administration Schedule for 
Rating Disabilities (VASRD). It is used by both the VBA and the 
military services for rating disability claims. Given the size and 
complexity of the rulesets inherent in the Schedule, many claims are 
inaccurate, variable, and subject to appeal by veterans. There would be 
tremendous value in getting a complete and standardized set of data on 
each veteran, relevant to his or her particular problems, that can then 
be linked to the relevant sections of the Schedule for more accurate 
ratings, the same way, regardless of the skill of the rater.
      <all> This section requires the DOD and the VA to produce a joint 
study on the interoperability of both of their current disability 
rating systems and the feasibility and advisability of automating the 
VASRD so as to improve the timeliness and accuracy of claims 
processing. The report also requires the DOD and VA to produce 
legislative proposals for achieving this goal and funding requirements.
    The American Legion does not oppose the idea of such a study; 
however, as the Veterans' Disability Benefits Commission (VDBC) has 
already commissioned the Institute of Medicine (IOM) to conduct a study 
of the VASRD that will be addressed in the Commission's report and 
recommendations to Congress and the President (due October 1, 2007), it 
would be best to wait for the outcome of that study before mandating a 
similar study.
Title VII. Other Benefits Matters
    <bullet> Section 701: Increasing specially adapted car grant/
conveyances/adaptive equipment, p. 16/17, IB
      <all> Background from the IB: ``The Department of Veterans 
Affairs provides certain severely disabled veterans and servicemembers 
grants for the purchase of automobiles or other conveyances. This grant 
also provides for adaptive equipment necessary for safe operation of 
these vehicles. Veterans suffering from service-connected ankylosis of 
one or both knees or hips are eligible for only the adaptive equipment. 
This program also authorizes replacement or repair of adaptive 
equipment. Because of a lack of adjustments to keep pace with increased 
costs, the value of the automobile allowance has substantially eroded 
through the years. In 1946, the $1,600 allowance represented 85 percent 
of average retail cost and a sufficient amount to pay the full cost of 
automobiles in the ``low-price field.'' By contrast, in 1997 the 
allowance was $5,500, and the average retail cost of new automobiles, 
according to the National Automobile Dealers Association, was $21,750. 
Currently, the $11,000 automobile allowance represents only about 39 
percent of the average cost of a new automobile, which is $28,105.''
      <all> This section increases the automobile grant, the specially 
adapted car grant, conveyances, and adaptive equipment grant from 
$11,000 to $22,484 and adjusts this amount automatically each year 
using an average retail car cost index established by the Secretary.
    The American Legion supports this provision.

    <bullet> Section 702: Refund GI Bill contributions where under 
general or honorable conditions discharge.
      <all> Background from the IB: ``The Montgomery GI Bill--Active 
Duty program provides educational assistance to veterans who first 
entered active duty (including full-time National Guard duty) after 
June 30, 1985. To be eligible, servicemembers must have elected to 
participate in the program and made monthly contributions from their 
military pay. These contributions are not refundable. Eligibility is 
also subject to an honorable discharge. Discharges characterized as 
``under honorable conditions'' or ``general'' do not qualify.''
      <all> This section allows the refund of GI Bill contributions if 
the Secretary of Defense determines that the discharge, under honorable 
or general conditions, was due to minor infractions or deficiencies.
    The American Legion has no official position on this provision; 
however, The American Legion opposes requirement to ``contribute'' 
$1,200 to participate in an earned benefit--the Montgomery GI Bill 
contribution.

    <bullet> Section 703: Study by the GAO on whether there is a need 
for providing assisted living to veterans.
      <all> Background from the IB: ``Assisted living can be a viable 
alternative to nursing home care for many of America's aging veterans 
who require assistance with the activities of daily living (ADLs) or 
the instrumental activities of daily living (IADLs). Assisted living 
offers a combination of individualized services, which may include 
meals, personal assistance, and recreation provided in a homelike 
setting. While assisted living is not currently a benefit that is 
available to veterans, even though some veterans have eligibility for 
nursing home care, the authors of The Independent Budget believe 
Congress should consider providing an assisted living benefit to 
veterans as an alternative to nursing home care.''
      <all> This section directs the GAO to study the provision of 
assisted living and produce a report, including sections looking at 
possibilities of cost savings for the VA by providing assisted living.
     The American Legion supports this provision.

    Draft Legislation, ``Veterans Mental Health Care Advocacy Act of 
2007'' (formerly the ``Iraq and Afghanistan Veterans Mental Health and 
Advocacy Act of 2007'').
    Section 3 of the legislation, ``Pilot Program on provision of Legal 
Assistance to Assist Members of the Armed Forces Receive Health Care, 
Benefits and Services From Department of Veterans Affairs and 
Department of Defense,'' is well intentioned. However, this provision 
appears to overlook the fact that these types of services are already 
provided by Veterans Service Organizations (VSOs) and State Departments 
of Veterans Affairs free of charge, thus making the pilot program 
addressed in this legislation unnecessary. The American Legion 
recommends a change of focus in this section to look at how the current 
support structure (VSOs, states, etc.) is currently being utilized in 
order to see where any improvements can be made.
                               conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important measures. As always, The American 
Legion welcomes the opportunity to work closely with you and your 
colleagues on enactment of legislation in the best interest of 
America's veterans and their families.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Daniel K. Akaka to Alec 
  S. Petkoff, Assistant Director, Veterans Affairs and Rehabilitation 
                    Commission, The American Legion
    Question. What are the top five legislative priorities of the 
Disabled American Veterans?
    Response. The top five legislative priorities of the American 
Legion are:

    <bullet> Mandatory funding for VA medical care;
    <bullet> Improved timeliness and accuracy of VA disabilities claims 
processing;
    <bullet> Timely implementation of CARES construction;
    <bullet> Improved mental health care; and
    <bullet> Improved Long Term Care.

    Chairman Akaka. Thank you very much for all of your 
statements. We will now have questions and we will be asking 
questions in this order: Senator Webb, Senator Sanders, and 
Senator Brown, after I ask my questions.
    [Laughter.]
    Chairman Akaka. Also, I just want to report that the 11:30 
votes have been postponed to 10 of 12, so we have a little more 
time here.
    Mr. Lawrence and Mr. Petkoff, please elaborate on your 
organization's basis for recommending dropping the 10-year 
restriction on eligibility for the new insurance program that 
would be created by the Disabled Veterans Insurance Improvement 
Act of 2007. Mr. Lawrence?
    Mr. Lawrence. Yes, sir. For veterans that were diagnosed 
with latent onset diseases, that might preclude them from 
acquiring the benefit when they would be entitled to all other 
service-connected benefits. But that 10-year restriction, 
somebody that was diagnosed with cancer related to Agent 
Orange, they are more than 10 years beyond their service, would 
be precluded from service connection. So we would just want to 
ensure that no unintended consequences would bar such veterans 
from benefiting from it.
    Chairman Akaka. Mr. Petkoff?
    Mr. Petkoff. I am sorry, Chairman. Which bill number was 
this, please?
    Chairman Akaka. Mr. Petkoff, the question was I asked for 
elaboration of your organization's basis for recommendation 
dropping the 10-year restriction on eligibility for the new 
insurance program that would be created by the Disabled 
Veterans Insurance Improvement Act of 2007.
    Mr. Petkoff. Well, I think, sir, some of that information 
is covered in the testimony submitted for the record. If you 
don't mind----
    Chairman Akaka. That is fine. We will look forward to that.
    Mr. Hollingsworth, in your written testimony, AMVETS 
endorsed the findings and recommendations of the study of 
improvements to veterans cemeteries. Does that mean that AMVETS 
opposes legislative efforts such as S. 168 to prioritize 
building VA cemeteries in specific locations?
    Mr. Hollingsworth. Mr. Chairman, AMVETS does not 
necessarily oppose or support that provision. I think as I 
stated in the testimony, we believe the study served as a very 
good planning tool for VA and overall we support VA in their 
efforts and their recommendations.
    Chairman Akaka. Thank you.
    Mr. Hilleman, in your written testimony, you expressed 
VFW's concern that expanding the accelerated payment program 
could lead to squandering education benefits on less-than-
reputable businesses. Will you please elaborate on this concern 
and describe VFW's experience with such programs?
    Mr. Hilleman. Thank you for the question, Senator. There 
are two bills that would basically open up lump-sum GI Bill 
payments to larger industries. Currently, it is only allowed 
for the high-tech industry. One of the most famous is trucking. 
I will use an anecdotal example to illustrate our point, if I 
may.
    In advertising to veterans for schools of learning or 
opportunities that foster a career, if a trucking institution 
advertises a career to young veterans leaving the service and 
promises a great over-the-road trucking career but only trains 
those individuals on automatic transmissions, it is going to 
exclude a large portion of the trucking industry to them. It 
essentially comes down to truth in advertising, and expanding 
the benefit so broadly begs the question of what kind of 
regulation and oversight will be afforded to these new schools 
of instruction.
    So we would caution that with expanding the benefit, you 
are opening the door for organizations that will be very 
reputable as well as organizations that will take advantage. A 
large expansion of this kind of benefit will make VA's 
immediate oversight of the program very difficult.
    Chairman Akaka. Thank you very much.
    I have another question that I will keep for the second 
round, if we have time for that. Senator Webb?
    Senator Webb. Thank you, Mr. Chairman. For the record, I 
would like to indicate that Senator Brown just agreed to 
cosponsor S. 22, so we now have Senator Tester, myself, Senator 
Brown, Senator Sanders, and I am hoping maybe I could entice 
you in this supportive environment to consider putting yourself 
on the bill at some time.
    I would like to say to all the panelists, I appreciate your 
testimony and the work that you were doing. Having spent a good 
part of my life working on veterans areas, it is a labor of 
love, as all of you know. You are trying to give something 
back.
    Mr. Hilleman, I thought your comments about the package 
that you put together in order to get through school after the 
Marine Corps were very telling. On the one hand, I deeply 
respect all the energy you had to put into that, and on the 
other, I feel like you earned your scholarship. You earned your 
scholarship with 4 years of active duty at a time when this 
country is in a great deal of danger and that is what this bill 
is all about.
    I appreciate the comments of all the witnesses here about 
the importance of this legislation, and as Colonel Norton 
pointed out, the necessity right now to embrace the service of 
people in the Guard and Reserve and those who have stepped 
forward in Federal service to get the kind of, not only the 
kind of reward for service, but the assistance in transitioning 
into their regular civilian life afterward.
    I was visited yesterday by an active duty Marine Corps 
General, General Leonard, a Major General who wanted to come by 
and thank me for this bill. And on the one hand, we hear 
rumblings from DOD of the sort of thing that was mentioned in 
the Department's testimony about the fact this might affect 
retention, and yet on the other hand, I was hearing from 
General Leonard--I know he wasn't speaking for the Marine 
Corps, I don't want to get him in trouble here--but he was 
saying pretty strongly the same sort of thing that, Mr. 
Hilleman, you were saying, that there were people he knew that 
if they were able to have this kind of strong assistance would 
actually come back in, serve a period as an enlisted Marine or 
whatever service, and then come back in as an officer. He 
thought this was a recruitment program and potentially a 
recoupment sort of a retention program. So that is really what 
we are up to.
    I want to, just for the record here, is there any 
organization that is opposed to S. 22?
    [No response.]
    Senator Webb. I didn't think there was. Thank you very 
much, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Webb.
    Now we will have Senator Sanders, followed by Senator 
Brown.
    Senator Sanders. Thank you very much, Mr. Chairman, and 
mostly I want to thank all of the organizations that are here 
today. You are doing a great job in representing the needs of 
the veterans. I think that this here, if we keep the pressure 
up, we can take a giant step forward. I think the climate is 
right. I think the American people want us to move forward, and 
working together, I think we can do just that.
    Let me just ask, if I might, your views on several 
provisions that are included in the Comprehensive Veterans 
Benefits Improvement Act of 2007. I want to thank many of the 
organizations for working with us, and this is essentially 
legislation that puts into legislative language the provisions 
in the Independent Budget. We thank you for putting the budget 
together and working with us on this 
legislation.
    Is there anyone up here, following Senator Webb's approach, 
who would oppose eliminating the rounding-down of the benefits 
that veterans receive? You all are familiar with that process? 
Does it make good sense that we eliminate that provision and we 
do not nickel-and-dime veterans? Is anyone not in agreement on 
that?
    [No response.]
    Senator Sanders. For the record, I would note that there 
seems to be unanimity of support for that.
    In our legislation, we have a provision that increases plot 
allowances from $300 to $745. Is anybody not supportive of that 
effort? Do people think that makes sense?
    [No response.]
    Senator Sanders. OK, good. Thank you. We also increased 
burial benefits for the non-service-connected veteran from $300 
to $1,270 and $2,000 to $4,100 for those who died of service-
connected illnesses. Does anyone want to comment on that? Does 
that make sense, that we increase that? Are you hearing much 
thought about the kinds of fees available now, payments 
available for burial or for funerals? Is that something, 
increasing that, that makes sense to people? Yes, Mr. 
Hollingsworth?
    Mr. Hollingsworth. Senator, if I may, I know AMVETS, along 
with the Independent Budget partners, I believe we have already 
drafted a letter of support for your bill. If you haven't 
received it, then it is forthcoming.
    Senator Sanders. Thank you very much. And lastly, it seems 
to me, and there are many, many provisions of the bill, 
obviously, I just wanted to touch on a few--let me say a few 
words. We are addressing the problem, and I know some of you 
have already discussed this, of a veteran coming home paralyzed 
or not having the ability to drive a car, a normal, regular 
car, or access a regular home, and improving the benefits so 
that our veterans can enjoy a home and be able to drive a car. 
Is that an issue that you are hearing much about, and 
increasing benefits so that we can address that? Mr. 
Hollingsworth?
    Mr. Hollingsworth. I am not aware of veterans with that 
particular issue, and I can't speak for the other VSOs.
    Senator Sanders. Any thoughts on that? Ms. Beck?
    Ms. Beck. Yes, sir. We are aware of a number of veterans 
who could greatly benefit from the ability to be able to have 
those benefits available to them, and that actually gets to our 
point of having the overlap of services and benefits, because 
having the active duty and the veterans while they are 
recovering from their injuries being able to benefit from those 
types of offerings from the VA and DOD can relieve a lot of the 
confusion among families that they currently feel about having 
someone sitting next to them who is eligible for a benefit and 
they aren't eligible for the same benefit and they have the 
same wound.
    Mr. Hollingsworth. Senator, if I may, I will share with the 
Committee, because AMVETS internally, we had quite a debate 
internally with regards to extending benefits to active duty 
personnel. I think at the end of the day, we want to take care 
of the veteran and do the right thing. However, one of our 
concerns internally was we believe that having VA pick up the 
cost in some respects for folks still serving on active duty 
could actually serve as an impediment to the seamless 
transition process, and if DOD is held accountable for some of 
the costs that they must incur for some of these wounded and 
injured service personnel, we believe that, ultimately, it 
could serve as a financial incentive to expedite that seamless 
process, get them off the Department of Defense rolls and get 
them into the VA system.
    Senator Sanders. My understanding is that doesn't apply to 
our legislation.
    Let me just conclude by saying this. We have under Chairman 
Akaka and I think many Members of this Committee and very good 
support in this House, we have the opportunity to take a giant 
step forward. Now, one of the issues that will no doubt come 
down the pike--I was in the House for 16 years and I will tell 
you exactly what will happen--you will find Members saying, 
hey, every idea that you have brought forward is a great idea, 
and let me tell you, I support every idea that you have brought 
forward. But you know what? We just can't afford it. We just 
can't afford it. That will be the argument that you are going 
to be hearing in a few months.
    And I hope very much, and I don't mean to be political 
here, I sincerely do not, but I hope very much you will stand 
up and say, let us get our priorities right and before we do 
things like give tax breaks to billionaires, we take care of 
our veterans. I don't want to get you in trouble or get you 
into areas that you are not usually into, but in my view, this 
country has the resources to take care of our veterans. It is a 
moral obligation. It is a cost of war. If we are sending 
somebody abroad, we all know that the wounds of war last for a 
lifetime. And if we are going to send somebody abroad, we have 
got to take the responsibility of making that person as whole 
as we possibly can.
    So as we move down the pike, and you are going to hear 
people say, oh, every one of your ideas is great. We love 
everything you are doing. We just don't have the money. I hope 
you will stand with those of us who say, let us get our 
priorities right, OK?
    All right. Thank you very much for all that you are doing.
    Chairman Akaka. Thank you. Thank you very much, Senator 
Sanders.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    First of all, thank you, Colonel Norton, for your comments. 
Sorry I missed. I had an agriculture hearing at the same time. 
Sorry I missed some of the earlier comments. But thank you for 
your comments about the Guard and Reserve. A lot of us here 
believe that we need to do way better than we have done. I am 
including many of us have proposed having someone from the 
Guard or Reserve have a seat at the table on the Joint Chiefs. 
I think that is particularly important.
    I want to just give you all an opportunity, if you choose, 
to respond to a concern I thought that was brought up earlier. 
Senator Obama mentioned, before I got here, about the payments 
or the bonuses that were handed out--almost $4 million in 
bonuses to senior officials. Under Secretary Cooper defended 
those bonuses. I think most of you were in the room and 
listened to that testimony. I apologize. As I said, I was not 
in the room at that point.
    But apparently, the $16,000 average bonus throughout the VA 
was higher than any other place in the Federal Government. I 
mean, maybe it is not a lot of money. It is $4 million. It is 
nothing compared to what Senator Sanders is talking about, the 
tax cuts that have gone overwhelmingly to the wealthiest people 
in this country, frankly, at the expense of schools, the 
expense of health care, and the expense of veterans.
    But do any of you have any comments on that? Does that 
disturb you? Do you hear about it from some of your members at 
the AMVETS or the Legion or the Paralyzed Vets, how important 
that is? Does anybody want to comment on that?
    Mr. Hollingsworth?
    Mr. Hollingsworth. Well, I guess I will be the bold one 
here. I think overall, clearly, VA needs some tools to retain 
quality professionals and personnel. With a lot of the 
specifics of the bonuses, I am not necessarily familiar with 
and it hasn't come to our attention on some of the specifics, 
but by and large, I will tell you that many of these issues, to 
include the issues of bonuses, have been around for years and 
they span multiple administrations and multiple Congresses. If 
there is some wrongdoing there or some folks who shouldn't have 
received bonuses, then clearly, I encourage this Committee to 
continue to investigate and look at those on a case-by-case 
basis.
    Senator Brown. Anybody else?
    Mr. Blake. Senator, I would just say that, certainly, we 
have heard about it from a number of folks that are in our 
membership around the country about it and their concerns. If 
you know a little bit about the situation, we probably know 
even less as far as who got bonuses for what and those sorts of 
things. So we certainly encourage the Committee to investigate 
this further.
    I think, if anything, this only highlights our concern that 
we have raised time and again about the need for proper 
accountability in the Department of Veterans Affairs and VBA 
and VHA across the board. This may serve as an opportunity to 
go down that road more fully in addressing accountability 
within the VA.
    Senator Brown. Thank you. My concern is that, one, it is 
more than any other agency; and second, that there have been 
some serious problems in the VA, as the newspapers and others 
have pointed out in the last few months. I don't know that our 
government is fully rewarding people quite the way that it 
should.
    Do you want to make one more comment?
    Mr. Hollingsworth. Senator, I will. There are some problems 
within VA, but you know what? There are some good stories 
within the VA, as well. All too often, I think the media tends 
to highlight the negative things, and I will tell you, VA does 
wonderful things.
    Senator Brown. And I think VA health care is the best. 
Thank you.
    Chairman Akaka. Thank you very much, Senator Brown.
    I have a request to make of all of you at the table.
    As you know, we are operating under pay-go rules so that 
any legislation that adds costs must be offset in some fashion, 
and you have heard Senator Sanders with a possible kind of an 
offset, because of the huge costs that we are looking at. As a 
consequence, one of the biggest hurdles to implementation of 
many of the bills on the agenda will be costs. For the record, 
and this is what I am asking each of you, for the record, 
please submit to the Committee your organization's top five 
legislative priorities, keeping in mind the cost constraints, 
of course. It would be most helpful if you can provide a 
response within 7 days. We will be looking toward moving on 
some of the bills that members have offered, and so we would 
like to have that.
    Again, I want to thank all of you, all of our witnesses for 
appearing today. We truly appreciate your taking the time to 
give us your views on the legislation on the agenda today and 
we do appreciate that.
    Ms. Beck. Senator, if I could, just one quick remark about 
that comment you just made. In many cases that we hear from our 
wounded warriors, our youngest generation, they are very 
technologically savvy. It is not necessarily in all of the 
cases that they need new benefits. They need to have the 
benefits that are there more accessible and untangled so that 
they can understand and access them. So in some cases--I am not 
going to say we don't want new benefits, but in some cases, it 
really is just a question of being able to understand what is 
already available.
    Chairman Akaka. Thank you. Are there any other comments?
    [No response.]
    Chairman Akaka. Otherwise, this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

Prepared Statement of Hon. Charles A. Ciccolella, Assistant Secretary, 
     Veterans' Employment and Training Service, Department of Labor
    Chairman Akaka, Ranking Member Craig, and Members of the Committee:
    Thank you for inviting us to submit for the record the views of the 
Department of Labor on S. 1215, a bill ``[t]o amend title 38, United 
States Code, to extend and improve certain authorities of the Secretary 
of Veterans Affairs, and for other purposes.'' Per the Committee's 
request, my statement focuses on the residency requirement for State 
Directors of Veterans' Employment and Training (DVET) and the 
requirement for a special study on veterans' unemployment.
    Current law requires that, ``Each Director for Veterans' Employment 
and Training for a State shall, at the time of appointment, have been a 
bona fide resident of the State for at least 2 years.'' 38 U.S.C. 
Sec. 4103(a)(2). Section 3 of S. 1215 titled, ``Waiver of Residency 
Requirement for Directors for Veterans' Employment and Training,'' 
would grant the Secretary of Labor authority to waive this 2-year 
residency requirement for appointment of Directors for Veterans' 
Employment and Training in the states. Section 3 would provide the 
Secretary discretion in appointing qualified individuals to these 
positions.
    The Department supports Section 3 because the current durational 
residency requirement runs counter to merit principles and should not, 
in and of itself, be a condition for employment. In the global economy 
of the 21st century, our goal is to provide the best possible 
employment services to our men and women that serve in the Armed 
Forces. Enactment of Section 3 would help ensure that the best 
qualified individuals from any state are allowed to apply for and fill 
a Director vacancy. It is our belief that choosing from a greater pool 
of talent would lead to better management at the state level and better 
services provided to veterans and servicemembers.
    Section 4 of S. 1215, titled ``Modification of Special Unemployment 
Study to Cover Veterans of Global War on Terror,'' would modify the 
biennial special unemployment study conducted by the Department of 
Labor through the Bureau of Labor Statistics (BLS). Current law 
requires this special unemployment study be undertaken, and further 
mandates that the study include the following categories of veterans:

    (A) Special disabled veterans;
    (B) Veterans of the Vietnam era who served in the Vietnam theater 
of operations during the Vietnam era;
    (C) Veterans who served on active duty during the Vietnam era who 
did not serve in the Vietnam theater of operations;
    (D) Veterans who served on active duty after the Vietnam era; and
    (E) Veterans discharged or released from active duty within 4 years 
of the applicable study.

    See 38 U.S.C. Sec.  4110A(a)(1). In addition, within each of the 
categories of veterans specified above, the study must include a 
separate category for veterans who are women. See 38 U.S.C. 
4110A(a)(2).
    Section 4 would update the categories of veterans that receive 
particular focus in this biennial special unemployment study. 
Currently, two of the five categories of veterans identified for 
special focus are categories of Vietnam era veterans. Section 4 would 
change those categories to Global War on Terror (GWOT) era veterans.
    BLS collects data on total Vietnam era veterans, GWOT era veterans, 
and veterans of other conflict eras through both the monthly Current 
Population Survey (CPS) and the biennial veterans' supplement to the 
CPS. The data necessary to satisfy the more detailed requirements of 
the current 38 U.S.C. Sec. 4110A are collected through the biennial 
veterans' supplement. It is important to note that BLS will continue to 
collect data on veterans by service era through the monthly CPS. 
Enactment of S. 1215 would result in the biennial veterans' supplement 
to the CPS shifting its more detailed focus from specific categories of 
Vietnam-era veterans to veterans of the GWOT.
    We support this change, although the Department would like to work 
with the Congress on the specific language of Section 4 to ensure that 
the biennial study 2 satisfies Congressional intent and provides 
information relevant to veterans of 21st century military service. One 
area that the Department believes is very important is the ability to 
identify veterans who were activated from the National Guard or Reserve 
Component. We would like to caution that the CPS is a sample survey of 
households, and questions about an individual are often answered by 
another household member. In addition, the CPS does not collect 
detailed information on military service, such as involvement in 
specific military campaigns such as Operation Iraqi Freedom and 
Operation Enduring Freedom; rather, the CPS provides a comprehensive 
body of data on the labor force, employment, unemployment, and persons 
not in the labor force.
    The objective of the biennial study is to assess the labor market 
experiences of veterans. For example, the biennial veterans' supplement 
includes a series of questions on servicemembers' use and perceptions 
of the Transition Assistance Program (TAP) employment workshops, which 
are conducted by the Department's Veterans' Employment and Training 
Service. Those questions are administered to veteran respondents who 
have separated from the military since 1991. Most Vietnam era veterans 
are between the ages of 55-64, and likely separated from the armed 
services some time ago. Therefore, while BLS will continue to collect 
data on total Vietnam era veterans under the monthly CPS, it is 
appropriate to shift the more intense focus of the study that results 
from the biennial veterans' supplement to the CPS to veterans of the 
later GWOT.
    On S. 117, the ``Lane Evans Veterans Health and Benefits 
Improvement Act of 2007,'' a bill to require reports on the effects of 
the Global War on Terrorism, the Department objects to Section 204, 
which would require quarterly reports from the Department of Labor. The 
provision is vague as to the scope and implications of covered 
information that the Department would be required to provide. In 
addition, the section could possibly require extensive reprogramming of 
the reporting systems within the Department.
    The Department defers to the Department of Veterans Affairs on the 
other provisions of S. 1215 and S. 117, as well as the other bills 
under consideration at this hearing.
    Thank you for allowing me to present the views of the Department on 
this important legislation.
                               __________
      Prepared Statement of Donald Sweeney, Legislative Director, 
            National Association of State Approving Agencies
    Chairman Akaka, Ranking Member Craig and Members of the Senate 
Committee on Veterans' Affairs, I am pleased to offer the following 
comments on behalf of the National Association of State Approving 
Agencies on Senate Bills 1215 and 1290 and ``The Post-9/11 Veterans 
Educational Assistance Act of 2007.'' We are very thankful to you for 
introducing S. 1215 and look forward to working with you to ensure that 
the bill is enacted into law.
                                s. 1215
    We support the provisions of S. 1215, and are especially concerned 
with Sections 1 and 5 of the bill. Maintaining the current funding of 
State Approving Agencies (SAAs) at $19 million is vital to the success 
of the GI Bills. As stated recently by a former Congressional 
Subcommittee Staff Director, ``SAAs are the face of the GI Bill at the 
state level''. As State entities acting on behalf of the Federal 
Government, they have been an outstanding example of the workability of 
the Federal-State partnership, allowing Federal interests to be pursued 
at the local level while preserving the identity, interests and 
sovereignty of State's rights in education. SAAs contribute to the 
success of the GI Bills in many ways which include, but are not limited 
to, the following:

    <bullet> Determinations regarding the quality and integrity of just 
about any kind of learning experience imaginable (institutional, job 
training, flight, correspondence, etc.);
    <bullet> Work with employers to develop and enroll veterans in job 
training programs;
    <bullet> Assessments of tests for professional and occupational 
licensing and certification;
    <bullet> Training of VA Certifying Officials at educational 
institutions and job training establishments;
    <bullet> Briefings during transition assistance programs and 
retirement seminars, mailings to recently discharged veterans and 
Selected Reserve personnel, and other outreach activities to increase 
the utilization of the GI Bills;
    <bullet> Providing advice and guidance directly to veterans and 
other GI Bill eligible persons and indirectly through educators, 
trainers and others who counsel veterans;
    <bullet> Serving as the gatekeepers for the ``GI Bill'' and 
advocates for veterans at the state and local levels;
    <bullet> Assisting the Federal Government to eliminate waste, fraud 
and abuse; and,
    <bullet> Providing local insights to the Congress and the VA on 
revisions to law that would better help to meet the education and 
training needs of veterans.

    Maintaining funding at the current Fiscal Year 2007 level is 
commensurate with the responsibilities of SAAs and the contributions 
they make to the success of the GI Bills. The approach utilized by SAAs 
is based on the philosophy that the GI Bill should be the premier 
educational assistance program in the Nation, bar none. We firmly 
believe that our Nation's veterans deserve no less.
    Section 1 also retains the funding of SAAs in the Readjustment 
Benefits account of the Department of Veterans Affairs. The initial 
decision to fund SAAs from this account was made in 1988 (P.L. 100-323) 
because of the instability that had existed in the funding of these 
agencies since their origin in 1946. SAAs/States need funding stability 
in order to plan for and execute activities that meet the requirements 
of law and the contract between the State and the VA in an effective 
and efficient manner. Many SAAs are comprised of one full time 
professional staff person--some have only a part time person. Program 
approval and monitoring activities, especially those associated with 
new institutional and job training programs, require expertise and 
timely action. Unstable and/or late funding does little to support 
this.
    Although not directly addressed in S. 1215, we would like to 
request action on this bill as soon as possible to ensure that the 
services currently provided by State Approving Agencies are not 
disrupted on October 1, 2007.
    Section 5 of S. 1215 extends the current rates of payment for 
veterans who are enrolled in an apprenticeship or other on-the-job 
training program. We believe that this provision is a good investment 
in America because it will allow more veterans who cannot or choose not 
to enroll in an institutional program to pursue training for an 
occupation or profession. This not only helps them and their families, 
but also helps our Nation be more competitive in the world economy.
                                s. 1290
    Although containing some language for modernizing Title 38 of the 
U.S. Code that we can accept, we disagree with the major changes being 
offered and the underlying philosophy for making these changes. 
Moreover, the bill undermines the very principles and practices that 
have helped veterans to achieve their career goals and make the GI 
Bills as successful as they have been. The major revisions to Title 38 
that are offered by this bill blatantly disregard the strengths that 
states, through State Approving Agencies, bring to the table and the 
contributions that they have made over the last 60 years. Our specific 
points of disagreement are stated below.
    <bullet>  Section 1(b)(2). Revises Section 3672. Removes the phrase 
``State Approving Agencies'' and changes the word ``shall'' to ``may''. 
These revisions could easily result in the reduction of the successful 
efforts that are currently taking place--the VA will have an option to 
give less attention to the educational assistance programs. We believe 
that our Nation's veterans and other ``GI Bill'' eligible persons 
deserve more! Since SAAs have been actively engaged in outreach 
activities and promoting the development of apprenticeship and on the 
job training programs, the number of active training facilities has 
increased over 100 percent in 10 years from 2,086 (in 1997) to 4,891 
(in 2006).

    <bullet>  Section 1(b)(3). Also revises Section 3672. Changes some 
of the approval criteria for correspondence programs from being too 
restrictive to too liberal--we have offered moderate language that 
would fit the needs of today's veterans and retain safeguards.
    <bullet>  Section 1(c). Revises Section 3673. Gives the Federal 
Government direct control over state responsibilities that are 
constitutionally based, thus losing the important balance between the 
authorities of state governments and the Federal Government. We do not 
necessarily disagree with the apparent intent of the revision and look 
forward to continuing our work with the VA to ``reduce overlap and 
improve efficiency''. What has and continues to work well is a 
cooperative arrangement/partnership as currently defined by Section 
3673. State Approving Agency personnel have the expertise and first 
hand knowledge of the education and training systems in their 
respective states as well as established, professional rapport with 
educational officials and employers. The current language in Section 
3673 and other sections of Chapter 36 is more than sufficient to 
maintain effectiveness and efficiency in the veterans' education 
program.
    <bullet>  Section 1(d). Revises Section 3674. The suggested 
revisions (1) delegate state constitutional responsibilities to the 
Federal Government, (2) create instability in funding State Approving 
Agencies which will have a negative impact on states providing 
effective and efficient assistance with the administration of the GI 
Bills, and (3) fail to recognize the adequacy of current law and the 
expertise and services currently provided by SAAs.
    <bullet>  Section 1(e). Revises Section 3674A. While we agree that 
there is always room for improving the effectiveness and efficiency of 
SAAs, current law provides a tried and proven effective approach to 
accomplishing this task. The partnership that currently exists between 
the VA and SAAs is balanced and works exceptionally well. Revising 
Section 3674A as suggested in S. 1290 would remove the very expertise 
provided by SAA personnel that has helped to make the partnership 
strong and effective.
    <bullet>  Section 1(f). Revises Sections 3675 and 3676. We agree 
with the apparent intent of this section of the bill and believe that 
it is important to keep components of approval criteria up to date, 
especially with new and emerging trends in education and training. To 
this end, we historically have and will continue to make 
recommendations to the Congress for the modernization of approval 
criteria. However, we disagree with the approach that is described in 
this section of the bill. Our disagreement is two-fold. First, with the 
categories that are stated and second, with the assumption of the 
responsibility by the VA to define these categories and their level of 
application in the Federal regulatory process. Sections 3675 and 3676 
of Title 38 have proven over time to be very effective in ensuring that 
veterans get a quality learning experience and that taxpayers are 
protected against waste, fraud and abuse. The components of the 
sections have been periodically reviewed and revised with adequate 
debate at the Congressional level to ensure that state responsibilities 
are not usurped. The suggested replacement categories of approval 
criteria were lifted verbatim from the recent GAO report and are not a 
good substitute for the current law. They are a mix of primary and 
secondary considerations related to planning, implementing and 
evaluating institutional programs of education.
       the post-9/11 veterans educational assistance act of 2007
    We support the provisions of this bill and its underlying principle 
of providing the very best to those who defend the freedoms that we all 
so thoroughly enjoy. As stated earlier in this testimony, we believe 
that the GI Bill should be the premier educational assistance program 
in the Nation, bar none. As a founding member of the Partnership for 
Veterans' Education, we continue to work with various military, 
veterans and higher education organizations for the enactment of a 
Total Force GI Bill. The key components of this initiative are the 
simplification of the administration of the Montgomery GI Bill and 
equity for members of the Selected Reserve--equal program opportunities 
and benefits for equal service rendered. Both components are currently 
embodied in S. 644, a bill that we recommend be considered by the 
Committee.
    In closing, Mr. Chairman, we again thank you for introducing S. 
1215 and look forward to the bill becoming law. Thank you also for this 
opportunity to comment on other bills offered for consideration by the 
Senate Veterans' Affair Committee. Please let us know if we can provide 
further information on any of the statements that we have made in this 
testimony or on other matters related to the educational assistance 
programs for our Nation's veterans.
                 the ``veterans justice assurance act''
    PVA opposes what we understand would essentially be lifetime 
appointments for any newly nominated judge to the Veterans Court as 
outlined in Section 2 of this proposed legislation. Recognizing the 
concern discussed in recent years about multiple judges retiring at the 
same time, we believe 15-year appointments, made on a staggered basis, 
adequately addresses this problem.
    Furthermore, we believe that the periodic introduction of new 
judges of varying backgrounds and perspectives that occurs now through 
term limits is a significant value to the development of veteran's law 
jurisprudence. The difference between a 15-year term and a lifetime 
appointment could conceivably be as much as 35-45 years. This time 
difference cuts multiple ways and could adversely affect the 
relationships among the judges, the bar and veterans in ways that are 
unknown at this time.
    Realizing also that there is a perception that newly appointed 
judges are ineffective for a significant period of time, partly as a 
result of their learning process, and that a lifetime appointment would 
result in the Veterans Court being populated with judges who are 
effective for longer periods of time, and even assuming that there is 
some truth to this perception, there are other ways in which Congress 
could address this issue. For example, Congress might take more care to 
encourage the nomination of judges who have some prior experience in 
Veterans Law. Congress could also ensure that the Court maintain an 
experienced and skilled central legal staff that would be in a position 
to assist newly appointed judges. Congress also may encourage the Court 
to look at creating a more active mentoring process, perhaps using 
retired judges for newly appointed judges--a practice that is used 
successfully in other Courts.
    Ultimately, PVA believes that changing the term of a Veterans Court 
judge from a term of 15 years to a lifetime appointment is a 
significant departure from the current practice with many unknown 
consequences. This is not a direction that should be taken without a 
thorough understanding of what the change is intended to accomplish and 
without trying other less drastic alternatives.
    PVA would also like to suggest a couple of changes to language 
included in the legislation. In Section 4, we would like to see the 
following language added: (d)(5)(B) ``and other recognized bar 
associations.'' We would also like to see a new section ``(E) The 
Veterans Pro Bono Consortium Program.'' These organizations would have 
valuable input and should not be excluded from the current list of 
organizations the chief judge might consult with. In Section 6, we 
would like to see the following language added: ``(9) The number of 
appeals taken to the U.S. Court of Appeals for the Federal Circuit, to 
include the number of appeals taken by the Secretary.''
    PVA also has some concerns about the study proposed in Section 7 of 
the legislation. The study should also include the impact, if any, on 
PVA, (an entity that works with the Court and which currently leases 
space in the same commercial facility in which the Court is located) of 
establishing a dedicated Veterans Courthouse and Justice Center in the 
existing commercial facility. Currently, PVA leases space in the same 
commercial facility in which the Court is located. The study should 
consider whether additional provision should be required to ensure that 
PVA is not disadvantaged in any way vis-a-vis other entities that work 
with the Court and are not currently located in the same commercial 
facility as the Court.
        draft bill, the veterans' justice assurance act of 2007
    VFW also supports draft legislation entitled the Veterans' Justice 
Assurance Act of 2007. The current backlog of claims at the Board of 
Veterans' Appeals continues to grow at alarming rates. VFW applauds the 
provisions of this bill which, if enacted, will provide some relief to 
a burdened veterans' court system. Some of the bill's highlights 
include repealing term limits and allowing judges who have pending 
nominations before the Senate to serve in office while the process 
plays out. These necessary changes, as well as recalling retired judges 
at equal pay to current judges, will all contribute positively to the 
current situation and help to move some veteran's appeals forward.
                           [amvets--nothing]
              the veterans' justice assurance act of 2007
    This draft bill would repeal term limits for judges of the United 
States Court of Appeals for Veterans' Claims, and it would increase the 
salary amount for the chief judge of the Court. The bill would 
establish provisions to recall retired judges of the Court, and it 
would grant the Court discretion to set reasonable practice and 
registration fees. It would require the Court to submit an annual 
report to Congress that summarizes the Court's workload during the 
previous fiscal year. Last, the bill would produce a report on the 
feasibility of establishing a Veterans Courthouse and Justice Center.
    With regard to the repeal of term limits for judges of the Court, 
the DAV does not believe that appointing judges to longer terms is 
desirable. Appointments to extended terms during good behavior are 
generally reserved for judges of Article III courts. Since judges of 
the Court may be removed by the President by reason of misconduct, 38 
U.S.C. Sec. 7253(f), there is no doubt that the Court is part of the 
executive branch. The proposed departure from the present fifteen-year 
term might raise a question about the status of the Court because there 
seems to be no precedent for life tenure within the executive branch. 
The DAV has no objection to the Chief Judge of the Court of Appeals for 
Veterans Claims receiving a higher rate of compensation than the other 
judges of the Court. Regarding the recall of retired judges, the DAV 
notes that the proposed provisions for doing so are somewhat complex 
and may raise issues for judges who have retired far from Washington, 
DC. The Committee might want to consider simpler staffing solutions, 
such as increasing the number of judges authorized for the Court. The 
DAV believes that the proposed annual report to Congress from the Court 
should be more specific and include, along with the number and type of 
dispositions, the number of dispositions based on settlements, joint 
motions for remand, voluntary dismissals, and the number of memorandum 
decisions made by each judge. The DAV supports the establishment of a 
dedicated Veterans Courthouse and Justice Center. During the most 
recent DAV National Convention, our members voted to again adopt a long 
standing resolution calling for such a facility. Our resolution 
envisions an architectural design and location that is reflective of 
the United States' respect and gratitude for veterans of military 
service. Rather than designating the office building where the Court 
currently leases space as the permanent facility, we encourage the 
Committee to authorize the construction of a new Veterans Courthouse 
and Justice Center that features the design and location worthy of its 
status.
          draft legislation, ``the veterans justice assurance 
                             act of 2007''
    As this legislation was not received in time for us to thoroughly 
review, The American Legion defers comment and respectfully requests 
the Committee to allow us to submit for the record at a later date.
    Finally, WWP would like to support S. 1289, The Veterans' Justice 
Assurance Act. This legislation would, among other things, modify the 
current authorities affecting the recall of judges retired from The 
United States Court of Appeals for Veterans Claims. The changes 
included in this legislation would help to ensure that the Court is 
capable of handling its cases in a timely manner, an issue of great 
concern for all wounded warriors who wish to challenge their disability 
compensation rating from the VA.
                               __________
                     United States Court of Appeals
                                       for Veterans Claims,
                                      Washington, DC, May 24, 2007.
Hon. Daniel K. Akaka,
Chairman, Senate Committee on Veterans' Affairs,
412 Russell Senate Office Building,
Washington, DC.
    Dear Mr. Chairman: Thank you for the opportunity to formally 
provide views on S. 1289, the Veterans' Justice Assurance Act of 2007. 
Upon review of the language of the bill and the accompanying floor 
statement, it appears that the two main purposes of S. 1289 are to 
assist the United States Court of Appeals for Veterans Claims in 
addressing its increased caseload and to provide for a seamless 
transition when the terms of the current judges end and new judges are 
confirmed. These are laudable goals; however, the proposed 
modifications raise significant issues that need to be considered. I 
believe a brief overview of the Court and its status in the Federal 
judiciary will help put my comments in perspective.
    There are 15 United States Courts of Appeals, including 13 Article 
III courts and two designated as Article I courts: ours and the Court 
of Appeals for the Armed Forces. Although there is a long history of 
controversy over what is an Article I or an Article III court, as a 
practical matter, the difference between a designated Article I court 
and an Article III court is that all of the Article I courts have a 
narrow, specialized jurisdiction, and the judges all sit for specified 
terms, after which they may continue to serve part-time or retire. 
(With the exception of the Supreme Court, all courts are created by 
Congress. U.S. Const. art. I Sec. 8, cl. 9.)
    The U.S. Court of Appeals for Veterans Claims (Court) has exclusive 
jurisdiction over adverse decisions by the Board of Veterans' Appeals. 
With the exception of two judges appointed for a 13-year term for the 
purpose of staggering the dates on which judges would retire, see 
Public Law No. 106-117 (November 30, 1999), the judges are appointed 
for 15-year terms. At the end of that term, unless retired earlier, 
each judge may: (1) agree to reappointment if offered; (2) accept 
recall-eligible status which permits the judge to be recalled 
involuntarily by the Chief Judge for up to 90 days each year and up to 
180 days if agreeable; or (3) fully retire. In contrast, an Article III 
court generally has both criminal and civil jurisdiction, or at least a 
broader jurisdiction than the currently designated Article I courts, 
and the judges all serve during good behavior or, otherwise stated, for 
life. These judges may retire based upon the rule of 80, or they may 
elect senior status during which they receive pay of the office if they 
undertake 25 percent or more of the workload of an active judge 
(equivalent to the 90-day recall period for judges of our Court). Like 
these senior judges, our current recall-eligible-retired judges receive 
pay of the office.
    Turning to the proposed bill, section 2(a) would provide for 
appointment of judges to the Court to hold office during good behavior, 
as opposed to term appointment. I take no position on whether the Court 
should be designated as an Article I court or not, but only note that 
this change in tenure likely may impact such designation. Additionally, 
this change in tenure may be incompatible with 38 U.S.C. Sec. 7253(f), 
which permits removal by means other than impeachment. Section 2(a) 
also would grandfather the term appointments of the currently sitting 
judges by specifically providing for 15-year terms; however, it fails 
to consider that two of these judges only have 13-year appointments.
    Section 3 would provide for an increase in the Chief Judge's 
salary; however, such change would be wholly inconsistent with the 
other Federal courts, appellate or district, as only the Chief Justice 
of the Supreme Court is provided a differential salary for serving as 
the head of a Federal court. Nevertheless, the Court has matured over 
the past 18 years since its creation and Associate Professor Michael 
Allen of the Stetson University College of Law, when commenting on 
proposed changes to the Court's Rules of Practice and Procedure, 
observed that the U.S. Court of Appeals for Veterans Claims is one of 
the busiest Federal appellate courts, nationwide. Professor Allen 
points out that, in 2006, with 3,729 new cases, the Court's incoming 
caseload was greater than the First (with 1,852 cases), Seventh 
(3,634), Eighth (3,312), Tenth (2,742), District of Columbia (1,281), 
and Federal (1,772) Circuits. With only seven active judges, the 
Court's case-per-judge average is 533, about twice as many cases as the 
263 average per judge for the Article III circuit courts of appeal. 
Accordingly, I am prompted by the proposed section 3 amendment to 
strongly urge the Committee to consider equating our pay to that of all 
of the other Federal appellate judges.
    The amendments described in section 4 appear to be directed at 
helping the Court deal with the increase in its caseload by providing 
judges an incentive to serve longer periods of recall. But, with the 
exception of one section that provides that a judge can no longer be 
involuntarily recalled after he or she has provided 5 years of recall 
service, all of these provisions necessarily are applicable only to 
newly appointed judges. There is only one vacancy expected within the 
next 10 years. Accordingly, absent an imminent increase in number of 
active judges, it will be many years before any of the proposed changes 
in section 4 have any real impact.
    Moreover, although newly appointed judges would be appointed for 
life, they could fully retire or change their status to recall eligible 
upon satisfying the rule of 80. Section 4 would provide that, if the 
judge retired fully, his or her pay would essentially freeze at the pay 
when retired. If the judge takes recall-eligible status, his or her pay 
would be the pay of the office during periods of recall, but when not 
actually recalled, the pay would be what he or she was receiving at the 
time of retirement. Although this provision is intended to encourage a 
judge to retire into recall-eligible status, it actually might have the 
effect of delaying retirements which would then deprive the court of a 
pool of experienced recall-eligible judges ready to address caseload 
spikes. Judges might decline to retire or accept recall status rather 
than take the risk that they would not be recalled or recalled only for 
a portion of a year, after which pay would revert back to the pay at 
the time of retirement. Section 4 also would provide that, once a judge 
has served in the aggregate of at least 5 years in recall status, he or 
she could no longer be recalled. The proposed statutory language, 
however, does not appear to specifically preserve pay of the office.
    Regarding section 4, I note that continued pay of the office for 
recall-eligible judges is consistent with continued pay of the office 
for senior judges of the Article III courts. I believe this parity 
should remain. One change that might be considered, particularly given 
our heavy caseload and the prospect that it will continue, is changing 
the recall-eligible status for future judges to a senior judge status 
similar to that for Article III judges. Under this change, a judge 
could fully retire at pay at time of retirement or elect to enter 
senior status with pay of the office during which he or she performs 25 
percent or more of the work of an active judge. This would encourage 
judges who are ready to take less than a full caseload to stay in the 
system.
    Section 4(d) would require the Chief Judge to establish guidelines 
for recalling a judge. I perceive no need for this requirement as I am 
exercising my authority to recall our available judges at this time 
and, given our caseload, will do so for the foreseeable future. Seeing 
no need, I am concerned that this provision can be perceived as 
interfering with the independence of the Court, particularly given the 
requirement to consult with the litigants before the Court. Although I 
support consideration of a senior-judge status that takes the Chief 
Judge out of the recall business, should recall remain tied to a 
determination of need, I believe it is best to leave that determination 
to the Chief Judge, who must be presumed to fulfill his duties in a 
responsible manner.
    The interest in the Court's increased caseload expressed through 
this proposed legislation is appreciated. However, the proposed bill 
does not consider all potential ways to address this challenge. Thus, 
one question that might be asked is whether, considering the increased 
and increasing caseload, there should be an immediate increase in the 
number of active judges on this Court. Another question that might be 
asked is whether there is a continuing need for serial appellate review 
by our Court and then the U.S. Court of Appeals for the Federal 
Circuit. We now have a settled body of specialized jurisprudence that 
was lacking when this independent judicial appellate review was 
established in 1988. It may be time to consider the structural 
usefulness of continued Federal Circuit review of this Court's 
decisions and opinions.
    The Court supports fully the provisions in the bill increasing 
admission fees and directing certain actions toward the proposed U.S. 
Courthouse and Veterans Justice Center. Your support in these endeavors 
is very much appreciated.
    Again, thank you for the opportunity to comment on this proposed 
bill.
            Sincerely,
                                    William P. Greene, Jr.,
                                                       Chief Judge.

cc: The Honorable Larry E. Craig, Ranking Member.
                               __________
                        Chisholm Chisholm & Kilpatrick LLP,
                                      Providence, RI, May 30, 2007.
Hon. Daniel K. Akaka,
Chairman, Senate Veterans Affairs' Committee,
Room 412 Russell Building,
Washington, DC.
    Dear Chairman Akaka: I am writing to you on behalf of the National 
Organization of Veterans' Advocates (``NOVA'') in response to your 
letter dated May 17, 2007 regarding our views on S. 1289, ``the 
Veterans Justice Assurance Act of 2007.''
    In 2005, when the Court of Appeals for Veterans Claims (``CAVC'') 
case load increased by one third, the Court had to confront this 
challenge with new judges as all but one of the original appointees of 
the Court had recently retired. S. 1289 seeks to address these and 
other concerns by eliminating the 15 year term limits that judges 
presently serve on the CAVC. In addition, this bill, if enacted, will 
eliminate the 180 day time limit a judge could serve in recall status 
and provide a financial incentive for a judge to serve in recall status 
for a period of five years. NOVA supports these provisions to help the 
Court deliver justice to our nation's veterans in a timely manner.
    Regarding the specific provisions of the bill, NOVA offers the 
following thoughts:
    Section 2 of S. 1289 would repeal the 15 year term limits for 
future appointees to the CAVC. This change would eliminate the problem 
the CAVC confronted beginning in 2003 when the judges, who were 
initially appointed to CAVC, all retired within a few years of each 
other. While NOVA has not studied any Constitutional questions this may 
raise, this seems to be a reasonable measure to avoid the loss of all 
the judges every 15 years.
    Section 3 of S. 1289 would increase by $7,000.00 the salary of any 
judge who is serving as Chief Judge. Given the duties and 
responsibilities of the Chief Judge, this seems reasonable to NOVA.
    Section 4 of S. 1289 would eliminate the 180 day cap on the period 
of time that a retired judge could serve in recall status. More 
importantly, this section would provide a fmancial incentive for a 
retired judge to serve in recall status by paying the judge the full 
rate of pay for a sitting justice. Finally, this bill would permit a 
retired judge who served in recall status for a total of five years to 
no longer be subject to recall status and receive the same pay as a 
sitting judge. The intent behind this section is to provide an 
incentive for a retired judge to serve in recall status for a period of 
five years.
    Section 6 of S. 1289 would require the CAVC to annually report key 
data regarding the Court's workload. NOVA supports this and believes 
that Congress should additionally require the CAVC to report the median 
amount of time it takes from when a case is fully briefed until the 
decision is issued.
    Finally, section 7 of S. 1289 addresses the fact that the Court 
needs more space than it presently has to continue to meet the demands 
of its case load. NOVA believes that one option is for the Court to 
take over all the space at its present location, 625 Indiana Avenue, NW 
Washington, DC; and this option should be explored.
    NOVA believes that S. 1289 will assist in the more timely 
resolution of veterans' appeals, therefore, NOVA fully supports this 
bill.
                                        Robert V. Chisholm,
                                                    Past President,
                                              National Organization
                                            of Veterans' Advocates.
                               __________
                         American Academy of Ophthalmology,
                                      Washington, DC, May 21, 2007.
Hon. Daniel K. Akaka,
Chairman, U.S. Senate Committee on Veterans Affairs,
Russell Senate Office Building,
Washington, DC.
    Dear Chairman Akaka: On behalf of the entire American Academy of 
Ophthalmology (the Academy), I am writing in support of S. 1163, the 
Blinded Veterans Paired Organ Act of 2007.
    This important legislation would update eligibility requirement 
benefits provided to veterans with a service-connected disability 
because of blindness. Many veterans with severe vision impairment are 
currently excluded from benefits that could significantly improve the 
quality of their lives.
    As you know, the bill would modify eligibility requirements for two 
separate benefits available to blinded veterans. Currently, both of 
these benefits are restricted to a narrow group of veterans who have 
sustained the most serious degree of vision impairment. Passage of the 
Blinded Veterans Paired Organ Act would extend benefits to all veterans 
who meet the standard definition of legal blindness that the Social 
Security Administration has used for over 40 years to determine 
disability. With so many members of our Armed Forces currently deployed 
overseas and in combat situations, this legislation is vital to help 
ensure that veterans receive the benefits they deserve.
    As the world's largest organization of eye physicians and surgeons 
with more than 27,000 members, over 17,000 of which are in active 
practice in the United States. we thank you for introducing this 
important legislation and for your record of commitment to America's 
veterans and the brave men and women who serve in our Armed Forces.
            Sincerely,
                                    Michael X. Repka, M.D.,
                                      Secretary of Federal Affairs.

  

                                  <all>

</pre></body></html>
